                           CT
                      INSPE OR GE
               AL                        N
             CI




                                         ER
        E
       SP




                                            A L
      TRO




                                              M
                                              RA
       UB




            LE                           OG
                 D
                     ASS                 PR
                           E T R ELIEF




SIGTARP                                            Office of the Special Inspector General
                                                   for the Troubled Asset Relief Program
Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement



                                                                     Initial Report to the Congress
                                                                                  February 6, 2009
CONTENTS


Executive Summary                                     1



Section 1
THE OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR
  THE TROUBLED ASSET RELIEF PROGRAM                   11
  SIGTARP’s Creation and Statutory Authority          13
  SIGTARP’s Mission and Core Values                   13
  SIGTARP’s Organizational Structure                  14
  Building SIGTARP’s Organization                     16
  SIGTARP’s Oversight Activities to Date              18

Section 2
TARP OVERVIEW                                         27
  Legislative Background                              29
  EESA Provisions                                     30
  Implementation of EESA                              35
  TARP Mechanics                                      36

Section 3
TARP IMPLEMENTATION AND ADMINISTRATION                41
  Overview of Implemented Programs                    43
  Capital Purchase Program                            49
  Institution-Specific Assistance                     58
  Term Asset-Backed Securities Loan Facility          81
  TARP Operations and Administration                  84

Section 4
LOOKING FORWARD: SIGTARP STRATEGY AND ONGOING
  RECOMMENDATIONS TO TREASURY                         91
  Audit Division Strategy                             93
  Investigations Division Strategy                    96
  SIGTARP Recommendations for Operation of the TARP   97
ENDNOTES                                                       103

APPENDICES
A. Glossary                                                    109
B. Acronyms                                                    121
C. Reporting Requirements                                      123
D. Warrants                                                    149
E. Key Oversight Reports and Testimonies                       157
F. Public Announcement of Audits                               163
G. Correspondence to Congress                                  165
H. Correspondence with Treasury General Counsel                171
I. Correspondence with Treasury                                175
J. Organizational Chart                                        183
K. Correspondence from the Office of Financial Stability       184



Please visit www.sigtarp.gov for further reference material.
        EXECUTIVE SUMMARY
CHAPTER 1




            QUARTERLY REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   1
2   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                  INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   3




The Troubled Asset Relief Program (“TARP”) represents a massive and unprece-
dented investment of taxpayer money designed to stabilize the financial industry and
promote economic recovery. The long-term success of the program is not assured.
Success — or failure — will depend on whether the Department of the Treasury
(“Treasury”) has spent, and will spend in the future, that massive investment wisely
and efficiently to attain the program’s goals. While it is too early to draw any conclu-
sions on that ultimate issue, this assessment must necessarily begin with an under-
standing of what Treasury has done thus far.

    This Report is organized as follows:

•   Section 1 describes the activities of the Office of the Special Inspector General
    for the Troubled Asset Relief Program (“SIGTARP”) since its inception.
•   Section 2 describes the Emergency Economic Stabilization Act of 2008
    (“EESA”) and the provisions of EESA that control TARP’s operations.
•   Section 3 explains how Treasury has spent TARP money thus far and contains
    an explanation of each TARP program.
•   Section 4 lays out SIGTARP’s audit and investigations strategy over the coming
    months and SIGTARP’s recommendations to TARP managers on issues of
    transparency and oversight.
•   The Report also contains numerous appendices containing, among other things,
    figures and tables detailing all TARP investments through January 23, 2009.

    The goal was to make this Report a ready reference on what TARP is and how it
has been used, at least for the first $350 billion authorized as of January 23, 2009.
In the interests of making this Report as understandable as possible, and thereby
furthering general transparency of the program itself, whenever a term is used for
the first time, the reader is directed to a definition box on that page explaining that
term. In addition, an entire portion of Section 2 is devoted to explaining the financial
terms and concepts necessary to obtain a basic understanding of TARP operations as
of January 23, 2009.


THE OFFICE OF THE SPECIAL INSPECTOR GENERAL
SIGTARP was created by EESA and has the duty, among other things, to conduct,
supervise, and coordinate audits and investigations of the purchase, manage-
ment, and sale of assets under TARP. SIGTARP’s mission is to advance the goal of
economic stability through transparency, coordinated oversight, and robust enforce-
ment, thereby being a voice for, and protecting the interests of, those who fund the
TARP programs — i.e., the American taxpayers. The Special Inspector General,
4   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                         Neil M. Barofsky, was confirmed by the Senate on December 8, 2008, and sworn
                                         into office on December 15, 2008.
                                             In light of how important the success of TARP is to the nation’s economy, the
                                         Special Inspector General recognized that SIGTARP must both build its staff and
                                         infrastructure as rapidly as possible and, critically, provide effective oversight even
                                         during that period when SIGTARP has minimal staff. In the 53 days since the
                                         Special Inspector General has been on the job, SIGTARP has made significant prog-
                                         ress in both areas. With respect to building SIGTARP’s staff and infrastructure:

                                         •    Staff: SIGTARP has hired most of its core management team, with a Chief of
                                              Staff, Chief Counsel, Chief of Audit, Chief of Investigations, Chief Investigative
                                              Counsel, Communications Director, and Legislative Affairs Director already or
                                              soon to be on board.
                                         •    Infrastructure: SIGTARP is far along in developing the infrastructure, both
                                              physical and virtual, that it will use to accomplish its mission going forward.
                                              SIGTARP’s website (www.SIGTARP.gov) is in operation, as is SIGTARP’s
                                              Hotline (877-SIG-2009 or 877-744-2009). Inquiries can be made through both
                                              the website and the Hotline. SIGTARP has also taken a lease for its permanent
                                              office space, located in the same office building as TARP managers, and will
                                              move in by approximately March 1, 2009.

                                             SIGTARP has also had significant accomplishments in providing effective over-
                                         sight of TARP operations. SIGTARP has:

                                         •    established regular lines of communications with TARP managers, meeting
                                              weekly with the head of the Office of Financial Stability (“OFS”), OFS’s Acting
                                              Chief of Compliance, and with Treasury’s General Counsel, to discuss develop-
                                              ments in TARP programs or operations
                                         •    developed relationships with the other TARP oversight bodies — the
                                              Government Accountability Office, the Congressional Oversight Panel, and the
                                              Financial Stability Oversight Board — to facilitate maximum coverage and avoid
                                              duplicative efforts or requests
                                         •    founded a TARP-Inspector General Council, made up of all the inspectors
                                              general with oversight responsibility over aspects of TARP
                                         •    entered into partnerships with other criminal and civil law enforcement agen-
                                              cies, including the Federal Bureau of Investigation, the Securities and Exchange
                                              Commission, and the New York State Attorney General’s Office

                                             During its stand-up phase, SIGTARP has also provided recommendations
                                                                 INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   5




relating to the transparency of TARP operations and on oversight aspects of TARP
contracts and program designs. SIGTARP recommended that all TARP contracts be
posted on the Treasury website, a recommendation that Treasury has now adopted in
full. SIGTARP also recommended that transparency and oversight-related language
be inserted in recent TARP contracts; Treasury included such language in the recent
auto industry, Citigroup, and Bank of America contracts, making them far superior
than earlier contracts from an oversight perspective.


SIGTARP’S REPORTING REQUIREMENTS
EESA mandates that SIGTARP provide in its Report to Congress:

•   a description of the categories of troubled assets purchased or otherwise
    procured by the Secretary of the Treasury under TARP
•   a list of troubled assets purchased, by category and financial institution, as well
    as the Secretary of the Treasury’s justification for purchasing such assets
•   a list of and detailed biographical information about each person or entity hired
    to manage the troubled assets
•   an estimate of the total amount of troubled assets purchased, the price paid, and
    the amount of troubled assets currently on Treasury’s books 
•   an estimate of the total amount of troubled assets sold and the profit/loss
    incurred on each sale or disposition of each such troubled asset 
•   a list of the insurance contracts issued under TARP 
•   a detailed statement of all purchases, obligations, expenditures, and revenues
    associated with any asset-purchase program

    Section 3 of this Report includes a detailed description of programs as well as
the categories of assets purchased through them, and Appendix C includes data
tables relating to the other reporting requirements, including breakdowns by TARP
program, asset category, and financial institution from which the troubled assets
were purchased. It also includes the Treasury Secretary’s public explanations for
purchasing each of the troubled assets.


OPERATIONS OF TARP
Treasury has utilized TARP funds differently than had been anticipated at the time
of the enactment of EESA in October. As initially envisioned, Treasury would have
purchased or insured specific troubled assets, such as mortgages and mortgage-
backed securities. Treasury has not followed this approach so far, concluding that
6   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                         such an asset purchase program would not be “effective enough, quickly enough,”
                                         but rather has made equity investments in the financial institutions themselves,
                                         purchasing preferred stock and warrants of common stock.

                                            Of the $700 billion approved for TARP use by Congress under EESA, Treasury
                                         has established the parameters of how the first $387.4 billion1 would be spent, and
                                         through January 23, 2009, had committed just under $300 billion. It has done so
                                         through several different defined programs established under TARP:

                                         •     the Capital Purchase Program (“CPP”), in which TARP money is invested
                                               in “healthy” banks that apply for TARP funds, and thus far, 3172 banks have
                                               received CPP investments
                                         •     the Systemically Significant Failing Institutions (“SSFI”) program, a direct
                                               investment program that was used to stabilize American International Group,
                                               Inc. (“AIG”)
                                         •     the Targeted Investment Program (“TIP”), an investment program similar to
                                               SSFI used to stabilize Citigroup and Bank of America
                                         •     the Asset Guarantee Program (“AGP”), an insurance-like program used to
                                               protect Citigroup, and soon, Bank of America, from specific pools of toxic assets
                                               on those banks’ books
                                         •     the Automotive Industry Financing Program (“AIFP”), which was used to
                                               attempt to stabilize, generally through loans, General Motors, GMAC, Chrysler,
                                               and Chrysler Financial

                                           Table ES.1 presents the total amounts committed for each of the programs under
                                         TARP, as of January 23, 2009.


                                         TABLE ES.1

                                         COMMITMENTS, BY PROGRAM
                                         Program                                   Amount Committed
                                         CPP                                       $194.2 billion ($1.2 billion additional informally committed)
                                         SSFI (AIG)                                $40 billion
                                         TIP (Citigroup and Bank of America)       $40 billion
                                         AGP (Citigroup and Bank of America)       $5 billion ($7.5 billion additional announced for Bank of America)
                                         AIFP (GM, Chrysler, financing arms)       $20.8 billion

                                         Sources: Numbers affected by rounding. Treasury: Office of Financial Stability, “Troubled Asset Relief Program
                                         Transactions Report,” 1/27/2009, www.treas.gov, accessed 1/31/2009; OFS, response to SIGTARP draft report,
                                         1/30/2009; FDIC, “Explanation of FDIC’s Loss Sharing Exposure,” 1/16/2009, www.fdic.gov, accessed 1/23/2009.
                                                                                       INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009                            7




                                                                                                                        FIGURE ES.1
    Each of these programs, along with the different conditions imposed on the
                                                                                                                        COMMITMENTS, BY RECIPIENT
recipients under those programs, is detailed in Section 3 of the Report. Because                                        $ Billions, $299.96 Billion Total
some financial institutions have benefitted from a number of different TARP
programs, Section 3 and Appendix C also include data broken down by recipient.                                                                                     AIG
                                                                                                                                                                   $40.0
Figure ES.1 provides the distribution of commitments to various TARP participants.
                                                                                                                                                              13%
    In return for these investments, Treasury has now obtained $279.2 billion3                                                Other                                             Bank of
                                                                                                                        Institutions                                            America
of preferred shares from 3194 different financial institutions, paying dividends                                          $114.96        38%                                    $45.0
                                                                                                                                                                      15%
of between 5% (CPP) and 10% (SSFI). Through January 23, 2009, Treasury has
received more than $271 million5 in dividend payments. For a full listing of these
                                                                                                                                                                   17%
shares, see Appendix C: “Reporting Requirements.”                                                                                                8%
                                                                                                                                                         8%                Citigroup
    Treasury has also received warrants of common stock from 230 institutions,6 the                                                Wells Fargo                             $50.0
vast majority of which are currently out of the money. Table ES.2 summarizes the                                                         $25.0             JP Morgan
                                                                                                                                                           Chase
largest positions in warrants held by Treasury. For more information on warrants, see                                                                      $25.0

Sections 2 and 3. See Appendix D for a list of all warrant positions.
                                                                                                                        Note: Numbers affected by rounding. For purposes of this Report,
                                                                                                                        amounts in the Transactions Report are considered committed, and as
                                                                                                                        of 1/23/2009 total $299.96 billion. Bank of America = Bank of
                                                                                                                        America Corporation; Citigroup = Citigroup Inc.; JP Morgan Chase = JP
                                                                                                                        Morgan Chase & Co.; Wells Fargo = Wells Fargo and Company.

                                                                                                                        Source: Treasury: Office of Financial Stability, “Troubled Asset Relief
                                                                                                                        Program Transactions Report,” 1/27/2009, www.treas.gov,
                                                                                                                        accessed 1/27/2009.
TABLE ES.2


LARGEST POSITIONS IN WARRANTS HELD BY TREASURY
                                                                                                                                                                         Amount “In the
                                                                                         Number of      Strike Price as           Stock                                  Money” (Out of
                                        Ticker                                            Warrants        Stated in the      Price as of        In or Out of           the Money) as of
Company                                Symbol      Exchange            Program            Received         Agreements       1/23/2009               Money?                  1/23/2009
AIG                                         AIG         NYSE               SSFI        53,798,766                $2.50             $1.37                  OUT                         (1.13)
Bank of America Corporation                BAC          NYSE       CPP - Public       121,792,790               $30.79             $6.24                  OUT                      (24.55)
Bank of America Corporation                BAC          NYSE                 TIP      150,375,940               $13.30             $6.24                  OUT                         (7.06)
Citigroup Inc.                                C         NYSE       CPP - Public       210,084,034               $17.85             $3.47                  OUT                      (14.38)
Citigroup Inc.                                C         NYSE                 TIP      188,500,000               $10.61             $3.47                  OUT                         (7.14)
Citigroup Inc.                                C         NYSE                AGP       254,476,909               $10.61             $3.47                  OUT                         (7.14)
General Motors Corporation                  GM          NYSE                AIFP         1,733,068               $5.02             $3.49                  OUT                         (1.53)
JPMorgan Chase & Co.                       JPM          NYSE       CPP - Public        88,401,697               $42.42           $24.28                   OUT                      (18.14)
Morgan Stanley                              MS          NYSE       CPP - Public        65,245,759               $22.99           $18.71                   OUT                         (4.28)
The Goldman Sachs Group, Inc.               GS          NYSE       CPP - Public        12,205,045             $122.90            $74.91                   OUT                      (47.99)
Wells Fargo & Company                      WFC          NYSE       CPP - Public       110,261,688               $34.01           $15.87                   OUT                      (18.14)

Sources: Treasury: Office of Financial Stability, response to SIGTARP data call, 1/17/2009; Treasury: Office of Financial Stability, response to SIGTARP data call, 1/27/2009; New
York Stock Exchange, www.nyse.com, accessed 1/23/2009; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation and
United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred Securities;” Treasury, “Securities Purchase Agreement dated as of
January 15, 2009 between Citigroup, Inc. and United States Department of Treasury,” 1/15/2009; Treasury, “Master Agreement among Citigroup, Inc. Certain Affiliates of Citigroup,
Inc. Identified herein, Department of the Treasury, Federal Deposit Insurance Corporation and Federal Reserve Bank of New York dated as of January 15, 2009,” 1/15/2009; Trea-
sury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee;” Treasury, “Securities Purchase Agreement dated as of November 25, 2008 between American International Group,
Inc. and United States Department of Treasury,” 11/15/2008; Treasury, “TARP AIG SSFI Investment, Senior Preferred Stock and Warrant, Summary of Senior Preferred Terms;”
Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of January 16,
2009,” 1/16/2009.
8   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                         SIGTARP’S PROJECTS AND RECOMMENDATIONS
                                         Section 4 of this Report lays out SIGTARP’s focus over the next weeks and months
                                         and contains its current recommendations to TARP managers. Included in that
                                         section are discussions of two important projects that SIGTARP has initiated looking
                                         at all recipients of TARP funds: a survey of what recipient institutions have done
                                         with the TARP money received and how the recipients are complying with applicable
                                         executive compensation requirements. In addition, SIGTARP has recommended as
                                         follows:

                                         •    All TARP agreements should contain oversight-related language that (a)
                                              acknowledges explicitly the jurisdiction and authority of SIGTARP and other
                                              oversight bodies, as relevant, to oversee compliance of the conditions contained
                                              in the agreement in question; (b) for each condition imposed, the participant
                                              should be required to establish internal controls with respect to that condition,
                                              report periodically to OFS-Compliance regarding the implementation of those
                                              controls and its compliance with the condition, and provide a signed certifica-
                                              tion from an appropriate senior official to OFS-Compliance that such report
                                              is accurate; and (c) the participant should be required to use best efforts to
                                              account for the use of TARP funds, to set up internal controls to comply with
                                              such accounting, and to report periodically to OFS-Compliance on the results,
                                              with appropriate certification, in the manner discussed above.
                                         •    Treasury needs, in the near term, to begin developing a more complete strategy
                                              on what to do with the very substantial portfolio that it now manages on behalf
                                              of the American people. In particular, Treasury needs to develop effective valua-
                                              tion methodologies to value the preferred shares and warrants that it holds and
                                              an overall investment strategy to manage the equity portfolio it holds.
                                         •    Fraud vulnerabilities in the Term Asset-backed Securities Loan Facility (“TALF”)
                                              should be addressed before the program is initiated. The TALF program, which
                                              is scheduled for implementation in mid-February, is a Federal Reserve program
                                              whereby the Federal Reserve, backed by $20 billion of TARP funds, will give
                                              non-recourse loans upon the posting of collateral in the form of newly issued
                                              asset-backed securities (“ABS”). SIGTARP has made several specific recommen-
                                              dations with respect to the design and implementation of TALF:
                                                            INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   9




i.   Treasury should consider requiring that some baseline fraud prevention
     standards be adopted.
ii. Treasury should consider, before committing TARP funds, requiring that
     beneficiaries of TALF sign an agreement that includes oversight-enabling
     provisions.
iii. Treasury should give careful consideration before agreeing to the expansion
     of TALF to include mortgage-backed securities (“MBS”) without further
     review.
iv. TALF should not be expanded to existing “legacy” MBS in its current
     format .
v. Finally, Treasury should establish a compliance protocol with the Federal
     Reserve before TALF is put into effect.
10   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
            THE OFFICE OF THE SPECIAL
SECTION 1
               INVESTIGATIONS
            INSPECTOR GENERAL FOR THE
            TROUBLED ASSET RELIEF PROGRAM
12   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                               INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   13




SIGTARP’S CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by Section 121 of the Emergency Economic Stabilization
Act of 2008 (“EESA”). Under EESA, the Special Inspector General has the duty,
                                                                                               EESA: Emergency Economic Stabilization
among other things, to conduct, supervise, and coordinate audits and investigations
                                                                                               Act of 2008 is a law enacted in response
of the purchase, management, and sale of assets under the Troubled Asset Relief
                                                                                               to the global financial crisis. This act
Program (“TARP”). SIGTARP is required to provide a report to Congress, within 60               created TARP and authorized Treasury
days of the confirmation of the Special Inspector General and quarterly thereafter,            to spend up to $700 billion to purchase
describing SIGTARP’s activities and providing certain information about TARP                   troubled assets.
during the reporting period. SIGTARP expressly has the authorities, among others,
listed in Section 6 of the Inspector General Act of 1978, which includes the power
to obtain documents and other information from federal agencies and to sub-
poena reports, documents, and other information from persons or entities outside
government.
    The Special Inspector General, Neil M. Barofsky, was confirmed by the Senate
on December 8, 2008, and sworn into office on December 15, 2008.



SIGTARP’S MISSION AND CORE VALUES
SIGTARP’s mission is to advance economic stability through transparency, coordi-
nated oversight, and robust enforcement, thereby being a voice for, and protecting
the interests of, those who fund TARP programs — i.e., the American taxpayers.
SIGTARP does so by promoting transparency in TARP programs, through effec-
tive oversight of TARP in coordination with other relevant oversight bodies, and by
robust criminal and civil enforcement against those, whether inside or outside of
government, who waste, steal, or abuse TARP funds.

Transparency
Promoting transparency in the management and operation of TARP is one of
SIGTARP’s primary roles. Through EESA, the American taxpayer has been asked
to fund — to the tune of hundreds of billions of dollars — an unprecedented effort
to stabilize the financial system and promote economic recovery; in this context,
the public has a right to know both how the U.S. Department of the Treasury
(“Treasury”) decided to invest that money and what was done with it by the recipi-
ents. Transparency is a powerful tool to ensure accountability and that all those
managing TARP funds will act appropriately, consistent with the law, and in the
best interests of the country.
14   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                         Coordinated Oversight
                                         SIGTARP plays a vital role in promoting the economy and efficiency in the manage-
                                         ment of TARP and views its oversight role both prospectively (by advising TARP
                                         managers on issues relating to internal controls and oversight, for example) and
                                         retrospectively (by assessing the effectiveness of TARP activities over time and
                                         suggesting improvements). SIGTARP’s oversight role also reaches the recipients of
                                         TARP funds: in that context, SIGTARP complements the TARP compliance func-
                                         tion to ensure that recipients are satisfying their obligations under the various TARP
                                         programs. SIGTARP plays a significant coordinating role among the TARP oversight
                                         bodies both to ensure maximum oversight coverage and to avoid redundant and
                                         unduly burdensome requests on Treasury personnel who run the program.

                                         Robust Enforcement
                                         SIGTARP’s third core value is to prevent, detect, and investigate cases of fraud,
                                         waste, and abuse of TARP funds and programs. Through its own audit and investiga-
                                         tive resources and through partnership with other relevant law enforcement agen-
                                         cies, SIGTARP is committed to robust criminal and civil enforcement against those,
                                         whether inside or outside of government, who waste, steal, or abuse TARP funds.



                                         SIGTARP’S ORGANIZATIONAL STRUCTURE
                                         SIGTARP pursues its mission through three divisions: audit, investigations, and
                                         administration/mission support.

                                         Audit Division
                                         The Audit Division, led by the Deputy Special Inspector General for Audit, is tasked
                                         with designing and conducting programmatic audits with respect to Treasury’s opera-
                                         tion of TARP and the recipients’ compliance with their obligations under relevant
                                         law and contract. The division is being designed so as to provide SIGTARP with
                                         maximum flexibility in the size, timing, and scope of audits so that, without sacrific-
                                         ing the rigor of the methodology, audit results, whenever possible, can be generated
                                         rapidly both for general transparency’s sake and so that the resulting data can be
                                         used to improve the operations of the fast-evolving TARP.
                                             A particular focus of the Audit Division is to ensure that appropriate internal
                                         controls are in place and are complied with, both by Treasury in its management of
                                         TARP and by the recipients of TARP funds, including vendors and the entities in
                                         which money is invested. Where controls or compliance are found to be lacking, or
                                         where particular aspects or policies are found ineffective at reaching TARP’s goals,
                                         the Audit Division will assist the Special Inspector General in fashioning recom-
                                         mendations to resolve such issues. The Audit Division will also coordinate with and
                                         support the audits of other agencies to ensure maximum and efficient coverage for
                                         TARP oversight.
                                                                INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   15




Investigations Division
SIGTARP’s investigative arm is led by the Deputy Special Inspector General for
Investigations. Designed to be made up of special agents, investigators, analysts,
and attorney advisors, the Investigations Division supervises and conducts criminal
and civil investigations into those, whether inside or outside of government, who
waste, steal, or abuse TARP funds. The model for the division is to build teams of
experienced financial and corporate fraud investigators that include not only spe-
cial agents, but also forensic analysts and, critically, attorney advisors within the
Investigations Division itself, so that SIGTARP can have a broad array of expertise
and perspective in developing even the most sophisticated investigations.
    While the Investigations Division will, of course, pursue any wrongdoers with
respect to TARP within government, it will also focus on the recipients of TARP
funds — i.e., vendors hired to administer TARP activities and the institutions that
receive TARP investments. Those who make intentional misrepresentations in
the TARP application process or in their financial reporting to Treasury may be in
violation of several criminal statutes, including securities fraud, wire fraud, mail
fraud, and false statements. SIGTARP intends to investigate these potential crimes
vigorously.
    In the interests of maximizing criminal and civil enforcement, the Investigations
Division will coordinate closely with other law enforcement agencies with the goal of
forming law enforcement partnerships, including task force relationships, across the
federal government to leverage SIGTARP’s expertise and unique position.
    The Investigations Division will take the lead in responding to referrals made to
SIGTARP’s Hotline through telephone, e-mail, website, and in-person complaints,
abiding by all applicable whistleblower protections set forth in the Inspector General
Act of 1978, as amended. When a full audit or investigation is not possible or advis-
able, the Investigations Division will work closely with the Audit Division to conduct
inspection and evaluation projects.

Administration and Other Mission Support
The Assistant Special Inspector General for Administration leads SIGTARP’s admin-
istrative functions, including human resources, payroll, budget, information technol-
ogy, procurement, and office support missions. In addition to these typical roles, the
Administration Division manages SIGTARP’s website and several mission-support
positions that will generally be working directly with the Special Inspector General;
the Communications Director assists the Special Inspector General with media
relations and inquiries, and Legislative Affairs Specialists assist with congressional
relations and inquiries.
16   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                          Other Executive Staff
                                          In addition to the divisions and positions listed above, SIGTARP’s mission is sup-
                                          ported by the Chief of Staff, who is the Special Inspector General’s senior advisor
                                          and who coordinates the activities of the other divisions. The Chief Counsel serves
                                          as SIGTARP’s chief legal advisor and the supervisor of legal work conducted within
                                          SIGTARP.
                                              The SIGTARP organizational chart, as of January 23, 2009, is included in
                                          Appendix J.



                                          BUILDING SIGTARP’S ORGANIZATION
                                          In light of the importance of TARP to the nation’s financial stability and economic
                                          recovery, it is imperative that SIGTARP build its organization as rapidly as possible.
                                          From the day that the Special Inspector General was confirmed by the Senate,
                                          SIGTARP has worked to do just that through various complementary strategies,
                                          including hiring experienced senior executives who can play multiple roles in the
                                          organization during the start-up phase, utilizing the resources of other agencies
                                          willing to assist by detailing employees, and obtaining services immediately through
                                          SIGTARP’s power to contract.

                                          Hiring
                                          In the 53 days since the Special Inspector General was sworn in, SIGTARP has
                                          successfully built a core management group capable not only of leading SIGTARP
                                          into the future but also offering substantial oversight expertise, even during the
                                          period when the overall staff is small. Mr. Barofsky’s first hire was Kevin Puvalowski
                                          as SIGTARP Chief of Staff. Mr. Puvalowski, like the Special Inspector General, is
                                          an experienced federal prosecutor with extensive experience in financial investiga-
                                          tions and prosecutions who served in several leadership positions in the United
                                          States Attorney’s Office for the Southern District of New York.
                                              Subsequent hires have also focused on building the core management team.
                                          Christopher Sharpley, a veteran criminal investigator who most recently led the
                                          Office of Investigations and Inspections at the Office of the Inspector General
                                          for the Department of Energy, will serve as SIGTARP’s Deputy Special Inspector
                                          General for Investigations. Mr. Sharpley is assisted in leading that division by
                                          Richard Rosenfeld, previously a senior counsel with the Securities and Exchange
                                          Commission (“SEC”); with extensive experience in leading sophisticated corporate
                                          fraud investigations, Mr. Rosenfeld serves as the Chief Investigative Counsel and
                                          will supervise SIGTARP’s attorney advisors within the Investigations Division.
                                              Barry Holman, a veteran of the Office of the Special Inspector General for Iraq
                                          Reconstruction (“SIGIR”) and the Government Accountability Office (“GAO”),
                                          leads the Audit Division as SIGTARP’s Deputy Special Inspector General for Audit.
                                                                 INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   17




Mr. Holman has already started full-time with SIGTARP as a detailee.
    Other key SIGTARP leaders who have started or have accepted positions with
SIGTARP include Bryan Saddler, a veteran of the Office of Inspector General of
the Department of Housing and Urban Development (“HUD-OIG”), who is coming
on as SIGTARP’s Chief Counsel; Kristine Belisle, the Communications Director,
who advises SIGTARP on press and other media relations; Lori Hayman, Legislative
Affairs Specialist, who will advise SIGTARP on legislative matters; Minh-Tu
Nguyen, who has joined the Investigations Division as the SIGTARP Hotline
Administrator; and Cathy Alix, who will serve as a deputy in the Administration
Division.
    All three divisions — Audit, Investigations, and Administration — have begun
the process of filling out their ranks by relying on experienced personnel from
other agencies who come to SIGTARP temporarily during start-up. Detailees from
SIGIR are now serving in the Audit Division. The Investigations Division is using
detailees from the Internal Revenue Service’s Criminal Investigations Division.
And the Administration Division has been assisted greatly by detailees from the
Treasury Inspector General for Tax Administration (“TIGTA”), which has provided
several detailees to assist with various administration functions, including Kenneth
Casey, SIGTARP’s Acting Assistant Special Inspector General for Administration.
In addition to detailees, the Special Inspector General has benefitted greatly from
ad hoc legal and legislative affairs advice and assistance from TIGTA, SIGIR, and
HUD-OIG.

Contracting
EESA gives SIGTARP the express authority to contract for goods and services,
and SIGTARP has entered into several contracts, both with other governmental
agencies and an outside vendor, that have allowed it to begin operations rapidly.
Whenever it can, without damaging its mission or independence, SIGTARP will use
the established administration services of other agencies rather than duplicate func-
tions with its own personnel. SIGTARP has entered into contracts with Treasury’s
Bureau of Public Debt for certain back-office human resources and personnel ser-
vices and with TIGTA for the detailing of personnel and for technical assistance in
building website and e-mail systems. SIGTARP has also contracted with an outside
vendor, Deloitte Financial Advisory Services LLP, for program management services
in connection with the production of SIGTARP’s periodic reports to Congress.

Building SIGTARP’s Infrastructure
SIGTARP is also moving forward rapidly in developing a physical and technical
infrastructure designed to allow its staff ready access to Treasury officials who are
managing TARP and also to provide access by the public to SIGTARP.
      18     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                  SIGTARP’s New Office
OFS: Office of Financial Stability was            SIGTARP currently occupies several different spaces within the main Treasury
created by EESA to operate TARP.                  building, with the executive offices at Suite 1064. Treasury’s Office of Financial
                                                  Stability (“OFS”), which runs TARP, has recently begun occupying separate space
                                                  in an office building at 1801 L Street, NW, in Washington, D.C. Although the
                                                  Special Inspector General intends to keep an office suite in the main Treasury
                                                  building to facilitate communication with senior Treasury officials, SIGTARP’s
                                                  main offices also will be at 1801 L Street. SIGTARP has agreed to lease one floor
                                                  of that building and anticipates occupying at least a part of that floor by March 1,
                                                  2009.

                                                  Technical Infrastructure — Website and Hotline
                                                  SIGTARP has also made significant progress with respect to its virtual space and its
                                                  ability to communicate with the general public. SIGTARP’s website is now opera-
                                                  tional, accessible at www.SIGTARP.gov. As part of a commitment to transparency
                                                  in its own operations, SIGTARP will post all of its reports, testimony, audits, and
                                                  investigations (once such investigations are made public) on the website as soon as
                                                  possible.
                                                      The website also features prominently SIGTARP’s Hotline, which also can
                                                  be accessed by phone (877-SIG-2009 or 877-744-2009). The SIGTARP Hotline
                                                  is operating to handle referrals from the general public or from whistleblowers
                                                  concerning allegations of fraud, waste, or abuse with respect to TARP programs.
                                                  SIGTARP is, of course, committed to abiding by all applicable whistleblower pro-
                                                  tections set forth in the Inspector General Act of 1978, as amended.
                                                      SIGTARP is also in the process of setting up its own local area network and
                                                  e-mail system, both of which will go live as SIGTARP moves into its permanent
                                                  space at 1801 L Street.



                                                  SIGTARP’S OVERSIGHT ACTIVITIES TO DATE
                                                  In light of TARP’s importance to the nation’s financial stability and economic recov-
                                                  ery, and the pace of investment of its funds, SIGTARP has been working to provide
                                                  meaningful oversight even as it builds from a minimal staff. The Special Inspector
                                                  General and his senior staff have undertaken several significant oversight activities
                                                  to establish appropriate lines of communication with Treasury officials and TARP
                                                  vendors, to coordinate closely with the other entities that have oversight responsi-
                                                  bilities over TARP or aspects thereof, and to provide oversight and fraud-prevention
                                                  advice with respect to the design of TARP agreements and programs.
                                                               INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   19




Establishing Lines of Communication with TARP Managers
and Vendors
SIGTARP immediately asked for and received briefings from Treasury personnel on
each of the various TARP programs. In this regard, Treasury has been cooperative
in making its personnel available. Following those initial briefings, SIGTARP estab-
lished a regular schedule for meeting with TARP managers in addition to consulta-
tion with other senior Treasury officials.

•   The Special Inspector General and Chief of Staff meet weekly with the head
    of OFS and OFS’s Chief Compliance Officer to discuss ongoing issues and
    upcoming developments.
•   Staff members communicate daily with OFS’s Chief Compliance Officer, who
    serves as the TARP management’s day-to-day liaison with SIGTARP.
•   SIGTARP has also met, separately, each week with Treasury’s General Counsel
    to discuss any legal issues relating to TARP.

    Both SIGTARP and Treasury have found these meetings to be useful. On
February 3, 2009, Treasury wrote SIGTARP a letter supporting SIGTARP’s
focus on transparency in TARP and also reporting that Treasury already has begun
to implement several of SIGTARP’s recommendations. This letter is presented in
Appendix K. SIGTARP looks forward to establishing similar regular meetings with
the corresponding officials in the new administration.
    SIGTARP has also begun to establish lines of communication with the critical
outside contractors who are doing work on TARP programs. In particular, SIGTARP
personnel have met with and received briefings from representatives of Bank of
New York Mellon (the TARP securities custodian), PriceWaterhouseCoopers
(TARP’s program management consultant), and several of the law firms engaged to
work on TARP transactions.

Coordination with Other Oversight Bodies
EESA is explicit in imposing on SIGTARP the duty to coordinate audits and
investigations into TARP programs. SIGTARP is one of four oversight bodies that
is expressly created or noted in EESA, and numerous other agencies, both in the
Inspector General (“IG”) community and among criminal and civil law enforcement
agencies, potentially have responsibilities that touch on TARP programs or activi-
ties. SIGTARP takes seriously its mandate to coordinate these overlapping oversight
responsibilities, both to ensure maximum coverage and to avoid duplicative requests
of TARP managers. Significant progress has been made on this front in three
categories: coordination with other EESA-mandated bodies, coordination with the
relevant IG entities, and the development of relationships with law enforcement
and other outside agencies.
20   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                          Coordination with EESA Oversight Entities
                                          Along with SIGTARP, EESA expressly tasked the Financial Stability Oversight
                                          Board (“FSOB”), the Congressional Oversight Panel (“COP”), and GAO with
                                          oversight of TARP activities. SIGTARP has endeavored to establish good working
                                          relationships with each of these bodies:

                                          • SIGTARP has been in contact with FSOB representatives, and the Special
                                            Inspector General attended and briefed the FSOB on January 8, 2009.
                                          • SIGTARP has been in communication with the COP; the Special Inspector
                                            General has personally met with the panel, and SIGTARP and COP have estab-
                                            lished weekly staff meetings.
                                          • SIGTARP has established regular communication with representatives of GAO,
                                            and coordination of audit activities has been excellent. Having been charged
                                            with overseeing this momentous program, both the Special Inspector General
                                            and the Acting Comptroller General have committed to creating a historic
                                            example of coordinated oversight:
                                            » Within days of the Special Inspector General’s swearing in, SIGTARP and
                                                 GAO met to lay out a vision of coordinated efforts.
                                            » Whenever possible, SIGTARP and GAO participate in joint briefings with
                                                 TARP managers to ensure that both entities are fully informed of important
                                                 developments without overtaxing TARP resources.
                                            » SIGTARP and GAO have agreed to negotiate and enter into a letter agree-
                                                 ment to ensure coordination of document requests, and both have agreed to
                                                 seek documents from one another (instead of directly from TARP managers)
                                                 whenever possible to avoid duplicative requests.
                                            » SIGTARP and GAO have agreed to provide notice of all audits before they
                                                 are launched to ensure that audits complement one another and are not
                                                 redundant.

                                          Coordination with Relevant IGs — TARP-IG Council
                                          Due to the scope of the various TARP programs, numerous federal agencies have
                                          some role in TARP activities. As a result, many IG offices potentially have a role
                                          in the program’s oversight. To further facilitate SIGTARP’s coordination role, the
                                          Special Inspector General founded and chairs the TARP Inspector General Council
                                          (“TARP-IGC”), made up of the Comptroller General and those IGs whose oversight
                                          functions are most likely to touch on TARP issues. Current members include:

                                          •   Inspector General of the Department of the Treasury
                                          •   Inspector General of the Federal Reserve Board
                                          •   Inspector General of the Federal Deposit Insurance Corporation
                                          •   Inspector General of the Securities and Exchange Commission
                                                               INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009      21




•   Inspector General of the Federal Housing Finance Agency
•   Inspector General of the Department of Housing and Urban Development
•   Treasury Inspector General for Tax Administration
•   Comptroller General of the United States

   TARP-IGC had its inaugural meeting on January 9, 2009, and plans to meet
approximately monthly to discuss issues of common interest, to exchange ideas with
respect to TARP oversight, and to coordinate joint oversight efforts. TARP-IGC
has already borne fruit: a coordinated evaluation of the Capital Purchase Program
(“CPP”) application process has been initiated based on a design of the Inspector
General of the Federal Deposit Insurance Corporation.                                          CPP: Treasury’s intent for the Capital
                                                                                               Purchase Program is to purchase equity
Coordination with Law Enforcement Agencies                                                     in viable financial institutions of all sizes.
SIGTARP’s coordination role extends not only to audits and oversight but also to               See Section 3: “Capital Purchase
investigations. As a result, and as testament to its commitment to develop a robust            Program.”
organic investigative function, SIGTARP has already been active in forging part-
nerships with criminal and civil law enforcement agencies. These relationships                 President’s Corporate Fraud Task Force:
                                                                                               Created in 2002 to enhance corporate
are designed to benefit both investigations originated by other agencies, when
                                                                                               criminal enforcement activities.
SIGTARP expertise can be brought to bear, and SIGTARP’s own investigations,
which can be improved by tapping into these supplemental resources. Among other
things:

•   The Special Inspector General has joined the President’s Corporate Fraud
    Task Force, which consists of leaders in corporate fraud and financial crimes
    enforcement and is chaired by the Attorney General. On January 5, 2009, the
    Special Inspector General gave a presentation regarding TARP to the Task
    Force.
•   SIGTARP and the Federal Bureau of Investigation (“FBI”) have begun to
    explore ways to work jointly on TARP-related investigations. SIGTARP is
    already working closely with FBI’s Washington Field Office on joint proj-
    ects and has met with representatives of the New York Field Office as well,
    and will be coordinating activities with the FBI through FBI headquarters in
    Washington, D.C.
•   SIGTARP has met with federal prosecution agencies, at Main Justice and at
    several United States Attorney’s Offices, to discuss criminal and civil enforce-
    ment partnerships. Further, SIGTARP has made a formal request of the
    Attorney General to receive a briefing on all Department of Justice (“DOJ”)
    investigations involving entities that received TARP funds. DOJ has responded
    favorably to this request and has expressed its willingness to cooperate fully
    with SIGTARP’s efforts.
      22     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                  • SIGTARP has met with the SEC to discuss partnering on investigations with a
                                                    civil securities fraud component, and has already cooperated with the SEC on a
                                                    civil enforcement matter.
                                                  • SIGTARP and the New York State Attorney General’s Office are coordinating
                                                    efforts with respect to TARP recipients’ compliance with executive compensa-
                                                    tion restrictions.

                                                  SIGTARP’s Oversight Regarding Transparency and Internal
                                                  Controls
                                                  Once again, an important goal of SIGTARP has been to provide effective oversight
                                                  to the fullest extent possible even during the period that SIGTARP is building
                                                  its staff. Two ways that SIGTARP has been able to do that thus far have been (a)
                                                  through identifying areas of concern to TARP managers on issues that relate to
                                                  transparency, vulnerabilities, and internal controls, and (b) the collection of infor-
                                                  mation — both from Treasury and from outside participants of TARP programs —
                                                  to establish a baseline for later audit inquiries. SIGTARP has already made signifi-
                                                  cant progress in these areas.

                                                  SIGTARP’s Recommendation Regarding Posting TARP Agreements
                                                  One of SIGTARP’s primary areas of focus has been ensuring, to the fullest extent
                                                  possible, transparency in TARP operations. Some progress on that front has already
                                                  been made with respect to TARP agreements. In late December, SIGTARP asked
                                                  that all existing TARP agreements as well as those governing new transactions be
                                                  posted on the Treasury Department website as soon as possible. After Treasury
                                                  initially agreed to post many (but not all) of the agreements on its website, on
                                                  January 28, 2009, Secretary Timothy Geithner formally announced that all agree-
                                                  ments would indeed be posted. Treasury announced that it will post all prior CPP
                                                  contracts on a rolling basis.


AIFP: Automotive Industry Financing
                                                  SIGTARP’s Recommendations Regarding TARP Contract Language
Program was created to provide strategic          One area that was particularly appropriate for immediate oversight attention
investments in U.S. automotive compa-             involved language to be included in TARP contracts with the auto industry,
nies to prevent a significant disruption of       Citigroup, and Bank of America, all of which closed shortly after the Special
the U.S. automotive industry or to                Inspector General took office. To that end, on December 18, 2008, SIGTARP
financial markets. See Section 3:                 suggested that Treasury include language in the automobile industry transaction
“Institution-specific Assistance.”                term sheet acknowledging SIGTARP’s oversight role and expressly giving SIGTARP
                                                  access to relevant documents and personnel. Language to that effect was included
                                                  in the term sheet.
                                                      In that same vein, on December 23, 2008, SIGTARP again suggested, in
                                                  writing, that TARP managers include, among other things, language in upcoming
                                                  transactions as follows:
                                                                INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   23




•   For each condition imposed on the recipient of TARP funds in a relevant
    agreement, the recipient should be required to (1) establish internal controls
    with respect to that condition, (2) report to OFS-Compliance regarding the
    implementation of those controls and its compliance with the condition, and
    (3) provide a signed certification from an appropriate senior official to OFS-
    Compliance that such report is accurate.
•   The recipient should be required to use best efforts to account for its use of
    TARP funds, to set up internal controls to comply with such accounting, and to
    report to OSF-Compliance on the results, with appropriate certification, in the
    manner discussed above.

   As a result, Treasury included language along these lines in its agreements
with GMAC, General Motors, Chrysler, and Citigroup. The most comprehensive
language in that regard (which was later also incorporated into the Bank of America
agreement) requires Citigroup to adhere to these standards:

•   Provide access to SIGTARP and to the Comptroller General to the institutions’
    personnel and records.
•   Establish appropriate internal controls to ensure that the conditions in the
    agreement are being met, including conditions concerning corporate expenses,
    executive compensation, dividends, and stock repurchases; report on a quar-
    terly basis as to compliance with each of the above-listed conditions; and
    require a senior executive to certify on a regular basis and under criminal pen-
    alty that the reports are accurate.
•   Use best efforts to track the money invested by TARP as part of the agree-
    ment; to establish internal controls with respect to the monitoring of its use of
    the money; and to report on a quarterly basis, again with a signed certification
    under criminal penalty, as to how the TARP investment is being used.

    Treasury imposed similar requirements with respect to the executive compen-
sation and expense policy restrictions contained in the agreements with GMAC,
General Motors, Chrysler, and Chrysler Financial. The oversight provisions of these
agreements represent a significant improvement over past TARP agreements and
will better enable SIGTARP, OFS-Compliance, and the other oversight bodies to
fulfill their mission.
    SIGTARP has also requested that TARP managers require similar reporting by
American International Group, Inc. (“AIG”) through a catch-all provision contained
in the AIG agreement (which was finalized before SIGTARP existed). Treasury has
indicated that it plans to do so.
      24    SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 SIGTARP’s Data Collection Initiatives
                                                 SIGTARP has undertaken several significant data collection projects — both within
                                                 Treasury and with TARP program participants — with the view of filling in gaps in
                                                 transparency and as a way to establish baseline data for subsequent audit projects.

                                                 SIGTARP’s Letter to the Secretary Regarding Executive Compensation
                                                 Based in part on an inquiry by Senator E. Benjamin Nelson, on January 9, 2009,
                                                 SIGTARP asked the Secretary, in anticipation of a formal audit, to describe:

                                                 • how Treasury determined compensation restrictions on firms receiving assis-
                                                   tance under the various TARP programs
                                                 • how Treasury plans to monitor and enforce those restrictions to ensure
                                                   compliance
                                                 • the resources that Treasury currently has in place to ensure compliance and
                                                   those that it anticipates devoting to that effort in the future

                                                     Treasury responded to this inquiry by letter dated January 16, 2009. For cop-
                                                 ies of SIGTARP’s letter to the Secretary and Treasury’s response, see Appendix I:
                                                 “Correspondence with Treasury.” SIGTARP views its request and the answers it
                                                 received as part of its broader review of the executive compensation restrictions
                                                 issue. As discussed more fully in Section 4 of this Report, executive compensation is
                                                 one of the main focuses of the Audit Division, and preliminary steps with respect to
                                                 an audit project on this subject are underway.

                                                 SIGTARP’s Letter to Treasury Concerning TALF
TALF: Term Asset-backed Securities               As discussed more fully in Sections 3 and 4, Treasury has announced TARP’s par-
Loan Facility is a Federal Reserve loan          ticipation in a Federal Reserve program entitled the Term Asset-backed Securities
program intended to increase the avail-          Loan Facility (“TALF”). As part of that program, TARP funds will be invested in a
ability of loans to consumers and small          Federal Reserve special purpose vehicle, and thus, the relationship between TARP
businesses. TARP funds will be indirectly        funds and participants in the program is an indirect one. In a letter dated January
invested in this program through a special
                                                 12, 2009, SIGTARP asked Treasury for an explanation as to how the design of the
purpose vehicle. See Section 3: “Term
                                                 TALF program will meet the legal requirements of EESA, including the imposi-
Asset-backed Securities Loan Facility.”
                                                 tion of conditions on institutions that sell troubled assets to Treasury under TARP.
                                                 In particular, the letter asked for Treasury’s view as to how the design of TALF
                                                 will meet the executive compensation and corporate governance standards, as set
                                                 forth in Section 111 of EESA. Treasury responded to this request in a letter dated
                                                 January 16, 2009. For copies of SIGTARP’s letter to the Secretary and Treasury’s
                                                 response, see Appendix I. SIGTARP views this request in the context of furthering
                                                 general transparency in TALF operations.
                                                                  INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   25




SIGTARP’s Use of Funds Project
With the exception of Citigroup and Bank of America transactions, TARP agree-
ments generally do not require recipients to report or to track internally the use of
TARP funds. From an oversight perspective, this poses two significant issues. First,
it does not provide transparency. If the American taxpayer is to be expected to fund
this extraordinary effort to stabilize the financial system, it is not unreasonable that
the public and its representatives in Congress have some understanding as to how
those funds have been used by the recipients. The current lack of transparency
directly implicates SIGTARP’s oversight mission because it has the potential to
erode the trust of the public in the effectiveness and integrity of TARP, potentially
putting at risk the legitimacy of the program. It also hinders the ability to over-
see certain recipients’ compliance with some conditions of their agreements with
Treasury.
    Further, the current lack of transparency with respect to what recipients are
doing with the money could hamper the ability of SIGTARP — as well as the other
oversight bodies and of Congress — to assess the effectiveness of various TARP
initiatives over time. Even a basic examination of whether various TARP programs
are successfully furthering the goals of EESA is made difficult if we do not know
what was done with the money in the first instance. For these reasons, and as part
of the initial data collection for a formal audit, SIGTARP is preparing requests to
each entity that has received TARP funds, asking them to provide, within 30 days of
the request:

•   a narrative response outlining their use or expected use of TARP funds
•   copies of pertinent supporting documentation (financial or otherwise) to
    support such response
•   a description of their plans for complying with applicable executive
    compensation restrictions
•   a certification by a duly authorized senior executive officer of each company as
    to the accuracy of all statements, representations, and supporting information
    provided

   As of the date of the drafting of this Report, SIGTARP is in the process of
seeking approval from the Office of Management and Budget for the requests and
anticipates that they will be sent to TARP recipients soon.
26   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
S ECT
   CH             TARP OVERVIEW
      I OANP2T E R 3
28   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   29




This section introduces the fundamentals of the Troubled Asset Relief Program
(“TARP”). It includes discussion of the genesis and provisions of the Emergency
Economic Stabilization Act of 2008 (“EESA”), which authorized TARP, and a
                                                                                               Recapitalize: When a company obtains
subsection describing some of the basic financial and economic principles important
                                                                                               additional capital or restructures the
to understanding the TARP programs that have been implemented. Those specific
                                                                                               makeup of its equity (share ownership)
programs will be discussed in more detail in Section 3.                                        and debt (loans) to improve its financial
                                                                                               viability.

LEGISLATIVE BACKGROUND                                                                         Insolvency: Situation where a firm is
By September 2008, U.S. financial markets were in crisis. Major investment banks               unable to pay its debts or where its
were desperately seeking to recapitalize or to merge with healthier institutions, and          liabilities exceed its assets.
others were on the verge of insolvency. Persistent rumors swirled about the health of
                                                                                               Frozen Credit Markets: When widespread
many of America’s largest financial institutions.
                                                                                               disruptions result in lenders being unwill-
   The Treasury Secretary met with the Chairmen of the Federal Reserve and
                                                                                               ing to lend money and creditworthy con-
the Securities and Exchange Commission (“SEC”) in mid-September to develop                     sumers and firms cannot get access to
the foundations of a relief program.7 They discussed potential responses to the                loans to make purchases or investments.
deepening financial crisis, resulting in a three-page proposal, which the Treasury
Secretary submitted to the U.S. House of Representatives on September 20, 2008.8               Security: A financial instrument that can
   In his testimony to Congress on September 23, the Treasury Secretary described              be bought, sold, or traded. Examples
the situation as particularly vulnerable and urged prompt action to “avoid a                   include stocks (which represent share
continuing series of financial institution failures and frozen credit markets that             ownership), bonds (representing debt),
                                                                                               or derivatives (representing contracts to
threaten American families’ financial well-being, the viability of businesses both
                                                                                               purchase stocks or bonds at a specified
small and large, and the very health of our economy.”9
                                                                                               price).

Genesis and Passage of EESA                                                                    Mortgage-backed Securities: A
The Treasury Secretary’s “Legislative Proposal for Treasury Authority To Purchase              set of similar mortgages bundled
Mortgage-Related Assets” sought authority for Treasury to purchase mortgage-                   together by a financial institution and sold
related assets — which could include mortgage-backed securities — to promote                   as one security.
stability, restore liquidity to the secondary mortgage markets, and prevent additional
disruption to the financial markets and banking system.10 In this initial proposal, the        Liquidity: The ability to convert an asset
                                                                                               to cash quickly. Characterized by a high
Treasury Secretary requested authority to spend $700 billion and to increase the
                                                                                               level of trading activity.
limit of the national debt to $11.315 trillion to accommodate that request.11 Another
of the proposal’s key requests included special authority for the Treasury Secretary’s
                                                                                               Secondary Mortgage Market: Market for
actions to be “non-reviewable.”12                                                              the sale of securities that have mortgag-
    This initial proposal was not accepted by Congress, but it prompted a series of            es as the underlying collateral.
counterproposals over the next two weeks, culminating in the passage of H.R. 1424,
Division A — the Emergency Economic Stabilization Act of 2008 — on October 3,
2008.13 Figure 2.1 shows a timeline of the legislative process leading to the passage
of EESA and the creation of TARP.
            30        SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




FIGURE 2.1

LEGISLATIVE PROCESS LEADING
TO THE PASSAGE OF EESA
                                                                       EESA PROVISIONS
                                                                       On October 3, 2008, EESA was signed by the President and became Public Law
                                                                       110-343. That same day, the Treasury Secretary stated that the “broad authorities in
SEPTEMBER 2008                     OCTOBER 2008                        this legislation, when combined with existing regulatory authorities and resources,
                                                                       gives us the ability to protect and recapitalize our financial system as we work
                                                                       through the stresses in our credit markets.”14 The law comprises three divisions:
September 20:                      October 1:
Secretary Paulson                  Senate approves amendment
releases three-page                5685 to H.R. 1424, a new            •   Title I, on TARP, includes 36 sections (101-136) that define the authorities,
“Legislative Proposal for          version of the bill that included
Treasury Authority To              final TARP language.
                                                                           rules, and responsibilities for each of the parties involved in administering or
Purchase Mortgage-                                                         overseeing the program
Related Assets.”                   October 3:
                                   The House votes to concur           •   Titles II and III, which address specific budget and tax-related considerations 
September 22:                      with Senate amendments to
Senator Dodd puts                  H.R. 1424; EESA signed into
forward a more detailed            law by President Bush as            EESA Goals
draft bill.                        P.L. 110-343.
                                                                       The provisions contained in EESA were designed to allow Treasury to undertake a
September 29:                                                          number of efforts “to restore market confidence by strengthening the balance sheets
House votes down
110-page H.R. 3997,                                                    of financial intermediaries and improving overall market functioning.”15 More specifi-
which expanded                                                         cally, the legislation calls for these objectives to be met by:16
Secretary Paulson’s
proposal incorporating
language from Senator
Dodd’s draft.
                                                                       •   immediately providing authority and facilities that the Treasury Secretary can
                                                                           use to restore liquidity and stability to the financial system of the United States
Sources: U.S. Department of the Treasury, “Legislative Proposal for
Treasury Authority To Purchase Mortgage-Related Assets,”               •   ensuring that such authority and such facilities are used in a manner that
9/20/2008; Office of Senator Christopher Dodd, “A BILL To
provide authority for the Federal Government to purchase certain           (a) protects home values, college funds, retirement accounts, and life savings;
types of troubled assets for the purposes of providing stability or
preventing disruption to the financial markets and banking system          (b) preserves homeownership and promotes jobs and economic growth; (c) maxi-
and protecting taxpayers, and for other purposes,” 9/22/2008;
Library of Congress, THOMAS, www.thomas.loc.gov, accessed                  mizes overall returns to the taxpayers of the United States; and (d) provides
1/30/2009.
                                                                           public accountability for the exercise of such authority

                                                                       Office of Financial Stability
  Balance Sheet: A snapshot of a                                       Section 101 of EESA establishes an Office of Financial Stability (“OFS”) within
  company’s financial position related to                              Treasury. Headed by the Assistant Secretary for Financial Stability, OFS administers
  its assets and the claims against those                              TARP. Section 101 also requires Treasury to consult with the Board of Governors of
  assets.                                                              the Federal Reserve System, the Federal Deposit Insurance Corporation (“FDIC”),
                                                                       the Comptroller of the Currency, the Director of the Office of Thrift Supervision,
  Facilities: In the context of EESA, refers
                                                                       the Chairman of the National Credit Union Administration Board, and the Secretary
  to the various mechanisms and programs
                                                                       of the Department of Housing and Urban Development.
  that Treasury might use to implement
  TARP.                                                                    The current interim Assistant Secretary for Financial Stability was appointed by
                                                                       the Treasury Secretary on October 6, 2008, and is scheduled to remain in office for
                                                                       up to two months after the January 20, 2009, change in administration.17 OFS is
                                                                       authorized to hire other staff, consultants, and legal services, as necessary, for the
                                                                       proper administration of TARP.18
                                                               INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   31




  For more information on OFS, see Section 3: “TARP Implementation and
Administration.”

Purchases of Troubled Assets
EESA authorizes the Treasury Secretary to undertake a number of specific measures
under TARP to address the objectives of the statute. Section 101 specifically autho-
rizes the Treasury Secretary to “purchase, and to make and fund commitments to
purchase, troubled assets from any financial institution, on such terms and condi-
tions as are determined by the Secretary, and in accordance with this Act and the
policies and procedures developed and published by the Secretary.”19 EESA defines
both “financial institutions” and “troubled assets” broadly:

•   Financial Institutions. Under Section 3(5), the term “financial institution” is
    used to mean “any institution, including, but not limited to, any bank, savings
    association, credit union, security broker or dealer, or insurance company, estab-
    lished and regulated under the laws of the United States” or any of the U.S.
    Territories.20 According to EESA, the term also applies to any foreign-owned
    institutions operating in the United States that are not central banks or owned
    by the government of a foreign country.
•   Troubled Asset. Under Section 3(9), the term “troubled asset” means: (1)
    “residential or commercial mortgages and any securities, obligations, or other
    instruments that are based on or related to such mortgages, that in each case
    was originated or issued on or before March 14, 2008, the purchase of which
    the Secretary determines promotes financial market stability” and (2) “any other
    financial instrument that the Secretary, after consultation with the Chairman of
    the Board of Governors of the Federal Reserve System, determines the purchase
    of which is necessary to promote financial market stability, but only upon
    transmittal of such determination in writing, to the appropriate committees of
    Congress.”21

    EESA gives the Treasury Secretary considerable discretion in determining both
the type of financial instrument purchased as well as the institution from which it
will be purchased. The Treasury Secretary must, however, provide regular and timely
reporting to Congress on his decisions and the impacts of those decisions.
      32     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 Insurance of Troubled Assets
                                                 Once the Treasury Secretary begins an asset purchase program, Section 102 of
Risk-based Premium: A premium is                 EESA requires that a program also be established to guarantee troubled assets.
the price of insurance protection for a          Financial institutions that wish to insure their assets must pay a premium for
specified risk for a specified period of         coverage, and the Treasury Secretary is required to set these risk-based premiums
time. A risk-based premium is where the          at levels high enough to cover any anticipated claims. Paragraph (d) of Section 102
price paid escalates in line with the            established the Troubled Assets Insurance Financing Fund (“TAIFF”), an account
probability of default and loss upon             that holds premiums collected from the financial institutions participating in the
default.
                                                 insurance program. The premiums paid on these insurance contracts are to be
                                                 invested in Treasury securities, kept as cash on hand, or deposited to provide the
                                                 pool of assets needed for paying out claims on those contracts.

                                                 Executive Compensation Limitations
                                                 Section 111 of EESA requires any financial institution that sells troubled assets
Clawback: Recovery by the company of             to Treasury under TARP to abide by certain executive compensation rules. As a
bonuses or incentive compensation paid           minimum, EESA requires participating institutions to observe standards limiting
to a senior executive.                           risk-generating incentives for certain senior executives, allows clawback for any
                                                 incentive compensation paid to certain senior executive officers based on reporting
Golden Parachute: Compensation to
                                                 later proved to be materially inaccurate, and prohibits golden parachutes to certain
(or for the benefit of) a Senior Executive
                                                 senior executives when Treasury purchases troubled assets directly.22 (As of January
Officer made upon severance from
employment that exceeds specified                23, 2009, all TARP assets have been direct purchases.) Section 302 also limits the
thresholds. Under EESA, such compensa-           tax deductibility of executive compensation to $500,000 for certain senior execu-
tion is limited to three times the               tive officers of participating financial institutions.23 The rules are slightly different
executive’s annual base salary.                  when Treasury buys assets at an auction. In these cases, Section 111 also prohibits
                                                 issuance (unless otherwise directed by Treasury) of new golden parachute contracts
                                                 for certain senior executives of any institution that sells more than $300 million in
                                                 total assets, including direct purchases. Treasury has issued additional guidance on
                                                 the executive compensation requirements of its specific asset purchase programs,
                                                 covered in depth in the sections that follow in this Report.

                                                 Warrants
                                                 Section 113 of EESA generally requires that when purchasing troubled assets of
                                                 greater than $100 million, Treasury must receive from the financial institution
                                                 warrants for additional equity in the participating institution.25
                                                                INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   33




Funding Schedule
Section 115 of EESA authorizes Treasury to purchase up to $700 billion of troubled
assets, although the funding is made available in graduated increments. The first $250
billion was made available on the signing of EESA, followed by an additional $100
billion upon the provision of a certificate of need by the President to Congress. The
remaining $350 billion has also recently been made available for use.24

Other Important Provisions
EESA contains provisions designed to provide assistance to homeowners and deposi-
tors. These sections, summarized below, include strengthening of a homeownership
program and several foreclosure mitigation efforts:
                                                                                                Hope for Homeowners: A program under
•   Section 109 of EESA requires the Treasury Secretary, “to the extent that the                the Department of Housing and Urban
    Secretary acquires mortgages, mortgage-backed securities, and other assets                  Development (“HUD”), designed to help
    secured by residential real estate,” to implement a plan to maximize assistance             mortgage borrowers at risk of default
    to homeowners and to use his authority to encourage servicers of mortgages to               and foreclosure to refinance into more
    modify loans through Hope for Homeowners (“H4H”) and other programs. The                    affordable, sustainable loans, which are in
    section allows the Treasury Secretary to use loan guarantees and other forms                turn guaranteed by HUD.
    of credit enhancement to prevent avoidable foreclosures and also requires the
                                                                                                Credit Enhancement: A range of
    Treasury Secretary to coordinate with other federal entities that hold troubled
                                                                                                provisions that can be used to reduce
    assets. The Treasury Secretary is required, where appropriate, to consent to
                                                                                                the risk of a loan or obligation, such as
    reasonable loan modification requests, taking into account net present value to             credit insurance, posting collateral, or
    taxpayers, for any investment contracts under TARP.                                         loan guarantees from a third party, among
•   Section 110 requires all federal entities that hold mortgages or mortgage-backed            others.
    securities to implement plans to maximize assistance for homeowners. The
    section requires these entities to encourage mortgage servicers to take advantage           Net Present Value: The present value
    of federal programs such as H4H.                                                            of the estimated future cash inflows
•   Section 124 of EESA expands the scope of the H4H program.                                   minus the present value of the cash
                                                                                                outflows. Typically used to determine if an
                                                                                                investment is worth making.
Reporting Requirements
As the primary agents for implementing TARP, the Treasury Secretary and OFS are
responsible to report regularly and transparently on the progress of their TARP initia-
tives and the decision-making processes they employ, including:

•   a report specifically on the asset insurance program
•   a set of regular reports on (a) TARP in general, (b) “Tranche” reports for every
    $50 billion of assets purchased, and (c) a Regulatory Modernization Report
    (Appendix C: “Reporting Requirements” contains a short overview of these
    reporting requirements.)

    For a listing of the reporting requirements of other federal agencies, see Appendix
E: “Key Oversight Reports and Testimonies.”
      34      SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                   TARP Oversight
                                                   EESA specifically tasks four agencies with primary oversight of TARP: the Special
                                                   Inspector General for the Troubled Asset Relief Program (“SIGTARP”), the
                                                   Government Accountability Office (“GAO”), the Financial Stability Oversight Board
                                                   (“FSOB”), and the Congressional Oversight Panel (“COP”). Additional federal agen-
                                                   cies are designated certain responsibilities as well. Table 2.1 describes sections of
                                                   EESA as it pertains to the oversight roles of federal agencies. Appendix E contains a
                                                   listing of the reports of other agencies issued as of January 23, 2009.

                                                   Creation of SIGTARP
                                                   Section 121 of EESA established the Office of the Special Inspector General for
                                                   the Troubled Asset Relief Program, as well as the position of the Special Inspector


TABLE 2.1


OVERSIGHT ROLES AS ESTABLISHED IN EESA

Agency                              EESA Section   Oversight Responsibility
Chairman of the Board of            Section 3      Consults with the Secretary regarding determinations on what financial instruments may be termed
Governors of the Federal                           “troubled assets” for inclusion in Section 101.
Reserve System (Established
Agency)
Financial Stability Oversight       Section 104    Broad responsibility for oversight and reporting of the authorities exercised under TARP and their effect
Board (New Oversight Board)                        on preserving homeownership, stabilizing financial markets, and protecting taxpayers.
Congress                            Section 115    Authorized to vote down, by a special vote, the President’s request for the third tranche ($350 billion) of
                                                   TARP funds if it does so within 15 days of the President’s request.
GAO (Comptroller General of the     Section 116    Conducts ongoing oversight of the activities and performance of TARP and conducts an audit of
United States)                                     Treasury’s annual financial statement as well as other specific reporting requirements.
                                    Section 117    Conducts a special study and reports to Congress on the role of leverage in contributing to the financial
                                                   crisis. 
Special Inspector General for the   Section 121    Conducts, supervises, and coordinates audits and investigations of the actions undertaken by the
Troubled Asset Relief Program                      Secretary under EESA; regularly reports to Congress on findings. 
Congressional Oversight Panel       Section 125    Reviews, conducts hearings, and reports on the current state of the financial markets, the regulatory
                                                   system, and the use of authority under TARP. The panel comprises five experts appointed by
                                                   congressional leadership.
Office of Management and            Section 134    After five years, the Director of the Office of Management and Budget (“OMB”), in consultation with the
Budget and the Congressional                       Director of the Congressional Budget Office (“CBO”), is to produce a report on the value of assets held
Budget Office                                      under TARP. This will influence a proposal by the President to recoup from the financial industry any
                                                   shortfall associated with TARP. 
                                    Section 202    The offices are to conduct tandem reporting on cost estimates and the impact on the budget and deficit
                                                   of the authorities that the Secretary has exercised under EESA.
President of the United States      Section 203    Provides in his annual budget submission to Congress an analysis of the costs incurred and the impact
                                                   on the budget and deficit of actions carried out under EESA.
                                                                   INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   35




General. The Special Inspector General is a presidential appointee, confirmed by the
Senate, selected “on the basis of integrity and demonstrated ability in accounting,
auditing, financial analysis, law, management analysis, public administration, or
investigations.”26
    SIGTARP has the duty to conduct, supervise, and coordinate audits and inves-
tigations of the purchase, management, and sale of troubled assets by the Secretary
of the Treasury. Under Section 121(f)(1) of EESA, SIGTARP must submit reports
to Congress: the first is due 60 days after the Special Inspector General’s confirma-
tion date; then reporting continues every calendar quarter thereafter. The Special
Inspector General was confirmed on December 8, 2008, making this first report due
by February 6, 2009.
    EESA mandates that SIGTARP provide in its report to Congress:27

•   a description of the categories of troubled assets purchased or otherwise
    procured by the Secretary of the Treasury under TARP
•   a list of troubled assets purchased, by category and financial institution, as well
    as the Secretary of the Treasury’s justification for purchasing such assets
•   a list of and detailed biographical information about each person or entity hired
    to manage the troubled assets
•   an estimate of the total amount of troubled assets purchased, the price paid, and
    the amount of troubled assets currently on Treasury’s books 
•   an estimate of the total amount of troubled assets sold and the profit/loss
    incurred on each sale or disposition of each such troubled asset 
•   a list of the insurance contracts issued under TARP 
•   a detailed statement of all purchases, obligations, expenditures, and revenues
    associated with any asset-purchase program

    Appendix C: “Reporting Requirements” provides data tables relating to these
reporting requirements, including a breakdown by TARP program, asset category,
and financial institution from which the troubled assets were purchased. It also
includes the Treasury Secretary’s justification for purchasing each of the troubled
assets, as well as an itemization of any profit or loss incurred on the sale or disposi-
tion of each troubled asset.


IMPLEMENTATION OF EESA
As noted earlier, EESA authorized Treasury to purchase up to $700 billion in
troubled assets based on graduated authorizations to make such purchases.28 As of
36   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                         the publication of this Report, the entire $700 billion had been made available for
                                         program implementation:29

                                         •    First Authorization: $250 billion. When EESA became law on October 3,
                                              2008, Treasury received authority to purchase $250 billion in troubled assets.30
                                         •    Second Authorization: $100 billion. Under a subsequent presidential certi-
                                              fication of need, the Treasury Secretary was authorized to make an additional
                                              $100 billion in purchases.31
                                         •    Third Authorization: $350 billion. On January 12, 2009, President George W.
                                              Bush submitted to Congress his notification of intent to exercise his authority
                                              under the act to purchase an additional $350 billion in troubled assets.32 His
                                              administration indicated that it had “no intention of allocating additional funds
                                              from the remaining $350 billion” and exercised the authority under EESA
                                              to “ensure that such funds are available early” for the new administration.33
                                              Congress had the option of disapproving the remaining $350 billion in purchase
                                              authority within 15 days; however, the Senate voted 52 – 42 against a measure
                                              that would have blocked release of the funds.34


                                         TARP MECHANICS
                                         The purpose of this section is to provide a detailed description of the fundamental
                                         mechanics of Treasury’s investments of taxpayer dollars for those who are not familiar
                                         with many of the terms commonly used in descriptions of TARP. Readers who do not
                                         require these explanations can skip to Section 3.
                                            Treasury has extended financial support mechanisms in which:

                                         •    Treasury has purchased equity as a means of infusing capital into the financial
                                              system. It is the purchase of ownership in a company through preferred stock
                                              and warrants in exchange for cash.
                                         •    Treasury has loaned money through the Automotive Industry Financing
                                              Program (“AIFP”) in exchange for interest payments.
                                         •    Treasury has instituted an insurance-type program that collects premium fees
                                              in exchange for guaranteeing assets. If the asset value drops, the government
                                              covers a portion of the loss to reduce damage incurred by the company.

                                            Below is a brief description of the fundamental mechanics of how each of the
                                         investing mechanisms works for TARP.
                                                              INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   37




EQUITY INVESTMENTS
When an individual or entity purchases equity in an company, it becomes a
shareholder of that company. When a company has available cash, it has the
option (generally pursuant to set procedures) either to divide the money among                There are two primary investments that
the owners (shareholders) or reinvest the money back into the business. When                  individuals can purchase in order to own
the company decides to pay the owners a portion of the money, the share-                      a portion of a company:
holders receive a dividend.
                                                                                              Common Stock: Equity ownership that
   If a company intends to pay a dividend, it must pay any preferred share-
                                                                                              entitles an individual to share in the
holders first. Even among “preferred shares,” there is often a ranking order.                 corporate earnings and participate in the
Senior preferred shares are paid out before junior preferred shares, for                      voting rights.
example.
                                                                                              Preferred Stock: Equity ownership that
   With respect to TARP transactions, Treasury is generally a senior preferred
                                                                                              usually pays a fixed dividend, gives the
stockholder, so it is paid dividends by TARP participants before common stock-                holder a claim on corporate earnings
holders receive dividends. For TARP investments, Treasury requires that the                   superior to common stock owners, and
company pay a fixed percentage return on Treasury’s investment each year.                     has no voting rights. Preferred stock also
                                                                                              has priority in the distribution of assets
For example, if Treasury invested $100 in preferred shares that paid a 5%
                                                                                              in the case of liquidation of a bankrupt
annual dividend, it would earn approximately $5.00 on that investment every                   company.
year, regardless of changes in the company’s common stock price.
   In exchange for being first in line to receive the dividend payments,
preferred shareholders usually do not have voting rights for company decisions
(other than those specifically affecting the preferred shares).37 Preferred shares
usually contain provisions that prevent new preferred shares with a senior claim
from being issued. Individual series of preferred shares may have a senior, pari-
passu (equivalent), or junior relationship with other shares issued by the same
corporation.
   Another possible distinction between types of preferred shares is the
term of the preferred shares. All of the preferred shares Treasury purchased,
whether preferred or senior preferred, are considered perpetual. This means
that the responsibility to pay dividends on the preferred stock does not expire
for as long as Treasury owns the stock.
     38    SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       In the case of preferred shares purchased under the Capital Purchase
                                                   Program (“CPP”), after three years, the company can buy them back from
                                                   Treasury at the price it sold them plus any unpaid dividends owed, subject
                                                   to certain conditions.38 CPP has a provision, called an “escalation clause,”
                                                   where, at five years, the dividend rate that the institution has to pay to Treasury
                                                   increases from 5% to 9%.39
WARRANTS EXAMPLE

On October 23, 2008, Treasury pur-                 Warrants
chased $10 billion in Morgan Stanley               In addition to earning dividends on preferred shares, Treasury also receives
preferred stock, and, as an incentive,
                                                   warrants. Warrants provide the right to purchase shares of stock at a fixed
received 65,245,759 warrants at a strike
price of $22.99.35 As of January 23,               price. Warrants can typically be exercised only for a set period. In TARP
2009, Morgan Stanley’s stock price was             programs, most transactions involve warrants that expire in 10 years.40
$18.71,36 which means that the warrants                For public companies, warrants give Treasury the right to buy shares of
are “out of the money.” The market price
                                                   common stock in the companies at certain fixed prices. For example, Treasury
is $4.28 below the warrant strike price.
                                                   might have the right to buy 100 shares of stock in a financial institution at a
For these warrants to be considered “in
the money,” Morgan Stanley’s stock price           price of $10 per share; this price is called the strike price. At any given time,
would have to gain more than $4.28.                Treasury has the option to exercise the warrant and purchase shares from
                                                   the company at the strike price. If the company’s stock is currently trading on
                                                   the New York Stock Exchange at $12, for example, Treasury could purchase
                                                   shares from the company at $10 and sell them for a profit at the market price
                                                   to make $2 per share. When, as in this example, a warrant’s exercise price is
                                                   lower than the current market price of the stock, the warrants are considered
                                                   “in the money.”
                                                       When the strike price is above the stock’s market price, it is “out of the
                                                   money.” However, even warrants that are “out of the money” have value, based
                                                   on the possibility that the share price will eventually rise above the strike price.
                                                   It is not unusual that warrants are “out of the money” at the time they are
                                                   issued.
                                                                INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009    39




LOANS
Treasury has loaned money to several automotive companies under agree-
ments that they repay the money, along with interest, at some future time.
These loans pay a variable rate of interest (meaning that the interest rate
changes over time) on Treasury’s investment of taxpayer dollars and work
much like a typical consumer bank loan. For example, when consumers go to
their local bank to obtain a personal loan, they agree to repay the bank not only               In the Money: An option that allows the
the amount borrowed, but a pre-determined amount of interest as well. The                       holder to acquire shares at a price below
                                                                                                the current market price.
consumer makes monthly payments on this loan, which include both principal
and interest, over a fixed period of time until the debt is repaid.                             Variable Rate of Interest: An interest rate
   Loans can be classified as either secured or unsecured. Secured loans                        that changes according to the market,
are backed by collateral belonging to the borrower, which decreases the risk                    usually tied to an underlying interest rate
                                                                                                index.
assumed by the lender. If the borrower fails to abide by the loan agreement,
the lender has the right to seize the borrower’s assets that were used to
                                                                                                Collateral: An asset pledged by a borrower
secure the loan.                                                                                to a lender until a loan is repaid.
   Treasury’s loans to the automotive companies were secured by collateral,
such as parts, inventory, and real estate. By contrast, unsecured loans are not                 Non-recourse Loan. A loan whereby the
                                                                                                borrower is relieved of the obligation to
backed by any type of collateral.
                                                                                                repay the loan upon the surrender of the
   Within the category of secured loans, there are recourse and non-recourse                    collateral.
loans. In a recourse loan, the borrower is fully obligated to repay the debt.
When the borrower fails to make payments, and the lender takes the collateral,
if the amount of collateral is insufficient to make the lender whole, the borrower
will remain legally indebted for the balance. Non-recourse loans permit the
borrower to walk away from the loan by surrendering the collateral to the
lender. As discussed in Section 3, the Term Asset-backed Securities Loan
Facility (“TALF”) program involves a non-recourse loan to participants by the
Federal Reserve.
      40     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     INSURANCE INVESTMENTS
                                                     In addition to the debt and equity investment programs, Treasury has insti-
                                                     tuted an insurance-type program. Treasury stated that the program “provides
                                                     guarantees for assets held by systemically significant financial institutions.”41
                                                     This program guarantees troubled assets of financial institutions and collects
                                                     premium fees in return. These guarantees are very similar to a typical insur-
                                                     ance plan. For example, homeowners pay a premium fee for a homeowner’s
                                                     policy to protect their property. The amount of their premium fee is based
Guarantee: By guaranteeing a troubled
asset, Treasury promises to pay the                  on the value of their property, the risk of loss (e.g., how secure their homes
institution holding that asset an agreed             are or whether they have an alarm system), and many other factors. When
upon amount should that asset’s value                the program is used, financial institutions will pay Treasury similar premiums
decline or fail. For example, a mortgage
                                                     for the guarantee of their assets and Treasury will determine the amount of
would fail if the homeowner stops making
payments on it.
                                                     the premium and the form of payment. The amounts of the premiums may
                                                     differ for each agreement depending on the risk involved with each institution’s
Premium: The institution receiving the               assets. Treasury must price premiums based on actuarial analysis so that
guarantee pays the guarantor an agreed               enough funds are available to pay for the anticipated claims.42
upon amount for the protection offered
by the guarantee — the same way car
premiums ensure protection for damage
or loss.

Actuarial Analysis: A statistical analysis
used to predict the likely claims resulting
from troubled assets that the institutions
will make.
S ECT I O N 3
                TARP IMPLEMENTATION
                AND ADMINISTRATION
42   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                 INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   43




This section provides details of activities that Treasury has conducted under the
Troubled Asset Relief Program (“TARP”). First, it offers a broad overview of TARP
programs and data relating to TARP expenditures as a whole. Second, it details,
program by program, the various ways in which TARP funds have been expended.
Finally, it describes operations and administration of the Office of Financial Stability
(“OFS”) and its vendors who manage TARP.


OVERVIEW OF IMPLEMENTED PROGRAMS
As of January 23, 2009, Treasury had announced the parameters of how $387.4
billion43 of the $700 billion would be spent. As of that same day, Treasury had made
commitments to spend $299.96 billion,44 of which $293.76 billion has been expend-
ed.45 TARP expenditures as of January 23, 2009, account for about 42% of the $700                Senior Preferred Stock: Shares that give
billion available for TARP implementation.                                                       the stockholder priority dividend and
     Thus far, Treasury is providing support to U.S. financial institutions and compa-           liquidation claims over junior preferred
nies through five programs used to purchase or guarantee troubled assets under the               and common stockholders. This concept
broadest definition of troubled assets, discussed in more detail in Section 2: “EESA             is further described in Section 2: “TARP
Provisions.”46                                                                                   Mechanics.”

                                                                                                 Warrants of Common Stock: The right,
•   Capital Purchase Program (“CPP”). CPP is designed to be a program in                         but not the obligation, to purchase shares
    which Treasury purchases senior preferred stock, and, depending upon the type                of common stock at a fixed price. This
    of institution, warrants of common stock, from viable financial institutions of all          concept is further described in Section 2:
    sizes.47 Treasury has announced a plan to spend $250 billion of TARP funds on                “TARP Mechanics.”
    CPP, and, as of January 23, 2009, Treasury investments to institutions through               Systemically Significant: A financial
    CPP account for approximately $194.2 billion in purchases.48 Refer to the                    institution whose failure would impose
    “Capital Purchase Program” discussion in this Section for more information.                  significant losses on creditors and
•   Systemically Significant Failing Institutions (“SSFI”) Program. Through the                  counterparties, call into question the
    SSFI program, Treasury is permitted to invest in systemically significant institu-           financial strength of other similarly
                                                                                                 situated financial institutions, disrupt
    tions to prevent their failure and the market disruption that would follow.49 As of
                                                                                                 financial markets, raise borrowing costs
    January 23, 2009, Treasury investment through this program accounts for
                                                                                                 for households and businesses, and
    $40 billion in TARP purchases.50 These funds were used to purchase per-                      reduce household wealth.
    petual senior preferred stock from the American International Group,
                                                                                                 Perpetual Senior Preferred Stock: Shares
    Inc. (“AIG”).51 See the “Institution-specific Assistance” part of this Section for a
                                                                                                 that give the stockholder the right to
    detailed discussion of the AIG transaction.
                                                                                                 dividend payments that do not expire
•   Targeted Investment Program (“TIP”). Through TIP, Treasury is permitted to                   for as long as the stockholder owns the
    make targeted investments in financial institutions where a loss of confidence               stock. This concept is further described
    would threaten similar institutions, the broader financial markets, and the                  in Section 2: “TARP Mechanics.”
    economy as a whole.52 As of January 23, 2009, Treasury had invested $40 billion
    through this program.53 Treasury, the Federal Reserve, and the Federal Deposit
    Insurance Corporation (“FDIC”) announced in joint statements that they would
    use TARP funding and other resources to provide a “package of guarantees,
    liquidity access and capital” to both Citigroup, Inc. (“Citigroup”)54 and Bank
      44     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      of America.55 The $40 billion TARP investment in this program has thus far
                                                      purchased $20 billion of senior preferred stock and warrants from Citigroup and
                                                      $20 billion of senior preferred stock and warrants from Bank of America.56 See
                                                      the “Institution-specific Assistance” part of this Section for a detailed discussion
                                                      of TIP.
                                                 •    Asset Guarantee Program (“AGP”). Through AGP, Treasury provides certain
                                                      loss protections on a select pool of mortgage-related or other assets held by
                                                      participants whose portfolios of distressed or illiquid assets pose a risk to market
                                                      confidence.57 This program is similar to a typical insurance plan, whereby
                                                      Treasury is “insuring” the assets of a financial institution. Treasury is obligated
                                                      to protect up to $5 billion of Citigroup58 assets and up to $7.5 billion of Bank
                                                      of America assets (in a transaction that had not yet closed as of January 23,
                                                      2009).59 Citigroup paid a premium in preferred stock of $4 billion,60 and Bank
                                                      of America will pay $3 billion61 in preferred stock. Treasury, FDIC, and the
                                                      Federal Reserve will provide combined protection in the form of guarantees or
                                                      non-recourse loans with respect to assets totaling $301 billion for Citigroup62
                                                      and $118 billion for Bank of America, subject to certain deductibles.63 See the
                                                      discussion of “Institution-specific Assistance” in this Section for more informa-
                                                      tion on the Citigroup and Bank of America transactions.
                                                 •    Automotive Industry Financing Program (“AIFP”). Through AIFP, Treasury
                                                      makes strategic investments in U.S. automotive companies and their financing
                                                      arms designed to prevent a significant disruption of the U.S. automotive indus-
Senior Preferred Membership Interest:
                                                      try or to financial markets.64 As of January 23, 2009, Treasury had committed
Individuals or other organizations with an
ownership interest in a Limited Liability             $20.8 billion in AIFP investments.65 Under this program, Treasury made emer-
Company (“LLC”) with a senior liquida-                gency loans to General Motors Corporation (“GM”), Chrysler LLC (“Chrysler”),
tion preference, entitling it to receive its          and Chrysler Financial Services Americas LLC (“Chrysler Financial”). In ad-
liquidation preference before any other               dition to these investments, Treasury purchased senior preferred membership
ownership interest in the LLC.                        interests from GMAC LLC (“GMAC”). See the “Institution-specific Assistance”
                                                      part of this Section for a detailed discussion of AIFP.

                                                    As noted in the background section on EESA, the Secretary is authorized to
                                                 purchase troubled assets through any programs deemed necessary to administer
                                                 TARP.66 The figures and tables that follow provide a summary of the status of the
                                                 implemented TARP programs:

                                                     •     commitment levels by programs as of January 23, 2009 (Table 3.2)
                                                     •     cumulative commitments by program over time (Figure 3.1)
                                                     •     summary of terms of TARP deals (Table 3.3 and Table 3.4)

                                                     For a reporting of all purchases, obligations, expenditures, and revenues of TARP,
                                                 see Appendix C: “Reporting Requirements.”
                                                                                        INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009                   45



TABLE 3.2


COMMITMENT LEVELS BY PROGRAM, AS OF JANUARY 23, 2009

$ Billions                                                                                 Amount                                Percent (%)        Section Reference
Authorized under EESA1                                                                                            $700.00
Released Immediately1                                                                          $250.00                                  35.7%
                                                                                                                                                    Section 2:
Released Under Presidential Certificate of Need 2                                              $100.00                                  14.3%
                                                                                                                                                    “Implementation of EESA”
Released Under Presidential Certificate of Need and                                            $350.00                                  50.0%
Resolution to Disapprove Failed3
TOTAL RELEASED                                                                                                   $700.00             100.0%
Less: Commitments by Treasury under TARP a
Capital Purchase Program (“CPP”):
    Bank of America Corporationb                                             $25.00                                                      3.6%
    Citigroup, Inc.                                                          $25.00                                                      3.6%
                                                                                                                                                    Section 3:
    JP Morgan Chase & Co.                                                    $25.00                                                      3.6%
                                                                                                                                                    “Capital Purchase Program”
    Wells Fargo and Company                                                  $25.00                                                      3.6%
    The Goldman Sachs Group Inc.                                             $10.00                                                      1.4%
    Morgan Stanley                                                           $10.00                                                      1.4%
    Other Qualifying Financial Institutionsc                                 $74.18                                                     10.6%
CPP TOTAL4                                                                                    $194.18                                  27.7%
Systemically Significant Failing Institutions (“SSFI”) Program:                                                                                     Section 3:
    American Internationa Group, Inc. (“AIG”)                                $40.00                                                       5.7%      “Institution-specific Assistance”

SSFI PROGRAM TOTAL4                                                                             $40.00                                   5.7%
Targeted Investment Program (TIP):
                                                                                                                                                    Section 3:
    Bank of America Corporation                                              $20.00                                                       2.9%
                                                                                                                                                    “Institution-specific Assistance”
    Citigroup, Inc.                                                          $20.00                                                       2.9%
TIP TOTAL4                                                                                      $40.00                                   5.7%
Asset Guarantee Program (“AGP”):d                                                                                                                   Section 3:
    Citigroup, Inc.e                                                           $5.00                                                      0.7%      “Institution-specific Assistance”
AGP TOTAL4                                                                                        $5.00                                  0.7%
Automotive Industry Financing Program (“AIFP”):
    General Motors Corporation (“GM”)                                        $10.28                                                       1.5%
                                                                                                                                                    Section 3:
    General Motors Acceptance Corporation LLC (“GMAC”)                        $5.00                                                       0.7%
                                                                                                                                                    “Institution-specific Assistance”
    Chrysler Holding LLC                                                      $4.00                                                       0.6%
    Chrysler Financial Services Americas LLCf                                 $1.50                                                       0.2%
AIFP TOTAL4                                                                                     $20.78                                   3.0%
SUBTOTAL — TARP COMMITMENTS 4                                                                                    $299.96               42.9%
BALANCE REMAINING OF TOTAL FUNDS MADE                                                                            $400.04               57.1%
AVAILABLE AS OF JANUARY 23, 2009
APPROXIMATE PIPELINE OF FUTURE TARP FUNDING                                                                         $1.20
ON JANUARY 30, 2009 5

Notes: Numbers affected by rounding.
a From a budgetary perspective, what Treasury has committed to spend (e.g., signed agreements with TARP fund recipients).
b Bank of America’s share is equal to two CPP investments totaling $25 billion, which is the sum $15 billion received on 10/28/2008 and $10 billion received on
  1/9/2009.
c Other Qualifying Financial Institutions (QFIs) include all QFIs that have received less than $10 billion through CPP.
d This program is further described in Section 2: “TARP Mechanics.”
e Treasury committed $5 billion to Citigroup under AGP; however, this funding is conditional based on losses realized and may potentially never be expended. This amount is not an
  actual outlay of cash.
f Treasury’s $1.5 billion loan to Chrysler Financial represents the maximum loan amount. This $1.5 billion has not been fully expended because the loan will be funded incrementally
  at $100 million per week ($100 million on 1/12/2009, $100 million on 1/19/2009).
g Pipeline represents the approximate amount of expenditures that are allocated for pending CPP closings.


Sources:
1 Emergency Economic Stabilization Act, P.L. 110-343, 10/3/2008.
2 As of January 20, 2009, Treasury has not published this certification of need. However, this press release states that the first $350 billion has been authorized. Treasury,
  “Secretary Paulson Statement on Stabilizing the Automotive Industry,” 12/19/2008, www.treas.gov, accessed 1/25/2009.
3 Library of Congress, “A joint resolution relating to the disapproval of obligations under the Emergency Economic Stabilization Act of 2008,” 1/15/2009, www.thomas.loc.gov,
  accessed 1/25/2009.
4 Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009, www.treas.gov, accessed 1/30/2009.
5 Office of Financial Stability, response to SIGTARP draft report, 1/30/2009.
46   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           FIGURE 3.1

           COMMITMENTS, BY PROGRAM, CUMULATIVE
           $ Billions, $299.96 Billion Total


          $300                                                                                                                               $5.00 AGP
                                                                                                                                            $20.78 AIFP        $105.78
                                                                                                                                                               Institution-
                                                                                                                                            $40.00 TIP            specific
                                                                                                                                                              Assistance
          $200
                                                                                                                                            $40.00 SFFI




          $100
                                                                                                                                           $194.18 CPP



             $0
                    10/28 11/4 11/11 11/18 11/25 12/2 12/9 12/16 12/23 12/30                                 1/6     1/13 1/20
                                                           2008                                                       2009
                       AGP
                       AIFP
                       TIP
                       SFFI
                       CPP



                 CPP Participants                                                                              Institution-specific Assistance
                 % of $194.18 Billion                                                                          (AGP, AIFP, TIP, SSFI) Participants
                                                                                                               % of $105.78 Billion
                  Other Financial
                     Institutions                                  Citigroup                                          AIG–SSFI                               Citigroup–TIP
                         $74.18                                    $25.0                                                 $40.0                               $20.0


                                    38%        13%                                                                               38%             19%
                                                                   J.P. Morgan
                                                                   Chase
                                                                   $25.0                                                                                     Bank of
                                                        13%
                                                                                                                                                             America–TIP
                                                                                                                                                             $20.0
                                                                                                                                                       19%
                  Morgan                               13%
                  Stanley                                          Wells Fargo                      Citigroup–AGP                                            General
                   $10.0          5%                               $25.0                                     $5.0 5%                                         Motors–AIFP
                                       5%     13%                                                                                               10%
                                                                                                                                                             $10.28
                                                                   Bank of America         Chrysler Financial–AIFP
                                         Goldman Sachs
                                                                   $25.0                                      $1.5 1%
                                         $10.0
                                                                                                     Chrysler–AIFP                                           GMAC–AIFP
                                                                                                              $4.0 4%                                    5% $5.0



           Note: Numbers affected by rounding. For purposes of this Report, amounts in the Transactions Report are considered committed, and as of
           1/23/2009, total $299.96 billion. Citigroup = Citigroup, Inc.; JP Morgan Chase = JP Morgan Chase & Co.; Bank of America = Bank of America
           Corporation; Goldman Sachs = The Goldman Sachs Group Inc.; General Motors = General Motors Corporation; GMAC = GMAC LLC; Chrysler =
           Chrysler Holding LLC; Chrysler Financial = Chrysler Financial Services Americas LLC.

           Sources: Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” www.treas.gov, 1/27/2009; Treasury,
           response to SIGTARP data call, 1/26/2009.
                                                                                      INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009                  47




TABLE 3.3



EQUITY AGREEMENTS
TARP                             Date                 Total Equity         Description of                                                                       Term of
Program         Company          of Agreement         Agreement            Investment                    Investment Information            Dividends            Agreement
CPP – Public 233 QFIs            10/14/2008a          $192.6 billiond      Senior Preferred Equity       1-3% of Risk Weighted             5% for first         Perpetual
                                 and later                                                               Assets, not to exceed $25         5 years, 9%
                                                                                                         billion for each QFI              thereafter
                                                                           Common Stock                  15% of Senior Preferred           -                    Up to 10 years
                                                                           Purchase Warrants             amount
CPP –           84 QFIs          11/17/2008b          $1.6 billiond        Preferred Equity              1-3% of Risk Weighted             5% for first 5       Perpetual
Private                          and later                                                               Assets, not to exceed $25         years,
                                                                                                         billion for each QFI              9% thereafter
                                                                           Preferred Stock               5% of Preferred amount            9%                   Up to 10 years
                                                                           Purchase Warrants
                                                                           that are exercised
                                                                           immediately
SSFI             AIG             11/25/2008           $40 billion          Perpetual Senior              $40 billion aggregate             10%                  Perpetual
                                                                           Preferred Equity              liquidation preference
                                                                           Common Stock                  2% of issued and                  -                    Up to 10 years
                                                                           Purchase Warrants             outstanding Common
                                                                                                         Stock on investment date;
                                                                                                         $2.50 exercise price
TIP             Citigroup        12/31/2008           $20 billion          Senior Preferred Equity       $20 billion                       8%                   Perpetual
                                                                           Warrants                      10% of total Preferred            -                    Up to 10 years
                                                                                                         Stock issued; $10.61
                                                                                                         exercise price
TIP             Bank of          1/16/2009c           $20 billion          Senior Preferred Equity       $20 billion                       8%                   Perpetual
                America                                                    Warrants                      10% of total Preferred            -                    Up to 10 years
                                                                                                         Stock issued; $13.30
                                                                                                         exercise price
AIFP            GMAC LLC         12/29/2008           $5 billion           Senior Preferred              $5 billion                        8%                   Perpetual
                                                                           Membership Interests
                                                                           Preferred Stock               5% of Preferred amount            9%                   Up to 10 years
                                                                           Purchase Warrants
                                                                           that are exercised
                                                                           immediately

Notes:
a Announcement date of CPP Public Term Sheet.
b Announcement date of CCP Private Term Sheet.
c Date as of the Treasury, Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009. The Security Purchase Agreement has a date of 1/15/2009.
d Amounts are equal to the sum of several CPP agreement amounts. This number will increase as new transactions are closed.


Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital
Purchase Program Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities
Purchase Agreement dated as of November 25, 2008 between American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG
SSFI Investment, Senior Preferred Stock and Warrant, Summary of Senior Preferred Terms,” 11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009
between Citigroup, Inc. and United States Department of Treasury,” 1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities
Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America
Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program, Preferred Membership Interests, Summary of Preferred
Terms,” 12/29/2008.
       48      SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




TABLE 3.4


DEBT AGREEMENTS
TARP                           Date                Total Debt Description of                                                                             Term of
Program       Company          of Agreement        Agreement Investment                   Investment Information               Interest / Dividends      Agreement
AIFP          General          12/31/2008          $13.4 billion Debt Obligation   Loan is funded incrementally;               LIBOR + 3%                12/29/2011
              Motors                                             with Warrants and $4 billion funded on
              Corporation                                        Additional Note   12/29/2008, $5.4 billion
                                                                                   funded on 1/21/2009,
                                                                                   $4 billion to be funded on
                                                                                   2/17/2009
AIFP          General          1/16/2009           $884 million     Debt Obligation       To purchase Class B                  LIBOR + 3%                1/16/2012
              Motors                                                                      membership interest of GMAC
                                                                                          LLC
AIFP          Chrysler         1/2/2009a           $4 billion       Debt Obligation       Loan up to $4 billion, available     3% or 8% (if the company 1/2/2012
              Holding LLC                                           with Additional       on the closing date; Additional      is in default of its terms
                                                                    Note                  note of $267 million (6.67% of       under the agreement) plus
                                                                                          the maximum loan amount)             the greater of a) three-
                                                                                                                               month LIBOR or b) LIBOR
                                                                                                                               floor (2.00%)
AIFP          Chrysler         1/16/2009           $1.5 billion     Debt Obligation       Loan is funded incrementally   LIBOR + 1% for first year       1/16/2014
              Financial                                             with Additional       at $100 million per week;      LIBOR + 1.5% for
                                                                    Note                  Additional note is $75 million remaining
                                                                                          (5% of total loan size), which
                                                                                          vests 20% on closing and 20%
                                                                                          on each anniversary of closing

Note:
a Date as of the Treasury, Office of Financial Stability, 1/27/2009 Transaction Report, The Security Purchase Agreement has a date of 12/31/2008.


Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of
December 31, 2008.” 12/31/2008. Treasury, “General Motors Corporation, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/08; Treasury, “General Motors
Promissory Note,” 1/16/2009; Treasury, “Loan and Security Agreement By and Between Chrysler Holding LLC as Borrower and The United States Department of Treasury as
Lender Dated as of December 31, 2008.” 12/31/2008; Treasury, “Chrysler, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “Chrysler LB
Receivables Trust Automotive Industry Financing Program, Secured Term Loan, Summary of Terms,” 1/16/2009; OFS, response to SIGTARP draft report, 1/30/2009.
                                                                INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   49




CAPITAL PURCHASE PROGRAM
Under CPP, $250 billion of TARP has been made available to aid Qualifying
Financial Institutions (“QFIs”). Treasury has stated that it intends to invest in               Qualifying Financial Institution (“QFI”):
healthy, viable banks to promote financial stability, maintain confidence in the                Private and public U.S.-controlled banks,
financial system, and permit institutions to continue meeting the credit needs of               savings associations, bank holding compa-
American consumers and businesses. According to the Interim Assistant Secretary                 nies, and certain savings and loan holding
for Financial Stability, “Purchasing equity in healthy banks around the country                 companies (engaged exclusively in financial
would be a faster and more direct way to inject much-needed capital into the system             activities) that are deemed healthy and
                                                                                                viable.
and restore confidence compared with asset purchases.”67 Treasury decided that
healthy banks would be in the best position to increase the flow of credit in their
communities.68
    The decision to provide a direct infusion of capital into banks was widely seen
as a shift in approach from the original understanding of purchasing troubled as-
sets, which would have presumably involved the purchase of troubled mortgages or
mortgage-backed securities. The former Treasury Secretary explained:

        Given the severity and magnitude of the situation, an asset purchase
        program would not be effective enough, quickly enough. Therefore
        we exercised the authority granted by Congress in this legislation to
        develop and quickly deploy a $250 billion capital-injection program,
        fully anticipating we would follow that with a program for troubled
        asset purchases.69

    There was no requirement for recipients to monitor their use of the funds, and
it has been widely reported that banks have been “hoarding” the money, acquiring
other banks, and paying off debt. Treasury has recently begun to establish peri-
odic reporting guidelines for certain TARP recipients. For more information on
SIGTARP’s planned review of how this money is being spent, see Sections 1 and 4 of
this Report.70

CPP Process
Unlike other TARP programs, where investments are made on a case-by-case basis,
CPP is a program made available to QFIs through an application process. CPP
recipients must apply and be approved before receiving any funds.71
    While testifying before the Senate, the Interim Assistant Secretary for Financial
Stability summarized the application process:

        To apply for the capital program, banks should review the program
        information on the Treasury website and consult with their primary
        federal regulator…. After this consultation, the institution should
        submit an application to that same regulator. Treasury worked with
        the regulators to establish an evaluation process; this means that all
50       SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 3.2

     CAPITAL PURCHASE PROGRAM PROCESS


                                                                                                                                                                        SETTLEMENT &
      APPLICATION                             EVALUATION                                                                                                                CLOSING
                                                                                             YES
                                                                                             (Category 1)




                                                                    MAYBE                                                                  TARP                            With legal agents’
       QFI obtains six-page                                                                                                             Investment
                                                  FBA reviews       (Category 2)                  YES                                                       YES            approval, Treasury
      application online and                                                                                                            Committee
                                                   application                                                                                                              places applicant
       fills out two required                                                                                                             reviews                              in pipeline
                pages                                                                                                                   application


                                                                                             CPP Council                    MAYBE
                                               MAYBE                                      reviews application                                                             Treasury releases
                                          (Category 3)                                                                                                                       the funds to
                                                                                                                                                                          Bank of New York/
                                                                                                                                                                            Mellon (BNYM)
           QFI submits
          application to                         Request more
           appropriate                             information
               FBA                               or recommend
                                                    withdrawal                                                                                                              BNYM, Treasury’s
                                                                                                                                                                          legal agents, and QFI
                                                                                          MAYBE
                                                                                                                                                                           exchange funds for
                                                                                                                                                                           shares and warrants




     Note: This is a general depiction of the high-level process based on interviews and sourced documents. At any point in the process, the reviewing party can remand the application in
     search of additional information. At any time in the process, a QFI can withdraw its application. FBAs include the Federal Reserve, the FDIC, the Office of the Comptroller of the Currency
     (OCC), and the Office of Thrift Supervision (OTS). CPP Council includes senior members from the four FBAs. TARP Investment Committee includes TARP’s Chief Investment Officer and
     senior officials on financial markets, economic policy, financial institutions, and financial stability.

     Source: PriceWaterhouseCoopers, LLP, Internal Control Documentation, received 1/16/2009; Treasury, CPP Program Lead Interview, 1/15/2009.




                                                                               regulators will use a standardized process to review all
                                                                               applications to ensure consistency.72

                                                                    This section provides an overview of the CPP process flow from the initial
                                                                 application to the disbursement of CPP funds. For illustrative purposes,
                                                                 Figure 3.2 shows an overview of the CPP process in three distinct phases:
                                                                 Application, Evaluation, and Settlement and Closing.

                                                                 Application
                                                                 Private and public U.S.-controlled banks, savings associations, bank holding
                                                                 companies, and certain savings and loan holding companies (engaged exclu-
                                                                 sively in financial activities) may apply for CPP funding. The application
                                                                 process consists of a six-page common application, available online.
                                                                     The first four pages of the application are guidelines that do not require
                                                                 any information from the applicant. The fifth page asks for basic contact
                                                                 information. The last page of the application requires the applicant to submit
                                                                 data such as:73
                                                                                        INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009    51




•    amount of preferred shares requested
•    amount of authorized but unissued preferred stock available for purchase
•    amount of authorized but unissued common stock
•    amount of Total Risk-Weighted Assets
•    signature of Chief Executive Officer (or authorized designee)
•    description of any mergers, acquisitions, and capital raisings that are currently
     pending or under negotiation

    The banks are not required to attach any additional information with their
applications.
    The application can be found on Treasury’s website or on the website of an appli-                                   Total Risk-Weighted Assets: The amount
cable bank regulator or Federal Banking Agency (“FBA”). FBAs include the Federal                                        of a bank’s total assets after making
Reserve, FDIC, OCC, and OTS.                                                                                            adjustments based on the risk factor
    Treasury issued initial guidelines for public company applicants on October 20,                                     assigned to each individual asset.
2008. Guidelines were released for private applicants on November 17, 2008, and
for “S” corporations, on January 14, 2009. To date, no guidelines have been released                                    Federal Banking Agency (“FBA”): One
for mutual organizations. Table 3.5 shows key dates for each type of institution that                                   of four agencies: 1) the Comptroller of
                                                                                                                        the Currency, 2) the Board of Governors
may apply for CPP funding.
                                                                                                                        of the Federal Reserve System, 3) the
    Once a CPP application is complete, it is submitted to the institution’s primary
                                                                                                                        Federal Deposit Insurance Corporation,
regulator for the initial eligibility determination, which is the first step in the                                     and 4) the Director of the Office of Thrift
evaluation process.                                                                                                     Supervision.




TABLE 3.5

KEY DATES AND DEADLINES FOR CPP APPLICATION PROCESS
Type                                      Announced Date                      Application Deadline
                a
Publicly Held                             10/20/2008                          11/14/2008
Privately Held b                          11/17/2008                          12/8/2008
“S” Corporation c                         1/14/2009                           2/13/2009
Mutual Organization                       TBD                                 TBD

Note: ‘Private’ QFIs are those that are Non-Public QFIs, excluding S Corporations and Mutual Organizations.
a
  Treasury, “Application Guidelines for TARP Capital Purchase Program,” no date, www.treas.gov, accessed
1/22/2009.
b
  Treasury, “Process Related FAQs for Private Bank Capital Purchase Program,” no date, www.treas.gov, accessed
1/22/2009.
c
  Treasury, “S Corporation FAQs,” no date, www.treas.gov, accessed 1/22/2009.
      52    SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Evaluation
                                                When a financial institution submits an application for CPP funds, the evaluation
                                                process begins with an FBA consultation, which includes, among other things, a
                                                review of the bank’s most recent financial statement, examination, and most recent
                                                quarterly data. FBAs take into strong consideration the applicant bank’s CAMELS
                                                rating. All banks receive CAMELS (capital adequacy, asset quality, management,
                                                earnings, liquidity, and sensitivity to market risk) ratings from 1 to 5 that assess the
                                                “safety and soundness of financial institutions on a uniform basis.”74 After reviewing
                                                an applicant and determining a CAMELS rating, the FBA classifies each QFI under
                                                one of these categories:75
CAMELS Rating: A rating of a bank’s
overall condition based on capital
                                                Category 1
adequacy, asset quality, management,
                                                • QFIs with a Composite CAMELS/RFI rating of “1”
earnings, liquidity, and sensitivity to
market risk. The ratings are issued by the      • QFIs with a Composite CAMELS/RFI rating of “2” and for which the most
U.S. Government and are not released to            recent examination rating is not more than 6 months old
the general public.                             • QFIs with a composite rating of “2”  or “3” and acceptable performance ratios

TARP Investment Committee: Includes             Category 2
TARP’s Chief Investment Officer and             • QFIs with a Composite CAMELS/RFI rating of “2” and for which most recent
senior Treasury officials on financial
                                                   examination rating is more than 6 months old and overall unacceptable ratios
markets, economic policy, financial
                                                • QFIs with a Composite CAMELS/RFI rating of “3” with overall unacceptable
institutions, and financial stability.
                                                   performance ratios
CPP Council: Comprises senior members
from the four FBAs.                             Category 3
                                                • QFIs with a Composite CAMELS/RFI rating of “4”
                                                • QFIs with a Composite CAMELS/RFI rating of “5”

                                                    Category 1 applications are forwarded directly to the TARP Investment
                                                Committee, for which CPP analysts help prepare presentations on the applicants.76
                                                The TARP Investment Committee comprises a group of senior Treasury officials on
                                                financial markets, economic policy, financial institutions, and financial stability. They
                                                can grant preliminary approval, in which case the application goes to the Assistant
                                                Secretary for Financial Stability, who has the final authority to approve the applica-
                                                tion. Alternatively, if there is some question about the bank’s application, they can
                                                refer the application to the CPP Council.
                                                    A Category 2 application is forwarded by the FBAs directly to the CPP Council.77
                                                The CPP Council, chaired by the OCC and comprising of representatives from the
                                                four banking regulators, makes a recommendation, reached by majority rule, either to
                                                1) recommend the applicant for approval, 2) request more information, or 3) recom-
                                                mend withdrawal. If the application is recommended for approval, it is forwarded to
                                                                 INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   53




the TARP Investment Committee, which evaluates (or re-evaluates) the application.
    Category 3 applicants are asked to send more information or withdraw their
applications.78 If the requested information is forwarded, then the applicant will be
re-considered for funding.
    Treasury notifies the QFI when the Assistant Secretary of Financial Stability has
granted preliminary approval. Typically, applicants will be asked to make additional
disclosures about events that have occurred since the time of the original applica-
tion.79 At this point in the process, and any time prior to closing, there is no legal
commitment between the applicant and Treasury. The applicant is free to withdraw
the application, and Treasury may also reconsider its decision.

Settlement and Closing
At the conclusion of the evaluation and after the granting of preliminary approval,
the settlement stage begins. One of two law firms prepares the closing documenta-
tion and sends it to Bank of New York Mellon (“BNYM”), TARP’s custodian. BNYM                    Settlement: Payment is made for a trade.
maintains the stock certificates and warrants in a distinct custody account for each
QFI.80 All completed transactions are publicly announced within two business days                Custodian: A bank, agent, trust company,
of closing, pursuant to the law. Announcements are not made regarding applicants                 or other organization responsible for safe-
that do not receive funding.81                                                                   guarding financial assets.

                                                                                                 Annual Coupon Rate: The dividend rate paid
CPP Terms and Conditions
                                                                                                 by the QFI to Treasury.
The QFI may request a maximum investment equal to either $25 billion or 3% of its
Total Risk-Weighted Assets, whichever is less; the minimum investment to request                 Dividend: Distributions to stockholders of
is equal to 1% of Total Risk-Weighted Assets,82 which are calculated by adjusting the            cash or stock declared by the company’s
value of each of the bank’s assets by a certain risk factor, which is based on the risk          board of directors.
associated with the asset. For example, a credit card loan is riskier than cash and
would therefore have a higher risk rating. This metric is often used to determine
capital requirements for financial institutions.

Terms for Preferred Shares and Dividends
Treasury receives preferred shares in an amount equal to its CPP investment. The
preferred stock annual coupon rate is 5% for the first five years and 9% for each year
thereafter. This rate represents the dividend that the QFI must pay to Treasury.83
The dividends are paid quarterly on February 15, May 15, August 15, and
November 15 of each year.84 As of January 23, 2009, Treasury had received
more than $271 million in dividend payments from five different QFIs.85
    Treasury, along with other preferred shareholders, will receive dividend payments
before common stockholders. Treasury’s preferred shares rank equal to the highest
level of existing preferred stock issued by the QFI.86 Subject to certain exemptions,
institutions are required to pay full dividends to Treasury before paying out dividends
to other shareholders.
        54     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                   Terms of Warrants
                                                   In CPP transactions involving public companies, Treasury also receives warrants of
                                                   common stock, i.e., the right to buy shares of common stock in the companies at a
                                                   fixed price. Under the terms of the CPP contracts, the strike price for such warrants
                                                   is determined by taking the average market price for the QFI’s common stock over
                                                   the previous 20 trading days prior to Treasury’s approval of the QFI’s application
                                                   for participation in CPP. In CPP transactions involving most private companies,
                                                   Treasury receives warrants of preferred shares, which are exercised immediately. For
                                                   more information on the mechanics of warrants, see Section 2: “TARP Mechanics.”
                                                   For specific details on warrants and stock prices, see Appendix D: “Warrants.”


Strike Price: The stated price per share for
                                                   Restrictions on Recipients
which underlying stock may be purchased            Treasury has established a series of restrictions on the firms receiving CPP funding. 
by the option holder upon exercise of the
option contract.                                   Executive Compensation
                                                   All institutions that receive money through CPP must meet Treasury restrictions
Executive Compensation: Payment to top             on executive compensation for as long as they are participants in the program (i.e.,
executives of business corporations. This          as long as Treasury holds the shares). These standards apply to Senior Executive
includes a base salary, bonuses, shares,
                                                   Officers (“SEOs”), which are defined as the Chief Executive Officer, Chief Financial
options, and other company benefits for
                                                   Officer, and the next three most highly compensated executive officers:87
work.

                                                   •    Incentive compensation for SEOs must not encourage unnecessary and exces-
                                                        sive risks that threaten the value of the QFI.
                                                   •    Mandatory clawback of any bonus or incentive compensation paid to an SEO
                                                        will be enforced if statements of earnings, gains, or other criteria are later
                                                        proven to be materially inaccurate.
                                                   •    Golden parachute payments to an SEO are prohibited. Under CPP, a golden
                                                        parachute is defined as “any payment in the nature of compensation to (or for
                                                        the benefit of) an SEO made on the account of an applicable severance from
                                                        employment to the extent the aggregate present value of such payments equals
                                                        or exceeds an amount equal to three times the SEO’s base amount.”88 In other
                                                        words, an SEO who leaves a QFI cannot receive a payment of more than three
                                                        times his or her base salary.
                                                   •    Executive compensation in excess of $500,000 or more for each SEO may not
                                                        be deducted by the QFI for tax purposes.

                                                       Treasury has reported that it is “committed to rigorous oversight of the re-
                                                   strictions pertaining to executive compensation and is continuing to develop a
                                                               INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   55




comprehensive compliance program to ensure that institutions adhere to execu-
tive compensation provisions.”89 According to the Interim Assistant Secretary for
Financial Stability, “We [Treasury] are now developing [as of December 10, 2008]
procedures to ensure that compliance with these restrictions is maintained.”90
Treasury has announced that it expects to soon issue regulations that require specific
certification and reporting requirements relating to executive compensation shortly.
SIGTARP will report on these resolutions in the next Report.

Repurchase Conditions
Treasury has created a series of restrictions that limit a QFI’s ability to buy back
shares of its own stock. Likewise, there are restrictions on dividends. A QFI must
pay dividends to Treasury in full prior to paying out any dividends to shareholders
of lesser seniority. For the first three years that Treasury holds the shares, a QFI
must receive Treasury’s consent before increasing the common stock dividend rate.
Additionally, Treasury’s consent is required for most share repurchases during the
first three years of the investment.91

Reporting
Treasury has announced that it is collaborating with FBAs to design a program that
accurately measures the lending activities of recipients. The program will use quar-
terly data to analyze all balance-sheet changes. Treasury will also conduct monthly
analysis via survey of its 20 largest investments.92
    This Monthly Intermediation Snapshot survey was distributed to the recipients
on January 16, 2009. Treasury asked for data as of December 31, 2008, and has
set a due date for initial responses of January 31, 2009.93 The Interim Assistant
Secretary for Financial Stability sent letters to the 20 largest CPP recipients in
which he explained this process:

        This Monthly Intermediation Snapshot will complement a more
        thorough analysis Treasury will conduct quarterly of all CPP recipi-
        ent banks using call report data. The snapshot is designed to be
        simple enough to allow Treasury and TARP senior management to
        draw inferences about intermediation activity generally, but also
        granular enough to provide insight into patterns by broad category
        and by institution.94
         56       SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




TABLE 3.6

CPP INVESTMENT SIZE                                          Status of CPP Funds
$10 Billion or More                                      6   As of January 23, 2009, Treasury had purchased $194.2 billion in preferred shares
$1 Billion to $10 Billion                              17    from 317 different QFIs95 in 43 states and Puerto Rico.96 Figure 3.3 shows the
$100 Million to $1 Billion                             50    geographical distribution of all the QFIs that have received funding. For a full listing
$10 Million to $100 Million                           169
                                                             of CPP recipients, see Appendix C: “Reporting Requirements.”
Less than $10 Million                                  75
                                                                 Although CPP was intended for healthy, viable banks, two CPP recipients (Bank
TOTAL                                                317
                                                             of America and Citigroup) also are participating in the Targeted Investment Program
Note: Data as of January 23, 2009. The total number          and the Asset Guarantee Program, which focus on financial institutions at risk of
of financial institutions was reduced by two because
SunTrust Banks Inc. and Bank of America both received        losing market confidence.
two capital investments under CPP.
                                                                 Six financial institutions accounted for $120 billion, but CPP also made smaller
Source: Treasury: Office of Financial Stability, “Troubled   investments: 75 of the 317 recipients received less than $10 million. Table 3.6 and
Asset Relief Program Transactions Report for Period
Ending January 23, 2009,” 1/27/2009.                         Table 3.7 show the distribution of the investment size. Table 3.8 provides a snapshot
                                                             of the largest CPP investments.



TABLE 3.7                                                    FIGURE 3.3

CPP INVESTMENT SUMMARY                                       TRACKING CAPITAL PURCHASE PROGRAM INVESTMENTS ACROSS THE COUNTRY
Smallest Capital Payment                     $1,037,000
Largest Capital Payment              $25,000,000,000
Average Capital Payment                  $612,545,744
Median Capital Payment                     $26,038,000

Note: Data as of January 23, 2009. Expenditures only
refer to transactions with TARP recipients and do not
account for overhead costs. Numbers affected by
rounding.

Source: Treasury: Office of Financial Stability, “Troubled
Asset Relief Program Transactions Report for Period
Ending January 23, 2009,” 1/27/2009.




                                                             Note: Locations are approximate. Updated map on Treasury website not yet available.

                                                             Source: Treasury, “Tracking Capital Purchase Programs Across the Country,” www.treas.gov, accessed 1/24/2009.
                                                                                          INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009                57




TABLE 3.8

CPP INVESTMENTS OF $10 BILLION OR MORE
                                                                  % of $250 Billion              % of $700 Billion
Financial Institution                Dollars Invested                     for CPP                       for TARP
Bank of America Corporation                   $25 billion                          10%                              4%
Citigroup, Inc.                               $25 billion                          10%                              4%
JP Morgan Chase & Co.                         $25 billion                          10%                              4%
Wells Fargo and Company                       $25 billion                          10%                              4%
The Goldman Sachs Group Inc.                  $10 billion                            4%                             1%
Morgan Stanley                                $10 billion                            4%                             1%
TOTAL                                      $120 billion                           48%                            17%

Note: Data as of January 23, 2009. Expenditures only refer to transactions with TARP recipients and do not account
for overhead costs. Numbers may be affected by standard rounding. Bank of America investments were made in two
separate installments due to the merger with Merrill Lynch.

Source: Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report for Period Ending
January 23, 2009,” 1/27/2009.




                                                                                                                         TABLE 3.9
Dividends Received by Treasury
                                                                                                                         CPP DIVIDENDS PAID TO TREASURY
As of January 23, 2009, Treasury had received more than $271 million in dividends
                                                                                                                         Institution                      Amount                    Date
from preferred stock investment.97 Table 3.9 shows a detailed listing of the dividend                                    JPMorgan Chase           $114,583,333              12/1/2008
payments received by date and by institution.                                                                            State Street               $13,055,556           12/15/2008
                                                                                                                         SunTrust                   $15,069,444           12/15/2008
CPP Warrants                                                                                                             Bank of New
Treasury received warrants from 311 different QFIs, and it immediately exercised                                         York/Mellon                $21,666,667           12/22/2008
                                                                                                                         Morgan Stanley           $106,944,444              1/15/2009
warrants of preferred shares received from 84 private companies. Treasury is
                                                                                                                         TOTAL
currently holding the warrants of common stock it received from the 227 public                                           AMOUNT                  $271,319,444
corporations.
                                                                                                                         Note: Data as of January 23, 2009.
    Six98 Community Development Financial Institutions (“CDFIs”) received CPP
funding, but they did not have a warrant provision in their agreements. CDFIs typi-                                      Source: Treasury: Office of Financial Stability, response to
                                                                                                                         SIGTARP data call, 1/17/2009.
cally provide credit to economically distressed communities, first-time home buyers,
and not-for-profit developers. Under section 113(d)(3) of EESA, Treasury has the
discretion to exempt certain investments of $100 million or less from the warrant
requirement. For CDFIs, Treasury has decided not to require the issuance of war-
rants for investments of $50 million or less.99
58   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                         INSTITUTION-SPECIFIC ASSISTANCE
                                         Unlike CPP, the other TARP programs have been driven by the unique situation of
                                         the companies that Treasury has supported. These TARP programs have extended
                                         assistance to companies to prevent disruption to financial markets:

                                         •    Systemically Significant Failing Institutions (“SSFI”) Program: Under SSFI,
                                              Treasury offers capital to institutions on a case-by-case basis “to provide stability
                                              and prevent disruption to financial markets in order to limit the impact on the
                                              economy and protect American jobs, savings, and retirement security from the
                                              failure of a systemically significant institution.”100
                                         •    Targeted Investment Program (“TIP”): The stated goal of TIP is to invest
                                              funds, on a case-by-case basis, “to strengthen the economy and protect
                                              American jobs, savings, and retirement security” where “the loss of confidence
                                              in a financial institution could result in significant market disruptions that
                                              threaten the financial strength of similarly situated financial institutions.”101
                                         •    Asset Guarantee Program (“AGP”): Treasury stated that it, through AGP, will
                                              use insurance protections to help stabilize at-risk financial institutions. Treasury
                                              insures a select pool of troubled assets and collects premiums in return. This
                                              program differs from other programs in that Treasury does not invest TARP
                                              funds in the institution directly. Rather, TARP funds are reserved to cover
                                              possible losses in the selected assets. Treasury noted that it will apply AGP with
                                              “extreme discretion,” and the program will not likely be made widely available.102
                                         •    Automotive Industry Financing Program (“AIFP”): The stated objective of
                                              AIFP is to prevent a significant disruption of the American automotive industry
                                              that could pose a systemic risk to financial market stability and have a negative
                                              effect on the economy of the United States.103 The program requires partici-
                                              pating institutions to implement plans that will achieve long-term viability and
                                              to adhere to executive compensation standards and other measures designated
                                              to protect the taxpayers’ interests, including limits on the institution’s expendi-
                                              tures and other corporate governance requirements.104
                                                                                           INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009                      59




    Table 3.2 shows the eligibility considerations that Treasury published for each
of these programs. This section provides a description of these programs within
the context of the individual companies that have been extended TARP support.
The remainder of this section discusses how these institution-specific assistance
programs are being used to help individual companies and industries.

American International Group Inc.
By mid-September 2008, American International Group Inc. (“AIG”) was in crisis,
reflected in a share price decline of 78% over a two-week period. The Federal
Reserve Bank of New York (“FRBNY”) decided that a disorderly failure of AIG could
add to already significant levels of financial market fragility and lead to substantially
higher borrowing costs, reduced household wealth, and materially weaker economic
performances.105 Action was taken and continued for the months that followed:

•     September 16, 2008: FRBNY, after consultation with Treasury, authorized an
      $85 billion secured line of credit to AIG to assist the company in obtaining cash
      to pay for debts as they became due.106
•     October 8, 2008: FRBNY announced an additional $37.8 billion secured loan
      to assist the company.107




TABLE 3.2


ELIGIBILITY REQUIREMENTS FOR THE FOUR INSTITUTION-SPECIFIC ASSISTANCE PROGRAMS

Eligibility Requirement                                                                                                                           SSFI       TIP      AGP       AIFP
The extent to which destabilization of the institution could threaten the viability of creditors and counterparties exposed
to the institution, whether directly or indirectly.                                                                                               X          X        X         X
The extent to which an institution is at risk of a loss of confidence and the degree to which that stress is caused by a
distressed or illiquid portfolio of assets.                                                                                                                  X        X
The number and size of financial institutions that are similarly situated or that would be likely to be affected by
destabilization of the institution being considered for the program.                                                                              X          X        X         X
Whether the institution is sufficiently important to the nation’s financial and economic system that a loss of confidence
in the firm’s financial position could potentially cause major disruptions to credit markets or payments and settlement
systems, destabilize asset prices, significantly increase uncertainty, or lead to similar losses of confidence or financial
market stability that could materially weaken overall economic performance.                                                                       X          X        X         X
The extent to which the institution has access to alternative sources of capital and liquidity, whether from the private
sector or from other sources of government funds.                                                                                                 X          X        X         X

Note: For simplicity, the wording relating to TIP eligibility requirements appear in the table above. The eligibility requirements of the other programs (SSFI, AGP, and AIFP) are similar
in meaning and can be represented by those from TIP. For the wording of the other programs, please reference the sources below.

Sources:
Treasury, “Guidelines for Systemically Significant Failing Institutions Program,” 1/21/2009, www.treas.gov, accessed 1/30/2009.
Treasury, “Targeted Investment Program,” 1/21/2009, www.treas.gov, accessed 1/30/2009.
Treasury, “Report to Congress Pursuant to Section 102 of EESA,” 12/31/2008.
Treasury, “Guidelines for the Automotive Industry Financing Program,” 1/21/2009, www.treas.gov, accessed 1/30/2009.
60   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                         •     November 10, 2008: FRBNY and Treasury announced the restructuring of
                                               government support to “establish a more durable capital structure, resolve
                                               liquidity issues, facilitate AIG’s execution of its plan to sell certain of its busi-
                                               nesses in an orderly manner, promote market stability, and protect the interests
                                               of the U.S. government and taxpayers.”108
                                         •     November 25, 2008: As detailed below, through TARP, Treasury purchased
                                               $40 billion of newly issued AIG preferred shares, and AIG used the proceeds
                                               to reduce the amount that it had borrowed from the Federal Reserve under the
                                               initial $85 billion secured line of credit.
                                         •     December 12, 2008: The $37.8 billion securities borrowing facility was termi-
                                               nated and repaid in full.109

                                         TARP Assistance to AIG
                                         As of January 23, 2009, Treasury had committed $40 billion to AIG through the
                                         SSFI program. Treasury purchased $40 billion in senior preferred stock with
                                         warrants of common stock, and the company used the proceeds of the sale to repay
                                         FRBNY.110

                                         Economic Terms of the Deal
                                         According to the Securities Purchase Agreement between AIG and Treasury, 4
                                         million shares of preferred stock were issued to Treasury in exchange for $40 billion
                                         in TARP funding. AIG will pay 10% dividends on the preferred stock. Payments will
                                         be made on a quarterly basis on February 15, May 15, August 15, and November 15
                                         of each year. Table 3.3 shows the detail of the purchase of preferred shares.111

                                         TABLE 3.3


                                         SSFI PURCHASE DETAIL — PREFERRED SHARES
                                                                Number of Preferred          Dividend   Term of
                                         Institution            Shares                       Rate       Agreement      Program
                                         AIG                    4,000,000                    10%        Perpetual      SSFI

                                         Source: AIG Securities Purchase Agreement, 11/25/2008.




                                             In addition to the preferred shares, Treasury received 53,798,766 warrants at a
                                         strike price of $2.50.111 On January 23, 2009, the stock price was $1.37,112 making
                                         this warrant “out of the money.” According to OFS, “the Federal Reserve’s credit
                                         agreement requires that AIG amend its charter to lower the par value of its stock
                                         from $2.50 to $0.000001. Once completed, this will have the effect of lowering the
                                         Treasury warrant exercise price to the same level, bringing the warrants ‘into the
                                         money.’”113
                                                                           INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   61




    The warrants under this deal will last for 10 years and are exercisable immedi-
ately, in part or in whole. Table 3.4 shows the detail of the purchase of warrants. For
more information on the mechanics of preferred shares and warrants, see Section 2:
“TARP Mechanics.”

TABLE 3.4


SSFI PURCHASE DETAIL — WARRANTS
                                                               Stock Price at
Institution         Warrants              Strike Price         1/23/09             Program
AIGa                53,798,766            $2.50 per share      $1.37 per shareb    SSFI

Sources:
a
  AIG Securities Purchase Agreement, 11/25/2008.
b
  New York Stock Exchange, www.nyse.com, accessed 1/24/2009.



Conditions and Restrictions
The AIG Securities Purchase Agreement imposes various restrictions on AIG with
respect to payment of dividends, repurchase of AIG stock, the payment of “golden
parachute” severance payments to senior officials, the payment of bonuses, lobbying,
and expenses. The agreement also requires certain corporate governance provisions
and the formation of a risk management committee under the board of directors.114

Dividends and Repurchase Restrictions
AIG is not allowed, unless it receives Treasury approval, to declare or pay any divi-
dend on its common stock other than under the following stipulations:

•      dividends payable solely in shares of common stock
•      dividends or distributions of rights of Junior Stock (i.e., preferred shares junior
       in seniority to Treasury’s shares issued) in connection with stockholders’ rights
       plans

    AIG is also restricted from redeeming, purchasing, or acquiring any shares of its
own common stock, unless it receives Treasury approval, other than in connection
with certain specified redemptions or purchases, such as employee benefit plans and
stockholders’ rights plans.114

Executive Compensation
AIG must comply with the executive compensation provisions established under
EESA and CPP Interim Final Rule [31 C.F.R. Part 30]. Additionally, a separate regu-
lation relevant to SSFI program participants applies “similar standards to those set
out in the interim final regulations [31 C.F.R. Part 30], except for a more stringent
       62      SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         rule with respect to golden parachute payments.”115 Under the terms of the AIG
                                                         agreement and relevant regulations, these are the additional executive compensation
                                                         restrictions with which AIG must comply:

                                                         •     Golden parachutes: AIG has agreed to the restrictions regarding golden
Bonus Pool: Pool of funds available for
                                                               parachutes established under EESA and the Capital Purchase Program Interim
distribution.
                                                               Final Rule [31 C.F.R. Part 30] where senior partners, defined as employees
Fiscal Year (“FY”): Accounting period                          who participate in the company’s “senior partners plan,” are prohibited from
covering 12 consecutive months over                            receiving golden parachute payments beyond three times their base salary
which a company determines earnings                            amount.116 In addition, under Notice 2008-PSSFI, AIG may not make any sever-
and profits.                                                   ance payment to AIG’s top five Senior Executive Officers (“SEOs”), which are
                                                               the Principal Executive Officer (“PEO”), Principal Finance Officer (“PFO”), and
Performance-based: Condition affecting
                                                               the next three highest paid executives of AIG.117
the vesting or other factors affecting the
                                                         •     Bonuses: The Securities Purchase Agreement states that bonus restrictions
fair value of an award that relates to an
                                                               apply to both SEOs and AIG’s senior partners. AIG agreed to place a freeze
employee’s performance.
                                                               on the size of the annual bonus pool for this top category of AIG executives
Vest: To become exercisable. Typically                         (approximately 60 people).118
used in the context of an employee stock
ownership or option program.                                Table 3.5 provides a summary of executive compensation restrictions and lists
                                                         those who must comply with the restriction.


TABLE 3.5

EXECUTIVE COMPENSATION TERMS FOR AIG
Restriction               Definition                                              Employees Applicable to                     Requirements for Compliance
Golden Parachutes         Any payment in the nature of compensation to (or        SEOs (the PEO, PFO, and the next 3          Prohibits all severance payments to the
                          for the benefit of) the applicable employeec            highest paid)a                              aforementioned employeea

                                                                                  Senior Partners (the partners who           Prohibits severance beyond 3x the
                                                                                  participate in the senior partners plan)b   aforementioned employees’ base
                                                                                                                              amountb
Bonus Compensationb       All payments (cash and assets) made in excess           SEOs (the PEO, PFO, and the next 3          Bonus compensation for FY 2009,
                          of the executive’s base salary paid with respect        highest paid) and senior partners (the      retention payments, and termination
                          to a fiscal year. This does not include:                partners who participate in the senior      payments shall not exceed 3.5 times
                          • benefits available to all employees                   partners plan)                              the sum of the senior executives’ base
                          • supplemental retirement benefits that senior                                                      salary and target annual bonus for FY
                              executives and other leaders are already                                                        2008.
                              enrolled in as of 12/31/2008
                          • expatriate programs generally available                                                           Bonus pools payable for FY 2008 shall
                          • incentive compensation that is long-term and                                                      not exceed the average of bonus pools
                              performance-based and vesting in FY 2009                                                        paid in FY 2006, and for FY 2009, they
                              and FY 2010                                                                                     shall not exceed the average paid in FY
                          • sign-on awards for any senior executives and                                                      2007.
                              leadership starting in FY 2009


Sources:
a Treasury: Notice 2008—PSSFI, 1/16/2009, www.treas.gov, accessed 1/19/2009.
b AIG Securities Purchase Agreement, 11/25/2008.
c Treasury, “31 CFR Part 30 TARP Capital Purchase Program,” www.treas.gov, accessed 1/9/2009.
                                                                                     INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009                 63




Lobbying and Expense Requirements
The AIG Securities Purchase Agreement also contains requirements on lobbying and
on expenses.
• Lobbying Restrictions: AIG is required to maintain and implement its compre-
    hensive written policy on lobbying, governmental ethics, and political activity.
    Any significant changes to the policy must be approved by Treasury, and any
    deviations from the policy must be reported to Treasury. The policy, which
    applies to all AIG employees, must govern the provision of items of value to
    government officials, lobbying and political activities, and contributions.
• Expense Restrictions: AIG is also required to maintain and implement its
    comprehensive written policy on corporate expenses. Any significant changes
    to the policy must be approved by Treasury, and any deviations from the
    policy must be reported to Treasury. The policy, which must apply to all AIG
    employees, governs the hosting, sponsorship, or other payment for conferences
    and events; the use of corporate aircraft; travel accommodations and expen-
    ditures; consulting arrangements; acquisition of real estate; expenses relating
    to office renovations or relocation; and expenses relating to entertainment or
    holiday parties. The policy also must provide for internal reporting, oversight and
    mechanisms for addressing non-compliance of the policy.119

    Table 3.6 provides a summary of the expenses and lobbying requirements.



TABLE 3.6

EXPENSE AND LOBBYING REQUIREMENTS FOR AIG
Requirement               Definition                                                                Requirements for Compliance
Lobbying Policy           Company policy governing the provisions of items of                       Comply with applicable policy.
                          value to any U.S. government officials and the lobbying
                          of those officials, as well as any U.S. political activity and            Apply this policy to all company employees, including those of
                          contributions                                                             subsidiaries and affiliated entities.

                                                                                                    Provide for internal oversight and reporting, as well as mechanisms
                                                                                                    to address non-compliance with the policy.
Expense Policy            Company policy governing:                                                 Comply with policy.
                          • hosting and sponsorship for conferences and events
                          • corporate aircraft use                                                  Apply this policy to all company employees, including those of
                          • travel accommodations and expenditure                                   subsidiaries and affiliated entities.
                          • consulting agreements with outside providers                            Provide for internal oversight and reporting as well as mechanisms
                          • any new lease or acquisition of real estate                             to address non-compliance with the policy.
                          • office or facility renovations/relocations
                          • entertainment/holiday parties

Note: Any material amendments made to either of these policies must be approved by Treasury. Any material deviations from such policy must be promptly reported to Treasury.

Source: AIG Securities Purchase Agreement, 11/25/2008.
64   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                         Citigroup Inc.
                                         Despite having received $25 billion in CPP funds on October 28, 2008,120 Citigroup
                                         suffered significant instability shortly thereafter. On November 23, 2008, a package
                                         of transactions with Citigroup was announced that were intended to prevent
                                         Citigroup’s problems from destabilizing the institution and negatively affecting the
                                         financial system at large.121

                                         TARP Assistance to Citigroup
                                         As of January 23, 2009, Treasury had committed $45 billion to Citigroup. Treasury
                                         will also provide certain loss protections of up to $5 billion on a select pool of
                                         Citigroup’s troubled assets.122 For a timeline of this assistance, see Figure 3.10.
                                         Treasury has provided this assistance under three TARP programs:

                                         •     Capital Purchase Program (“CPP”). On October 28, 2008, Treasury invested
                                               $25 billion in Citigroup through CPP — the maximum amount allowed for
                                               investment to any institution.123 For more information, see Section 3: “Capital
                                               Purchase Program.”
                                         •     Targeted Investment Program (“TIP”). On November 23, 2008, Treasury
                                               announced that it would invest an additional $20 billion from TARP to purchase
                                               preferred stock with an 8% annual dividend124 payable quarterly, as well as
                                               warrants of common stock. The deal closed on December 31, 2008. The
                                               funding comes with restrictions, among other things, on executive compensa-
                                               tion.125 This investment occurred prior to the formal announcement of the
                                               Targeted Investment Program.
                                         •     Asset Guarantee Program (“AGP”). The TARP Asset Guarantee Program,
                                               defined in Section 102 of EESA, authorizes the Secretary of Treasury to guar-
                                               antee troubled assets and collect premiums in return.126 On January 16, 2009,127
                                               Treasury, in partnership with FDIC and the Federal Reserve, provided certain

                                         FIGURE 3.10

                                         TIMELINE OF TREASURY’S ASSISTANCE TO CITIGROUP


                                         OCTOBER 2008                       NOVEMBER 2008                      DECEMBER 2008                       JANUARY 2009



                                                       OCTOBER 28                                                              DECEMBER 31                  JANUARY 16
                                                         $25 Billion                                                              $20 Billion               $5 Billion
                                                             (CPP)                                                                     (TIP)                Guarantee
                                                                                                                                                            (AGP)

                                         Note: Numbers affected by rounding.

                                         Source: Treasury, Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
                                                                            INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009     65




TABLE 3.7


TARP FUNDING PROVIDED TO CITIGROUP — CPP & TIP
TARP
Program            Cost              Date of Agreement   Description          Investment Specifics            Dividends            Term of Agreement
                                                                                                              5% for first 5 years,
                                     10/28/2008          Preferred Equity     $25 billion                                           Perpetual
                                                                                                              9% after
       a
CPP                $25 billion
                                                         Common Stock         15% of Preferred Equity,
                                     10/28/2008                                                               N/A                  10 years
                                                         Warrants             Strike Price = $17.85/share
                                     12/31/2008
                                                         Preferred Equity     $20 billion                     8%                   Perpetual
TIPb               $20 billion
                                                         Common Stock         188,501,414
                                     12/31/2008                                                               N/A                  10 years
                                                         Warrants             Strike Price = $10.61/share

Sources:
a
  Citigroup Securities Purchase Agreement, 10/28/2008.
b
  Citigroup Securities Purchase Agreement, 12/31/2008.



           loss protections with respect to $301 billion in troubled assets held by Citigroup,
           subject to certain deductibles. In return for the guarantees provided by Treasury
           and FDIC, the U.S. government collected $7 billion in premiums in the form of
           preferred stock and warrants; $4 billion of that amount and all of the warrants
           were received by Treasury. Citigroup must also implement a mortgage modifica-
           tion program.128

   For a summary of TARP funding provided to Citigroup, see Table 3.7. Terms
used in the table are explained in detail in the next section.

Economic Terms of the Citigroup Deals
Each of the three TARP programs specifies terms and conditions with which
Citigroup must comply. Citigroup is bound by securities purchase agreements under
CPP and TIP, as well as an asset guarantee agreement under AGP. The agreement
made under TIP describes the process by which preferred shares are purchased and
warrants can be exercised. The agreement under AGP provides the terms and condi-
tions for guarantees and loss protections on a select pool of assets. For the terms and
conditions with which Citigroup must comply under CPP, see Section 3: “Capital
Purchase Program.”

Targeted Investment Program Terms
According to the Securities Purchase Agreement, Citigroup issued to Treasury
20,000 shares of preferred stock in exchange for $20 billion in TARP funding.
Citigroup will pay 8% annual dividends on the preferred stock. Payments will be
made on a quarterly basis on February 15, May 15, August 15, and November 15 of
each year.129
66   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                              Table 3.8 shows the details of this purchase.

                                         TABLE 3.8

                                         TIP PURCHASE DETAIL — PREFERRED SHARES
                                                                  Number of Preferred           Dividend             Term of
                                         Institution              Shares                        Rate                 Agreement          Program
                                         Citigroup Inc.           20,000                        8%                   Perpetual          TIP

                                         Source: Citigroup Securities Purchase Agreement, 12/31/2008.


                                             Under the Securities Purchase Agreement, a warrant to purchase 188,501,414
                                         shares of common stock was issued at a strike price of $10.61 per share. With a
                                         stock price of $3.47 on January 23, 2009, this warrant is “out of the money.”
                                         The term of the warrant is for 10 years and is immediately exercisable in whole or
                                         in part.130 Table 3.9 shows the details of this purchase. For more information on the
                                         mechanics of warrants, see Section 2: “TARP Mechanics.”


                                         TABLE 3.9


                                         TIP PURCHASE DETAIL — WARRANTS
                                                                                                                Stock Price at
                                         Institution              Warrants               Strike Price           1/23/09                 Program
                                         Citigroup Inc.a          188,501,414            $10.61b                $3.47b                  TIP

                                         Sources:
                                         a
                                           Citigroup: Securities Purchase Agreement, 12/31/2008.
                                         b
                                           New York Stock Exchange, www.nyse.com, accessed 1/24/2009.


                                         Asset Guarantee Program Terms
                                         On January 16, 2009, Treasury, FDIC, and the Federal Reserve announced the
                                         finalized agreement to provide certain loss protections with respect to $301 billion in
                                         troubled assets held by Citigroup.131 In return for this insurance, Citigroup provided
                                         Treasury $4 billion in preferred stock that pays an 8% dividend. Treasury also will
                                         have the option to exercise 66,531,728 warrants at a strike price of $10.61. FDIC
                                         will receive $3 billion in preferred stock that pays an 8% dividend.132 Terms associ-
                                         ated with the Citigroup premiums are summarized in Table 3.10.

                                         TABLE 3.10


                                         CITIGROUP PREMIUMS FOR AGP PROTECTIONS
                                         Agency              Premium                   Dividend         Warrant                Strike Price
                                         Treasury            $ 4.034 billion           8%               66,531,728             $10.61
                                         FDIC                $ 3.025 billion           8%               N/A                    N/A
                                         TOTAL               $ 7.059 BILLION                            66,531,728             $10.61

                                         Note: Numbers affected by rounding. Premiums paid with issuance of preferred shares
                                         Source: Citigroup Securities Purchase Agreement, 1/15/2009.
                                                                                        INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009           67




    According to the terms of the AGP agreement, the guarantee works like an insur-
ance program with a deductible. If there are losses on the assets, Citigroup absorbs                                            Deductible: The portion of a claim that
the first $39.5 billion133 before TARP funds apply. Only if the bank’s losses exceed                                            is paid by the recipient of the guarantee
this deductible do the U.S. government’s protections apply.                                                                     before any payment is made by the
    If the losses on these assets exceed $39.5 billion, Citigroup will absorb 10% of                                            provider of the guarantee. For example,
all additional losses on the pool of assets. So, after the first $39.5 billion in losses,                                       after an automotive accident, a car owner
Treasury would absorb 90% of losses until its $5 billion maximum is reached. Next,                                              typically pays the deductible for repairs
FDIC would absorb 90% of losses until it reaches its $10 billion maximum. The                                                   before the insurance company covers the
                                                                                                                                remaining damages.
Federal Reserve agreed to provide Citigroup non-recourse loans backed by these
assets with the same 90%/10% loss-sharing provision if the coverage from Treasury
                                                                                                                                Non-recourse Loan: A non-recourse loan
and FDIC is exhausted.134 The actual dollar value of these obligations would depend                                             is a secured loan whereby the borrower
on the losses incurred as well as the deductibles, loss sharing provisions, and other                                           is relieved of the obligation to repay the
terms of the agreements. Figure 3.4 depicts how the deductibles and loss-sharing                                                loan upon the surrender of the collateral.
apply to the pool of protected assets.

Conditions and Restrictions
Although similar in many aspects, the conditions and restrictions on Citigroup in its
Securities Purchase Agreement differ from those in the AIG agreement, including
additional restrictions on executive compensation, internal controls/access to infor-
mation, and dividends.135 The Eligible Asset Guarantee agreement also includes
a provision for the implementation of a mortgage modification program.136 The
following discussion elaborates on these additional restrictions.




FIGURE 3.4

U.S. GOVERNMENT GUARANTEES AND LOSS PROTECTIONS TO CITIGROUP
$ Billions



                                                                                                    Non-recourse
                         Loss 1                    Loss 2                   Loss 3                          Loan               Total

                 0                  $39.5                     $45.1                    $56.2                                   $301
Citigroup                  $39.5                      $0.6                      $1.1                          $24.5            $65.7
Treasury                       —                      $5.0                        —                               —             $5.0
FDIC                           —                         —                    $10.0                               —            $10.0
Federal Reserve                —                         —                        —                         $220.4            $220.4
                          $39.5                       $5.6                    $11.1                         $244.8            $301.0

Note: Numbers affected by rounding. According to the Federal Reserve, Citigroup’s loss position is “exclusive of reserves.”

Sources: Citigroup Master Agreement, 1/15/2009.
Federal Reserve, response to SIGTARP draft report, 1/29/2009.
       68      SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         Executive Compensation
                                                         Under the Securities Purchase Agreement, Citigroup has agreed to follow the execu-
                                                         tive compensation restrictions set forth for CPP and EESA Section 111(b). These
                                                         requirements can be found in the previous section on CPP. Additional restrictions for
                                                         Citigroup are defined in the Securities Purchase Agreement in the following ways:

                                                         •     Golden parachutes: Citigroup has agreed to restrictions regarding golden
Senior Leadership Committee: Part                              parachutes, where senior leadership, defined as employees who are members
of Citigroup’s corporate governance                            of the Company’s “senior leadership committee,” are prohibited from receiving
structure, the Senior Leadership                               golden parachute payments beyond three times their base amount. In addition,
Committee comprises senior leaders
                                                               Citigroup has agreed to expand the definition of golden parachutes to prohibit
including the CEO and CFO. As of January
                                                               the payment of all severance payments to Citigroup’s top five SEOs, which are
23, 2009, there were 50 members of
                                                               the Principal Executive Officer (“PEO”), Principal Finance Officer (“PFO”), and
this committee. Citigroup posts the
committee members on its website (www.                         the next three highest paid executives of Citigroup.137
citigroup.com/citi/corporategovernance/                  •     Bonuses: Bonus restrictions apply to both SEOs and Citigroup’s senior leader-
slc.htm).                                                      ship members under the agreement. Citigroup must also comply with a 40%
                                                               reduction, as compared to the 2007 bonus pool, for the members of the senior
                                                               leadership committee. 138

                                                             Table 3.11 describes the bonus compensation terms applicable to Citigroup. AIG
                                                         and Citigroup share similar requirements on expenses, lobbying, and repurchase of
                                                         stock. For details, see Section 3: “AIG.”




TABLE 3.11

EXECUTIVE COMPENSATION TERMS FOR CITIGROUP
Restriction                 Employees Applicable To                   Definition                                   Requirements for Compliance
Bonus Compensation          SEOs (the five highest paid) and senior   All payments (cash and assets) made in       Bonus compensation may not exceed 60%
                            leadership (members of the senior         excess of the executives’ base salary paid   of the prior year’s bonus compensation,
                            leadership committee)                     each fiscal year, which do not include:      by position.
                                                                      • benefits available to all employees        The Bonus Pool Cap in FY 2009 may be
                                                                      • supplemental retirement benefits that      increased by the company if a written
                                                                          senior executives and leadership are     submission detailing the basis for the
                                                                          already enrolled in as of 12/31/2008     change is approved by Treasury Assistant
                                                                      • expatriate programs generally available    Secretary for the Office of Financial
                                                                      • incentive compensation that is long-term   Stability.
                                                                          and performance-based, vesting in FY
                                                                          2009 and FY 2010                         • 60% of any Bonus Compensation given
                                                                      • sign-on awards for any senior executives     in FY 2008 is payable, at Citigroup’s
                                                                          and leadership starting in FY 2009         discretion, as a deferred stock or cash
                                                                                                                     award
                                                                                                                   • 40% shall be payable subject to
                                                                                                                     performance-based vesting.

Source: Citigroup Securities Purchase Agreement, 12/31/2008.
                                                                  INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   69




Internal Controls/Access to Information
Under the Securities Purchase Agreement, Citigroup has agreed to establish
appropriate internal controls to ensure that conditions are being met for corporate
expenses, executive compensation, and dividend and stock repurchase. Internal
controls must also be set up to monitor effectively Citigroup’s use of TARP funds.
    Citigroup is required to report each quarter on the status and compliance of the
above conditions. Each quarterly report must be signed off by a senior executive and
certified under criminal penalty that TARP conditions are being met and detailing
how TARP funds are being used.139
    Treasury is also requiring Citigroup submit to examination of corporate books
to allow transparent discussion of the company’s affairs and finances as well as
review of any information provided to their appropriate federal banking agen-
cies. Participants will also be required to permit Treasury, SIGTARP, and the GAO
(U.S. Comptroller) to have access to personnel and any records or data relevant to
ascertaining compliance with the terms and conditions.140

Restrictions on Dividends
Citigroup is not allowed to declare or pay any dividend on its common stock other
than the following stipulations:

•   regular, quarterly cash dividend of not more than $0.01 per share
•   dividends payable solely in shares of common stock
•   dividends or distributions of rights of Junior Stock (i.e., preferred shares junior
    in seniority to Treasury’s shares issued) in connection with stockholders’ rights
    plans141

Bank of America Corporation
Despite having received $15 billion in CPP funds on October 28, 2008, and an addi-
tional $10 billion in CPP on January 9, 2009142 (post-acquisition of Merrill Lynch),
Bank of America faced significant instability by early January 2009. The company’s
troubled assets threatened to destabilize the institution and negatively affect the
financial system at large. On January 16, 2009, the U.S. government announced
agreements with Bank of America that included TARP funds.143
        70        SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                          TARP Assistance to Bank of America
                                                                          As of January 23, 2009, Treasury had committed $45 billion to Bank of America.144
                                                                          Treasury has also announced the intent to provide certain loss protections of up to
                                                                          $7.5 billion on a select pool of Bank of America troubled assets.145 For a timeline of
                                                                          this assistance, see Figure 3.11.
                                                                              Treasury has provided (or announced its intent to provide) this assistance under
                                                                          three TARP programs:

                                                                          •      Capital Purchase Program. On October 28, 2008, Treasury first invested $15
                                                                                 billion in Bank of America through CPP. At the same time, Merrill Lynch was
                                                                                 allocated $10 billion, but because Bank of America announced on September
                                                                                 15, 2008,146 that it intended to acquire Merrill Lynch, the funds were put on
                                                                                 hold until the acquisition took place on January 1, 2009.147 The funds were
                                                                                 released to Bank of America on January 9, 2009.148 This brought Treasury’s CPP
                                                                                 investment to $25 billion.149
                                                                          •      Targeted Investment Program. Seven days following this transaction, on
                                                                                 January 16, 2009, Treasury announced that it would invest an additional $20
                                                                                 billion of TARP funds through the Targeted Investment Program. These funds
                                                                                 purchased preferred stock with an 8% annual dividend, payable quarterly, as
                                                                                 well as warrants of common stock. Like the Citigroup deal, funding came with
                                                                                 restrictions on executive compensation, expense policy, lobbying policy, and
                                                                                 dividend repurchase restrictions.150
                                                                          •      Asset Guarantee Program. On January 16, 2009, Treasury, in partnership
                                                                                 with FDIC and the Federal Reserve, indicated the U.S. government’s intent to
                                                                                 provide certain loss protection for approximately $118 billion in troubled assets
                                                                                 held by Bank of America subject to deductibles.151 In return for the guarantees
                                                                                 provided by Treasury and FDIC, the U.S. government would collect premiums
                                                                                 in the form of $4 billion in preferred shares and warrants of common stock.
FIGURE 3.11

TIMELINE OF TREASURY’S ASSISTANCE TO BANK OF AMERICA


OCTOBER 2008                         NOVEMBER 2008                       DECEMBER 2008                         JANUARY 2009           FUTURE



              OCTOBER 28                                                                                 JANUARY 9      JANUARY 16             TBD
                $15 Billion                                                                               $10 Billion   $20 Billion            $7.5 Billion
                    (CPP)                                                                                     (CPP)     (TIP)                  (AGP)



Note: Numbers affected by rounding.

Sources: Treasury, Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
FDIC, “Explanation of FDIC’s Loss Sharing Exposure,” 1/16/2009, www.fdic.gov, accessed 1/23/2009.
                                                                             INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   71




TABLE 3.12

TARP FUNDING PROVIDED TO BANK OF AMERICA — CPP & TIP
TARP                                      Date of                                                                               Term of
Program           Cost                    Agreement            Description        Investment Specifics       Dividends          Agreement
                                                                                                             5% for first 5
                                          10/28/2008           Preferred Equity   $15 billion                                    Perpetual
CPPa                                                                                                         years, 9% after
                  $15 billion
                                                               Common Stock       15% of Preferred Equity
                                          10/28/2008                                                         N/A                10 years
                                                               Warrants           Strike Price = $30.79
                                                                                                             5% for first 5
                                          1/9/2009             Preferred Equity   $10 billion                                   Perpetual
                                                                                                             years, 9% after
CPPb              $10 billion
                                                               Common Stock       15% of Preferred Equity
                                          1/9/2009                                                           N/A                10 years
                                                               Warrants           Strike Price = $30.79
                                          1/16/2009            Preferred Equity   $20 billion                8%                 Perpetual
TIPc              $20 billion                                  Common Stock       150,375,940 Strike Price =
                                          1/16/2009                                                           N/A               10 years
                                                               Warrants           $13.30/share

Sources:
a
  Bank of America Securities Purchase Agreement, 10/26/2008.
b
  Bank of America Securities Purchase Agreement, 1/9/2009.
c
  Bank of America Securities Purchase Agreement, 1/15/2009.



       There would also be a requirement to implement a mortgage modification
       program.152 As of January 23, 2009, the AGP transaction has not closed, and
       the description herein is based solely on the intended terms announced by the
       parties.

   For details of the funding provided to Bank of America, see Table 3.12. Terms
used in the table are explained in detail in the next section.

Economic Terms of the Bank of America Deals
Each of the three TARP programs specifies terms and conditions with which Bank
of America must comply. Bank of America is bound by securities purchase agree-
ments under CPP and TIP and would be covered under an eligible asset guarantee
agreement through the AGP program. The agreement made under TIP describes the
process by which preferred shares are purchased and warrants can be exercised. For
the terms and conditions with which Bank of America must comply under CPP, see
Section 3: “Capital Purchase Program.”

Targeted Investment Program Terms
According to the Securities Purchase Agreement, 800,000 shares of preferred stock
have been issued to Treasury in exchange for $20 billion in TARP funding. Bank of
America will pay 8% dividends on the preferred stock. Payments will be made on a
quarterly basis on February 15, May 15, August 15, and November 15 of each year.
Table 3.13 shows the details of this purchase.
72   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                         TABLE 3.13

                                         TIP PURCHASE DETAIL — PREFERRED SHARES
                                                                  Number of Preferred            Dividend             Term of
                                         Institution              Shares                         Rate                 Agreement             Program
                                         Bank of America          800,000                        8%                   Perpetual             TIP
                                         Corporation

                                         Source: Bank of America Securities Purchase Agreement, 1/15/2009.


                                             Under the Securities Purchase Agreement, a warrant to purchase 150,375,940
                                         shares of common stock was issued at a strike price of $13.30 per share. On January
                                         23, 2009, the stock price of Bank of America was $6.24,153 so this warrant is out of
                                         the money. The term of the warrant is for 10 years, exercisable immediately, in whole
                                         or in part.154 Table 3.14 shows the details of this purchase.


                                         TABLE 3.14

                                         TIP PURCHASE DETAIL — WARRANTS
                                                                                          Strike Price           Stock Price at
                                         Institution              Warrants                (per share)            1/23/09                    Program
                                         Bank of America          150,375,940             $13.30                 $6.24b                     TIP
                                         Corporationa

                                         Sources:
                                         a
                                           Bank of America Securities Purchase Agreement, 1/15/2009.
                                         b
                                           New York Stock Exchange, www.nyse.com, accessed 1/24/2009.


                                         Asset Guarantee Program Terms
                                         On January 16, 2009, Treasury, FDIC, and the Federal Reserve announced their
                                         intention to provide certain loss protections with respect to $118 billion155 in trou-
                                         bled assets held by Bank of America. In return for this insurance, Bank of America
                                         would provide the U.S. government (Treasury and FDIC) $4 billion in preferred
                                         stock paying an 8% dividend. Treasury also would have the option to exercise
                                         attached warrants at a strike price not yet determined.156 Preliminary terms associ-
                                         ated with Bank of America protections are summarized in Table 3.15.


                                         TABLE 3.15

                                         ANNOUNCED BANK OF AMERICA PREMIUMS FOR AGP PROTECTIONS
                                         Agency                 Premium           Dividend         Warrants
                                         Treasury/FDIC          $4 Billion        8%               Exercise value of 10% of the total amount of shares
                                                                                                   issued.

                                         Note: Numbers affected by rounding. The details in this table are based on preliminary terms announced by Treasury
                                         and FDIC on 1/16/2009. The premium would be paid through the issuance of preferred shares.
                                         Sources: Bank of America Corporation “Summary of Terms Eligible Asset Guarantee,” 1/15/2009.
                                                                                     INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   73




    Based on the preliminary terms announced on January 16, 2009, if the losses on
these assets exceed $10 billion, Bank of America would absorb 10% of the additional
losses of the pool of assets, and the U.S. government would absorb the rest. So, after
the first $10 billion in losses, Treasury and FDIC would absorb 90% of losses until
their $10 billion maximum is reached. According to the preliminary term sheet, the
Federal Reserve would provide Bank of America non-recourse loans backed by these
assets with the same 90%/10% loss-sharing provision if the coverage from Treasury
and FDIC were to be exhausted.157 The actual dollar value of these obligations would
depend on the losses incurred as well as the deductibles, loss sharing provisions, and
other terms of the future agreements. Figure 3.12 depicts how the deductibles and
loss-sharing would apply to the pool of protected assets.

Conditions and Restrictions
The announced Bank of America agreements contain conditions similar to
Citigroup’s. They pertain to the purchase of the preferred equity and warrants, as
well as the treatment of dividends and repurchase of its own stock, and lay out
various restrictions, including those on internal controls and access to informa-
tion.158 The announced Eligible Asset Guarantee summary of terms includes a
provision for the implementation of a mortgage modification program.159 For more
information, refer to the discussion of Citigroup, presented earlier in this section.




FIGURE 3.12

ANNOUNCED U.S. GOVERNMENT GUARANTEES AND LOSS PROTECTIONS
TO BANK OF AMERICA
$ Billions


                                                                        Non-recourse
                        Loss 1                   Loss 2                         Loan              Total

                0                 $10.0                    $21.1                                $118.0
Bank of America           $10.0                     $1.1                           $9.7           $20.8
Treasury                      —                     $7.5                              —            $7.5
FDIC                          —                     $2.5                              —            $2.5
Federal Reserve               —                        —                         $87.2            $87.2
                         $10.0                    $11.1                          $96.9          $118.0

Note: Numbers affected by rounding. The details in this graphic are based on preliminary terms announced
by the Treasury, Federal Reserve and FDIC on 1/16/2009.

Sources: FDIC, “FDIC Press Release,” 1/16/2009, www.FDIC.gov, accessed 1/23/2009.
Bank of America AGP Agreement, “Summary of Terms, Eligible Asset Guarantee,” 1/15/2009.
      74     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 General Motors
                                                 On December 19, 2008, Treasury established the Automotive Industry Financing
                                                 Program (“AIFP”).160 The former Treasury Secretary explained,

                                                           [W]e have acted to support General Motors and Chrysler, with the
                                                           requirement that they move quickly to develop and adopt accept-
                                                           able plans for long term viability. This step will prevent significant
                                                           disruption to our economy while putting the companies on a path to
                                                           the significant restructuring necessary to achieve long-term viability.
                                                           At the same time, we are including loan provisions to protect the
                                                           taxpayers to the maximum extent possible.

                                                           Treasury will make these loans using authority provided for the
                                                           Troubled Asset Relief Program. While the purpose of this program
                                                           and the enabling legislation is to stabilize our financial sector, the
                                                           authority allows us to take this action. Absent Congressional action,
                                                           no other authorities existed to stave off a disorderly bankruptcy of
                                                           one or more auto companies.161

                                                     Under AIFP, Treasury will provide General Motors Corporation (“GM”) with up
                                                 to $13.4 billion in short-term financing from TARP.162 The agreement is intended to
                                                 accomplish the following goals:

                                                 •    Enable the automaker and its subsidiaries to develop a viable and competitive
                                                      business that minimizes adverse effects on the environment.
                                                 •    Enhance the ability and the capacity of the automaker and its subsidiaries to
                                                      pursue the timely and aggressive production of energy-efficient advanced tech-
                                                      nology vehicles.
                                                 •    Preserve and promote jobs for workers employed directly by the automaker and
                                                      its subsidiaries and in related industries.
                                                 •    Safeguard the ability of the automaker and its subsidiaries to provide retirement
                                                      and health care benefits for their retirees and dependents.
                                                 •    Stimulate manufacturing and sales of automobiles.163

                                                    On December 29, 2008, GM also received $884 million under a separate loan
Rights Offering: Offering of common
stock to current shareholders, allowing
                                                 from TARP to purchase GMAC stock in a rights offering.164
them to buy future issues at a discount
from the offering price.                         TARP Assistance to General Motors
                                                 As of January 23, 2009, total TARP funds committed to GM under AIFP was $10.3
                                                 billion.165 On December 31, 2008, Treasury lent $4 billion to GM, and $5.4 billion
                                                 followed on January 21, 2009. An additional $884 million was loaned in connection
                                                                  INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   75




with GM’s participation in GMAC’s rights offering on December 29, 2008. On
February 17, 2009, $4 billion more will be provided to GM.166 The loan expires in
2011, and the interest rate is a variable rate equal to 3% or 8% (if the company is
in default of its terms under the agreement) plus LIBOR. The interest rate is reset
annually on the interest payment date.167
     This agreement requires GM to submit by February 17, 2009, a restructuring
plan to achieve long-term viability for review by the President’s Designee. If the goals
of the restructuring plan are not met, the agreement provides for early repayment of              LIBOR: London Interbank Offered Rate; a
the loan. The agreement includes executive compensation restrictions and expense                  short-term interest rate that banks charge
controls designed to protect taxpayer funds.168                                                   when lending money to other banks, often
                                                                                                  quoted as a one-, three-, or six-month rate
    Treasury also signed an agreement to lend up to $1 billion of TARP funding for
                                                                                                  for U.S. dollars.
GM to participate in a rights offering by GMAC in support of GMAC’s reorganiza-
tion as a bank holding company.169 The ultimate level of funding was dependent
                                                                                                  President’s Designee: One or more
on the level of investor participation in GMAC’s rights offering and totals $884                  officers from the Executive Branch desig-
million.170 The loan is secured by GMAC equity interests owned by GM and new                      nated by the President.
equity interests being acquired by GM in the rights offering. The loan is exchange-
able at any time, at Treasury’s option, for the GMAC equity interests acquired by                 Bank Holding Company: A company that
GM in the rights offering.171 Details of GMAC’s reorganization as a bank holding                  owns and/or controls one or more U.S.
company are discussed later in this Section.                                                      banks.


Terms and Conditions of GM Deal
The stated intent of the terms and conditions of financing to the domestic automo-
tive industry is to facilitate restructuring, to prevent disorderly bankruptcies, and to
protect the taxpayer by ensuring that only financially viable firms receive assistance.

Loan Collateral
The loan to GM is secured by various collateral, including GM’s tangible or intan-
gible property, intellectual property, cash and cash equivalents, and products and
proceeds relating to other collateral. Under the GM agreement, a mandatory
prepayment clause requires GM to repay part of the loan under certain circum-
stances, including the sale of Treasury’s collateral other than in the ordinary course
of business. Amounts that are repaid to Treasury by GM cannot be reborrowed.172

Executive Compensation
GM must comply with the executive compensation provisions established under the
loan agreement, which limits executive compensation as follows:

•   Golden parachutes. GM must comply with the provisions which expanded the
    definition of golden parachute (beyond CPP terms) to prohibit all severance
    payments to GM’s SEOs,173 which are defined as the PEO, PFO, and the next
    three highest paid executives.
76   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             •   Bonuses. GM’s senior employees (who are defined as the as the 25 most highly
                                                 compensated employees) may not receive bonuses or incentive compensation
                                                 unless approved by the President’s Designee.174
                                             •   Compensation Plan. GM also cannot adopt a compensation plan that encourages
                                                 manipulation of earnings to enhance compensation, and all suspensions and
                                                 restrictions to benefit plans in place at the closing date must remain in place.175

                                             GM must also comply with other executive compensation provisions under EESA
                                             and CPP. Additional CPP provisions are noted earlier in this Section.

                                             Expense Control
                                             The expense policy requirements for the GM deal are the same as discussed earlier
                                             for AIG. GM must sell any private passenger aircraft or interest in such aircraft and
                                             cannot acquire or lease any private passenger aircraft for the investment’s duration.

                                             Restructuring Plan and Targets
                                             The loan agreement requires GM to submit a restructuring plan to achieve long-
                                             term viability, international competitiveness, and energy efficiency by February 17,
                                             2009. The loan agreement provides for acceleration of the loan repayment if certain
                                             goals are not met. The restructuring plan must include specific actions intended to
                                             result in the following:

                                             •    repayment of the loan amount and other financing extended by the government
                                             •    the ability of the company and its subsidiaries to comply with applicable federal
                                                  requirements for fuel efficiency and emissions
                                             •    domestic manufacturing of advanced technology vehicles
                                             •    the achievement of positive net present value, using reasonable assumptions and
                                                  taking into account all existing and projected future costs, including repayment
                                                  of the loan amount and any other financing extended by the government
                                             •    rationalization of costs, capitalization, and capacity with respect to the manufac-
                                                  turing workforce, suppliers, and dealerships of the company and its subsidiaries
                                             •    a product mix and cost structure that is competitive in the U.S. marketplace

                                                 The restructuring plan is to extend through 2014. It must include detailed
                                             historical and projected financial statements with supporting schedules and addi-
                                             tional information as requested by the President’s Designee.176
                                                 In addition to the restructuring plan, the automakers must use their best efforts
                                             to reduce unsecured public debt and compensation and apply work rules comparable
                                             to those U.S. employees of Nissan Motor Company, Toyota Motor Corporation, or
                                             American Honda Motor Company by December 31, 2009. To accomplish these
                                             targets, GM must submit term sheets signed by labor unions and creditors agreeing
                                             to restructuring targets to the President’s Designee by February 17, 2009.177
                                                                                   INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   77




Reporting Requirements
GM is required to report progress to Treasury regularly. By March 31, 2009, GM
must submit a Restructuring Plan Report detailing the progress made toward imple-
menting the plan. The report must also include updates on restructuring targets,
identifying any changes to the targets, the rationale for the changes, and explana-
tions as to why the changes do not jeopardize the company’s long-term viability.178 
    The President’s Designee will review the report and supporting documentation to
determine if the company has taken the steps necessary to achieve and sustain long-
term viability, international competitiveness, and energy efficiency. The President’s
Designee will issue a Plan Completion Certification if the standards outlined in the
Restructuring Plan have been met. If the Restructuring Plan Report has not been
certified within 30 days after March 31, 2009 (the certification deadline), the loan
repayment schedule will be accelerated.179 
    In addition to the Restructuring Plan and Restructuring Plan Report, GM must
submit periodic reports and certifications to Treasury on its liquidity status and
adherence to terms and conditions stipulated in the TARP loan agreement.180
Table 3.16 outlines the reporting requirements for GM under the loan agreement.

Oversight
For the duration of the loan, GM must allow Treasury and its agents, consultants,
contractors, and advisors, as well as SIGTARP and GAO, access to personnel and
any books, papers, records, or other data that may be relevant to ensure compli-
ance with the financing terms and conditions.181 GM must also notify the President's
Designee in advance of any transaction of more than $100 million not made in the
ordinary course of business. The President’s Designee has the right to review and
prohibit the transaction if it is inconsistent with or detrimental to the long-term
viability of the company.182

TABLE 3.16

REPORTING REQUIREMENTS FOR AUTOMAKERS
Report Type                                          Due Date               Frequency
Restructuring Plan                                   2/17/2009              Once
Restructuring Plan Report                            3/31/2009              Once
Cash Forecast Status Report                          12/15/2008             Weekly (13-week rolling forecast)
Liquidity Status Report                              After Closing Date     Bi-weekly
Expense Certification Statement                      After Closing Date     Monthly
Executive Compensation Certification Statement After Closing Date           Quarterly
Financial Statements                                 As Reported            As Reported

Sources: GM Agreement, “Loan And Security Agreement By and Between The Borrower Listed on Appendix A As Bor-
rower and The United States Department of Treasury as Lender Dated as of December 31, 2008”; Chrysler Agreement,
“Loan And Security Agreement By and Between The Borrower Listed on Appendix A As Borrower and The United States
Department of Treasury as Lender Dated as of December 31, 2008.”
      78      SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                  Chrysler
                                                  On January 2, 2009, Treasury provided a three-year, $4 billion loan to Chrysler
                                                  Holding LLC (“Chrysler”) under AIFP.183 The terms and conditions of this agree-
                                                  ment are the same as the TARP deal to GM discussed in “Terms and Conditions of
                                                  GM Deal,” in this Section. The loan is secured by collateral, such as parts inventory,
                                                  real estate, and certain equity interests held by Chrysler.184  

                                                  GMAC
                                                  TARP funds were also used to assist auto finance companies. GMAC and Chrysler
                                                  Financial both received assistance under AIFP. According to the Interim Assistant
                                                  Secretary for Financial Stability:

                                                            Because the finance companies serve as the lifeblood of the auto-
                                                            makers, we knew that our program would need to address the short-
                                                            term needs of the auto finance companies as well.185

                                                      The Federal Reserve Board approved an application for GMAC to reorganize
Senior Preferred Equity: Stock with a             as a bank holding company in December 2008. As part of this reorganization, the
senior liquidation preference, in which the       Federal Reserve Board required GMAC to increase capital by raising $7 billion of
owner is entitled to receive its liquidation      new equity. TARP funded $5 billion through a purchase of senior preferred equity,186
preference before other series of                 and GMAC conducted a rights offering for the remaining capital requirement. As
preferred stock.                                  part of this rights offering, GM and Cerberus (majority shareholder) entered into
                                                  agreements to purchase new common equity.187 Treasury loaned GM $884 million
                                                  through TARP to participate in the GMAC rights offering.188
                                                      Although GM owned a significant portion of GMAC, Cerberus owned a majority
                                                  of the GMAC shares. As a condition of the Federal Reserve’s approval order, neither
                                                  GM nor Cerberus may retain a controlling interest in GMAC. Because of this, GM
                                                  will reduce its ownership interest in GMAC to less than 10%. GM’s remaining equity
                                                  interest in GMAC will be transferred to a trust managed by trustees approved by the
                                                  Federal Reserve Board and Treasury (completely independent of GM).189
                                                      GMAC will make changes to its Board of Directors, which will be reconstituted
                                                  no later than March 24, 2009, comprising seven members: the GMAC CEO, one
                                                  representative from FIM Holdings LLC (a subsidiary of Cerberus), two directors
                                                  appointed by a trust to be formed by Treasury, and three independent directors
                                                  elected by the other directors. In addition, GM and FIM Holdings LLC are each
                                                  entitled to one non-voting observer on the board.190

                                                  TARP Assistance to GMAC
                                                  On December 29, 2008, Treasury purchased $5 billion of senior preferred equity
                                                  with an 8% annual dividend from GMAC. Under the agreement, GMAC issued
                                                  warrants to Treasury to purchase additional preferred equity at a price of $.01 in an
                                                                INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   79




amount equal to 5% of the total preferred stock purchase. These warrants were exer-
cised at closing of the investment transaction for additional preferred equity with a
9% annual distribution.191 As mentioned in GM, Treasury also provided an
$884 million loan to General Motors to support GMAC’s reorganization as a bank
holding company by purchasing common equity from GMAC in a rights offering.192 

Terms and Conditions of GMAC Deal
Under the stock purchase agreement, GMAC must comply with restrictions on
stock repurchase and dividends and executive compensation and expense policy
requirements outlined in “Terms and Conditions of GM Deal” in this Section.
Under the securities purchase agreement, bonuses paid to senior employees for
FY 2008 and FY 2009 may not exceed 59.55% of the amount paid in FY 2007.
The senior preferred equity purchased by Treasury may not be redeemed for three
years from the date of investment, except with the proceeds from a qualified equity
offering.193 After three years, GMAC can buy the shares back.
    All redemptions of the senior preferred equity must be 100% of its issue price,
plus any accrued and unpaid distributions. Additionally, GMAC may not pay divi-
dends to other stock of lower or equal status than Treasury-owned stock until all
distributions are paid to Treasury.194

Chrysler Financial
Treasury will fund a loan of up to $1.5 billion to a special purpose entity created
by Chrysler Financial to finance the extension of new consumer auto loans.                        Special Purpose Entity: An off-balance
                                                                                                  sheet legal entity, which “holds” the
The five-year loan will pay interest at a rate of one-month LIBOR plus 1% for the
                                                                                                  receivables in a pool and issues the
first year, and one-month LIBOR plus 1.5% for years two through five. It will be
                                                                                                  securities.
secured by a senior secured interest in a pool of newly originated consumer
automotive loans, and full repayment is due January 16, 2014.195 The special                      Senior Secured Interest: A senior pro-
entity created by Chrysler Financial issued additional notes equal to 5% of the                   prietary right in a debtor’s property that
loan to Treasury in lieu of warrants.196                                                          secures payment for performance of an
                                                                                                  obligation.
Terms and Conditions of Chrysler Financial Deal
Chrysler Financial must be in compliance with the executive compensation and
expense control requirements discussed in “Terms and Conditions of GM Deal” in
this Section. Under the purchase agreement between Chrysler Financial and the
special purpose entity created under the loan agreement, the bonus payments to
senior employees for FY 2009 must not exceed 60% of the FY 2007 amount.
   TARP money will be used to fund retail auto loans made by Chrysler Financial
on or after January 1, 2009. Two bank accounts will be established: a funding
account and a collection account. TARP proceeds will be deposited into the funding
account. Chrysler Financial may withdraw funds from this account to extend
auto loans that meet certain geographic, credit quality, and other standard overcon-
centration limits for retail auto loans.198
80   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Interest, principal, and other proceeds from repayment of the auto loans must
                                         be deposited into the collection account. In the case of default, Treasury will take
                                         control of both the funding and collection accounts. If Chrysler sells the auto loans,
                                         Chrysler Financial must repay the TARP loan in full.199

                                         Status of Institution-specific Assistance
                                         As of January 23, 2009, Treasury had committed $105.8 billion200 to seven institutions.
                                         A total of $80 billion was allocated to SSFI (AIG) and TIP (Citigroup and Bank of
                                         America), and $5 billion had been allocated to AGP (Citigroup).201 An additional $7.5
                                         billion has been announced but not yet finalized under AGP (Bank of America).
                                              Treasury has also allocated $20.8 billion of TARP to fund AIFP, and an additional
                                         $4 billion will be made available in February 2009 if certain conditions are met.202
                                              Table 3.17 provides the status of TARP institution-specific assistance by program
                                         and company. For more information on the mechanics of these investments, see
                                         Section 2: “TARP Mechanics” in this Report.



                                         TABLE 3.17

                                         INSTITUTION-SPECIFIC ASSISTANCE PARTICIPANTS,                              $ IN BILLIONS
                                                                                                 Dollars           % of Relevant          % of $700 Billion
                                         Institution                                          Committed                 Program                  for TARP
                                         SSFI
                                         American International Group, Inc.                         $40.0                  100%                           6%
                                         TIP
                                         Bank of America Corporation                                 20.0                    50%                          3%
                                         Citigroup Inc.                                              20.0                    50%                          3%
                                         TIP Total                                                   40.0                                                6%
                                         AGP
                                         Citigroup Inc.                                                5.0                 100%                         <1%
                                         AIFP
                                         GM                                                          10.3                    58%                        1.5%
                                         Chrysler                                                      4.0                   16%                        <1%
                                         GMAC                                                          5.0                   20%                        <1%
                                         Chrysler Financial                                            1.5                    6%                        <1%
                                         AIFP Total                                                  20.8                                                3%
                                         TOTAL                                                  $105.81                                                 15%

                                         Note: Numbers affected by rounding.

                                         Sources: Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
                                         Bank of America Corporation AGP Agreement, “Summary of Terms Eligible Asset Guarantee, 1/15/2009.”
                                         1 This total does not include $7.5 billion to Bank of America under AGP that was announced but not finalized as of
                                         January 23, 2009, and $4 billion to GM due February 17, 2009.
                                                                 INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   81




TERM ASSET-BACKED SECURITIES LOAN FACILITY
Projected for implementation in February 2009, the Federal Reserve’s Term Asset-
backed Securities Loan Facility (“TALF”) has been announced as a $200 billion203
loan program intended to increase the availability of loans to consumers and small                 Asset-backed Security (“ABS”): A tradable
businesses. The program is meant to improve overall market conditions for asset-                   security backed by a pool of loans, leases,
backed securities (“ABS”), which are going to be used as collateral for these loans.               or any other cash-flow producing assets.


TALF Program Details                                                                               Subordinated Debt: Funding that has a
                                                                                                   lesser priority than other debt issued.
The TALF program comprises two main components:

•   lending program — makes loans to institutions with eligible collateral
•   asset disposition facility — a mechanism used by the Federal Reserve Bank
    of New York (FRBNY) to absorb and manage assets that it acquires when
    borrowers default on their loans or abandon the collateral

   FRBNY will manage the lending program, and TARP will purchase subordinated
debt to fund the asset disposition facility.204

Lending Program
TALF’s lending program will grant up to $200 billion in secured loans to quali-
fying institutions.205 All U.S. companies with eligible collateral can borrow from
TALF. Eligible collateral must meet these conditions:206

•   The collateral is ABS, which are securities backed by a pool of loans.
•   The ABS must have a current and long-term credit rating of the highest
    investment-grade rating category (e.g., AAA) by two or more major nationally
    recognized statistical rating organizations. In addition, the ABS cannot have a
    long-term credit rating less than the highest rating by any nationally recognized
    statistical rating organization.
•   Substantially all of loans in the ABS must have originated in the United States.
•   The loans in the ABS initially must be auto, student, and credit card loans, or
    small business loans guaranteed by the U.S. Small Business Administration
    (SBA).
•   The ABS must be issued on or after January 1, 2009.
•   The origination of the auto loans must be on or after October 1, 2007; origi-
    nation of SBA loans must be on or after January 1, 2008; origination of the
    student loans must be on or after May 1, 2007. ABS backed by credit card loans
    must be issued to refinance maturing credit card ABS.207

   According to the Federal Reserve, not all collateral will necessarily be accepted.
The Federal Reserve “will develop and implement procedures to identify for further
           82     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      scrutiny of potentially high-risk ABS and reserves the right to reject such ABS as
                                                      collateral for a TALF loan.”208
                                                          TALF loans are to be three-year term, collateralized, and non-recourse,
                                                      which means that the most a borrower could lose in the event of default is
Collateralized: Securing a loan with                  the collateral and any payments already made on the loan. Interest payments
assets (in this case, ABS).                           are due monthly. Interest rates may be fixed or floating, as determined by the
                                                      borrower. FRBNY will make all TALF loans and service all current loans.209
Non-recourse: The debtor’s obligation to
repay is limited to the collateral securing the
debt.
                                                      Asset Disposition Facility
                                                      Should FRBNY take ownership of the collateral (in the event that the borrower
                                                      defaults on its loan payment), it will create a special purpose vehicle (“SPV”) to
                                                      “purchase, hold, and ultimately liquidate ABS that was posted as collateral under
                                                      the loan facility but later foreclosed upon by FRBNY.”210 The SPV will purchase
                                                      these assets at a “price equal to the TALF loan amount plus accrued but unpaid
                                                      interest.”211 When the SPV buys the surrendered collateral, the SPV will own and
                                                      manage it.212

                                                      Treasury Participation in TALF
                                                      When the SPV is created by FRBNY, Treasury will purchase with TARP funds
                                                      $20 billion in subordinated debt issued by the SPV. The SPV, in turn, will use the
                                                      $20 billion to purchase the surrendered collateral (ABS) from FRBNY.
                                                          As of January 23, 2009, Treasury allocated $20 billion for TALF; however,
                                                      these funds have not yet been disbursed to the SPV. If the program is implemented
                                                      (and Treasury disburses $20 billion to the SPV), Treasury could be liable for losses
                                                      equal to $20 billion. Any residual returns (e.g., proceeds from the sale of the assets
                                                      or income earned on the assets) from the SPV would be shared by FRBNY and
                                                      Treasury.213 If SPV purchases of surrendered assets exceed $20 billion, then FRBNY
                                                      may make a senior loan to the SPV.

                                                      TALF Process
                                                      A private investor who has $10 million of AAA-rated ABS as collateral seeks a
Haircut: Difference in the value of the               loan. The investor posts the collateral to the lender (FRBNY). In return, the lender
collateral and the value of the loan (the loan        (FRBNY) grants a loan secured by the collateral. The total loan amount available
value is less than the collateral value). The         to the investor is a percentage less than the full market value of the collateral; this
size of the haircut for TALF has not yet been
                                                      amount is called a “haircut.” If there is a 20% haircut, the investor would receive
announced.
                                                      an $8 million loan against the $10 million ABS posted as collateral. As long as the
                                                      investor makes regular interest and principal payments throughout the life of the
                                                      loan, the lender (FRBNY) returns the collateral once the loan is repaid.
                                                          If the private investor decides not to repay the loan, it would surrender the collat-
                                                      eral to FRBNY. Since this is a non-recourse loan, there is no further action against
                                                      the private investor, who can keep the total amount that he had borrowed. The
                                                                INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   83




lender (FRBNY) will then sell the collateral to the SPV, which is funded by TARP.
When the SPV buys the collateral from the lender, it pays the full loan amount
plus any unpaid interest. For example, if the private investor did not pay $60,000 of
interest, then the SPV will use TARP funds (until the $20 billion is exhausted) to
pay $8,060,000 ($8 million principal plus $60,000 in unpaid interest) to purchase
the collateral from FRBNY. Once it purchases the ABS from the lender, the SPV
manages the ABS. All profits and losses are held by the SPV.
     For example, a private investor may choose to surrender its collateral to FRBNY
if the value of the collateral (ABS) falls below the value of the loan. Using the above
example, if the $10 million in collateral (ABS) the private investor assigned for the
$8 million loan is only worth $5 million in the market a year later, then the private
investor may choose to walk away from the loan and surrender the collateral. Since
the loan is non-recourse, the private investor would no longer be liable for the loan.
When the collateral is sold to the SPV at $8 million, the SPV would suffer a $3
million loss if it immediately sold the ABS on the open market ($8 million loan value
minus $5 million market value).214 Of course, the SPV would not be required to
immediately sell the ABS, but could hold the collateral until either (1) the market
price increased or (2) the ABS matured. See Section 4 of this Report for the Special
Inspector General’s initial TALF comments and recommendations.
84   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                         TARP OPERATIONS AND ADMINISTRATION
                                         Under EESA, Congress has authorized the Treasury Secretary to take such actions
                                         as necessary to build the operational and administrative infrastructure to support
                                         TARP activities. This includes the authority to establish program vehicles, issue
                                         regulations, directly hire or appoint employees, enter into contracts, and designate
                                         financial institutions as financial agents of the federal government.215

                                         Office of Financial Stability
                                         EESA authorizes that responsibility for administration of TARP activities be granted
                                         to OFS, which was established specifically for this purpose within Treasury’s Office
                                         of Domestic Finance.216 As reported previously by GAO, Treasury has established an
                                         overall organizational structure for OFS and has recruited several interim leaders
                                         for key positions within the organization. These leaders are charged with setting up
                                         their offices, hiring permanent staff, enabling programs to become operational, and
                                         helping identify permanent successors to their positions.217
                                             In addition to using permanent staff, OFS plans to rely on contractors and finan-
                                         cial agents in legal, investment consulting, accounting, and other key service areas.
                                         Under authority of the act, Treasury has used expedited solicitation procedures and
                                         structured selected agreements and contracts to allow for flexibility in obtaining
                                         these required services. Most of the contracts awarded thus far have been priced on
                                         a time-and-materials basis, which provides for payments based on a set hourly rate
                                         plus the cost of any materials.

                                         Conflicts of Interest
                                         Within the framework of TARP procurement and contracting, actual or potential
                                         conflicts of interest (“COI”) can exist at the organizational level or pertain to an
                                         individual employee. EESA provides the Treasury Secretary the authority to issue
                                         regulations or guidelines necessary to address and manage or to prohibit COI that
                                         can arise in connection with the administration and execution of TARP.218
                                             TARP-related COI may present themselves in a variety of situations, such as
                                         when retained entities perform similar work for Treasury and other clients. In these
                                         situations, contracted entities may find that their duty to certain clients may impair
                                         their objectivity when advising Treasury or may affect their judgment about the
                                         proper use of nonpublic information. Conflicts may also arise from the personal
                                         interests of individuals employed by retained entities. Accordingly, interim guidelines
                                         to address potential COI have been issued.219 Public comments concerning these
                                         interim rules are due to Treasury on March 23, 2009.220
                                             These interim COI rules221 require interested contractors to provide sufficient
                                         information to evaluate the potential for organizational COI and plans to mitigate
                                                               INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   85




them. The mitigation plan then becomes a binding term of the contract arrange-
ment. On potential personal COI, the provisions require that managers and
employees of a hired entity disclose any financial holdings or personal and familial
relationships that could impair their objectivity.
    Financial agents and contractors have identified potential COI, and these parties
have proposed solutions to mitigate the identified conflicts. In response to recom-
mendations made to Treasury by the Comptroller General,222 Treasury has reportedly
taken steps to formalize its oversight and monitoring of potential COI.223

Post-employment Restrictions on Employees
EESA provides the Treasury Secretary the authority to issue regulations or guide-
lines necessary to address, manage, or prohibit COI in connection with the
administration and execution of TARP. One aspect of potential COI mentioned in
the act covers post-employment restrictions on employees. TARP employees and
detailees are subject to the same post-employment restrictions as all federal govern-
ment employees. Confidentiality restrictions apply to the employees of Treasury’s
contractors, but Treasury has not sought to impose post-employment restrictions on
contractor employees who provide services to TARP.

Internal Controls and Compliance
EESA authorizes that Treasury establish and maintain an effective system of internal
controls consistent with the standards prescribed under Section 3512(c) of Title 31,
U.S. Code. OFS is implementing a framework for internal controls that is designed
to accomplish three objectives:224

•   Ensure compliance with EESA and all applicable laws and regulations.
•   Prevent and detect fraud, waste, and abuse.
•   Ensure the reliability of financial reporting to oversight bodies.

    Treasury awarded contracts to two firms, PricewaterhouseCoopers, LLP (“PwC”),
on October 16, 2008, and Ernst & Young, LLP, on October 18, 2008, to assist with
accounting and internal controls services associated with administering the portfolio
of assets purchased by Treasury.
    Treasury has hired PwC to provide advice regarding internal controls for TARP
programs. Internal controls are the checks throughout the system, such as signa-
tures and reconciliations, which help ensure the proper level of oversight of TARP
operations. PwC reported that TARP has implemented several internal control
      86       SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




TABLE 3.14

EXAMPLES OF INTERNAL CONTROLS AS REPORTED BY PWC
Process Stage       Relevant Program Reported Internal Control Example
Pre-Approval        CPP                    •   Validation of Total Risk-Weighted Assets calculation
                                           •   Documentation of Investment Committee meeting minutes to evidence QFI approval
                                           •   Validation of warrant price calculation
                                           •   Validation and authorization of pipeline report with authorized signatures
Approval            CPP                    • Review of letter agreement for completeness and accuracy
                                           • Authorization signatures on pipeline report, which is the report that shows potential recipient and funding details
                                             for pending CPP closings
                                           • Reconciliation of letter agreement with pipeline report
                                           • Authorization and Countersignature of the Letter Agreement
Pre-Funding         CPP                    •   Authorization Request Letter for funding QFIs
                                           •   Proper Instructions to Bank of New York/Mellon regarding QFIs to be funded
                                           •   Validation of wire instructions with QFIs
                                           •   Verification of funding availability for transaction
Pre-Closing         CPP                    • Reconciliation of the closing schedule to the pipeline report
Funding             All TARP Programs      •   Investment Committee minutes reconciled with approval letter
                                           •   Authorized signatures on the letter requesting funding
                                           •   Call to financial institution to confirm wire instructions
                                           •   Reconciliation of funds sent to and received by Bank of New York/Mellon
                                           •   Review of the evidence of wire funding transferred and received by QFI
Closing             All TARP Programs      • Reconciliation spreadsheet that compares figures reported on several documents (e.g., pipeline report, letter
                                             agreement, securities)
                                           • Reconciliation of closing schedule to pipeline report
                                           • Legal agents’ checklist completed at closing
                                           • Signatures required on pipeline reports before closing
                                           • Stock certificates scanned on site and reviewed in real time, remotely, to ensure accuracy and matching with
                                             the agreement
Settlement          All TARP Programs      • Confirmation of receipt of preferred shares prior to wire transaction of Treasury funds to QFI
Reporting           All TARP Programs      • Reconciliation of Investment Committee minutes to transaction reports
Record Retention CPP                       • Imaging, inventorying, and safekeeping of closing documentation

Source: PwC, interview with SIGTARP/PwC, 1/16/2009.




                                                       mechanisms aimed at safeguarding taxpayer dollars. Table 3.14 provides some
                                                       examples of internal controls in place for TARP, as reported by PwC.
                                                           PwC reported that TARP’s internal controls have evolved since inception. PwC
                                                       noted that the foundation of the internal control process for TARP was Treasury’s
                                                       in-house operational controls and that these controls were customized to meet the
                                                       specific control requirements of TARP transactions.225
                                                           The approach adopted by OFS in the development of internal controls reportedly
                                                       incorporates both a short-term and long-term vision. The short-term vision focuses
                                                       on first putting controls in place for the highest financial risk activities. To this end,
                                                       OFS has attempted to develop core internal controls for its current TARP programs:
                                                       CPP, SSFI, TIP, AGP, and AIFP. Additionally, OFS is relying on existing Treasury
                                                       operations and controls for many of the support functions (e.g., budget, human
                                                       resources, and procurement), but has also made progress developing controls for
                                                       OFS-specific functions.226
                                                                            INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009      87




    Treasury has indicated that OFS and its vendors are working to implement a
comprehensive system of internal controls and that in the absence of strong controls,
program objectives may not be fully achieved and the interests of the government
and taxpayers may not be adequately protected.227
    According to the Treasury, OFS-Compliance continues to develop and imple-
ment a compliance program for TARP. Treasury reports that it is in the early stages
of developing a program to oversee and enforce all aspects of compliance, and that
it continues to focus on recruiting candidates to fill positions within the compliance
program.228

TARP Administrative and Program Expenses
In addition to any net gain or loss on the purchase of TARP assets, Treasury will
incur significant administrative and program expenses associated with TARP opera-
tions. The Congressional Budget Office (“CBO”) anticipates that — in addition to
professional services, such as accounting, legal, and internal controls consulting —
these costs will depend largely on the types of assets purchased or insured. On the
basis of the costs incurred by private investment firms that acquire, manage, and
sell similar assets, CBO expects that, if Treasury maintains possession of all or most
of the purchased assets, the administrative costs of operating the program could
amount to more than $1 billion per year.229
    On January 19, 2009, Treasury stated that it has incurred $3.88 million in TARP-
related administrative expenditures through December 31, 2008, and that these
administrative expenditures are expected to total $6.53 million through January 31,
2009.230 Table 3.15 summarizes actual administrative TARP expenditures and


TABLE 3.15

TARP ADMINISTRATIVE EXPENDITURES
                                                              For Period Ending 12/31/2008                    For Period Ending 1/31/2009
Budget Object Class Title                                     Obligations        Expenditures        Projected Obligations Projected Expenditures
PERSONNEL SERVICES                                                                                                                                     
 Personnel Compensation & Services                              $713,928             $713,928                   $1,193,000                    $1,193,000
Total Personnel Services                                       $713,928             $713,928                   $1,193,000                 $1,193,000
NON-PERSONNEL SERVICES                                                                                                                                 
 Travel & Transportation of Persons                              $12,993               $6,725                      $17,000                      $12,000
 Transportation of Things                                                                                                                              
     Rents, Communications, Utilities & Misc. Charges            $87,642              $87,642                     $738,000                     $153,000
 Printing & Reproduction                                          $7,227               $7,227                        $8,000                      $8,000
 Other Services                                               $4,730,497           $3,040,209                  $24,417,000                    $4,980,000
 Supplies & Materials                                             $4,964               $4,784                     $130,000                     $130,000
 Equipment                                                       $20,844              $20,844                      $50,000                      $50,000
Total Non-Personnel Services                                  $4,864,167          $3,167,431                  $25,360,000                 $5,333,000
GRAND TOTAL                                                   $5,578,095          $3,881,359                  $26,553,000                 $6,526,000

Source: Treasury, response to SIGTARP data call, 1/19/2009.
      88      SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         obligations as of December 31, 2008, as well as projected administrative expenses
                                                         and obligations for the period ending January 31, 2009.
                                                             Of these administrative expenditures, the majority is allocated to direct Personnel
                                                         Services and non-personnel Other Services, which comprise primarily accounting
                                                         services and other administrative contracts. Treasury indicated direct personnel
                                                         expenditures of $714,000 as of December 31, 2008, and projected $1.19 million
                                                         for the period ending January 31, 2009. Other Services expenditures totaled $3.04
                                                         million as of December 31, 2008, and $4.98 million for this line item is projected
                                                         for the period ending January 31, 2009. According to Treasury, of the $6.53 million
                                                         in projected administrative expenses for the period ending January 31, 2009, $2.14
                                                         million has been expended as of January 23, 2009. Table 3.16 indicates the alloca-
                                                         tion of administrative obligations for non-personnel Other Services for the period
                                                         ending December 31, 2008.
                                                             In addition to administrative expenses, Treasury has released details of program-
                                                         matic expenditures. These expenditures include costs to hire financial agents and
                                                         legal firms associated with TARP operations. Table 3.17 lists these programmatic
                                                         costs, as of December 31, 2008.



TABLE 3.16                                                                      TABLE 3.17


TARP ADMINISTRATIVE (NON-SALARY) OBLIGATIONS                                    TARP PROGRAMMATIC EXPENDITURES FOR THE PERIOD
FOR THE PERIOD ENDING 12/31/2008                                                ENDING DECEMBER 31, 2008

Vendor Name                                                   Obligations       Vendor Name                                                   Expenditures
                                                                                EnnisKnupp                                                       $675,000
Alcohol and Tobacco Tax and Trade Bureau                       $1,240,625
                                                                                Simpson, Thacher & Bartlett                                       825,000
BAE Systems Information Technology                                372,558
                                                                                Squire Sanders & Dempsey                                          786,147
Bureau of Public Debt                                              44,136       Hughes Hubbard & Reed                                             530,000
Congressional Oversight Panel                                     100,000       Sonnenschein Nath & Rosenthal*                                    475,000
Cushman and Wakefield of VA, Inc.                                   8,750       Bank of New York/Mellon                                         4,116,515
Ernst & Young LLP                                                 492,007       Pension Benefit Guarantee Corp                                    350,000
Federal Tech Service National IT Program                            9,000       GRAND TOTAL                                                   $7,757,662

General Accountability Office                                     735,000
                                                                                * Formerly Thacher, Proffitt & Wood, LLP.
Linholm & Associates, Inc.                                        174,720
Office of Chief Information Officer                               138,624       Source: Treasury, response to SIGTARP data call, 1/19/2009.

Office of Personnel Management                                     80,000
PricewaterhouseCoopers LLP                                      1,206,497
Working Capital Fund                                              128,580
GRAND TOTAL                                                   $4,730,497

Source: Treasury, response to SIGTARP data call, 1/19/2009.
                                                                 INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   89




Current Contractors and Financial Agents
As of January 23, 2009, Treasury has retained 1 financial agent and 14 outside
contractors to acquire a range of services to assist in administering TARP. As
permitted in EESA, Treasury has used streamlined solicitation procedures and has
structured several agreements and contracts to allow for flexibility in obtaining the
required services expeditiously. 
    Treasury has used two approaches to acquire the necessary services to support
TARP. First, Treasury exercised its authority under EESA to retain BNYM as a finan-
cial agent to provide custodial, accounting, and other services needed to administer
TARP. Second, Treasury has entered into contracts and blanket purchase agreements
under Federal Acquisition Regulation (“FAR”) for legal, investment consulting,
accounting, and other services. Although the financial agency agreement and certain
contracts were awarded primarily to assist with the purchase of troubled assets,
Treasury officials explained that they were redirecting requirements within the scope
of the contracts to support TARP’s shift to CPP and made similar modifications to
the financial agency agreement. Table 3.18 lists outside vendors, including contract
scope summaries, contract term, contract value, and associated expenditures, as of
December 31, 2008.
    In some cases, Treasury used streamlined contracting processes to expedite
the award process, as allowed by EESA. Two of the contract awards, one for legal
services and the other for investment consulting services, were obtained using
existing statutory authority as the basis to award contracts using other than full and
open competition procedures.
    As required by EESA, SIGTARP must report the biographical information for
each person or entity hired to manage the troubled assets associated with TARP. As
of January 23, 2009, the asset manager positions are not yet filled, and Treasury is
in the process of soliciting competitive bids for its selection of asset managers for its
troubled asset investments.
       90       SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




TABLE 3.18

TARP CONTRACTS AND AGREEMENTS AWARDED AS OF JANUARY 20, 2009
                                                                                                                                                              Expenditures as
Vendor Name              Contract Scope Summary                                                                     Contract Term Contract Value              of 12/31/2008
Simpson, Thacher         Provide legal advice on Treasury’s equity purchases in banks.                               10/10/2008 –             $1,025,000            $825,000
& Bartlett, LLP1                                                                                                         4/9/2009
EnnisKnupp &             Assist Treasury in developing and maintaining investment policies and                       10/11/2008 –             $2,495,190            $675,000
Associates, Inc.1        guidelines, as well as assisting with the oversight of the portfolio’s                       10/11/2009
                         multiple asset managers. 
Bank of New York/        Assist with custodial, accounting, auction management, and other                            10/14/2008 –            $20,000,000          $4,116,515
Mellon2                  infrastructure services needed to administer the complex portfolio of                        10/14/2011
                         troubled assets that Treasury may purchase. 
Pricewaterhouse          Assist with design and implementation of internal controls needed to                        10/16/2008 –             $1,563,987                    $0
Coopers, LLP1,3          administer TARP.                                                                              9/30/2011

Ernst & Young,           Provide general accounting support and expert accounting advice and                         10/18/2008 –             $1,968,012                    $0
LLP1,3                   assist Treasury with accounting services needed to administer TARP.                           9/30/2011

GSA – Turner             Provide archiving services.                                                                 10/23/2008 –                   $9,000            $7,446
Consulting1                                                                                                            11/7/2008
Regus1                   This contract relates to property leases.                                                   10/27/2008 –               $168,308                    $0
                                                                                                                      10/26/2009               (negotiated
                                                                                                                                                settlement
                                                                                                                                               agreement)
Hughes Hubbard &         Assist Treasury with executing TARP-related transactions, reviewing                         10/29/2008 –             $5,645,162            $530,000
Reed, LLP1               executed investment agreements, resolving pre-closing legal issues, and                       4/28/2009
                         conducting the closing of transactions.
Squire Sanders &         Assist Treasury with executing TARP-related transactions. Review                            10/29/2008 –             $5,520,000            $786,147
Dempsey1                 executed investment agreements, assist with identifying and resolving                        04/28/2009
                         legal issues before or during closing of transactions.
Lindholm &               Provide human resources support for TARP initiative.                                        10/31/2008 –                $710,528                   $0
Associates1,3                                                                                                          9/30/2010
Sonnenschein Nath        Includes two contracts. Services include the negotiation and drafting of                      11/7/2008 –            $1,467,326            $475,000
& Rosenthal1             relevant documents, such as investment agreements, debt agreements,                            2/28/2009
(Formerly Thacher,       security agreements or other documentation necessary to implement
Proffitt & Wood,         Treasury investments in entities under TARP.                                                12/10/2008 –               1,300-hour
LLP )                                                                                                                    6/9/2009                   Ceiling
Washington Post1         Listing of vacancy announcements.                                                             12/7/2008 –                    $395               $395
                                                                                                                         1/7/2009
Eleven Eighteen          This contract is associated with GSA leases related to TARP.                                  12/30/2008             $4,076,314                    $0
LLP c/o Cushman                                                                                                         9/30/2010
Wakefield1,3
Colonial Parking1        This contract is for leasing of parking spaces.                                                1/2/2009 –                $75,850                   $0
                                                                                                                        9/30/2009

1
  Contract structure: Time and materials or firm-fixed-price task orders. The actual expenditure may vary because this is a time-and-materials contract.
2
  Contract Structure: Percentage of value of assets managed.
3
  Treasury, OFS, response to SIGTARP data call, 2/3/2009.

Sources: Treasury, response to SIGTARP data call, 1/17/2009; GAO-09-161, “Troubled Asset Relief Program: Additional Actions Needed to Better Ensure Integrity, Accountability,
and Transparency,” 12/2008; GAO-09-296, “Troubled Asset Relief Program: Status of Efforts to Address Transparency and Accountability Issues,” 1/30/2009.
                LOOKING FORWARD: SIGTARP’S
S ECT I O N 4   STRATEGY AND ONGOING
                RECOMMENDATIONS TO TREASURY
92   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                 INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   93




This section discusses the Special Inspector General for the Troubled Asset Relief
Program’s (“SIGTARP’s”) strategy and focus over the next quarter and beyond,
beginning with the Audit Division’s strategy, then the Investigations Division’s
strategy, and then concluding with SIGTARP’s current recommendations.



AUDIT DIVISION STRATEGY
SIGTARP has tapped Barry Holman as its Deputy Special Inspector General for
Audit. Operating now with a few auditors detailed from other agencies, the Audit
Division has already begun to map out its strategic focus, identifying an initial set of
audits and coordinating work with other audit agencies engaged in oversight of the
Troubled Asset Relief Program (“TARP”).

Strategic Focus
SIGTARP’s Audit Division will conduct primarily performance audits involving
TARP, using generally accepted government auditing standards. To fulfill
SIGTARP’s mandate to promote the economy, efficiency, and effectiveness of TARP
programs, operations, and progress toward desired results, the Audit Division has
preliminarily identified several aspects of TARP — some internal to Treasury and
some external — that will be the general focus of its work. SIGTARP’s audits will
be designed to accomplish these objectives:

•   Ensure transparency in TARP programs to the fullest reasonable extent so as to
    foster accountability in use of funds and program results.
•   Examine whether Treasury managers have developed sufficient internal
    controls and procedures to manage TARP programs and the vendors hired to
    assist in such management.
•   Ensure a fair, equitable, and consistent application and review process for indi-
    viduals and entities seeking relief under the various TARP programs.
•   Test compliance with the policies, procedures, regulations, terms, and condi-
    tions that are imposed on TARP participants.
•   Coordinate actively with other relevant audit and oversight entities to maximize
    audit coverage while minimizing overlap and duplication of efforts.

Tactical Implementation
In its early efforts to implement these principles, the Audit Division has identified
several areas that require audit attention and has begun projects to address them.
These areas include use of TARP funds, executive compensation restrictions, the
Capital Purchase Program (“CPP”) application process, a premature funding inci-
dent, and audit coordination.
94   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                         Use of TARP Funds
                                         As noted above, in the interests of transparency and of establishing a baseline to
                                         test whether the various TARP programs are accomplishing program goals over
                                         time, SIGTARP is launching a significant initiative to determine how recipients
                                         have used TARP funds. In essence, CPP — representing an expected $250 billion
                                         of taxpayer investment — is based on Treasury’s theory that investing money in
                                         healthy banks will, over time, among other things, allow banks to better meet the
                                         credit needs of their customers. Although there may be ways to model whether this
                                         theory is sound through macroeconomic metrics, it can also be measured by exam-
                                         ining what the banks actually did with the funds. Accordingly, the Audit Division
                                         intends231 to transmit a request to every recipient of TARP funds, seeking:

                                         • a narrative response outlining the use or expected use of TARP funds
                                         • copies of pertinent supporting documentation (financial or otherwise) to support
                                           such response
                                         • a certification by a duly authorized senior executive officer of each company as
                                           to the accuracy of all statements, representations, and supporting information
                                           provided

                                             The Audit Division anticipates that additional audit projects will be developed to
                                         test the effectiveness of TARP programs once this baseline information is received.

                                         Executive Compensation
                                         The Emergency Economic Stabilization Act of 2008 (“EESA”) contains a specific
                                         provision limiting executive compensation at entities that receive TARP funds,
                                         and TARP agreements have executive compensation conditions that go beyond
                                         what is mandated in the statute. SIGTARP has identified enforcement of execu-
                                         tive compensation conditions as one of its primary areas of focus, and the Audit
                                         Division has begun preliminary data collection efforts both from Treasury and from
                                         the recipients of TARP funds. From this baseline data, the Audit Division antici-
                                         pates that it will be in a position to assess the control systems currently in place and
                                         to launch additional audits as appropriate.

                                         CPP Application Process
                                         As described above, the application process for CPP includes evaluation by
                                         Treasury officials who manage TARP as well as evaluation by the four primary
                                         federal bank regulators — the Federal Deposit Insurance Corporation (“FDIC”),
                                         Federal Reserve, Office of the Comptroller of the Currency, and Office of Thrift
                                         Supervision. The Inspector General for FDIC (“FDIC-IG”) has undertaken
                                         an evaluation of applications processed by FDIC. Based on FDIC’s model, the
                                         Inspector General for the Federal Reserve System has undertaken an evaluation of
                                                                INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   95




its applications. The Inspector General of Treasury has also initiated a case study of
the CPP application and funding of City National Bank of Beverly Hills, California.
The Government Accountability Office (“GAO”) has also indicated that it is devel-
oping a methodology to sample CPP applications to determine, among other things,
if the regulators and Treasury are applying established criteria for reviewing applica-
tions. SIGTARP intends to review and supplement these efforts with specific case
studies and a general audit reviewing outside influences on the CPP application
process. The Audit Division anticipates that these coordinated initial evaluations
later will be the basis for additional audit work tied to the broader CPP application
flow.

Premature Funding Incident
Treasury has disclosed to SIGTARP that the TARP securities custodian, Bank of
New York/Mellon, reportedly made an error in the initial funding of the General
Motors Acceptance Corporation LLC (“GMAC”) transaction, releasing TARP funds
after closing documents had been signed but before receiving an official notice
from Treasury to release the funds. Although Treasury indicates that this error was
immediately identified by the custodian to Treasury and did not cause any loss of
TARP funds, Office of Financial Stability-Compliance (“OFS-Compliance”) has
undertaken a review of the incident and is preparing a report on what occurred and
what steps have been taken to avoid a recurrence. SIGTARP has received a prelimi-
nary briefing and will examine the report once it is completed to determine whether
further action, audit or otherwise, is required.

Audit Coordination
SIGTARP is cognizant of the requirement contained in its founding legislation
to coordinate audits of TARP. As it builds its Audit Division, SIGTARP has been
working with other applicable Inspectors General (IGs) and GAO to establish
the TARP Inspector General Council (TARP-IGC). This organization has already
borne fruit in the form of a coordinated evaluation of the CPP application process
by some of the IGs responsible for U.S. bank regulators. Moreover, SIGTARP has
made a particular effort to coordinate its efforts closely with GAO in light of the
significant oversight role mandated to GAO in EESA. SIGTARP is pleased with the
complementary relationship that has been developed with GAO thus far, and both
bodies have expressed their commitment to coordinating, cooperating, and sharing
information with one another to ensure maximum oversight coverage and to mini-
mize the administrative burden on those managing TARP programs.
96   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                         INVESTIGATIONS DIVISION STRATEGY
                                         SIGTARP’s Investigations Division is led by Deputy Special Inspector General
                                         for Investigations Christopher Sharpley. Concurrently with building a team of
                                         experienced special agents, investigators, attorney advisors, and analysts, the
                                         Investigations Division is forging partnerships with other law enforcement agen-
                                         cies, both criminal and civil.

                                         Strategic Focus
                                         The mission of the Investigations Division is to develop and support criminal and
                                         civil enforcement investigations against those — whether inside or outside of
                                         government — who waste, steal, or abuse TARP funds. Although SIGTARP will,
                                         of course, be ready to investigate any allegations or indications of wrongdoing
                                         with respect to Treasury’s management of TARP, the Investigations Division
                                         will also focus on investigating vendors or participants who receive TARP funds
                                         through fraud or deceit or who corruptly attempt to avoid their legal obligations
                                         under TARP programs. The Investigations Division intends to develop a robust
                                         financial crimes investigative team capable of both leading its own investigations
                                         and supporting the investigations of other law enforcement agencies.

                                         Tactical Implementation
                                         In addition to responding to investigative leads from other agencies, which it has
                                         already begun to do with a limited staff, the Investigations Division is taking the
                                         lead on two activities — the Hotline and developing partnerships with other law
                                         enforcement agencies — designed to develop the infrastructure and framework
                                         necessary to carry out its strategic vision.

                                         SIGTARP Hotline
                                         SIGTARP has recently activated its Hotline — (877) SIG-2009 or (877)
                                         744-2009 — which is designed to facilitate the reporting of concerns, informa-
                                         tion, allegations, and evidence of violations of civil and criminal laws in connec-
                                         tion with TARP. Reporting could include allegations of fraud, waste, abuse, and
                                         reprisal in TARP-related matters. The SIGTARP Hotline is capable of receiving
                                         telephone, mail, fax, and online contacts. Additionally, SIGTARP has established
                                         a Hotline connection on its website at www.SIGTARP.gov. SIGTARP will abide by
                                         all applicable whistleblower protections set forth in the Inspector General Act of
                                         1978, as amended.

                                         Law Enforcement Agency Partnerships
                                         SIGTARP has already begun forging partnerships with other law enforcement
                                         agencies, both criminal and civil. The Special Inspector General has joined the
                                         President’s Corporate Fraud Task Force, has founded the TARP-IGC, and has
                                                              INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   97




met with numerous law enforcement agencies, both within the IG community and
with other enforcement agencies with expertise in financial fraud investigations,
such as the Federal Bureau of Investigation, the New York State Attorney General’s
office, and the Securities and Exchange Commission. The goal is to marry our
collective resources and expertise both on investigations developed elsewhere and
on those developed by SIGTARP.


SIGTARP RECOMMENDATIONS FOR OPERATION
OF THE TARP
Although SIGTARP is less than 60 days old and is still in the early stages of hiring
employees, the Special Inspector General has been and remains committed to
providing effective oversight to the fullest extent possible. One way to accomplish
that goal is to bring the expertise of the Special Inspector General and SIGTARP’s
senior staff to bear on oversight-related issues and provide timely recommendations
to Treasury officials so that TARP agreements and programs can be designed, at the
outset, with appropriate controls and fraud prevention considerations in mind. As
noted in Section 1, SIGTARP has made several recommendations that Treasury has
already adopted. Set forth below are those recommendations that remain ongoing
— i.e., those that have not been fully implemented or that otherwise remain
applicable going forward — as well as other recommendations that SIGTARP has
recently made.

Oversight Language in TARP Agreements
As noted above, SIGTARP has recommended that Treasury include language in
new TARP program agreements to facilitate compliance and oversight. Specifically,
this recommendation, which is ongoing, is as follows:

•   The program participant should acknowledge explicitly the jurisdiction and
    authority of SIGTARP and other oversight bodies, as relevant, to oversee
    compliance of the conditions contained in the agreement in question.
•   For each condition imposed, the participant should be required to (1) estab-
    lish internal controls with respect to that condition, (2) report periodically
    to OFS-Compliance regarding the implementation of those controls and its
    compliance with the condition, and (3) provide a signed certification from an
    appropriate senior official to OFS-Compliance that such report is accurate.
•   In addition, the participant should be required to use best efforts to account
    for the use of TARP funds, to set up internal controls to comply with such
    accounting, and to report periodically to OFS-Compliance on the results, with
    appropriate certification, in the manner discussed above.
98   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                         Asset Management Issues
                                         To date, Treasury has not fully developed significant policies or controls with
                                         respect to asset management issues. Although this is understandable — in light
                                         of the urgency associated with standing up TARP, the fact that no asset managers
                                         have yet been retained, and given that Treasury’s focus has been on the purchase
                                         of preferred stock and warrants rather than on specific troubled assets — Treasury
                                         needs, in the near term, to begin developing a more complete strategy on what to do
                                         with the very substantial portfolio that it now manages on behalf of the American
                                         people. There are three aspects of asset management in particular that need to be
                                         addressed:

                                         • Currently, Treasury values the preferred shares and warrants at cost. Although
                                           SIGTARP is not criticizing this valuation methodology as a stopgap measure, in
                                           light of the market volatility and the distressed financial condition of some of
                                           the entities in which Treasury has made an investment, the cost-based valuation
                                           methodology will not provide an accurate view of the value of the securities over
                                           time. SIGTARP recommends that Treasury quickly determine its going-forward
                                           valuation methodology.
                                         • Treasury needs to begin developing a framework for its overall investment
                                           strategy. It now manages hundreds of billions of dollars of preferred shares and
                                           warrants of common stock. How long these securities should be held and when,
                                           and under what circumstances, they should be sold into the market are vitally
                                           important questions that implicate not only the taxpayers’ return on their invest-
                                           ment but also the stability of the markets, both generally and for the individual
                                           entities involved. SIGTARP recommends that Treasury begin to develop an
                                           overall investment strategy to address those questions.
                                         • For warrants of common stock, Treasury must decide whether it has any inten-
                                           tion to exercise warrants in order to hold the common stock. As a matter of
                                           investment strategy, doing so would be unusual because warrants are generally
                                           sold as warrants without exercise or are exercised simultaneously with the sale
                                           of the common stock. However, because Treasury has not set aside any TARP
                                           money to fund the exercise of warrants, it needs either to (a) rule out the possi-
                                           bility of exercising warrants for the purpose of holding the common stock or (b)
                                           reserve sufficient TARP funds to pay for the exercise price of the warrants that
                                           it anticipates exercising for that purpose. We have inquired of Treasury what
                                           its intentions are on this point, and it has indicated that no decision has been
                                           made.
                                                                INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   99




Potential Fraud Vulnerabilities Associated with TALF
Based on SIGTARP’s initial review of the Term Asset-backed Securities Loan
Facility (“TALF”) program and our briefings by Treasury and Federal Reserve
officials on the planned implementation of the program, SIGTARP has informed
Treasury and the Federal Reserve of its concerns regarding the program’s vulner-
ability to fraud, waste, and abuse. Because the outlines of the program are still not
final, SIGTARP makes these recommendations based on our understanding of the
current design of the program:

•   First, as discussed more fully in Section 3, TALF is a program in which
    participants can receive loans upon the posting of certain asset-backed secu-
    rities (“ABS”) as collateral. Because the loans will be non-recourse, that is,
    the participant can walk away from the loan by forfeiting the collateral, the
    risk associated with the ABS (which, in turn, is dependent on the risk of the
    underlying asset — in this case, certain consumer loans) is critically important
    to whether the taxpayers’ investment is a sound one. For this reason, Treasury
    should consider requiring that some baseline fraud prevention standards be
    imposed (such as minimum underwriting standards or some other combination
    of provisions that will minimize the risk of fraud) on the ABS and/or the assets
    underlying the ABS used as collateral in TALF. SIGTARP was informed in early
    January by Treasury and the Federal Reserve that the program relies on:

         (1) the requirement that the ABS receive a certain minimum rating
         from credit rating agencies
         (2) the belief that the investor who is purchasing the ABS in the first
         instance will have an incentive to do appropriate diligence because
         that party will be vulnerable to lose whatever “haircut” percentage is
         imposed

    SIGTARP has raised a concern that relying on these private-sector parties
    could result in a risk that the government would be obtaining securi-
    ties tied to underlying loans that have been overvalued due to fraud or
    lax underwriting. Although Treasury has suggested that the asset classes
    proposed for participation in TALF have historically low losses, as the
    recent experience of another ABS market — the mortgage-backed securi-
    ties (“MBS”) market — demonstrates, lax underwriting increases the
    risk of fraud loss, because criminally minded borrowers take advantage
    of the failure of lending institutions to verify and confirm information
    on loan applications. At least in that market, neither the ratings agencies
    nor the MBS customers successfully ensured, even for the most highly
    rated securities, that the loans underlying the securities were properly
100   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            underwritten. Indeed, the structure of TALF, which may reduce the risk
                                            of loss to both the underlying lender and to the purchaser of ABS, may
                                            actually encourage lax underwriting standards. In addition, SIGTARP
                                            was told that the models used by Treasury and the Federal Reserve
                                            to project potential losses do not account for the impact of the TALF
                                            program on underwriting standards.

                                            After discussing these issues further with the Federal Reserve and
                                            Treasury, SIGTARP was informed that there are currently under consid-
                                            eration several measures (more than mere reliance on rating agencies
                                            and investors’ own due diligence) that are intended to address these
                                            concerns. These reportedly include imposition of varying “haircut” rates
                                            depending on asset class (reflecting the risk of investment in each class)
                                            and on a risk screening procedure that will be conducted for each pool of
                                            ABS brought to the TALF window.

                                            SIGTARP encourages these efforts and continues to recommend that, in
                                            formulating the structure of TALF, Treasury should consider requiring,
                                            before committing TARP funds to the program, that certain minimum
                                            underwriting standards and/or other fraud prevention mechanisms be in
                                            place with respect to the ABS and/or the assets underlying the ABS used
                                            for collateral.

                                         • Second, Treasury should consider, before committing TARP funds to TALF,
                                           requiring that beneficiaries (i.e., the TALF borrowers, the originators/sponsors,
                                           and the primary dealers) of TALF sign an agreement that includes oversight-
                                           enabling provisions. SIGTARP has been informed by the Federal Reserve that it
                                           is considering a requirement that some or all of these entities sign an agreement
                                           giving the Federal Reserve the right to inspection. SIGTARP recommends that
                                           such agreements also include an acknowledgement that:

                                                 (1) they are subject to the oversight of OFS-Compliance and
                                                 SIGTARP
                                                 (2) with respect to any condition imposed as part of TALF, that the
                                                 party on which the condition is imposed is required to establish
                                                 internal controls with respect to each condition, report periodically
                                                 on such compliance, and provide a certification with respect to such
                                                 compliance

                                            Although SIGTARP believes that OFS-Compliance and SIGTARP
                                            itself would have the authority under EESA to oversee compliance with
                                                            INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009   101




    conditions by TALF participants (because of the TARP investment
    guaranteeing the Federal Reserve loans), a contractual acknowledge-
    ment regarding the oversight would avoid delay and provide an important
    deterrent to fraud from the outset of the program.

•   Third, to the extent that TALF is expanded in the future to cover MBS, as
    has been suggested in public statements, Treasury should undertake a full
    evaluation of potential risks that may be associated with doing so. Based on
    SIGTARP’s initial conversations with the Federal Reserve, it does not appear
    that the current loss modeling conducted for TALF has included application of
    the program to MBS, and no consideration has been given to the impact that
    TALF would have on the underwriting standards of MBS sponsors. In light of
    the prevalence of mortgage fraud over recent years, SIGTARP recommends
    that Treasury should give careful consideration before agreeing to the expan-
    sion of TALF to include MBS without further review and without considering
    certain minimum fraud protections.

•   Fourth, we have been informed by both the Federal Reserve and Treasury that
    TALF, as currently configured, is not designed to purchase previously issued
    MBS. These so-called “legacy” MBS are, of course, securities whose sponsors
    may have actively engaged in the lax underwriting that helped fuel the current
    financial crisis, and many prior MBS sponsors no longer exist. SIGTARP
    recommends that Treasury oppose any expansion of TALF to such legacy MBS
    without significant modifications to the program to ensure a full assessment of
    risks associated with such an expansion.

•   Finally, Treasury should establish a compliance protocol with the Federal
    Reserve before TALF is put into effect. SIGTARP had previously been
    informed by a representative of the Federal Reserve that, due to a lack of
    resources, compliance activities with regard to conditions imposed as part of
    TALF might be limited to relying upon required certification statements. Any
    conditions imposed on beneficiaries of TALF will have little meaning unless
    Treasury or the Federal Reserve has a system in place to ensure compliance
    with such conditions. SIGTARP recommends that Treasury not participate in
    TALF until such time as an appropriate compliance program is put into effect.

  SIGTARP will continue to monitor development of TALF procedures and
may make future recommendations concerning underwriting standards and other
mechanisms to protect against fraud in the underlying loan transactions.
102   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                               INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009             103




1.    As per OFS, this figure represents what Treasury has announced to the public (in testimony and/or tranche reports) on what Treasury plans to do with
      TARP funds. Treasury, response to SIGTARP data call, 1/26/2009.
2.    As of 1/23/2009, there have been 319 CPP transactions, but Bank of America and SunTrust had 2 transactions each. For this count, every institution was
      counted once. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
3.    Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
4.    There were 323 preferred share transactions. There were multiple transactions from Bank of America (3-2CPP and 1 TIP), SunTrust (2CPP), and Citi
      (3-1CPP, 1TIP, and 1AGP); these institutions were only counted once. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions
      Report,” 1/27/2009.
5.    OFS Interim Chief Compliance Officer, response to SIGTARP data call, 1/17/2009.
6.    There were 235 warrant transactions. There were multiple transactions from Bank of America (3-2CPP and 1 TIP), SunTrust (2CPP), and Citi (3-1CPP,
      1TIP, and 1AGP); these institutions were only counted once. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,”
      1/27/2009.
7.    Treasury, “HP-1149: Statement by Secretary Henry M. Paulson, Jr. on Comprehensive Approach to Market Developments,” 9/19/2008, http://www.ustreas.
      gov/press/releases/hp1149.htm, accessed 1/22/2009.
8.    Treasury, “Legislative Proposal for Treasury Authority To Purchase Mortgage-Related Assets,” 9/20/2008.
9.    Treasury, “HP-1153: Testimony by Secretary Henry M. Paulson, Jr. before the Senate Banking Committee on Turmoil in US Credit Markets: Recent
      Actions regarding Government Sponsored Entities, Investment Banks and other Financial Institutions,” 9/23/2008, http://www.treasury.gov/press/releases/
      hp1153.htm, accessed 1/21/2009.
10. Treasury, “Legislative Proposal for Treasury Authority To Purchase Mortgage-Related Assets,” 9/20/2008, p. 2.
11. Treasury, “Legislative Proposal for Treasury Authority To Purchase Mortgage-Related Assets,” 9/20/2008, p. 3.
12. Treasury, “Legislative Proposal for Treasury Authority To Purchase Mortgage-Related Assets,” 9/20/2008, p. 3.
13. Clerk of the U.S. House of Representatives, “Final Vote Results for Roll Call 681,” 10/3/2008, http://clerk.house.gov/evs/2008/roll681.xml, accessed
    1/30/2009.
14. Treasury, “HP-1175: Paulson Statement on Emergency Economic Stabilization Act,” 10/03/2008, http://www.treasury.gov/press/releases/hp1175.htm,
    accessed 1/22/2009.
15. Treasury, “HP-1177: Statement by the President’s Working Group on Financial Markets,” 10/06/2008, http://www.treasury.gov/press/releases/hp1177.htm,
    accessed 1/22/2009.
16. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 2.
17. Treasury, “The U.S. Treasury Department Summary Response to Recommendations in the December 2008 GAO Report,” 1/9/2009, p. 5.
18. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 4.
19. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
20. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2–3.
21. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
22. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 13. Definition of “golden parachute”: U.S. Internal Revenue Service, “Notice
    2008-94: Section 162(m) — Excessive Compensation; Section 280G — Golden Parachute Payments,” 10/8/2008, pp. 22–23, http://www.irs.gov/pub/
    irs-drop/n-08-94.pdf, accessed 1/29/2009.
23. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 39.
24. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 16.
25. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 13–15.
26. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 24
27. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 24–26.
28. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
29. GAO, “Troubled Asset Relief Program: Status of Efforts to Address Transparency and Accountability Issues,” 1/30/2009, p. 10.
30. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
31.   As of January 23, 2009, Treasury had not published this certification of need. However, this press release states that the first $350 billion has been
      authorized. Treasury, “Secretary Paulson Statement on Stabilizing the Automotive Industry,” 12/19/2008, www.treas.gov, accessed 1/25/2009.
32. The White House, “Troubled Asset Relief Program Section 115 Plan to Exercise Authority,” 1/12/2009, www.whitehouse.gov, accessed 1/12/2009.
33. The White House, “Troubled Asset Relief Program Section 115 Plan to Exercise Authority,” 1/12/2009, www.whitehouse.gov, accessed 1/12/2009.
34. The Library of Congress, “A joint resolution relating to the disapproval of obligations under the Emergency Economic Stabilization Act of 2008,”
    1/15/2009, www.thomas.loc.gov, accessed 1/19/2009.
35. Treasury: Office of Financial Stability, response to SIGTARP data call, 1/17/2009.
36. New York Stock Exchange, www.nyse.com, accessed 1/23/2009.
    104         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




37. Federal Reserve, response to SIGTARP draft report, 1/30/2009.
38. Federal Reserve, response to SIGTARP draft report, 1/30/2009.
39. TARP Capital Purchase Plan Agreement, “Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms.”
40. Treasury, “TARP Capital Purchase Program (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant
    Terms.”
41. Treasury, "Section 105(a) Troubled Asset Relief Progam Report to Congress for Period December 1, 2008 to December 31, 2008," 1/16/2009.
42. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 5.
43. Treasury: Office of Financial Stability, response to SIGTARP data call, 1/26/2009.
44. Treasury, response to SIGTARP data call, 1/26/2009; Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,”
     1/27/2009. This figure ($387.4 billion) represents what Treasury has announced to the public on what it plans to do with TARP funds. GAO-09-296
     reported the same figure as the "announced program funding level."
45. Treasury: Office of Financial Stability, "Troubled Asset Relief Program Transactions Report," 1/27/2009. GAO-09-296 reports total asset purchase price of
     $300.00 billion. For purposes of this Report, SIGTARP used the $299.96 billion as reported in the Treasury's 1/27/2009 Transactions Report and considers
     the "asset purchase price" as "committed." Treasury notes $300.01 billion as the total "Cash Basis Obligations" and states that this amount is "what Treasury
     has committed to spend (e.g. signed agreements with TARP fund recipients)." Treasury, response to SIGTARP data call, 1/26/2009.
46. The expended amount of $293.76 billion equals the $299.96 billion committed (as reported on Treasury's Transactions Report) less the $5 billion Citigroup
    guarantee that has not been expended and less the $1.2 billion of the Chrysler Financial loan, which has not been entirely expended as of January 23, 2009.
    GAO-09-296 reports a disbursed amount of $293.7 billion. The $293.76 billion reported by SIGTARP includes the $884 million final funding level for the
    loan to GM. In Treasury's response to SIGTARP data call, this $884 million was listed as an outlay.
47. Treasury, “Interim Assistant Secretary for Financial Stability Neel Kashkari Testimony before the Senate Committee on Banking, Housing and Urban
    Affairs,” 10/23/2008, www.treas.gov, accessed 1/25/2009.
48. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009. Numbers affected by rounding.
49. Treasury, “Guidelines for Systemically Significant Failing Institutions Program,” www.treas.gov, accessed 1/25/2009.
50. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
51. Treasury, “Treasury to Invest in AIG Restructuring Under the Emergency Economic Stabilization Act,” 11/10/2008, www.treas.gov, accessed 1/25/2009.
52. Treasury, “Treasury Releases Guidelines for Targeted Investment Program,” 1/2/2009, www.treas.gov, accessed 1/25/2009.
53. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
54. Treasury, “Joint Statement by Treasury, Federal Reserve and the FDIC on Citigroup,” 11/23/2008, www.treas.gov, accessed 1/9/2009.
55. Treasury, “Treasury, Federal Reserve and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treas.gov, accessed 1/16/2009.
56. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
57. Treasury, “Report to Congress Pursuant to Section 102 of the Emergency Economic Stabilization Act,” 12/31/2008, www.treas.gov, accessed 1/25/2009.
58. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
59. Treasury: Office of Financial Stability, response to SIGTARP data call, 1/26/2009.
60. Citigroup, Inc. Securities Purchase Agreement, “Securities Purchase Agreement dated December 31, 2008 between Citigroup, Inc., as Issue and United
    States Department of Treasury.”
61. FDIC, “Explanation of the FDIC’s Loss Sharing Exposure,” 1/16/2009, www.fdic.gov, accessed 1/25/2009.
62. Treasury, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.treas.gov, accessed 1/16/2009.
63. Treasury, “Treasury, Federal Reserve and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treas.gov, accessed 1/16/2009.
64. Treasury, “Automotive Industry Financing Program,” www.treas.gov, accessed 1/25/2009.
65. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
66. Emergency Economic Stabilization Act of 2008, P.L. 110–343, 10/3/2008
67. Treasury, “Interim Assistant Secretary for Financial Stability Neel Kashkari Review of the Financial Market Crisis and the Troubled Asset Relief Program,”
    1/13/2009, www.treas.gov, accessed 1/17/2009.
68. Treasury, “Responses to Questions of the First Report of the Congressional Oversight Panel for Economic Stabilization,” 12/30/2008, www.treas.gov,
    accessed 1/6/2009.
69. Treasury, “Testimony by Treasury Secretary Henry M. Paulson, Jr. before the House Committee on Financial Services,” 11/18/2008, www.treas.gov,
    accessed 1/6/2009.
70. Treasury, “Summary Response to Recommendations in the December 2008 GAO Report,” received 1/22/2009.
71. Treasury, CPP Program Lead, SIGTARP interview, 1/15/2009.
72. Treasury, “HP-1234: Neel Kashkari Testimony before the Senate Committee on Banking, Housing, and Urban Affairs,” 10/23/2008, www.treas.gov,
    accessed 1/20/2009.
73. Treasury, “Application Guidelines for TARP Capital Purchase Program,” www.treas.gov, accessed 1/6/2009.
                                                                            INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009            105




74. Treasury, “Audit of the Department of the Treasury’s Fiscal Years 2008 and 207 Financial Statements,” 11/17/2008, www.treas.gov, accessed 1/28/2009.
75. OFS, response to SIGTARP draft report, 1/30/2009.
76. Treasury, “Responses to Questions of the First Report of the Congressional Oversight Panel for Economic Stabilization,” 12/30/2008, www.treas.gov,
    accessed 1/6/2009.
77. Treasury, “Responses to Questions of the First Report of the Congressional Oversight Panel for Economic Stabilization,” 12/30/2008, www.treas.gov,
    accessed 1/6/2009.
78. Treasury, “Responses to Questions of the First Report of the Congressional Oversight Panel for Economic Stabilization,” 12/30/2008, www.treas.gov,
    accessed 1/6/2009.
79. Treasury, CPP Program Lead, SIGTARP interview, 1/15/2009.
80. OFS, response to SIGTARP draft report, 1/30/2009.
81. Treasury, CPP Program Lead, SIGTARP interview, 1/15/2009.
82. Treasury, “Application Guidelines for TARP Capital Purchase Program,” www.treas.gov, accessed 1/6/2009.
83. Treasury, “TARP Capital Purchase Program, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” www.treas.gov, accessed 1/6/2009.
84. Treasury, “TARP Capital Purchase Program, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” www.treas.gov, accessed 1/6/2009.
85. Treasury, response to SIGTARP data call, 1/17/2009.
86. Treasury, “TARP Capital Purchase Program (Non-Public QFIs excluding S Corps and Mutual Corporations) Preferred Securities, Summary of Preferred
     Terms,” www.treas.gov, accessed 1/6/2009.
87. Treasury, Program Descriptions “Capital Purchase Program,” 11/25/2008, www.treas.gov, accessed 1/6/2009. Treasury, “Treasury Issues Additional
    Executive Compensation Rules Under TARP,” 1/16/2009, www.treas.gov, accessed 1/19/2009.
88. Treasury, “31 CFR Part 30 TARP Capital Purchase Program,” www.treas.gov, accessed 1/28/2009.
89. Treasury, “Responses to Questions of the First Report of the Congressional Oversight Panel for Economic Stabilization,” 12/30/2008, www.treas.gov,
    accessed 1/6/2009.
90. Treasury, “HP-1322: Neel Kashkari Testimony before the U.S. House of Representatives Financial Services Committee,” 12/10/2008, www.treas.gov,
    accessed 1/20/2009.
91. Treasury, “TARP Capital Purchase Program, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” www.treas.gov, accessed 1/6/2009;
    Treasury, “Securities Purchase Agreement Standard Terms,” www.treas.gov, accessed 2/3/2009, p. 31-32.
92. Treasury, “Interim Assistant Secretary for Financial Stability, Neel Kashkari Remarks at Brookings Institute,” 1/8/2009, www.treas.gov, accessed 1/12/2009.
93. Treasury, “Summary Response to Recommendations in the December 2008 GAO Report,” received 1/22/2009.
94. Treasury, Letter to Jeffrey B. Weeden, 1/16/2009, received 1/22/2009.
95. The total number of financial institutions was reduced by two because SunTrust Banks Inc. and Bank of America both received two capital investments
    under CPP.
96. Treasury, “Troubled Asset Relief Program, Transactions Report For Period Ending January 16, 2009,” 1/22/2009, www.treas.gov, accessed 1/22/2009.
97. OFS Interim Chief Compliance Officer, response to SIGTARP data call, 1/17/2009.
98. Office of Financial Stability states there are 8 CDFIs, but the Transaction Reports show only 6.
99. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008; GAO, “Status of Efforts to Address Transparency and Accountability Issues,”
     1/30/2009, www.gao.gov, accessed 1/30/2009.
100. Treasury, “Guidelines for Systemically Significant Failing Institutions Program,” 11/25/2008, www.treas.gov, accessed 1/9/2009.
101. Treasury, “Treasury Releases Guidelines for Targeted Investment Program,” 1/2/2009, www.treas.gov, accessed 1/9/2009.
102. P.L. 110-343, “Emergency Economic Stabilization Act,” 10/3/2008. Treasury, “Report to Congress Pursuant to Section 102 of EESA,” 12/31/2008.
103. Treasury, Program Descriptions “Automotive Industry Financing Program,” 12/31/2008, www.treas.gov, accessed 1/12/2009.
104. Treasury, “Section 105(a) Troubled Asset Relief Program Report to Congress for Period December 1, 2008 to December 31, 2008,” 1/6/2009.
105. Federal Reserve, response to SIGTARP Draft Report, 1/29/2009.
106. Treasury: Office of Financial Stability, “Memorandum: Proposed TARP Transaction Regarding AIG,” 11/8/2008, pp. 3–4.
107. Federal Reserve, “Federal Reserve Press Release,” 10/8/2008, www.federalreserve.gov, accessed 1/15/2009.
108. Federal Reserve, “Federal Reserve Press Release,” 11/10/2008, www.federalreserve.gov, accessed 1/22/2009.
109. Federal Reserve, response to SIGTARP Draft Report, 1/29/2009.
110. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
111. AIG Securities Purchase Agreement, 11/25/2008.
112. New York Stock Exchange, www.nyse.com, accessed 1/24/2009.
113. Treasury: Office of Financial Stability, response to SIGTARP Draft Report, 1/29/2009.
114. AIG Securities Purchase Agreement, 11/25/2008.
115. Treasury: Notice 2008 – PSSFI, 1/16/2009, www.treas.gov, accessed 1/19/2009.
116. AIG Securities Purchase Agreement, 11/25/2008.
117. Treasury: “Notice 2008-PSSFI,” 1/16/2009, www.treas.gov, accessed 1/16/2009.
118. AIG Securities Purchase Agreement, 11/25/2008.
119. AIG Securities Purchase Agreement, 11/25/2008.
     106        SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




120. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
121. Treasury, “Joint Statement by Treasury, Federal Reserve and the FDIC on Citigroup,” 11/23/2008, www.treas.gov, accessed 1/9/2009.
122. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
123. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
124. Treasury, “Joint Statement by Treasury, Federal Reserve and the FDIC on Citigroup,” 11/23/2008, www.treas.gov, accessed 1/9/2009.
125. Citigroup Securities Purchase Agreement, 12/31/2008.
126. P.L. 110-343, “Emergency Economic Stabilization Act,” 10/3/2008.
127. Master Agreement dated January 15, 2009.
128. Citigroup Master Agreement, 1/15/2009.
129. Citigroup Securities Purchase Agreement, 12/31/2008.
130. Citigroup Securities Purchase Agreement, 12/31/2008. Stock price obtained from New York Stock Exchange, www.nyse.com, accessed 1/24/2009.
131. The TARP transaction took place on January 16, 2009.
132. Citigroup Master Agreement, 1/16/2009.
133. Citigroup Master Agreement, 1/16/2009.
134. Citigroup Master Agreement, 1/16/2009.
135. Citigroup Securities Purchase Agreement, 12/31/2008.
136. Citigroup Master Agreement, 1/15/2009.
137. Citigroup Securities Purchase Agreement, 12/31/2008.
138. Citigroup Securities Purchase Agreement, 12/31/2008.
139. Citigroup Securities Purchase Agreement, 12/31/2008.
140. Citigroup Securities Purchase Agreement, 12/31/2008.
141. Citigroup Securities Purchase Agreement, 12/31/2008.
142. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
143. Treasury, “Treasury, Federal Reserve, and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treas.gov, accessed 1/16/2009.
144. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
145. FDIC, “Explanation of the FDIC’s Loss Sharing Exposure,” 1/16/2009, www.fdic.gov, accessed 1/16/2009.
146. Securities and Exchange Commission, “Bank of America Corp 8-K,” 9/15/2008.
147. Securities and Exchange Commission, “Bank of America Corp 8-K,” 1/1/2009.
148. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
149. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
150. Treasury, “Treasury, Federal Reserve, and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treas.gov, accessed 1/16/2009.
151. Treasury, “Treasury, Federal Reserve, and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treas.gov, accessed 1/16/2009.
152. Treasury, “Treasury, Federal Reserve, and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treas.gov, accessed 1/16/2009.
153. New York Stock Exchange, www.nyse.com, accessed 1/24/2009.
154. Bank of America Corporation Securities Purchase Agreement, 1/15/2009.
155. Treasury, “Treasury, Federal Reserve, and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treas.gov, accessed 1/16/2009.
156. Bank of America Corp, “Summary of Terms Eligible Asset Guarantee,” 1/15/2009.
157. Bank of America Corp, “Summary of Terms Eligible Asset Guarantee,” 1/15/2009.
158. Bank of America Securities Purchase Agreement, 1/15/2009.
159. Treasury, “Treasury, Federal Reserve, and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treas.gov, accessed 1/16/2009.
160. Treasury: Office of Financial Stability, “Section 105(a) Troubled Asset Relief Program Report To Congress For The Period December 1, 2008 To December
     31, 2008,” 1/6/2009, p. 3.
161. Treasury, “Secretary Paulson Statement on Stabilizing the Automotive Industry,” 12/19/2008, www.treas.gov/press/releases/hp1332.htm, accessed
     1/25/2009.
162. Treasury: Office of Financial Stability, “Fourth Tranche Report to Congress,” 1/7/2009, p. 2.
163. GM Agreement. “Loan And Security Agreement By and Between The Borrower Listed on Appendix A as Borrower and The United States Department of
     Treasury as Lender Dated as of December 31, 2008,” p. 7.
164. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
165. This total does not include the $4 billion due to GM on February 17, 2009, if certain terms are met. Source: Treasury: Office of Financial Stability,
     “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
                                                                             INITIAL REPORT TO THE UNITED STATES CONGRESS I FEBRUARY 6, 2009            107




166. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
167. GM Agreement. “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury
     as Lender Dated as of December 31, 2008.”
168. Treasury: Office of Financial Stability, “Fourth Tranche Report to Congress,” 1/7/2009, p. 3.
169. Treasury: Office of Financial Stability, “Fourth Tranche Report to Congress,” 1/7/2009, p. 2.
170. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
171. Treasury: Office of Financial Stability, “Fourth Tranche Report to Congress,” 1/7/2009, p. 2.
172. GM Agreement. “Loan And Security Agreement By and Between The Borrower Listed on Appendix A As Borrower and The United States Department of
     Treasury as Lender Dated as of December 31, 2008.”
173. GM Agreement. “Loan And Security Agreement By and Between The Borrower Listed on Appendix A As Borrower and The United States Department of
     Treasury as Lender Dated as of December 31, 2008.”
174. GM Agreement. “Loan And Security Agreement By and Between The Borrower Listed on Appendix A As Borrower and The United States Department of
     Treasury as Lender Dated as of December 31, 2008.”
175. GM Agreement. “Loan And Security Agreement By and Between The Borrower Listed on Appendix A As Borrower and The United States Department of
     Treasury as Lender Dated as of December 31, 2008.”
176. GM Agreement. “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of
     Treasury as Lender Dated as of December 31, 2008,” pp. 54–55.
177. GM Agreement. “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of
     Treasury as Lender Dated as of December 31, 2008,” p. 55.
178. GM Agreement. “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury
     as Lender Dated as of December 31, 2008,” p. 55.
179. GM Agreement. “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury
     as Lender Dated as of December 31, 2008,” p. 55.
180. GM Agreement. “Loan And Security Agreement By and Between The Borrower Listed on Appendix A As Borrower and the United States Department of
     Treasury as Lender Dated as of December 31, 2008,” pp. 49, 54, 55.
181. GM Agreement. “Indicative Summary of Terms for Secured Term Loan Facility and Appendix A,” 12/19/2008, p. 7.
182. Chrysler Agreement. “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of
     Treasury as Lender Dated as of December 31, 2008,” p. 56.
183. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
184. Treasury: Office of Financial Stability, “Fourth Tranche Report to Congress,” 1/7/2009, p. 3.
185. Treasury, “Interim Assistant Secretary for Financial Stability Neel Kashkari Remarks at Brookings Institution,” 1/8/2009, www.treasury.gov/press/releases/
     hp1347.htm, accessed 1/12/2009.
186. Treasury, “Treasury Announces TARP Investment in GMAC,” 12/29/2008, http://www.treas.gov/press/releases/hp1335.htm, accessed 1/16/2009.
187. GMAC, “GMAC Receives $5.0 Billion Investment from the U.S. Treasury,” 12/29/2008, www.media.gmacfs.com/index.php?s=43&item=299, accessed
     1/13/2009.
188. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
189. Federal Reserve, “GMAC LLC/IB Finance Holding Company, LLC: Order Approving Formation of Bank Holding Companies and Notice to Engage in
     Certain Nonbanking Activities,” 12/24/2008, www.federalreserve.gov/newsevents/press/orders/orders20081224a1.pdf, accessed 1/25/2009, p. 5.
190. GMAC, “GMAC Announces Interim Changes to Its Board,” 1/9/2008, www.media.gmacfs.com/index.php?s=43&item=302, accessed 1/13/2009.
191. Treasury, Office of Financial Stability, “Section 105(a) Troubled Asset Relief Program Report to Congress for Period December 1, 2008 to December 31,
     2008,” 1/6/2009, p. 1.
192. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
193. A qualified equity offering is the sale by GMAC after the date of the stock purchase by Treasury of Tier 1 qualifying perpetual preferred membership
     interests or common membership interests for cash (other than any sales made pursuant to agreements or arrangements entered into, or pursuant to
     financing plans which were publicly announced, on or prior to November 17, 2008). Source: GMAC LLC Agreement, “Preferred Membership Interests:
     Summary of Preferred Terms,” pp. 2–3.
194. GMAC LLC Agreement, “Preferred Membership Interests: Summary of Preferred Terms,” p. 1.
195. Chrysler Financial Agreement, “Summary of Terms: Chrysler LB Receivables Trust Secured Term Loan,” 1/16/2009, p. 1.
196. Treasury, “Treasury Announces TARP Investments in Chrysler Financial,” 1/16/2009, www.treas.gov/press/releases/hp1362.htm, accessed 1/16/2009.
198. Chrysler Financial Agreement, “Summary of Terms: Chrysler LB Receivables Trust Secured Term Loan,” 1/16/2009, pp. 1–2.
199. Chrysler Financial Agreement, “Summary of Terms: Chrysler LB Receivables Trust Secured Term Loan,” 1/16/2009, pp. 1–2.
200. This figure includes only SSFI, TIP, AGP, and AIFP funds. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,”
     1/27/2009.
201. Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transactions Report,” 1/27/2009.
    108         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




202. Treasury: Office of Financial Stability, "Troubled Asset Relief Program Transactions Report," 1/27/2009.
203. FRBNY, Term Asset-Backed Securities Loan Facility: Terms and Conditions, 12/19/2008, http://www.newyorkfed.org, accessed 1/8/2009.
204. Treasury, response to SIGTARP data call, 1/16/2009.
205. FRBNY, Term Asset-Backed Securities Loan Facility: Terms and Conditions, 12/19/2008, http://www.newyorkfed.org, accessed 1/8/2009.
206. FRBNY, Term Asset-Backed Securities Loan Facility: Terms and Conditions, 12/19/2008, http://www.newyorkfed.org, accessed 1/8/2009.
207. FRBNY, Term Asset-Backed Securities Loan Facility: Terms and Conditions, 12/19/2008, http://www.newyorkfed.org, accessed 1/8/2009.
208. Federal Reserve, response to SIGTARP draft report, 1/30/2009.
209. FRBNY, Term Asset-Backed Securities Loan Facility: Terms and Conditions, 12/19/2008, http://www.newyorkfed.org, accessed 1/8/2009.
210. Treasury, response to SIGTARP data calls, 1/16/2009.
211. FRBNY, Term Asset-Backed Securities Loan Facility: Terms and Conditions, 12/19/2008, http://www.newyorkfed.org, accessed 1/8/2009
212. FRBNY, Term Asset-Backed Securities Loan Facility: Terms and Conditions, 12/19/2008, http://www.newyorkfed.org, accessed 1/8/2009.
213. FRBNY, Term Asset-Backed Securities Loan Facility: Terms and Conditions, 12/19/2008, http://www.newyorkfed.org, accessed 1/8/2009.
214. Treasury, response to SIGTARP data call, 1/16/2009.
215. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
216. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
217. GAO-09-266T, “Troubled Asset Relief Program: Additional Actions Needed to Better Ensure Integrity, Accountability, and Transparency,” 12/10/2008.
218. Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
219. Treasury, “US Department of Treasury Press Release,” 10/6/2008, www.treasury.gov, accessed 1/15/2009.
220. TARP Conflicts of Interest, Interim Rule, Billing Code 4810-25-P, 1/21/2009.
221. TARP Conflicts of Interest, Interim Rule, Billing Code 4810-25-P, 1/21/2009.
222. GAO-09-161, “Troubled Asset Relief Program: Additional Actions needed to Better Ensure Integrity, Accountability, and Transparency,” 12/2/2008.
223. Treasury, “Summary Response to Recommendations in December 2008 GAO Report,” 1/22/2009.
224. GAO-09-161, “Troubled Asset Relief Program: Additional Actions needed to Better Ensure Integrity, Accountability, and Transparency,” 12/2/2008.
225. PwC, SIGTARP interview, 1/16/2009.
226. PwC, SIGTARP interview, 1/16/2009.
227. Treasury, “Interim Secretary for Financial Stability, Neel Kashkari Remarks before the Institute of International Bankers,” 10/13/2008, www.treasury.gov,
     accessed 1/15/2009.
228. Treasury, “Interim Secretary for Financial Stability, Neel Kashkari Remarks before the Institute of International Bankers,” 10/13/2008, www.treasury.gov,
     accessed 1/15/2009.
229. Congressional Budget Office, “Congressional Budget Office Press Release,” 9/28/2008, www.cbo.gov, accessed 1/15/2009.
230. Treasury, “Troubled Asset Relief Program Report to Congress,” 12/31/2008.23
231. As of 2/12/2009, SIGTARP's request to the Office of Management and Budget under the Paperwork Reduction Act to send these letter requests is
     pending.
                                                                                              GLOSSARY OF TERMS I APPENDIX A   109




GLOSSARY OF TERMS
Actuarial Analysis/(Actuaries): “Experts in:
                                                                    Auction: “An asset sales strategy in which assets are sold
•   evaluating the likelihood of future events.                     either individually or in pools to the highest bidder in an open-
•   reducing the impact of undesirable events.                      outcry auction.”
•   designing creative ways to reduce the likelihood of unde-
    sirable events.                                                 Balance Sheet: “The balance sheet is a snapshot of the com-
                                                                    pany’s financial standing at an instant in time. The balance
Actuaries apply their mathematical expertise, statistical           sheet shows the company’s financial position, what it owns
knowledge, economic and financial analyses, and problem-            (assets) and what it owes (liabilities and net worth). The “bot-
solving skills to a wide range of business problems. They help      tom line” of a balance sheet must always balance (i.e. assets =
companies evaluate the long-term financial implications of          liabilities + net worth). The individual elements of a balance
their decisions; they develop new ways to manage risk, and          sheet change from day to day and reflect the activities of the
they estimate the costs of uncertain future events ranging from     company. Analyzing how the balance sheet changes over time
tornadoes and hurricanes to changes in life expectancy.             will reveal important information about the company’s busi-
Actuaries work in all sectors of the economy, though they           ness trends.”
are more heavily represented in the financial services sector.
Their work is the analytical backbone of the nation’s financial     Bank: “Means:
security programs, including insurance, Social Security, and        A. a banking institution organized under the laws of the
Medicare.”                                                             United States, or a Federal savings association, as defined
                                                                       in section 2(5) of the Home Owners’ Loan Act [12 USCS
Automotive Industry Financing Program (AIFP): The Au-                  1462(5)]
tomotive Industry Financing Program was created to provide          B. a member bank of the Federal Reserve System,
strategic investments in U.S. automotive companies to prevent       C. any other banking institution, whether incorporated or
a significant disruption of the U.S. automotive industry or to         not, doing business under the laws of any State or of the
financial markets.                                                     United States, a substantial portion of the business of
                                                                       which consists of receiving deposits or exercising fiduciary
Annual Basis: “The technique in statistics of taking a figure          powers similar to those permitted to national banks under
covering a period of less than one year and extrapolating it to        the authority of the Comptroller of the currency pursuant
cover a full one year period.”                                         to section 92a of Title 12, and which is supervised and
                                                                       examined by State or Federal authority having supervision
Annual Coupon Rate: “In bonds, notes, or other fixed income            over banks, and which is not operated for the purpose of
securities, the stated percentage rate of interest, usually paid       evading the provisions of this title, and
twice a year.”                                                      D. a receiver, conservator, or other liquidating agent of any
                                                                       institution or firm included in clauses (A), (B), or (C) of
Asset-Backed Security (ABS): “Asset-backed security means              this paragraph.”
a security that is primarily serviced by the cash flows of a dis-
crete pool of receivables or other financial assets, either fixed   Bank Holding Company (BHC): “A company that owns and/
or revolving, that by their terms convert into cash within a        or controls one or more U.S. banks or one that owns, or has
finite time period. Asset-backed security includes any rights or    controlling interest in, one or more banks. A bank holding
other assets designed to ensure the servicing or timely distribu-
tion of proceeds to the security holders.”
    110     APPENDIX A I GLOSSARY OF TERMS




company may also own another bank holding company, which            Collateralized Debt Obligation (CDO): “A collateralized
in turn owns or controls a bank; the company at the top of the      debt obligation (CDO) is a security that entitles the purchaser
ownership chain is called the top holder. The Board of Gover-       to some portion of the cash flows from a portfolio of assets,
nors is responsible for regulating and supervising bank holding     which may include bonds, loans, mortgage-backed securities,
companies, even if the bank owned by the holding company            or other CDOs. For a given pool, CDOs designated as senior
is under the primary supervision of a different federal agency      debt, mezzanine debt, subordinated debt, and equity often are
(OCC or FDIC).”                                                     issued.”

Bonus Pool: A pool or fund of money accumulated during the          Commitment: “Any legally binding arrangements that obligate
year by a business to be paid out at the end of a specified time    a bank to extend credit in the form of loans or lease financing
period, typically a year. It serves as compensation to employees    receivables; to purchase loans, securities, or other assets; or
of the business as a reward for achieving certain defined levels    to participate in loans and leases. Commitments also include
of company and or employee performance.                             overdraft facilities, revolving credit, home equity and mortgage
                                                                    lines of credit, eligible ABCP liquidity facilities, and similar
CAMELS Rating: A rating of a bank’s overall condition based         transactions.  Normally, commitments involve a written con-
on capital adequacy, asset quality, management, earnings,           tract or agreement and a commitment fee, or some other form
liquidity, and sensitivity to market risk. The ratings are issued   of consideration.”
by the U.S. government and are not released to the general
public.                                                             Common Stock: “A class of securities representing ownership
                                                                    and control in a corporation and that may pay dividends as
Capital: “Money invested in a firm.”                                well as appreciate in value.”

Capital Purchase Program (CPP): The Capital Purchase                CPP Council: “A council comprised of senior members from
Program is a program that is part of the Troubled Asset Recov-      the four Federal Banking Agencies with Treasury officials as
ery Program (TARP). It is a program that will invest in Qualify-    observers. Applicant institutions with lower examination rat-
ing Financial Institutions by purchasing preferred stock and        ings or other considerations that require further review are
equity warrants.                                                    referred to the CPP Council for Review.”

Clawback: “Provision for the recovery of bonuses or incentive       Credit Enhancement: “Techniques whereby a company
compensation paid to a senior executive based on statements         attempts to reduce the credit risk of its obligations. Credit
of earnings, gains, or other criteria that are later proven to be   enhancement may be provided by a third party (external credit
materially inaccurate.”                                             enhancement) or by the originator (internal credit enhance-
                                                                    ment), and more than one type of enhancement may be as-
Closing Date: “The time and date on which the Closing oc-           sociated with a given issuance.”
curs is the closing date.”
                                                                    Custodian: “Either (1) a bank, agent, trust company, or other
Collateral: “The property, including securities in definitive       organization responsible for safeguarding financial assets, or
form only, in which the Pledgor has granted a security interest     (2) the individual who oversees the mutual fund assets of a
to the Pledgee.”                                                    minor’s custodial account.”

Collateralized: Securing a loan with assets.
                                                                                              GLOSSARY OF TERMS I APPENDIX A   111




Deductible: “An amount or period which must be deducted             Equity: “The ownership interest of stockholders in a company.
before an insurance payout or settlement is calculated.”            Also, the excess of the market value of securities over debit
                                                                    balances in a margin account.”
Default: “Default means any failure to comply with the terms
of an obligation to such an extent that:                            Equity Interest: “Equity interest means any ownership inter-
(1) A judgment has been rendered in favor of the FDIC or a          est or rights in an organization, whether through an equity
    failed institution; or                                          security, contribution to capital, general or limited partnership
(2) In the case of a secured obligation, the property securing      interest, debt or warrants convertible into ownership interests
    such obligation is foreclosed on.”                              or rights, loans providing profit participation, binding com-
                                                                    mitments to acquire any such items, or some other form of
Deferred Cash Award: See Deferred Compensation.                     business transaction.”

Deferred Compensation: “An amount that has been earned              Executive Compensation: The terminology for how top ex-
but is not actually paid until a later date, typically through a    ecutives of business corporations are paid for the services they
payment plan, pension, or stock option plan.”                       provide. The forms of compensation typically include a base
                                                                    salary, bonuses, shares, options, and other company benefits.
Deferred Stock Award: See Deferred Compensation.
                                                                    Expenditure: “The actual spending of money—an outlay.”
Disbursements: “Amounts paid by federal agencies, by cash or
cash equivalent, during the fiscal year to liquidate government     Expense: “Outflow or other depletion of assets or incurrences
obligations.”                                                       of liabilities (or a combination of both) during some period as
                                                                    a result of providing goods, rendering services, or carrying out
Distributions: “Payments from fund or corporate cash flow.          other activities related to an entity’s programs and missions,
May include dividends from earnings, capital gains from sale        the benefits from which do not extend beyond the present
of portfolio holdings and return of capital. Fund distributions     operating period.”
can be made by check or by investing in additional shares.
Funds are required to distribute realized capital gains (if any)    Facility: “(i) (Banking) Generally, a funding arrangement
to shareholders at least once per year if they are not to be        between a borrower and a bank, such as a loan facility. (ii) In
taxed by the fund itself. Some corporations offer Dividend          the international markets often used as a short-hand term for
Reinvestment Plans (DRP).”                                          the backstop or underwritten facility, such as a note issuance
                                                                    facility, multi-option financing facility, or short-term note issu-
Dividend: “Distributions to stockholders of cash or stock           ance facility (SNIF), between an issuer of short-term securi-
declared by the company’s board of directors.”                      ties, such as euronotes or certificates of deposit, and a group
                                                                    of under-writing banks which commit to buy such securities at
Emergency Economic Stabilization Act of 2008 (EESA):                an agreed rate throughout the life of the facility, irrespective of
“An act to provide authority for the Federal Government to          whether notes are issued.”
purchase and insure certain types of troubled assets for the
purposes of providing stability to and preventing disruption in
the economy and financial system and protecting taxpayers, to
amend the Internal Revenue Code of 1986 to provide incen-
tives for energy production and conservation, to extend certain
expiring provisions, to provide individual income tax relief, and
for other purposes.”
    112     APPENDIX A I GLOSSARY OF TERMS




Federal Banking Agency (FBA): “The term ‘appropriate               Frozen Credit Markets: Widespread disruptions that cause
Federal banking agency’ means —                                    lenders to be unwilling to lend money, and creditworthy
(1) the Comptroller of the Currency, in the case of any            consumers and firms are unable to get access to loans to
    national banking association, or any Federal branch or         make purchases or investments.
    agency of a foreign bank;
(2) the Board of Governors of the Federal Reserve System, in       Golden Parachute Payment: “If a company is taken over,
    the case of —                                                  this provides the company’s executives with profitable ben-
    (A) any State member insured bank,                             efits (such as a large severance check and stock allowances)
    (B) any branch or agency of a foreign bank with respect        so that they will be financially secure in the event that they
        to any provision of the Federal Reserve Act which          are let go.”
        is made applicable under the International Banking
        Act of 1978,                                               Guarantee: “Guarantee means a financial guarantee, letter
    (C) any foreign bank which does not operate an insured         of credit, insurance, or other similar financial instrument
        branch,                                                    (other than a credit derivative) that allows one party (ben-
    (D) any agency or commercial lending company other             eficiary) to transfer the credit risk of one or more specific
        than a Federal agency,                                     exposures (reference exposure) to another party (protection
    (E) supervisory or regulatory proceedings arising from         provider).”
        the authority given to the Board of Governors under
        section 7(c)(1) of the International Banking Act of        Haircut: “(i) The margin in a repurchase transaction. This
        1978, including such proceedings under the Finan-          is the difference between the yield or price on the bid quote
        cial Institutions Supervisory Act of 1966, and             and the yield or price used in the repurchase agreement. (ii)
    (F) any bank holding company and any subsidiary of a           Calculation of the discount to be applied on a firm’s inven-
        bank holding company (other than a bank);                  tory of securities used by the regulator to ascertain the capi-
(3) the Federal Deposit Insurance Corporation in the case of       tal requirements for broker-dealers (cf. capital adequacy).
    a State nonmember insured bank, or a foreign bank hav-         See FOCUS report. (iii) The capital required by a financial
    ing an insured branch; and                                     intermediary to support a position. (iv) Another term for a
(4) the Director of the Office of Thrift Supervision in the case   commission or fee. (v) The margin requirement of a mem-
    of any savings association or any savings and loan holding     ber on a futures or options exchange when undertaking
    company.                                                       transactions.”

Under the rule set forth in this subsection, more than one         Holding Company: “Means: A)  any bank holding company
agency may be an appropriate Federal banking agency with           (as defined in section 2 of the Bank Holding Company Act
respect to any given institution.”                                 of 1956); B)  any company described in section 4(f)(1) of the
                                                                   Bank Holding Company Act of 1956; and C)  any savings and
Fiscal Year: “Accounting period covering 12 consecutive            loan holding company (as defined in the Home Owners’ Loan
months over which a company determines earnings and                Act).”
profits. The fiscal year serves as a period of reference for the
company and does not necessarily correspond to the calendar        Hope for Homeowners Program: “A program under the
year.”                                                             Department of Housing and Urban Development (HUD),
                                                                   designed to help mortgage borrowers at risk of default and
                                                                   foreclosure to refinance into more affordable, sustainable
                                                                   loans which are in turn guaranteed by HUD.”
                                                                                                 GLOSSARY OF TERMS I APPENDIX A   113




Illiquid: “Illiquidity occurs when a bank is not able to meet          leverage is popularly called ‘trading on the equity.’ For individu-
its current obligations as they come due. Illiquidity may arise        als, leverage can involve debt, as when an investor borrows
because banks issue demand deposits — obligations due upon             money from his broker ‘on margin’ and so is able to buy more
demand — to fund lending activity, and are therefore sus-              stock than he otherwise could. If the stock goes up, he repays
ceptible to bank runs. When depositors know or believe that            the broker the loan amount and keeps the profit nd option
a bank is in danger of failing, they may attempt to withdraw           contracts also provide leverage, not through debt but by offer-
their deposits as quickly as possible, causing a liquidity crisis at   ing the prospect of a high return for little or no investment.”
the bank.”
                                                                       LIBOR: “London Interbank Offered Rate; a short-term inter-
In-the-Money: “Options or warrants with ‘positive intrinsic            est rate often quoted as a 1, 3, 6-month rate for U.S. dollars.”
value’. In other words, a call option/warrant with an exercise
price below the price of the underlying instrument, or a put           Liquidity: “A high level of trading activity, allowing buying
option/warrant with an exercise price above the price of the           and selling with minimum price disturbance. Also, a market
underlying instrument. In either case they are said to be ‘in-         characterized by the ability to buy and sell with relative ease.
the-money’.”                                                           Antithesis of illiquidity.”

Insolvent: “A firm that is unable to pay debts (its liabilities        Mortgage-Backed Securities (MBS): “Debt obligations that
exceed its assets).”                                                   represent claims to the cash flows from pools of mortgage
                                                                       loans, most commonly on residential property. Mortgage loans
Interest: “Interest means any payment to a consumer or to              are purchased from banks, mortgage companies, and other
an account for the use of funds in an account, calculated by           originators and then assembled into pools by a governmental,
application of a periodic rate to the balance. The term does not       quasi-governmental, or private entity. The entity then issues
include the payment of a bonus or other consideration worth            securities that represent claims on the principal and interest
$10 or less given during a year, the waiver or reduction of a          payments made by borrowers on the loans in the pool, a pro-
fee, or the absorption of expenses.”                                   cess known as securitization.”

Issue Price: “The price at which a company’s shares are of-            Mutual Company: “A corporation that is owned by a group
fered to the market for the first time, which might be at par or       of members and that distributes income in proportion to the
at a premium or discount. When they begin to be traded, the            amount of business that members do with the company.”
market price may be above or below the issue price.”
                                                                       Mutual Organization: See Mutual Company
Leverage: “Any means of increasing value and return by
borrowing funds or committing less of one’s own. For corpora-          Net Present Value: “The present value of the estimated future
tions, it refers to the ratio of debt (in the form of bonds and        cash inflows minus the present value of the cash outflows.”
preferred stock outstanding) to equity (in the form of common
stock outstanding) in the company’s capital structure. The             Non-Recourse Funding/Loan: “A debt for which the debtor’s
more long-term debt there is, the greater the financial lever-         obligation to repay is limited to the collateral securing the debt
age. Shareholders benefit from this financial leverage to the          and for which a deficiency judgment against the debtor is not
extent that the return on the borrowed money exceeds the               permitted, and would limit the amount of a non-recourse debt
interest costs of borrowing it. The market value of the com-           to the net equity in the
pany rises and so do its shares. Because of this effect, financial     collateral, as defined.”
    114     APPENDIX A I GLOSSARY OF TERMS




Note/Notes: “Debt instruments with initial maturities longer          of insurers who share premiums and losses in order to spread
than one year and shorter than 10 years.”                             risk. In investments, the combination of funds for the benefit
                                                                      of a common project, or a group of investors who use their
Obligation: “A legal responsibility, such as to pay a debt.”          combined influence to manipulate prices.”

Office of Financial Stability (OFS): “Office within the De-           Preferred Stock: “A security that usually pays a fixed dividend
partment of the Treasury created by the EESA to operate the           and that gives the holder a claim on corporate earnings and
TARP.”                                                                assets that is superior to that of holders of common stock.”

Performance-Based (Condition): “A condition affecting the             Premium(s): “The price of insurance protection for a specified
vesting, exercisability, exercise price, or other pertinent factors   risk for a specified period of time.”
used in determining the fair value of an award that relates to
both (a) an employee’s rendering service for a specified (either      Prepayment:  “A “prepayment” occurs upon —
explicitly or implicitly) period of time and (b) achieving a          (i) Refinancing or consolidation of the indebtedness;
specified performance target that is defined solely by reference      (ii) Actual prepayment of the indebtedness by the debtor,
to the employer’s own operations (or activities). Attaining a               whether voluntarily or following acceleration of the pay-
specified growth rate in return on assets, obtaining regulatory             ment obligation by the creditor; or
approval to market a specified product, selling shares in an          (iii) The entry of a judgment for the indebtedness in favor of
initial public offering or other financing event, and a change in           the creditor.”
control are examples of performance conditions for purposes
of this Statement. A performance target also may be defined           President’s Designee: One or more officers from the Execu-
by reference to the same performance measure of another               tive Branch designated by the President.
entity or group of entities. For example, attaining a growth rate
in earnings per share that exceeds the average growth rate in         President’s Corporate Fraud Task Force: The President’s
earnings per share of other entities in the same industry is a        Corporate Fraud Task Force was created by an executive
performance condition for purposes of this Statement. A per-          order of President George W. Bush to “provide direction
formance target might pertain either to the performance of the        for the investigation and prosecution of cases of securities
enterprise as a whole or to some part of the enterprise, such as      fraud, accounting fraud, mail and wire fraud, money launder-
a division or an individual employee.”                                ing, tax fraud based on such predicate offenses, and other
                                                                      related financial crimes committed by commercial entities
Perpetual Senior Preferred Stock: Shares that give the                and directors, officers, professional advisers, and employees
stockholder the right to dividend payments that do not expire         thereof (hereinafter ‘‘financial crimes’’).” Created in 2002, it
for as long as the stockholder owns the stock.                        is an inter-agency group that coordinates enforcement efforts
                                                                      among several agencies, including the Departments of Justice,
Pipeline: Transactions that have been approved but have not           the Commodities Futures Trading Commission, the Federal
yet closed.                                                           Energy Regulatory Commission, Treasury, Labor, the Securi-
                                                                      ties and Exchange Commission, and U.S. Postal Inspection
Pool: “In capital budgeting, the concept that investment proj-        Service.
ects are financed out of a pool of bonds, preferred stock, and
common stock, and a weighted-average cost of capital must
be used to calculate investment returns. In insurance, a group
                                                                                               GLOSSARY OF TERMS I APPENDIX A   115




Primary Dealer: “ ‘Primary Dealer’ shall mean a securities           of principal owners of the enterprise and its management;
dealer or government securities dealer that is designated as a       and other parties with which the enterprise may deal if one
primary dealer by the Federal Reserve Bank of New York from          party controls or can significantly influence the management
time to time.”                                                       or operating policies of the other to an extent that one of the
                                                                     transacting parties might be prevented from fully pursuing its
Procurement: “In the Federal Government, the process of              own separate interests. Another party also is a related party if it
obtaining services, supplies, and equipment in conformance           can significantly influence the management or operating poli-
with applicable laws and regulations.”                               cies of the transacting parties or if it has an ownership interest
                                                                     in one of the transacting parties and can significantly influence
Profit: “Is the difference between the purchase or sale price of     the other to an extent that one or more of the transacting par-
the security and the value of that security as measured by the       ties might be prevented from fully pursuing its own separate
trading price of the security a reasonable period after public       interests.”
dissemination of the nonpublic information.”
                                                                     Reorganization: “Creation of a plan to restructure a debtor’s
Purchasing Authority: The authority to purchase goods and            business and restore its financial health.”
services.
                                                                     Revenue: “Either of the following: (1) As used in the congres-
Qualified Equity Offering: the Sale by a Qualifying Financial        sional budget process, a synonym for governmental receipts.
Institution after the date of this investment of Tier 1 qualifying   Revenues result from amounts that result from the govern-
perpetual preferred stock or common stock for cash.                  ment’s exercise of its sovereign power to tax or otherwise com-
                                                                     pel payment or from gifts to the government. Article I, Section
Qualifying Financial Institution (QFI): Sale by a Qualify-           7, of the U.S. Constitution requires that revenue bills originate
ing Financial Institution after the date of investment in Tier 1     in the House of Representatives. (2) As used in federal propri-
qualifying perpetual preferred stock or common stock for cash.       etary accounting, an inflow of resources that the government
                                                                     demands, earns, or receives by donation. Revenue comes from
Rating: “An evaluation of credit quality of a company’s debt         two sources: exchange transactions and nonexchange trans-
issue by Thomson Financial BankWatch, Moody’s, S&P, and              actions. Exchange revenues arise when a government entity
Fitch Investors Service. Investors and analysts use ratings          provides goods and services to the public or to another govern-
to assess the riskiness of an investment. Ratings can also be        ment entity for a price. Another term for exchange revenue is
an evaluation a country’s creditworthiness or ability to repay,      ‘earned revenue.’ Nonexchange revenues arise primarily from
taking into consideration its estimated percentage default rate      exercise of the government’s power to demand payments from
and political risk.”                                                 the public (e.g., taxes, duties, fines, and penalties) but also
                                                                     include donations. The term ‘revenue’ does not encompass
Recapitalize: “Restructure its capitalization (debt and equity).”    all financing sources of government reporting entities, such
                                                                     as most of the appropriations they receive. Revenues result
Related Party: “Affiliates of the enterprise; entities for which     from (1) services performed by the federal government and (2)
investments are accounted for by the equity method by the            goods and other property delivered to purchasers.”
enterprise; trusts for the benefit of employees, such as pen-
sion and profit-sharing trusts that are managed by or under the
trusteeship of management; principal owners of the enter-
prise; its management; members of the immediate families
    116     APPENDIX A I GLOSSARY OF TERMS




Rights Offering: “Means offers and sales for cash of equity se-     Savings Association: “Any Federal savings association or Fed-
curities where: 1) The issuer grants the existing security hold-    eral savings bank; any building and loan association, savings
ers of a particular class of equity securities (including holders   and loan association, homestead association, or cooperative
of depositary receipts evidencing those securities) the right to    bank if such association or cooperative bank is a member of
purchase or subscribe for additional securities of that class;      the Deposit Insurance Fund; and any savings bank or coop-
and 2) The number of additional shares an existing security         erative bank which is deemed by the Director of the Office of
holder may purchase initially is in proportion to the number of     Thrift Supervision to be a savings association under section
securities he or she holds of record on the record date for the     10(1) of the Home Owners’ Loan Act.”
rights offering. If an existing security holder holds depositary
receipts, the proportion must be calculated as if the underlying    Secondary Mortgage Market: “If you think of America’s
securities were held directly.”                                     mortgage lenders as retail stores where people go to get mort-
                                                                    gages, the secondary mortgage market is their supplier. Buyers
Risk-based Premium: A premium is the price of insurance             of home mortgages in the United States, such as Freddie Mac,
protection for a specified risk for a specified period of time.     are considered a secondary market conduit between mortgage
With a risk-based premium, the price paid escalates in line         lenders and investors. Lenders look to secondary market con-
with the probability of default and loss upon default.              duits for the funds they need to meet consumer demand for
                                                                    home mortgages and multifamily housing.”
S Corporation: “A Qualifying Financial Institution (‘QFI’)
under these terms of our Capital Purchase Program means a           Secure: A process in which the borrower offers an asset to
bank, savings association, bank holding company, or savings         which the lender has access in the event that the borrower
and loan holding company that has  made a valid election to         fails to make repayment. A mortgage backed by property is an
be taxed under Subchapter S of Chapter 1 of the U.S. Internal       example: the mortgage is secured by the property.
Revenue Code (a ‘S-Corp’) and is also one of the following: 1)
a top-tier Bank Holding Company (‘BHC’), or top-tier Savings        Secured Debt: “Debt that has first claim on specified assets in
and Loan Holding Company (‘SLHC’) that engages solely or            the event of default.”
predominately in activities permissible for financial holding
companies under relevant law, 2) a U.S. bank or U.S. savings        Securitization: “The creation of financial assets by combining
association that is not controlled by a BHC or SLHC, or 3)          other similar assets, ranging from mortgages to royalties, and
a U.S. bank or U.S. savings association that is a qualifying        selling them in the new, tradable form to investors.”
S-Corp subsidiary which is controlled by a BHC or SLHC
which itself is an S-Corp and which does not engage solely          Securitization Vehicle: “The term ‘securitization vehicle’
or predominately in activities that are permitted for financial     means a trust, corporation, partnership, limited liability entity,
holding companies under relevant law.”                              special purpose entity, or other structure that--
                                                                    (A) is the issuer, or is created by the issuer, of mortgage
Savings and Loan Association: “A financial institution that         pass-through certificates, participation certificates, mortgage-
accepts deposits primarily from individuals and channels its        backed securities, or other similar securities backed by a pool
funds primarily into residential mortgage loans.”                   of assets that includes residential mortgage loans; and (B)
                                                                    holds such loans.”
Savings and Loan Holding Company (SLHC): “Any com-
pany that directly or indirectly controls a savings association.”
                                                                                                GLOSSARY OF TERMS I APPENDIX A   117




Security: “ ‘Security’ means any note, stock, treasury stock,         Senior Secured Interest: A senior proprietary right in a
security future, bond, debenture, evidence of indebtedness,           debtor’s property that secures payment for performance of an
certificate of interest or participation in any profit-sharing        obligation.
agreement, collateral-trust certificate, preorganization certifi-
cate or subscription, transferable share, investment contract,        Senior Unsecured Note: A note that takes priority over other
voting-trust certificate, certificate of deposit for a security,      unsecured debt in liquidation.
fractional undivided interest in oil, gas, or other mineral rights,
any put, call, straddle, option, or privilege on any security         Settlement: “When payment is made for a trade.”
(including a certificate of deposit) or on any group or index of
securities (including any interest therein or based on the value      Special Purpose Entity/Vehicle (SPV): “An off-balance sheet
thereof), or any put, call, straddle, option, or privilege entered    legal entity, which ‘holds’ the receivables in a pool and issues
into on a national securities exchange relating to foreign cur-       the securities.”
rency, or, in general, any interest or instrument commonly
known as a ‘security’, or any certificate of interest or participa-   Spread: “1) The gap between bid and ask prices of a stock
tion in, temporary or interim certificate for, receipt for, guaran-   or other security, 2) The simultaneous purchase and sale of
tee of, or warrant or right to subscribe to or purchase, any of       separate futures or options contracts for the same commodity
the foregoing.”                                                       for delivery in different months, Also known as a straddle, 3)
                                                                      Difference between the price at which an underwriter buys an
Senior Debt: “Issues that rank ahead of all others in right of        issue from a firm and the price at which the underwriter sells
payment (cf. junior; pari passu). Senior secured means that           it to the public, 4) The price an issuer pays above a benchmark
the debt has first prior claim in the event of default; senior        fixed-income yield to borrow money.”
unsecured debt ranks ahead of unsecured debt in any repay-
ment (cf. unsecured).”                                                Strike Price: “The stated price per share for which underlying
                                                                      stock may be purchased (in the case of a call) or sold (in the
Senior Leadership Committee: Part of Citigroup’s corporate            case of a put) by the option holder upon exercise of the option
governance structure, the Senior Leadership Committee com-            contract.”
prises senior leaders including the CEO and CFO. Citigroup
posts the committee members on its website (www.citigroup.            Subordinated: “A claim ranked lower in priority than other
com/citi/corporategovernance/slc.htm).                                claims. Common stock claims are always subordinated to
                                                                      debt.”
Senior Preferred Membership Interests: Refers to indi-
viduals or other organizations with an ownership interest in a        Subordinated Debt: Funding that has a lesser priority than
Limited Liability Company (“LLC”) with a senior liquidation           other debt issued.
preference, entitling it to receive its liquidation preference
before any other ownership interest in the LLC.                       Systemically Significant Failing Institution (SSFI): “In
                                                                      an environment of substantially reduced confidence, severe
Senior Preferred Shares/(Stock): Stock with a senior liquida-         strains, and high volatility in financial markets, the disorderly
tion preference, entitling it to receive its liquidation preference   failure of a systemically significant institution could impose
before any other stock, preferred or common.                          significant losses on creditors and counterparties, call into
                                                                      question the financial strength of other similarly situated
                                                                      financial institutions, disrupt financial markets, raise borrow-
    118     APPENDIX A I GLOSSARY OF TERMS




ing costs for households and businesses, and reduce house-             Total Risk-Weighted Assets: “The amount of a banks total
hold wealth.  The resulting financial strains could threaten           assets after adjusting based on the risk factor assigned to each
the viability of otherwise financially sound businesses, institu-      individual asset.”
tions, and municipalities, resulting in adverse spillovers on
employment, output, and income. In determining whether an              Variable Rate of Interest: “A variable-rate agreement, as
institution is systemically significant and at substantial risk of     distinguished from a fixed-rate agreement, calls for an inter-
failure, Treasury may consider, among other things: 1) The             est rate that may fluctuate over the life of the loan. The rate
extent to which the failure of an institution could threaten the       is often tied to an index that reflects changes in market rates
viability of its creditors and counterparties because of their         of interest. A fluctuation in the rate causes changes in either
direct exposures to the institution; 2) The number and size of         the payments or the length of the loan term. Limits are often
financial institutions that are seen by investors or counterpar-       placed on the degree to which the interest rate or the pay-
ties as similarly situated to the failing institution, or that would   ments can vary.”
otherwise be likely to experience indirect contagion effects
from the failure of the institution; 3) Whether the institution        Vest/Vesting: “Become applicable or exercisable. A term
is sufficiently important to the nation’s financial and economic       mainly used on the context of employee stock ownership or
system that a disorderly failure would, with a high probability,       option programs. Employees might be given equity in a firm
cause major disruptions to credit markets or  payments and             but they must stay with the firm for a number of years before
settlement systems, seriously destabilize key asset prices, sig-       they are entitled to the full equity. This is a vesting provision. It
nificantly increase uncertainty or losses of confidence thereby        provides incentive for the employee to perfor
materially weakening overall economic performance; or 4)
The extent and probability of the institution’s ability to access      Volatility: “A measure of risk based on the standard deviation
alternative sources of capital and liquidity, whether from the         of the asset return. Volatility is a variable that appears in option
private sector or other sources of government funds. In making         pricing formulas, where it denotes the volatility of the under-
these judgments, Treasury will obtain and consider informa-            lying asset return from now to the expiration of the option.
tion from a variety of sources, and will take account of any           There are volatility indexes. Such as a scale of 1-9; a higher
recommendations received from the institution’s primary regu-          rating means higher risk.”
lator, if applicable, or any other regulatory body in a position to
provide insight into the potential consequences of the failure         Warrant: “A certificate issued by a company giving the holder
of a particular institution.”                                          the right to purchase securities at a stipulated price within spe-
                                                                       cific time limits or with no expiration date (perpetual warrant).
TALF: Term Asset-backed Securities Loan Facility is a Federal          A warrant is sometimes offered by a company as an induce-
Reserve loan program intended to increase the availability of          ment to buy.”
loans to consumers and small businesses. TARP funds will be
indirectly invested in this program through a special purpose          Sources
vehicle.                                                               American Academy of Actuaries, “Publications,” www.actuary.org, accessed
                                                                       1/28/2009.
                                                                       Duke University, “The Fuqua School of Business: Glossary,” www.fuqua.duke.
TARP Investment Committee: Includes the Troubled Asset                 edu, accessed 1/28/2009.
Relief Program’s (TARP’s) Chief Investment Officer and senior          Treasury, “Recordkeeping and Confirmation Requirements for Securities
                                                                       Transactions” Code of Federal Regulations, Title 12, Vol. 5, http://edocket.
officials on financial markets, economic policy, financial insti-      access.gpo.gov/cfr_2008/janqtr/12cfr551.40.htm, accessed 1/28/2009.
tutions, and financial stability.                                      Federal Deposit Insurance Corporation, “List of Abbreviations and Terms,”
                                                                       www.fdic.gov, accessed 1/28/2009.
                                                                                                                  GLOSSARY OF TERMS I APPENDIX A         119




Small Business Administration (SBA), Financial Statements, www.sba.gov,            Briscoe, Simon, and Jane Fuller (eds)., Harriman’s Financial Dictionary: Over
accessed 1/28/2009.                                                                2,600 Essential Financial Terms. Harriman House. © 2007.
Securities and Exchange Commission, Securities Exchange Act of 1934, 15            New York Stock Exchange, “Glossary,” www.nyse.com, accessed 1/28/2009.
U.S.C. § 78a, www.sec.gov, accessed 1/28/2009.                                     Securities and Exchange Commission, “Mortgage-Backed Securities,” www.
Citigroup Purchase Agreement.Treasury, “Securities Purchase Agreement              sec.gov/answers/mortgagesecurities.htm, accessed 1/28/2009.
dated as of January 15, 2009 between Citigroup, Inc. and United States De-         California State Senate, “Senate Bill 668,” http://info.sen.ca.gov/pub/01-02/
partment of Treasury,” 1/15/2009.                                                  bill/sen/sb_0651-0700/sb_668_bill_20010417_amended_sen.pdf, accessed
Federal Reserve Board, Federal Reserve Banks Operating Circular No. 8: Col-        1/28/2009.
lateral, www.frbservices.org, accessed 1/28/2009.                                  Emergency Economic Stabilization Act of 2008, Public Law 110-343,
House of Representatives, “Governor Kevin Warsh, Hedge funds, Before the           10/3/2008.
Committee on Financial Services,” July 11, 2007, www.federalreserve.gov,           Financial Accounting Standards Board, www.fasb.org, accessed 1/28/2009.
accessed 1/28/2009.
                                                                                   Department of Justice, Executive Order 13271—Establishment of the Corpo-
Federal Register, 69 Fed. Reg. 44,923, 7/28/2004, http://files.ots.gslsolutions.   rate Fraud Task Force, 7/9/2002, www.usdoj.gove, accessed 1/28/2009.
com/73227.pdf, accessed 1/28/2009.
                                                                                   Securities and Exchange Commission, “Memorandum of Understanding be-
Financial Industry Regulatory Authority, “Glossary,” www.finra.org, accessed       tween the U.S. and the Board of Governors of the Federal System,” 7/8/2008,
1/28/2009.                                                                         www.sec.gov, accessed 1/28/2009.
Government Accountability Office, “GAO-09-161 Troubled Asset Relief Pro-           Institute for Telecommunication Sciences, “Glossary,” www.its.bldrdoc.gov/
gram: Additional Actions needed to Better Ensure Integrity, Accountability, and    fs-1037/dir-028/_4167.htm, accessed 1/28/2009.
Transparency,” 12/2/2008, www.gao.gov, accessed 1/28/2009.
                                                                                   Treasury, “TARP Capital Purchase Program, senior Preferred Stock and War-
GAO-05-734SP, “A Glossary of Terms Used in the Federal Budget Process,             rants, Summary of Preferred Terms,” 10/14/2008, www.treas.gov, accessed
September 2005,” http://www.gao.gov/new.items/d05734sp.pdf, accessed               1/25/2009.
1/28/2009.
                                                                                   Securities and Exchange Commission, “Final Rule: Cross-Border Tender and
Moles, Peter, and Nicholas Terry. The Handbook of International Financial          Exchange Offers, Business Combinations and Rights Offerings,” www.sec.gov/
Terms. Oxford University Press. © 1997.                                            rules/final/33-7759.htm#P274_55926, accessed 1/28/2009.
Federal Deposit Insurance Company, Federal Deposit Insurance Act,                  Treasury, “S Corporation Frequently Asked Questions,” www.treas.gov, ac-
2/29/2008, p. 1065, www.fdic.gov/regulations/laws/rules/1000-400.html, ac-         cessed 1/28/2009.
cessed 1/28/2009.
                                                                                   National Information Center, “Institution Types Defined,” www.ffiec.gov/
Shook, R.J.. Chapter 7, Wall Street Dictionary. Career Press. © 1999.              nicpubweb/Content/HELP/Institution%20Type%20Description.htm, accessed
Federal Deposit Insurance Company, 2000 – Rules and Regulations, FDIC              1/28/2009.
Laws, Regulations, Related Acts, http://www.fdic.gov/regulations/laws/             Massachusetts Department of Revenue, “TIR 04-9: Diversified Savings and
rules/2000-6150.html#2680, accessed 1/28/2009.                                     Loan Holding Companies are Generally Excluded from the Definition of
Federal Deposit Insurance Company, 2000 – Rules and Regulations, Part 347          Financial Institution,” www.mass.gov, accessed 1/28/2009.
– International Banking, FDIC Law, Regulations, Related Acts, http://www.          National Archives and Records Administration, “Code of Federal Regulations
fdic.gov/regulations/laws/rules/2000-6800.html#2846, accessed 1/28/2009.           - Title 12: Banks and Banking,” 12/2005, http://www.access.gpo.gov/cgi-bin/
 Federal Deposit Insurance Company, 2000 – FDIC Rules and Regulations,             cfrassemble.cgi?title=199812, accessed 1/28/2009.
Appendix D to Part 325 — Capital Adequacy Guidelines for Banks: Internal-          Federal Home Loan Mortgage Corporation, “Frequently Asked Questions
Ratings-Based and Advanced Measurement Approaches, www.fdic.gov/regula-            About Freddie Mac ” www.freddiemac.com, accessed 1/28/2009.
tions/laws/rules/2000-4850.html#2262.30, accessed 1/28/2009.
                                                                                   House of Representatives, Mortgage Enhancement and Modification Act of
Federal Deposit Insurance Company, “Right to Financial Privacy Act, 6500 –         2008, 110th Congress, 2d Session, S. 2801, http://thomas.loc.gov/cgi-bin/
Consumer Protection, FDIC Laws, Regulations, Related Acts, www.fdic.gov/           query/z?c110:S.2801.IS, accessed 1/28/2009.
regulations/laws/rules/6500-2550.html#7091, accessed 1/28/2009.
                                                                                   House of Representatives, Investment Company Act of 1940, 15 U.S.C. § 80-
Federal Deposit Insurance Company, “6500 – Consumer Protection, FDIC               1, http://uscode.house.gov/download/pls/15C2D.txt, accessed 1/28/2009.
Laws, Regulations, Related Acts,” www.fdic.gov, accessed 1/28/2009.
                                                                                   Baily, Martin Neil, Robert E. Litan, and Matthew S. Johnson, “The Origins of
Federal Deposit Insurance Company, “8000 – Miscellaneous Statutes and              the Financial Crisis,” The Brookings Institution, 11/2008, p. 24, www.brook-
Regulations, 12 C.F.R. § 590.4, FDIC Law, Regulations, Related Acts,” www.         ings.edu, accessed 1/28/2009.
fdic.gov, accessed 1/28/2009.
                                                                                   Federal Reserve Board, Comments on SIGTARP draft report, 1/29/2009.
Federal Deposit Insurance Company, “8000 – Miscellaneous Statues and
Regulations, FDIC Law, Regulations, Related Acts,” 15 U.S.C. 78u—1, www.
fdic.gov, accessed 1/28/2009.
Housing and Urban Development, “Hope for Homeowners,” www.hud.gov,
accessed 1/28/2009.
Federal Deposit Insurance Corporation, “Failure Resolution and Asset Liqui-
dation: Results of an International Survey of Deposit Insurers,” FDIC Banking
Review, 6/20/2002. www.fdic.gov, accessed 1/28/2009.
120   APPENDIX A I GLOSSARY OF TERMS
                                                                                          ACRONYMS I APPENDIX B   121




ACRONYMS

ABS     Asset-Backed Securities                              IG       Inspector General
AGP     Asset Guarantee Program                              LIBOR    London Interbank Offered Rate
AIFP    Automotive Industry Financing Program                LLC      Limited Liability Company
AIG     American International Group, Inc.                   MBS      Mortgage-Backed Securities
BNYM    Bank of New York/Mellon                              OCC      Office of the Comptroller of the Currency
CAMELS  capital adequacy, asset quality, management,         OFS      Office of Financial Stability
        earnings, liquidity and sensitivity to market risk   OMB      Office of Management and Budget
CBO     Congressional Budget Office                          OTS      Office of Thrift Supervision
CDFI    Community Development Financial Institution          PwC      PricewaterhouseCoopers, LLP
COI     Conflict of Interest                                 PEO      Principal Executive Officer
COP     Congressional Oversight Panel                        PFO      Principal Finance Officer
CPP     Capital Purchase Program                             QFI      Qualifying Financial Institution
DOJ     Department of Justice                                SBA      Small Business Administration
EESA    Emergency Economic Stabilization Act of 2008         SEC      Securities and Exchange Commission
FAR     Federal Acquisition Regulation                       SEO      Senior Executive Officer
FBA     Federal Banking Agency                               SIGIR    Special Inspector General for Iraq
FBI     Federal Bureau of Investigation                               Reconstruction
FDIC    Federal Deposit Insurance Corporation                SIGTARP Special Inspector General for the Troubled Asset
FOIA    Freedom of Information Act                                    Relief Program
FRBNY   Federal Reserve Bank of New York                     SPV      Special Purpose Vehicle
FSOB    Financial Stability Oversight Board                  SSFI     Systemically Significant Failing Institutions
GAO     Government Accountability Office                     TAIFF    Troubled Assets Insurance Financing Fund
GM      General Motors Corporation                           TALF     Term Asset-backed Securities Loan Facility
GMAC    General Motors Acceptance Corporation LLC            TARP     Troubled Asset Relief Program
H4H     Hope for Homeowners                                  TARP-IGC TARP Inspector General Council
HUD     Department of Housing and Urban Development          TIGTA    Treasury Inspector General for Tax
HUD-OIG Department of Housing and Urban Development                   Administration
        Office of Inspector General                          TIP      Targeted Investment Program
122   APPENDIX A I GLOSSARY OF TERMS
                                                                               REPORTING REQUIREMENTS I APPENDIX C   123




REPORTING REQUIREMENTS FOR THE SPECIAL INSPECTOR
GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM
This appendix provides a compilation of the data necessary to meet the reporting requirements of the
Special Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121:
A. a description of the categories of troubled assets purchased or otherwise procured by the Secretary.
B. a listing of the troubled assets purchased in each such category described under subparagraph (A).
C. an explanation of the reasons the Secretary deemed it necessary to purchase each such troubled asset.
D. a listing of each financial institution that such troubled assets were purchased from.
E. a listing of and detailed biographical information on each person or entity hired to manage such troubled assets.
F. a current estimate of the total amount of troubled assets purchased pursuant to any program established under
   Section 101, the amount of troubled assets on the books of the Treasury, the amount of troubled assets sold, and
   the profit and loss incurred on each sale or disposition of each such troubled asset.
G. a listing of the insurance contracts issued under section 102.
H. a detailed statement of all purchases, obligations, expenditures, and revenues associated with any problem
   established by the Secretary of the Treasury under sections 101 and 102.
    124     APPENDIX C I REPORTING REQUIREMENTS




A — Description of Categories                                         systemically significant and at substantial risk of failure, Trea-
                                                                      sury may consider, among other things:
Set forth below are descriptions of the TARP programs                 1. The extent to which the failure of an institution could
provided by Treasury on its website. Sections 2 and 3 of this              threaten the viability of its creditors and counterparties
Report provide more detailed descriptions of each type of asset            because of their direct exposures to the institution;
and each TARP program to date.                                        2. The number and size of financial institutions that are seen
                                                                           by investors or counterparties as similarly situated to the
A.1 Capital Purchase Program1                                              failing institution, or that would otherwise be likely to
Verbatim from Treasury’s Initial Section 105(a) Troubled                   experience indirect contagion effects from the failure of
Asset Relief Program Report to Congress, 12/5/2008                         the institution;
Under the voluntary Capital Purchase Program (CPP), the               3. Whether the institution is sufficiently important to the na-
Treasury is purchasing senior preferred shares from qualified              tion’s financial and economic system that a disorderly fail-
financial institutions. In accordance with the considerations              ure would, with a high probability, cause major disruptions
of the EESA, a broad spectrum of institutions is eligible for              to credit markets or payments and settlement systems,
the program: U.S. controlled banks, savings associations, and              seriously destabilize key asset prices, significantly increase
certain bank and savings and loan holding companies. To                    uncertainty or losses of confidence thereby materially
protect the interests of the taxpayer, only viable institutions are        weakening overall economic performance; or
accepted into the program. A recommendation on acceptance             4. The extent and probability of the institution’s ability to
is received from the institution’s primary federal regulator or,           access alternative sources of capital and liquidity, whether
in some cases, from a council of representatives from each fed-            from the private sector or other sources of government
eral regulator; the Treasury is responsible for final approval.            funds.
    The minimum subscription amount is one percent of the
institution’s risk-weighted assets; the maximum subscription              Treasury will determine the form, terms, and conditions of
amount is 3 percent of risk-weighted assets (up to a maximum          any investment made pursuant to this program on a case-by-
of $25 billion). Standardized terms have been developed for           case basis. Treasury may invest in any financial instrument,
institutions that are organized as publicly traded and privately      including debt, equity, or warrants, that the Secretary deter-
held institutions; terms applicable to S corporations and mu-         mines to be a troubled asset, after consultation with the Chair-
tual organizations are still under consideration. The standard-       man of the Board of Governors of the Federal Reserve System
ized terms impose restrictions on executive compensation              and notice to Congress. Treasury will require any institution
and corporate governance and include provisions (such as the          participating in this program to provide Treasury with war-
issuance of warrants) that will enable the taxpayer to benefit        rants or alternative consideration, as necessary, to minimize
from the future profitability of the firm.                            the long-term costs and maximize the benefits to the taxpay-
                                                                      ers in accordance with EESA. A participating institution also
A.2 Systemically Significant Failing Institutions                     must comply with restrictions on executive compensation and
Program2                                                              corporate governance.
Verbatim from Treasury’s Initial Section 105(a) Troubled
Asset Relief Program Report to Congress, 12/5/2008                    A.3 Targeted Investment Program3
The Treasury will determine the eligibility of participants on        Verbatim from Treasury’s website detailing the program
a case-by-case basis. In determining whether an institution is        description of the Target Investment Program
                                                                      In determining whether an institution is eligible for participa-
                                                                      tion, Treasury may consider, among other things:
                                                                                          REPORTING REQUIREMENTS I APPENDIX C   125




1. The extent to which destabilization of the institution           require any institution participating in the program to adhere
   could threaten the viability of creditors and counterparties     to rigorous executive compensation standards. In addition,
   exposed to the institution, whether directly or indirectly;      Treasury will consider other measures, including limitations on
2. The extent to which an institution is at risk of a loss of       the institution’s expenditures, or other corporate governance
   confidence and the degree to which that stress is caused         requirements, to protect the taxpayers’ interests.
   by a distressed or illiquid portfolio of assets;                     These program guidelines are being published in accor-
3. The number and size of financial institutions that are           dance with the requirements of Section 101(d) of EESA.
   similarly situated, or that would be likely to be affected by
   destabilization of the institution being considered for the      A.4 Asset Guarantee Program4
   program;                                                         Verbatim from Treasury’s Report to Congress Pursuant to
4. Whether the institution is sufficiently important to the         Section 102 of the Emergency Economic Stabilization Act
   nation’s financial and economic system that a loss of con-       dated 12/31/2008
   fidence in the firm’s financial position could potentially       As required by section 102(a), Treasury established the Asset
   cause major disruptions to credit markets or payments and        Guarantee Program (AGP). This program provides guarantees
   settlement systems, destabilize asset prices, significantly      for assets held by systemically significant financial institutions
   increase uncertainty, or lead to similar losses of confi-        that face a high risk of losing market confidence due in large
   dence or financial market stability that could materially        part to a portfolio of distressed or illiquid assets.  This program
   weaken overall economic performance; and                         will be applied with extreme discretion in order to improve
5. The extent to which the institution has access to alterna-       market confidence in the systemically significant institution
   tive sources of capital and liquidity, whether from the          and in financial markets broadly.  It is not anticipated that the
   private sector or from other sources of government funds.        program will be made widely available.
                                                                        Under the AGP, Treasury would assume a loss position
    In making these judgments, Treasury will obtain and             with specified attachment and detachment points on certain
consider information from a variety of sources, and will take       assets held by the qualifying financial institution; the set of
into account recommendations received from the institution’s        insured assets would be selected by the Treasury and its agents
primary regulator, if applicable, or from other regulatory bodies   in consultation with the financial institution receiving the
and private parties that could provide insight into the potential   guarantee.  In accordance with section 102(a), assets to be
consequences if confidence in a particular institution deterio-     guaranteed must have been originated before March 14, 2008.
rated.                                                                  Treasury would collect a premium, deliverable in a form
    Treasury will determine the form, terms, and conditions of      deemed appropriate by the Treasury Secretary.  As required
any investment made pursuant to this program on a case-by-          by the statute, an actuarial analysis would be used to ensure
case basis in accordance with the considerations mandated           that the expected value of the premium is no less than the
in EESA. Treasury may invest in any financial instrument,           expected value of the losses to TARP from the guarantee.  The
including debt, equity, or warrants, that the Secretary of the      United States government would also provide a set of portfolio
Treasury determines to be a troubled asset, after consultation      management guidelines to which the institution must adhere
with the Chairman of the Board of Governors of the Federal          for the guaranteed portfolio. 
Reserve System and notice to Congress. Treasury will require            Treasury would determine the eligibility of participants
any institution participating in this program to provide Trea-      and the allocation of resources on a case-by-case basis.  The
sury with warrants or alternative consideration, as necessary,      program would be used for systemically significant institu-
to minimize the long-term costs and maximize the benefits           tions, and could be used in coordination with other programs. 
to the taxpayers in accordance with EESA. Treasury will also        Treasury may, on a case-by-case basis, use this program in
    126     APPENDIX C I REPORTING REQUIREMENTS




coordination with a broader guarantee involving one or more         with the Chairman of the Board of Governors of the Federal
other agencies of the United States government.                     Reserve System and notice to Congress. Treasury will require
                                                                    any institution participating in this program to provide Trea-
A.5 Automotive Industry Financing Program5                          sury with warrants or alternative consideration, as necessary,
Verbatim from Treasury’s website detailing the program              to minimize the long-term costs and maximize the benefits
description of the Automotive Industry Financing Program            to the taxpayers in accordance with EESA. Treasury will also
    The Treasury will determine eligibility of participants and     require any institution participating in the program to adhere
allocation of resources under EESA pursuant to the Program.         to rigorous executive compensation standards. In addition,
Institutions will be considered for participation in the Automo-    Treasury will consider other measures, including limitations on
tive Industry Financing Program on a case-by-case basis. In         the institution’s expenditures, or other corporate governance
determining whether an institution is eligible for participation,   requirements, to protect the taxpayers’ interests.
Treasury may consider, among other things:                              These program guidelines are being published in accor-
1. The importance of the institution to production by, or           dance with the requirements of Section 101(d) of EESA.
     financing of, the American automotive industry;
2. Whether a major disruption of the institution’s operations       A.6 Term Asset-Backed Securities Loan Facility6
     would likely have a materially adverse effect on employ-       Verbatim from Treasury’s Initial Section 105(a) Troubled
     ment and thereby produce negative spillover effects on         Asset Relief Program Report to Congress dated 12/5/2008
     overall economic performance;                                  Under the initial terms and conditions announced for the
3. Whether the institution is sufficiently important to the         TALF, the Federal Reserve will lend on a non-recourse basis to
     nation’s financial and economic system that a major            holders of certain AAA-rated ABS fully secured by newly and
     disruption of its operations would, with a high probability,   recently originated consumer and small business loans. TALF
     cause major disruptions to credit markets and significantly    loans will have a one-year term and will be secured by eligible
     increase uncertainty or losses of confidence, thereby ma-      collateral. Haircuts (a percentage reduction used for collat-
     terially weakening overall economic performance; and           eral valuation) will be determined based on the price volatility
4. The extent and probability of the institution’s ability to       of the class of eligible collateral and will provide additional
     access alternative sources of capital and liquidity, whether   protection to the taxpayers by protecting the government from
     from the private sector or other sources of U.S. govern-       loss. Treasury will purchase up to $20 billion of subordinated
     ment funds.                                                    debt backed by the collateral received, which will be priced at
                                                                    the loan value plus accrued interest. The TARP CPP guide-
    In making these judgments, Treasury will obtain and con-        lines on executive compensation will be applied to the origina-
sider information from a variety of sources and will take into      tors of the credit exposures underlying the ABS.
account recommendations received from regulatory bodies, as
applicable, that could provide insight into the potential conse-
quences of the failure of a particular institution.
    Treasury will determine the form, terms, and conditions of
any investment made pursuant to this program on a case-by-
case basis in accordance with the considerations mandated
in EESA. Treasury may invest in any financial instrument,
including debt, equity, or warrants, that the Secretary of the
Treasury determines to be a troubled asset, after consultation
                                                                                           REPORTING REQUIREMENTS I APPENDIX C         127




B — Listing of Troubled Assets Purchased, by Category and Financial Institution

Table C.1 provides detailed information on troubled assets purchased, as of January 23, 2009.


TABLE C.1

TROUBLED ASSETS PURCHASED, AS OF 1/23/2009

                                                    Expended                                         Description of           Pricing
Program        Note Company                           (millions)   Date         Transaction Type     Investment               Mechanism
                                                                                                     Preferred Stock w/
CPP - Public        Citigroup Inc                    $25,000       10/28/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        JP Morgan Chase & Co             $25,000       10/28/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Wells Fargo & Company            $25,000       10/28/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Bank of America Corp             $15,000       10/28/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Morgan Stanley                   $10,000       10/28/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        The Goldman Sachs Group Inc      $10,000       10/28/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        NY Corp Bank of Mellon            $3,000       10/28/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        State Street Corporation          $2,000       10/28/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        U.S. Bancorp                      $6,599       11/14/2008   Purchase                                         Par
                                                                                                     Warrants
                    Capital One Financial                                                            Preferred Stock w/
CPP - Public                                          $3,555       11/14/2008   Purchase                                         Par
                    Corporation                                                                      Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Regions Financial Corp.           $3,500       11/14/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        SunTrust Banks, Inc               $3,500       11/14/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        BB&T Corp.                        $3,134       11/14/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        KeyCorp                           $2,500       11/14/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Comerica Inc.                     $2,250       11/14/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Marshall & Ilsley Corporation     $1,715       11/14/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Northern Trust Corporation        $1,576       11/14/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Zions Bancorporation              $1,400       11/14/2008   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Huntington Bancshares             $1,398       11/14/2008   Purchase                                         Par
                                                                                                     Warrants
                    First Horizon National                                                           Preferred Stock w/
CPP - Public                                            $867       11/14/2008   Purchase                                         Par
                    Corporation                                                                      Warrants
                                                                                                                Continued on the next page.
     128       APPENDIX C I REPORTING REQUIREMENTS




TROUBLED ASSETS PURCHASED, AS OF 1/23/2009

                                                        Expended                                       Description of          Pricing
Program         Note Company                              (millions)   Date         Transaction Type   Investment              Mechanism
                                                                                                       Preferred Stock w/
CPP - Public            TCF Financial Corporation           $361       11/14/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            Valley National Bancorp             $300       11/14/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            UCBH Holdings, Inc                  $299       11/14/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            Umpqua Holdings Corp.               $214       11/14/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            Washington Federal Inc.             $200       11/14/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            Provident Bancshares Corp.          $152       11/14/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            Bank of Commerce Holdings             $17      11/14/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            1st FS Corporation                    $16      11/14/2008   Purchase                                   Par
                                                                                                       Warrants
                        Broadway Financial                                                             Preferred Stock w/
CPP - Public                                                    $9     11/14/2008   Purchase                                   Par
                        Corporation                                                                    Warrants
                                                                                                       Preferred Stock w/
CPP - Public            Associated Banc-Corp                $525       11/21/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            City National Corporation           $400       11/21/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            Webster Financial Corporation       $400       11/21/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            Trustmark Corporation               $215       11/21/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            First Niagara Financial Group       $184       11/21/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            Pacific Capital Bancorp             $181       11/21/2008   Purchase                                   Par
                                                                                                       Warrants
                        Boston Private Financial                                                       Preferred Stock w/
CPP - Public                                                $154       11/21/2008   Purchase                                   Par
                        Holdings, Inc.                                                                 Warrants
                        Western Alliance                                                               Preferred Stock w/
CPP - Public                                                $140       11/21/2008   Purchase                                   Par
                        Bancorporation                                                                 Warrants
                                                                                                       Preferred Stock w/
CPP - Public            Banner Corporation                  $124       11/21/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            Taylor Capital Group                $105       11/21/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            Columbia Banking System, Inc          $77      11/21/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            Nara Bancorp, Inc.                    $67      11/21/2008   Purchase                                   Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public            Ameris Bancorp                        $52      11/21/2008   Purchase                                   Par
                                                                                                       Warrants
                        First Community Bankshares                                                     Preferred Stock w/
CPP - Public                                                  $42      11/21/2008   Purchase                                   Par
                        Inc.                                                                           Warrants
                                                                                                                 Continued on the next page.
                                                                                            REPORTING REQUIREMENTS I APPENDIX C     129




TROUBLED ASSETS PURCHASED, AS OF 1/23/2009

                                                     Expended                                         Description of          Pricing
Program        Note Company                            (millions)   Date         Transaction Type     Investment              Mechanism
                                                                                                      Preferred Stock w/
CPP - Public        Heritage Commerce Corp.                $40      11/21/2008   Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Cascade Financial Corporation          $39      11/21/2008   Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Porter Bancorp Inc.                    $35      11/21/2008   Purchase                                     Par
                                                                                                      Warrants
                    Centerstate Banks of Florida                                                      Preferred Stock w/
CPP - Public                                               $28      11/21/2008   Purchase                                     Par
                    Inc.                                                                              Warrants
                                                                                                      Preferred Stock w/
CPP - Public        HF Financial Corp.                     $25      11/21/2008   Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Heritage Financial Corporation         $24      11/21/2008   Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Severn Bancorp, Inc.                   $23      11/21/2008   Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        First PacTrust Bancorp, Inc.           $19      11/21/2008   Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        First Community Corporation            $11      11/21/2008   Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Popular, Inc.                        $935       12/5/2008    Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        South Financial Group, Inc.          $347       12/5/2008    Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        East West Bancorp                    $307       12/5/2008    Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Sterling Financial Corporation       $303       12/5/2008    Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Cathay General Bacorp                $258       12/5/2008    Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        MB Financial Inc.                    $196       12/5/2008    Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        First Midwest Bancorp, Inc.          $193       12/5/2008    Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        United Community Banks, Inc.         $180       12/5/2008    Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        CVB Financial Corp.                  $130       12/5/2008    Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Iberiabank Corporation                 $90      12/5/2008    Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Midwest Banc Holdings, Inc.            $85      12/5/2008    Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Sandy Spring Bancorp, Inc.             $83      12/5/2008    Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Wesbanco Bank Inc.                     $75      12/5/2008    Purchase                                     Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Southwest Bancorp, Inc.                $70      12/5/2008    Purchase                                     Par
                                                                                                      Warrants
                                                                                                                Continued on the next page.
     130       APPENDIX C I REPORTING REQUIREMENTS




TROUBLED ASSETS PURCHASED, AS OF 1/23/2009

                                                          Expended                                       Description of          Pricing
Program         Note Company                                (millions)   Date         Transaction Type   Investment              Mechanism
                                                                                                         Preferred Stock w/
CPP - Public            Superior Bancorp Inc                    $69      12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            First Financial Holdings Inc.           $65      12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            Great Southern Bancorp                  $58      12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                        Southern Community Financial                                                     Preferred Stock w/
CPP - Public                                                    $43      12/5/2008    Purchase                                   Par
                        Corp.                                                                            Warrants
                                                                                                         Preferred Stock w/
CPP - Public            Eagle Bancorp, Inc.                     $38      12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            First Defiance Financial Corp.          $37      12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            TIB Financial Corp                      $37      12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            State Bancorp, Inc.                     $37      12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            Encore Bancshares Inc.                  $34      12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            Bank of North Carolina                  $31      12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            Bank of Marin Bancorp                   $28      12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            Blue Valley Ban Corp                    $22      12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            Unity Bancorp, Inc.                     $21      12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            Oak Valley Bancorp                      $14      12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            Central Bancorp, Inc.                   $10      12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            Coastal Banking Company, Inc.           $10      12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                        Southern Missouri Bancorp,                                                       Preferred Stock w/
CPP - Public                                                    $10      12/5/2008    Purchase                                   Par
                        Inc.                                                                             Warrants
                                                                                                         Preferred Stock w/
CPP - Public            Central Federal Corporation               $7     12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            Old Line Bancshares, Inc.                 $7     12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            FPB Bancorp, Inc.                         $6     12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            Manhattan Bancorp                         $2     12/5/2008    Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            Wilmington Trust Corporation          $330       12/12/2008   Purchase                                   Par
                                                                                                         Warrants
                                                                                                         Preferred Stock w/
CPP - Public            Citizens Republic Bancorp, Inc.       $300       12/12/2008   Purchase                                   Par
                                                                                                         Warrants
                                                                                                                   Continued on the next page.
                                                                                            REPORTING REQUIREMENTS I APPENDIX C         131




TROUBLED ASSETS PURCHASED, AS OF 1/23/2009

                                                     Expended                                         Description of           Pricing
Program        Note Company                            (millions)   Date         Transaction Type     Investment               Mechanism
                                                                                                      Preferred Stock w/
CPP - Public        Susquehanna Bancshares, Inc          $300       12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        SVB Financial Group                  $235       12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        National Penn Bancshares, Inc.       $150       12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Sterling Bancshares, Inc.            $125       12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Signature Bank                       $120       12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Old National Bancorp                 $100       12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                    Pinnacle Financial Partners,                                                      Preferred Stock w/
CPP - Public                                               $95      12/12/2008   Purchase                                         Par
                    Inc.                                                                              Warrants
                                                                                                      Preferred Stock w/
CPP - Public        TowneBank                              $76      12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Bank of the Ozarks, Inc.               $75      12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Independent Bank Corporation           $72      12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Virginia Commerce Bancorp              $71      12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Wilshire Bancorp, Inc.                 $62      12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Center Financial Corporation           $55      12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        NewBridge Bancorp                      $52      12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        The Bancorp, Inc.                      $45      12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Capital Bank Corporation               $41      12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        LNB Bancorp Inc.                       $25      12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Indiana Community Bancorp              $22      12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                    Citizens South Banking                                                            Preferred Stock w/
CPP - Public                                               $21      12/12/2008   Purchase                                         Par
                    Corporation                                                                       Warrants
                                                                                                      Preferred Stock w/
CPP - Public        HopFed Bancorp                         $18      12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        Valley Financial Corporation           $16      12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                                                                                                      Preferred Stock w/
CPP - Public        LSB Corporation                        $15      12/12/2008   Purchase                                         Par
                                                                                                      Warrants
                    First Litchfield Financial                                                        Preferred Stock w/
CPP - Public                                               $10      12/12/2008   Purchase                                         Par
                    Corporation                                                                       Warrants
                                                                                                                 Continued on the next page.
     132       APPENDIX C I REPORTING REQUIREMENTS




TROUBLED ASSETS PURCHASED, AS OF 1/23/2009

                                                            Expended                                       Description of          Pricing
Program         Note Company                                  (millions)   Date         Transaction Type   Investment              Mechanism
                                                                                                           Preferred Stock w/
CPP - Public            Fidelity Bancorp, Inc.                      $7     12/12/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                           Preferred Stock w/
CPP - Public            Pacific International Bancorp               $7     12/12/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                           Preferred Stock w/
CPP - Public            Northeast Bancorp                           $4     12/12/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                           Preferred Stock w/
CPP - Public            Synovus Financial Corp.                 $968       12/19/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                           Preferred Stock w/
CPP - Public            Whitney Holding Corporation             $300       12/19/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                           Preferred Stock w/
CPP - Public            Wintrust Financial Corporation          $250       12/19/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                           Preferred Stock w/
CPP - Public            Heartland Financial USA, Inc.             $82      12/19/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                           Preferred Stock w/
CPP - Public            Flushing Financial Corporation            $70      12/19/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                           Preferred Stock w/
CPP - Public            CoBiz Financial Inc.                      $64      12/19/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                           Preferred Stock w/
CPP - Public            Union Bankshares Corporation              $59      12/19/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                           Preferred Stock w/
CPP - Public            BancTrust Financial Group, Inc.           $50      12/19/2008   Purchase                                   Par
                                                                                                           Warrants
                        Seacoast Banking Corporation                                                       Preferred Stock w/
CPP - Public                                                      $50      12/19/2008   Purchase                                   Par
                        of Florida                                                                         Warrants
                                                                                                           Preferred Stock w/
CPP - Public            Fidelity Southern Corporation             $48      12/19/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                           Preferred Stock w/
CPP - Public            Berkshire Hills Bancorp, Inc.             $40      12/19/2008   Purchase                                   Par
                                                                                                           Warrants
                        Enterprise Financial Services                                                      Preferred Stock w/
CPP - Public                                                      $35      12/19/2008   Purchase                                   Par
                        Corp.                                                                              Warrants
                                                                                                           Preferred Stock w/
CPP - Public            Hawthorn Bancshares, Inc.                 $30      12/19/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                           Preferred Stock w/
CPP - Public            Bancorp Rhode Island, Inc.                $30      12/19/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                           Preferred Stock w/
CPP - Public            StellarOne Corporation                    $30      12/19/2008   Purchase                                   Par
                                                                                                           Warrants
                        Tennessee Commerce                                                                 Preferred Stock w/
CPP - Public                                                      $30      12/19/2008   Purchase                                   Par
                        Bancorp, Inc.                                                                      Warrants
                        Intermountain Community                                                            Preferred Stock w/
CPP - Public                                                      $27      12/19/2008   Purchase                                   Par
                        Bancorp                                                                            Warrants
                                                                                                           Preferred Stock w/
CPP - Public            Alliance Financial Corporation            $27      12/19/2008   Purchase                                   Par
                                                                                                           Warrants
                        First California Financial Group,                                                  Preferred Stock w/
CPP - Public                                                      $25      12/19/2008   Purchase                                   Par
                        Inc.                                                                               Warrants
                                                                                                           Preferred Stock w/
CPP - Public            Horizon Bancorp                           $25      12/19/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                                     Continued on the next page.
                                                                                          REPORTING REQUIREMENTS I APPENDIX C         133




TROUBLED ASSETS PURCHASED, AS OF 1/23/2009

                                                   Expended                                         Description of           Pricing
Program        Note Company                          (millions)   Date         Transaction Type     Investment               Mechanism
                                                                                                    Preferred Stock w/
CPP - Public        VIST Financial Corp.                 $25      12/19/2008   Purchase                                         Par
                                                                                                    Warrants
                    Wainwright Bank & Trust                                                         Preferred Stock w/
CPP - Public                                             $22      12/19/2008   Purchase                                         Par
                    Company                                                                         Warrants
                                                                                                    Preferred Stock w/
CPP - Public        AmeriServ Financial, Inc             $21      12/19/2008   Purchase                                         Par
                                                                                                    Warrants
                                                                                                    Preferred Stock w/
CPP - Public        Security Federal Corporation         $18      12/19/2008   Purchase                                         Par
                                                                                                    Warrants
                    Community Bankers Trust                                                         Preferred Stock w/
CPP - Public                                             $18      12/19/2008   Purchase                                         Par
                    Corporation                                                                     Warrants
                                                                                                    Preferred Stock w/
CPP - Public        Community West Bancshares            $16      12/19/2008   Purchase                                         Par
                                                                                                    Warrants
                    Monarch Financial Holdings,                                                     Preferred Stock w/
CPP - Public                                             $15      12/19/2008   Purchase                                         Par
                    Inc.                                                                            Warrants
                                                                                                    Preferred Stock w/
CPP - Public        Tidelands Bancshares, Inc            $14      12/19/2008   Purchase                                         Par
                                                                                                    Warrants
                    Community Financial                                                             Preferred Stock w/
CPP - Public                                             $13      12/19/2008   Purchase                                         Par
                    Corporation                                                                     Warrants
CPP - Public   2    OneUnited Bank                       $12      12/19/2008   Purchase             Preferred Stock             Par
                                                                                                    Preferred Stock w/
CPP - Public        Mid Penn Bancorp, Inc.               $10      12/19/2008   Purchase                                         Par
                                                                                                    Warrants
                                                                                                    Preferred Stock w/
CPP - Public        The Elmira Savings Bank, FSB           $9     12/19/2008   Purchase                                         Par
                                                                                                    Warrants
                                                                                                    Preferred Stock w/
CPP - Public        Citizens First Corporation             $9     12/19/2008   Purchase                                         Par
                                                                                                    Warrants
                                                                                                    Preferred Stock w/
CPP - Public        Summit State Bank                      $9     12/19/2008   Purchase                                         Par
                                                                                                    Warrants
                    The Connecticut Bank and                                                        Preferred Stock w/
CPP - Public                                               $5     12/19/2008   Purchase                                         Par
                    Trust Company                                                                   Warrants
                                                                                                    Preferred Stock w/
CPP - Public        Santa Lucia Bancorp                    $4     12/19/2008   Purchase                                         Par
                                                                                                    Warrants
                                                                                                    Preferred Stock w/
CPP - Public        M&T Bank Corporation               $600       12/23/2008   Purchase                                         Par
                                                                                                    Warrants
                                                                                                    Preferred Stock w/
CPP - Public        Fulton Financial Corporation       $377       12/23/2008   Purchase                                         Par
                                                                                                    Warrants
                    International Bancshares                                                        Preferred Stock w/
CPP - Public                                           $216       12/23/2008   Purchase                                         Par
                    Corporation                                                                     Warrants
                                                                                                    Preferred Stock w/
CPP - Public        Park National Corporation          $100       12/23/2008   Purchase                                         Par
                                                                                                    Warrants
                                                                                                    Preferred Stock w/
CPP - Public        First Financial Bancorp              $80      12/23/2008   Purchase                                         Par
                                                                                                    Warrants
                                                                                                    Preferred Stock w/
CPP - Public        Green Bankshares, Inc.               $72      12/23/2008   Purchase                                         Par
                                                                                                    Warrants
                                                                                                    Preferred Stock w/
CPP - Public        Sterling Bancorp                     $42      12/23/2008   Purchase                                         Par
                                                                                                    Warrants
                                                                                                               Continued on the next page.
     134       APPENDIX C I REPORTING REQUIREMENTS




TROUBLED ASSETS PURCHASED, AS OF 1/23/2009

                                                         Expended                                       Description of          Pricing
Program         Note Company                               (millions)   Date         Transaction Type   Investment              Mechanism
                                                                                                        Preferred Stock w/
CPP - Public            Financial Institutions, Inc.           $38      12/23/2008   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public            MutualFirst Financial, Inc.            $32      12/23/2008   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public            Parkvale Financial Corporation         $32      12/23/2008   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public            HMN Financial, Inc.                    $26      12/23/2008   Purchase                                   Par
                                                                                                        Warrants
                        Peoples Bancorp of North                                                        Preferred Stock w/
CPP - Public                                                   $25      12/23/2008   Purchase                                   Par
                        Carolina, Inc.                                                                  Warrants
                        Intervest Bancshares                                                            Preferred Stock w/
CPP - Public                                                   $25      12/23/2008   Purchase                                   Par
                        Corporation                                                                     Warrants
                                                                                                        Preferred Stock w/
CPP - Public            Bridge Capital Holdings                $24      12/23/2008   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public            Timberland Bancorp, Inc.               $17      12/23/2008   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public            1st Constitution Bancorp               $12      12/23/2008   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public            Cecil Bancorp, Inc.                    $12      12/23/2008   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public            Central Jersey Bancorp                 $11      12/23/2008   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public            BCSB Bancorp, Inc.                     $11      12/23/2008   Purchase                                   Par
                                                                                                        Warrants
                        First Community Bank                                                            Preferred Stock w/
CPP - Public                                                   $11      12/23/2008   Purchase                                   Par
                        Corporation of America                                                          Warrants
                        United Bancorporation of                                                        Preferred Stock w/
CPP - Public                                                   $10      12/23/2008   Purchase                                   Par
                        Alabama, Inc.                                                                   Warrants
                                                                                                        Preferred Stock w/
CPP - Public            Emclaire Financial Corp.                 $8     12/23/2008   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public            First Sound Bank                         $7     12/23/2008   Purchase                                   Par
                                                                                                        Warrants
CPP - Public    2       Mission Valley Bancorp                   $6     12/23/2008   Purchase           Preferred Stock         Par
                        The PNC Financial Services                                                      Preferred Stock w/
CPP - Public                                               $7,579       12/31/2008   Purchase                                   Par
                        Group, Inc.                                                                     Warrants
                                                                                                        Preferred Stock w/
CPP - Public            Fifth Third Bancorp                $3,408       12/31/2008   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public            CIT Group Inc.                     $2,330       12/31/2008   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public            SunTrust Banks, Inc                $1,350       12/31/2008   Purchase                                   Par
                                                                                                        Warrants
                        Hampton Roads Bankshares,                                                       Preferred Stock w/
CPP - Public                                                   $80      12/31/2008   Purchase                                   Par
                        Inc.                                                                            Warrants
                                                                                                        Preferred Stock w/
CPP - Public            West Bancorporation, Inc               $36      12/31/2008   Purchase                                   Par
                                                                                                        Warrants
                                                                                                                  Continued on the next page.
                                                                                           REPORTING REQUIREMENTS I APPENDIX C         135




TROUBLED ASSETS PURCHASED, AS OF 1/23/2009

                                                      Expended                                       Description of           Pricing
Program        Note Company                             (millions)   Date       Transaction Type     Investment               Mechanism
                                                                                                     Preferred Stock w/
CPP - Public        Bank of America Corp               $10,000       1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        American Express Company            $3,389       1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Central Pacific Financial Corp.       $135       1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        First Merit Corporation               $125       1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        FNB Corporation                       $100       1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Sun Bancorp, Inc.                       $89      1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Independent Bank Corporation            $78      1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        First Bancorp                           $65      1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Cadence Financial Corporation           $44      1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        First Security Group, Inc.              $33      1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Centrue Financial Corporation           $33      1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                    Farmers Capital Bank                                                             Preferred Stock w/
CPP - Public                                                $30      1/9/2009   Purchase                                         Par
                    Corporation                                                                      Warrants
                    Peapack-Gladstone Financial                                                      Preferred Stock w/
CPP - Public                                                $29      1/9/2009   Purchase                                         Par
                    Corporation                                                                      Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Colony Bankcorp, Inc.                   $28      1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        The First Bancorp, Inc.                 $25      1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Crescent Financial Corporation          $25      1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                    Eastern Virginia Bankshares,                                                     Preferred Stock w/
CPP - Public                                                $24      1/9/2009   Purchase                                         Par
                    Inc.                                                                             Warrants
                                                                                                     Preferred Stock w/
CPP - Public        C&F Financial Corporation               $20      1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                    First Financial Service                                                          Preferred Stock w/
CPP - Public                                                $20      1/9/2009   Purchase                                         Par
                    Corporation                                                                      Warrants
                                                                                                     Preferred Stock w/
CPP - Public        MidSouth Bancorp                        $20      1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Codorus Valley Bancorp, Inc.            $17      1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        Carolina Bank Holdings Inc              $16      1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                     Preferred Stock w/
CPP - Public        LCNB Corp.                              $13      1/9/2009   Purchase                                         Par
                                                                                                     Warrants
                                                                                                                Continued on the next page.
     136        APPENDIX C I REPORTING REQUIREMENTS




TROUBLED ASSETS PURCHASED, AS OF 1/23/2009

                                                          Expended                                      Description of          Pricing
Program          Note Company                               (millions)   Date        Transaction Type   Investment              Mechanism
                                                                                                        Preferred Stock w/
CPP - Public             North Central Bancshares, Inc.         $10      1/9/2009    Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public             Center Bancorp, Inc.                   $10      1/9/2009    Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public             Commerce National Bank                   $5     1/9/2009    Purchase                                   Par
                                                                                                        Warrants
CPP - Private    2       Mission Community Bancorp                $5     1/9/2009    Purchase           Preferred Stock         Par
                                                                                                        Preferred Stock w/
CPP - Public             First BanCorp                        $400       1/16/2009   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public             S&T Bancorp                          $109       1/16/2009   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public             Texas Capital Bancshares, Inc.         $75      1/16/2009   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public             Old Second Bancorp, Inc.               $73      1/16/2009   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public             SCBT Financial Corporation             $65      1/16/2009   Purchase                                   Par
                                                                                                        Warrants
                         MainSource Financial Group,                                                    Preferred Stock w/
CPP - Public                                                    $57      1/16/2009   Purchase                                   Par
                         Inc.                                                                           Warrants
                                                                                                        Preferred Stock w/
CPP - Public             Home Bancshares, Inc.                  $50      1/16/2009   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public             MetroCorp Bancshares, Inc.             $45      1/16/2009   Purchase                                   Par
                                                                                                        Warrants
                                                                                                        Preferred Stock w/
CPP - Public             OceanFirst Financial Corp.             $38      1/16/2009   Purchase                                   Par
                                                                                                        Warrants
                         Yadkin Valley Financial                                                        Preferred Stock w/
CPP - Public                                                    $36      1/16/2009   Purchase                                   Par
                         Corporation                                                                    Warrants
                                                                                                        Preferred Stock w/
CPP - Public             Pulaski Financial Corp                 $33      1/16/2009   Purchase                                   Par
                                                                                                        Warrants
                         Citizens & Northern                                                            Preferred Stock w/
CPP - Public                                                    $26      1/16/2009   Purchase                                   Par
                         Corporation                                                                    Warrants
                         Washington Banking Company/                                                    Preferred Stock w/
CPP - Public                                                    $26      1/16/2009   Purchase                                   Par
                         Whidbey Island Bank                                                            Warrants
                                                                                                        Preferred Stock w/
CPP - Public             United Bancorp, Inc.                   $21      1/16/2009   Purchase                                   Par
                                                                                                        Warrants
CPP - Public     2       Carver Bancorp, Inc                    $19      1/16/2009   Purchase           Preferred Stock         Par
                         Bar Harbor Bankshares/Bar                                                      Preferred Stock w/
CPP - Public                                                    $19      1/16/2009   Purchase                                   Par
                         Harbor Bank & Trust                                                            Warrants
                         ECB Bancorp, Inc./East                                                         Preferred Stock w/
CPP - Public                                                    $18      1/16/2009   Purchase                                   Par
                         Carolina Bank                                                                  Warrants
CPP - Public     2       Southern Bancorp, Inc.                 $11      1/16/2009   Purchase           Preferred Stock         Par
                         New Hampshire Thrift                                                           Preferred Stock w/
CPP - Public                                                    $10      1/16/2009   Purchase                                   Par
                         Bancshares, Inc.                                                               Warrants
                                                                                                        Preferred Stock w/
CPP - Public             Somerset Hills Bancorp                   $7     1/16/2009   Purchase                                   Par
                                                                                                        Warrants
CPP - Public     2       Community Bank of the Bay                $2     1/16/2009   Purchase           Preferred Stock         Par
                                                                                                                  Continued on the next page.
                                                                                             REPORTING REQUIREMENTS I APPENDIX C         137




TROUBLED ASSETS PURCHASED, AS OF 1/23/2009

                                                      Expended                                         Description of           Pricing
Program         Note Company                            (millions)   Date         Transaction Type     Investment               Mechanism
                                                                                                       Preferred Stock w/
CPP - Public         1st Source Corporation               $111       1/23/2009    Purchase                                         Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public         WSFS Financial Corporation             $53      1/23/2009    Purchase                                         Par
                                                                                                       Warrants
                     Princeton National Bancorp,                                                       Preferred Stock w/
CPP - Public                                                $25      1/23/2009    Purchase                                         Par
                     Inc.                                                                              Warrants
                                                                                                       Preferred Stock w/
CPP - Public         First Citizens Banc Corp               $23      1/23/2009    Purchase                                         Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Public         AB&T Financial Corporation               $4     1/23/2009    Purchase                                         Par
                                                                                                       Warrants
                                                                                                       Preferred Stock w/
CPP - Private   1    Plains Capital Corporation             $88      12/19/2008   Purchase                                         Par
                                                                                                       Exercised Warrants
                                                                                                       Preferred Stock w/
CPP - Private   1    Exchange Bank                          $43      12/19/2008   Purchase                                         Par
                                                                                                       Exercised Warrants
                                                                                                       Preferred Stock w/
CPP - Private   1    Bridgeview Bancorp, Inc.               $38      12/19/2008   Purchase                                         Par
                                                                                                       Exercised Warrants
                                                                                                       Preferred Stock w/
CPP - Private   1    Fidelity Financial Corporation         $36      12/19/2008   Purchase                                         Par
                                                                                                       Exercised Warrants
                                                                                                       Preferred Stock w/
CPP - Private   1    Marquette National Corporation         $36      12/19/2008   Purchase                                         Par
                                                                                                       Exercised Warrants
                                                                                                       Preferred Stock w/
CPP - Private   1    Patriot Bancshares, Inc.               $26      12/19/2008   Purchase                                         Par
                                                                                                       Exercised Warrants
                     Pacific City Financial                                                            Preferred Stock w/
CPP - Private   1                                           $16      12/19/2008   Purchase                                         Par
                     Corporation                                                                       Exercised Warrants
                     Tri-County Financial                                                              Preferred Stock w/
CPP - Private   1                                           $16      12/19/2008   Purchase                                         Par
                     Corporation                                                                       Exercised Warrants
                                                                                                       Preferred Stock w/
CPP - Private   1    NCAL Bancorp                           $10      12/19/2008   Purchase                                         Par
                                                                                                       Exercised Warrants
                                                                                                       Preferred Stock w/
CPP - Private   1    FCB Bancorp, Inc.                        $9     12/19/2008   Purchase                                         Par
                                                                                                       Exercised Warrants
                                                                                                       Preferred Stock w/
CPP - Private   1    FFW Corporation                          $7     12/19/2008   Purchase                                         Par
                                                                                                       Exercised Warrants
                                                                                                       Preferred Stock w/
CPP - Private   1    Patapsco Bancorp, Inc.                   $6     12/19/2008   Purchase                                         Par
                                                                                                       Exercised Warrants
                                                                                                       Preferred Stock w/
CPP - Private   1    Monadnock Bancorp, Inc.                  $2     12/19/2008   Purchase                                         Par
                                                                                                       Exercised Warrants
                                                                                                       Preferred Stock w/
CPP - Private   1    Nicolet Bankshares, Inc.               $15      12/23/2008   Purchase                                         Par
                                                                                                       Exercised Warrants
                                                                                                       Preferred Stock w/
CPP - Private   1    Magna Bank                             $14      12/23/2008   Purchase                                         Par
                                                                                                       Exercised Warrants
                     Pacific Coast Bankers’                                                            Preferred Stock w/
CPP - Private   1                                           $12      12/23/2008   Purchase                                         Par
                     Bancshares                                                                        Exercised Warrants
                                                                                                       Preferred Stock w/
CPP - Private   1    Citizens Bancorp                       $10      12/23/2008   Purchase                                         Par
                                                                                                       Exercised Warrants
                                                                                                       Preferred Stock w/
CPP - Private   1    Uwharrie Capital Corp                  $10      12/23/2008   Purchase                                         Par
                                                                                                       Exercised Warrants
                                                                                                                  Continued on the next page.
     138        APPENDIX C I REPORTING REQUIREMENTS




TROUBLED ASSETS PURCHASED, AS OF 1/23/2009

                                                         Expended                                       Description of          Pricing
Program          Note Company                              (millions)   Date         Transaction Type   Investment              Mechanism
                                                                                                        Preferred Stock w/
CPP - Private    1       The Little Bank, Incorporated           $8     12/23/2008   Purchase                                   Par
                                                                                                        Exercised Warrants
                         Western Community                                                              Preferred Stock w/
CPP - Private    1                                               $7     12/23/2008   Purchase                                   Par
                         Bancshares, Inc.                                                               Exercised Warrants
                         Western Illinois Bancshares,                                                   Preferred Stock w/
CPP - Private    1                                               $7     12/23/2008   Purchase                                   Par
                         Inc.                                                                           Exercised Warrants
                                                                                                        Preferred Stock w/
CPP - Private    1       Leader Bancorp, Inc.                    $6     12/23/2008   Purchase                                   Par
                                                                                                        Exercised Warrants
                                                                                                        Preferred Stock w/
CPP - Private    1       Cache Valley Banking Company            $5     12/23/2008   Purchase                                   Par
                                                                                                        Exercised Warrants
                                                                                                        Preferred Stock w/
CPP - Private    1       Capital Bancorp, Inc.                   $5     12/23/2008   Purchase                                   Par
                                                                                                        Exercised Warrants
                                                                                                        Preferred Stock w/
CPP - Private    1       Pacific Commerce Bank                   $4     12/23/2008   Purchase                                   Par
                                                                                                        Exercised Warrants
                                                                                                        Preferred Stock w/
CPP - Private    1       Capital Pacific Bancorp                 $4     12/23/2008   Purchase                                   Par
                                                                                                        Exercised Warrants
                                                                                                        Preferred Stock w/
CPP - Private    1       Citizens Community Bank                 $3     12/23/2008   Purchase                                   Par
                                                                                                        Exercised Warrants
                         Tennessee Valley Financial                                                     Preferred Stock w/
CPP - Private    1                                               $3     12/23/2008   Purchase                                   Par
                         Holdings, Inc.                                                                 Exercised Warrants
                         Community Investors Bancorp,                                                   Preferred Stock w/
CPP - Private    1                                               $3     12/23/2008   Purchase                                   Par
                         Inc.                                                                           Exercised Warrants
                                                                                                        Preferred Stock w/
CPP - Private    1       TCNB Financial Corp.                    $2     12/23/2008   Purchase                                   Par
                                                                                                        Exercised Warrants
                                                                                                        Preferred Stock w/
CPP - Private    1       Seacoast Commerce Bank                  $2     12/23/2008   Purchase                                   Par
                                                                                                        Exercised Warrants
                                                                                                        Preferred Stock w/
CPP - Private    1       Saigon National Bank                    $2     12/23/2008   Purchase                                   Par
                                                                                                        Exercised Warrants
                                                                                                        Preferred Stock w/
CPP - Private    1       First Banks, Inc                    $295       12/31/2008   Purchase                                   Par
                                                                                                        Exercised Warrants
                         New York Private Bank & Trust                                                  Preferred Stock w/
CPP - Private    1                                           $267       1/9/2009     Purchase                                   Par
                         Corporation                                                                    Exercised Warrants
                                                                                                        Preferred Stock w/
CPP - Private    1       Shore Bancshares, Inc.                $25      1/9/2009     Purchase                                   Par
                                                                                                        Exercised Warrants
                         Community Trust Financial                                                      Preferred Stock w/
CPP - Private    1                                             $24      1/9/2009     Purchase                                   Par
                         Corporation                                                                    Exercised Warrants
                                                                                                        Preferred Stock w/
CPP - Private    1       The Queensborough Company             $12      1/9/2009     Purchase                                   Par
                                                                                                        Exercised Warrants
                                                                                                        Preferred Stock w/
CPP - Private    1       GrandSouth Bancorporation               $9     1/9/2009     Purchase                                   Par
                                                                                                        Exercised Warrants
                                                                                                        Preferred Stock w/
CPP - Private    1       Security California Bancorp             $7     1/9/2009     Purchase                                   Par
                                                                                                        Exercised Warrants
                         American State Bancshares,                                                     Preferred Stock w/
CPP - Private    1                                               $6     1/9/2009     Purchase                                   Par
                         Inc                                                                            Exercised Warrants
                                                                                                        Preferred Stock w/
CPP - Private    1       Rising Sun Bancorp                      $6     1/9/2009     Purchase                                   Par
                                                                                                        Exercised Warrants
                                                                                                                  Continued on the next page.
                                                                                                REPORTING REQUIREMENTS I APPENDIX C         139




TROUBLED ASSETS PURCHASED, AS OF 1/23/2009

                                                          Expended                                        Description of           Pricing
Program         Note Company                                (millions)   Date        Transaction Type     Investment               Mechanism
                                                                                                          Preferred Stock w/
CPP - Private   1    Security Business Bancorp                    $6     1/9/2009    Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    Valley Community Bank                        $6     1/9/2009    Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    Texas National Bancorporation                $4     1/9/2009    Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    Congaree Bancshares, Inc.                    $3     1/9/2009    Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    Sound Banking Company                        $3     1/9/2009    Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    Redwood Financial, Inc                       $3     1/9/2009    Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    Surrey Bancorp                               $2     1/9/2009    Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    Independence Bank                            $1     1/9/2009    Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    Dickinson Financial Corporation II       $146       1/16/2009   Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    State Bankshares, Inc.                     $50      1/16/2009   Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    The Baraboo Bancorporation                 $21      1/16/2009   Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    BNCCORP, Inc.                              $20      1/16/2009   Purchase                                         Par
                                                                                                          Exercised Warrants
                     Centra Financial Holdings, Inc./                                                     Preferred Stock w/
CPP - Private   1                                               $15      1/16/2009   Purchase                                         Par
                     Centra Bank, Inc.                                                                    Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    Morrill Bancshares, Inc.                   $13      1/16/2009   Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    First Manitowoc Bancorp, Inc.              $12      1/16/2009   Purchase                                         Par
                                                                                                          Exercised Warrants
                     TCB Holding Company, Texas                                                           Preferred Stock w/
CPP - Private   1                                               $12      1/16/2009   Purchase                                         Par
                     Community Bank                                                                       Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    First Bankers Trustshares, Inc.            $10      1/16/2009   Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    Syringa Bancorp                              $8     1/16/2009   Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    Idaho Bancorp                                $7     1/16/2009   Purchase                                         Par
                                                                                                          Exercised Warrants
                     United Financial Banking                                                             Preferred Stock w/
CPP - Private   1                                                 $6     1/16/2009   Purchase                                         Par
                     Companies, Inc.                                                                      Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    Puget Sound Bank                             $5     1/16/2009   Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    Pacific Coast National Bancorp               $4     1/16/2009   Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                          Preferred Stock w/
CPP - Private   1    Redwood Capital Bancorp                      $4     1/16/2009   Purchase                                         Par
                                                                                                          Exercised Warrants
                                                                                                                     Continued on the next page.
       140      APPENDIX C I REPORTING REQUIREMENTS




TROUBLED ASSETS PURCHASED, AS OF 1/23/2009

                                                            Expended                                       Description of          Pricing
Program          Note Company                                 (millions)   Date         Transaction Type   Investment              Mechanism
                                                                                                           Preferred Stock w/
CPP - Private    1       Treaty Oak Bancorp, Inc.                   $3     1/16/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       Bank of Commerce                           $3     1/16/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       Community 1st Bank                         $3     1/16/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       Liberty Bancshares, Inc.                 $58      1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       BankFirst Capital Corporation            $16      1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       Stonebridge Financial Corp.              $11      1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       Crosstown Holding Company                $11      1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       Midland States Bancorp, Inc.             $10      1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       Farmers Bank                               $9     1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       Commonwealth Business Bank                 $8     1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       Pierce County Bancorp                      $7     1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       Alarion Financial Services, Inc.           $7     1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       Moscow Bancshares, Inc.                    $6     1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       Seaside National Bank & Trust              $6     1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       Southern Illinois Bancorp, Inc.            $5     1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       First ULB Corp.                            $5     1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       CalWest Bancorp                            $5     1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       California Oaks State Bank                 $3     1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       FPB Financial Corp.                        $3     1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       Fresno First Bank                          $2     1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
CPP - Private    1       Calvert Financial Corporation              $1     1/23/2009    Purchase                                   Par
                                                                                                           Exercised Warrants
                                                                                                           Preferred Stock w/
SSFI                     AIG                                 $40,000       11/25/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                           Preferred Stock w/
TIP                      Citigroup                           $20,000       12/31/2008   Purchase                                   Par
                                                                                                           Warrants
                                                                                                                     Continued on the next page.
                                                                                                                     REPORTING REQUIREMENTS I APPENDIX C           141




TROUBLED ASSETS PURCHASED, AS OF 1/23/2009

                                                                 Expended                                                       Description of               Pricing
Program            Note Company                                      (millions)     Date                 Transaction Type       Investment                   Mechanism
                                                                                                                                Preferred Stock w/
TIP                         Bank of America Corporation            $20,000          1/16/2009            Purchase                                            Par
                                                                                                                                Warrants
AIFP                        General Motors Corporation                 $884         12/29/2008           Purchase               Debt Obligation              N/A
                                                                                                                                Preferred Stock w/           Liquidation
AIFP                        GMAC LLC                                 $5,000         12/29/2008           Purchase
                                                                                                                                Exercised Warrants           Preference
                                                                                                                                Debt Obligation w/
AIFP                        General Motors Corporation               $9,400         12/31/2008           Purchase                                            N/A
                                                                                                                                Warrants
                                                                                                                                Debt Obligation w/
AIFP                        Chrysler Holding LLC                     $4,000         1/2/2009             Purchase                                            N/A
                                                                                                                                Additional Notes
                            Chrysler Financial Services                                                                         Debt Obligation w/
AIFP               3                                                 $1,500         1/16/2009            Purchase                                            N/A
                            Americas LLC                                                                                        Additional Notes
                                                                                                                                Second Loss Guarantee
AGP                4        Citigroup Inc.                           $5,000         1/16/2009            Guarantee
                                                                                                                                on Asset Pool
TOTAL              5                                             $299,961

Notes:
1 Privately held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock, which it exercised immediately.
2 To promote community development financial institutions (CDFIs), Treasury did not require warrants as part of its investment.
3 The loan was funded through Chrysler LB Receiveables Trust, a special purpose vehicle created by Chrysler Financial. The amount of $1,500,000,000 is the maximum loan
  amount. The loan will be incrementally funded at $100 million per week. (As of 1/23/09, $300 million has been funded.)
4 Treasury committed $5 billion to Citigroup under the Asset Guarantee Program; however, this funding is conditional based on losses realized and may potentially never be
  expended. This amount is not an actual outlay of cash.
5 $299.961 billion represents total amount commited as of 1/23/09. Expended amounts is total comitments or purchases made of $299.961 billion less the $5 billion Citigroup
  guarantee that has not been expended (see note 4) and less the $1.2 billion of the Chrysler financial loan, which has not yet been disbursed (see note 3).

Key:
CPP    Capital Purchase Program
SSFI   Systemically Significant Failing Institution Program
TIP    Targeted Investment Program
AIFP   Automotive Industry Financing Program
AGP    Asset Guarantee Program
    142     APPENDIX C I REPORTING REQUIREMENTS




C — Explanation of the Secretary                                     stability and thereby to strengthen the economy and protect
                                                                     American jobs, savings, and retirement security. In an envi-
In response to SIGTARP’s data call seeking the Secretary’s           ronment of high volatility and severe financial market strains,
explanation as to the necessity of the asset purchases under         the loss of confidence in a financial institution could result
EESA, Treasury referred SIGTARP to the Treasury website,             in significant market disruptions that threaten the financial
stating “Treasury has posted several documents on its website        strength of similarly situated financial institutions and thus im-
that are responsive to this question.” Set forth are these follow-   pair broader financial markets and pose a threat to the overall
ing explanations.                                                    economy. The resulting financial strains could threaten the
                                                                     viability of otherwise financially sound businesses, institutions,
C.1 Capital Purchase Program7                                        and municipalities, resulting in adverse spillovers on employ-
Verbatim from Treasury’s website detailing the program               ment, output, and incomes.
description of the Capital Purchase Program
To encourage U.S. financial institutions to build capital to         C.4 Asset Guarantee Program10
increase the flow of financing to U.S. businesses and consum-        Verbatim from Treasury’s Report to Congress Pursuant to
ers and to support the U.S. economy.                                 Section 102 of the Emergency Economic Stabilization Act,
                                                                     dated 12/31/2008
C.2 Systemically Significant Failing Institutions                    The objective of this program is to foster financial market
Program8                                                             stability and thereby to strengthen the economy and protect
Verbatim from Treasury’s website detailing the program               American jobs, savings, and retirement security. In an envi-
description of the Systemically Significant Failing Institutions     ronment of high volatility and severe financial market strains,
Program                                                              the loss of confidence in a financial institution could result
The primary objective of this program is to provide stability        in significant market disruptions that threaten the financial
and prevent disruption to financial markets in order to limit        strength of similarly situated financial institutions and thus im-
the impact on the economy and protect American jobs, sav-            pair broader financial markets and pose a threat to the overall
ings, and retirement security from the failure of a systemically     economy.  The resulting financial strains could threaten the
significant institution.  In an environment of substantially         viability of otherwise financially sound businesses, institutions,
reduced confidence, severe strains, and high volatility in finan-    and municipalities, resulting in adverse spillovers on employ-
cial markets, the disorderly failure of a systemically significant   ment, output, and incomes.
institution could impose significant losses on creditors and
counterparties, call into question the financial strength of         C.5 Automotive Industry Financing Program11
other similarly situated financial institutions, disrupt financial   Verbatim from Treasury’s website detailing the program
markets, raise borrowing costs for households and businesses,        description of the Automotive Industry Financing Program
and reduce household wealth.  The resulting financial strains        The objective of this program is to prevent a significant disrup-
could threaten the viability of otherwise financially sound busi-    tion of the American automotive industry that poses a systemic
nesses, institutions, and municipalities, resulting in adverse       risk to financial market stability and will have a negative effect
spillovers on employment, output, and income.                        on the real economy of the United States. The program will re-
                                                                     quire steps be taken by participating firms to implement plans
C.3 Targeted Investment Program9                                     that achieve long-term viability.
Verbatim from Treasury’s website detailing the program
description of the Target Investment Program
The objective of this program is to foster financial market
                                                                                                          REPORTING REQUIREMENTS I APPENDIX C        143




C.6 Term Asset-Backed Securities Loan Facility12                                E — Listing and Detailed Biographical Information
Verbatim from Treasury’s Initial Section 105(a) Troubled                        As required by EESA, biographical information on each person
Asset Relief Program Report to Congress dated 12/5/2008                         or entity hired to assist in managing troubled assets or other
This facility will help market participants meet the credit                     aspects of TARP has to be made available by Treasury. However,
needs of households and small businesses by supporting the                      as of January 23, 2009, “the TARP has not hired any asset man-
issuance of asset-backed securities (ABS) collateralized by stu-                agers. The process for hiring these firms is well underway.”13
dent loans, auto loans, credit card loans, and loans guaranteed                     Table C.2 provides the biographical information of all the
by the Small Business Administration.                                           vendors currently serving the Office of Financial Stability.14

D — For a listing of each financial institution trou-
bled assets were purchased from, see section B of
this appendix.




TABLE C.2


VENDORS CURRENTLY SERVING THE OFFICE OF FINANCIAL STABILITY
Contractor                 Profile
Simpson, Thacher &         Simpson Thacher & Bartlett LLP is a global law firm with offices in New York; Los Angeles; Palo Alto; Washington, D.C.; Beijing;
Bartlett, LLP              Hong Kong; London; and Tokyo. The firm provides coordinated legal advice on the largest and most complex corporate
                           transactions and litigation matters in numerous industries, including financial services, insurance, power and natural resources,
                           consumer products, services, technology, telecommunications, media, pharmaceuticals, and health care.
EnnisKnupp & Associates, EnnisKnupp is a Chicago-based consulting firm that provides results-oriented advice to institutional investors. The firm was
Inc.                     founded in 1981 by Richard Ennis and Jim Knupp, who established the first consulting practice at A.G. Becker (the forerunner of
                         SEI), in 1975. Enni Knupp has created a diverse client base, which includes not-for-profit organizations, foundations, and other
                         endowed institutions, as well as corporate, public and jointly trusted retirement funds. In total, they serve 159 retainer clients
                         with aggregate assets of more than $820 billion.
Bank of New York Mellon    Established in 2007 from the merger of Mellon Financial Corporation and the Bank of New York Company, Inc., the Bank of New
                           York Mellon is a leading asset management and securities services company, uniquely focused to help clients manage and move
                           their financial assets and succeed in the rapidly changing global marketplace.
                           Headquartered in New York, the Bank of New York Mellon has more than $23 trillion in assets under custody or administration
                           and more than $1.1 trillion under management.
Pricewaterhouse            PricewaterhouseCoopers is a professional services organization. The company provides a full range of business advisory
Coopers, LLP               services to public institutions and global, national, and local companies. Services include audit, accounting, and tax advice,
                           as well as management, information technology, and HR consulting. PricewaterhouseCoopers also provides financial advisory
                           services.
Ernst & Young, LLP         Ernst & Young is a professional services firm that provides assurance and advisory business services, tax services, and
                           consulting for clients worldwide.
GSA – Turner Consulting    Turner Consulting Group specializes in delivering high quality, individually tailored e-Government and e-Business solutions.
                           Headquartered in Washington, D.C., TCG is a small business that has successfully conceived, created, integrated, and secured
                           interactive environments since 1994.
                                                                                                                                 Continued on the next page.
      144       APPENDIX C I REPORTING REQUIREMENTS




VENDORS CURRENTLY SERVING THE OFFICE OF FINANCIAL STABILITY
Contractor                      Profile
Hughes Hubbard & Reed,          A law firm with offices in New York; Washington, D.C.; Los Angeles; Miami; Jersey City; Paris; and Tokyo. Hughes Hubbard offers
LLP                             expertise in a wide range of practice areas, including mergers and acquisitions, public offerings, corporate reorganization, real
                                estate and cross-border transactions, securities litigation, arbitration, product liability, antitrust, intellectual property, labor,
                                employee benefits, and tax.
Squire, Sanders &               Squire, Sanders & Dempsey L.L.P. (Squire Sanders) is a multi-jurisdictional law firm with more than 850 lawyers practicing in
Dempsey                         offices throughout the Americas, Europe, and Asia. Squire Sanders operates as a single global partnership, which ensures
                                client accountability and the seamless delivery of uniformly high-quality legal services throughout the world. Squire Sanders is
                                organized around four major practice areas: advocacy, business, capital markets, and regulated industries.
Lindholm & Associates           Lindholm & Associates, Inc., was founded in 2000 as a woman-owned small business providing innovative management
                                solutions, strategies, tools, and services for improving workforce and organizational performance. Lindholm & Associates, Inc.,
                                assists public- and private-sector entities in meeting workforce demands, achieving higher levels of human and organizational
                                performance, and mapping strategies for tomorrow. Lindholm & Associates, Inc., applies expertise in organizational
                                development, information technology, strategic and human capital planning and design, human resources management, and
                                workforce solutions.
Securities and Exchange         This U.S. federal agency’s mission is to protect investors; maintain fair, orderly, and efficient markets; and facilitate capital
Commission                      formation.
Trade and Tax Bureau –          The Trade and Tax Bureau—Treasury (TTB) is the newest bureau under Treasury. TTB’s mission is to collect alcohol, tobacco,
Treasury                        firearms, and ammunition excise taxes; to ensure that these products are labeled, advertised, and marketed in accordance with
                                the law; and to administer the laws and regulations in a manner that protects the consumer and the revenue, and promotes
                                voluntary compliance.
The Washington Post             The Washington Post is a diversified media company whose principal operations include newspaper and magazine publishing,
                                television broadcasting, cable television systems, electronic information services, test preparation, and educational and career
                                services. The company is headquartered in Washington, D.C.
Department of Housing           HUD’s mission is to increase homeownership, support community development, and increase access to affordable housing free
and Urban Development           from discrimination. To fulfill this mission, HUD will embrace high standards of ethics, management, and accountability and forge
                                new partnerships particularly with faith-based and community organizations that leverage resources and improve HUD’s ability to
                                be effective on the community level.
Sonnenschein Nath &             Sonnenschein is a leader in providing legal services, serving clients through integrated, inter-office cooperation and teamwork
Rosenthal                       among practice groups in 15 offices in the U.S. and Europe, and a global reach throughout the Americas, Asia, and the Middle
                                East.
Regus                           Regus is an international provider of workplace solutions, operating more than 950 business centers across 400 cities in 70
                                countries. Products and services include fully furnished, equipped, and staffed offices, business support services, meeting
                                conference and training facilities, and a large network of public videoconference rooms.
Colonial Parking                Colonial Parking offers local and national real estate professionals a variety of services that are needed to plan for, operate,
                                improve, maintain, and manage parking facilities associated with real estate products in the commercial office, hospitality, retail,
                                mixed-use, residential, health care, and institutional areas.

Sources:
Treasury, “Program Descriptions, Capital Purchase Program,” www.treas.gov, accessed 1/25/2009.
Treasury, “Program Descriptions, Guidelines for Systemically Significant Failing Institutions Program,” www.treas.gov, accessed 1/25/2009.
Treasury, “Program Descriptions, Target Investment Program,” www.treas.gov, accessed 1/25/2009.
Treasury, “Program Descriptions, Automotive Industry Financing Program,” www.treas.gov, accessed 1/25/2009.
Treasury: Office of Financial Stability, “Report to Congress Pursuant to Section 102 of Energy Economic Stabilization Act,” www.treas.gov, 12/31/2008.
Treasury: Office of Financial Stability, “Initial Section 105(a) Troubled Asset Relief Program Report to Congress for the period of October 6, 2008 to November 30, 2008,” 12/5/2008.
Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transaction Report,” 1/27/2009.
Treasury: Office of Financial Stability, response to SIGTARP data call, 1/17/2009.
                                                                                                                     REPORTING REQUIREMENTS I APPENDIX C   145




F — Current Estimate of the Total Amount of                                              G — Insurance Contracts
Troubled Assets Purchased                                                                “On January 16, 2009, TARP closed on the guarantee transac-
Table C.3 provides the total amount of troubled assets pur-                              tion with Citigroup, as announced in a joint statement by the
chased and on the books of Treasury, as of January 23, 2009.15                           Treasury, Federal Reserve and FDIC on November 23, 2008.
    As of January 23, 2009, no troubled assets have been sold;                           No other insurance contracts have been issued,”17 as of
therefore, no profits or losses have been incurred.16 As of Janu-                        January 23, 2009. Details of the terms and conditions of insur-
ary 23, 2009, revenue to date has been in the form of dividend                           ance contract are included in Section 3: “Institution-Specific
payments received under CPP. Table C.6 provides a break-                                 Assistance.”
down of payments received.




TABLE C.3

TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND ON TREASURY’S BOOKS, AS OF JANUARY 23, 2009 ($ millions)
                                                                                                        Obligations1          Expended2       On Treasury’s Books3
Capital Purchase Program (CPP)                                                                               194,177             194,177                   194,177
Systemically Significant Failing Institutions (AIG)                                                            40,000             40,000                    40,000
Targeted Investment Program
     1) Citigroup                                                                                              20,000             20,000                    20,000
     2) Bank of America                                                                                        20,000             20,000                    20,000
Subtotal — Target Investment Program                                                                          40,000             40,000                     40,000
Automotive Industry Financing Program (AIFP)
     1) GMAC                                                                                                    5,000              5,000                     5,000
     2) General Motors Corporation                                                                              9,400              9,400                     9,400
     3) General Motors Corporation                                                                                884                884                         884
     4) Chrysler Holding LLC                                                                                    4,000              4,000                     4,000
     5) Chrysler Financial Services Americas                                                                    1,500                300                         300
Subtotal — Automotive Industry Financing Program                                                              20,784             19,584                     19,584
Asset Guarantee Program (Citigroup)                                                                             5,000                   -                          -
TOTAL                                                                                                       299,961             293,761                    293,761

Notes:
1 From a budgetary perspective, what Treasury has committed to spend (e.g., signed agreements with TARP fund recipients).
2 Represents TARP cash that has left the Treasury.
3 All assets are currently carried at par value.
      146       APPENDIX C I REPORTING REQUIREMENTS




H — For a detailed statement of all                                                       to total $6.5 million through January 31, 2009. Table C.4
    purchases, see section B of this                                                      summarizes actual administrative TARP expenditures as of
    appendix                                                                              December 31, 2008, and projected administrative expenses for
                                                                                          the period ending January 31, 2009.
          For a detailed statement of all                                                     In addition to administrative expenses, Treasury has
          obligations, see section F of this                                              released the details of programmatic expenditures. These
          appendix
                                                                                          expenditures include costs to hire financial agents and legal
          Detailed Statement of all Expenditures                                          firms associated with TARP operations. Table C.5 indicates
          and Revenues                                                                    the allocation of these programmatic costs as of December 31,
                                                                                          2008.
Treasury stated that it has incurred $3.88 million in TARP-                                   As of January 23, 2009, revenue to date has been in the
related administrative expenditures through December 31,                                  form of dividend payments received under CPP. Table C.6
2008, and that these administrative expenditures are expected                             provides a breakdown of payments received.

Endnotes
1  Treasury, “Initial Section 105(a) Troubled Asset Relief Program Report to Congress,” 12/5/2008, www.treas.gov, accessed 1/25/2009.
2 Treasury, “Initial Section 105(a) Troubled Asset Relief Program Report to Congress,” 12/5/2008, www.treas.gov, accessed 1/25/2009.
3 Treasury, “Target Investment Program,” www.treas.gov, accessed 1/25/2009.
4 Treasury, “Report to Congress Pursuant to Section 102 of the Emergency Economic Stabilization Act,” 12/31/08, www.treas.gov, accessed 1/25/09.
5 Treasury, “Automotive Industry Financing Program,” www.treas.gov, accessed 1/25/2009.
6 Treasury, “Initial Section 105(a) Troubled Asset Relief Program Report to Congress,” 12/5/2008, www.treas.gov, accessed 1/25/2009.
7 Treasury, “Capital Purchase Program,” www.treas.gov, accessed 1/25/2009.
8 Treasury, “Guidelines for Systemically Significant Failing Institutions Program, www.treas.gov, accessed 1/25/2009.
9 Treasury, “Targeted Investment Program,” www.treas.gov, accessed 1/25/2009.
10 Treasury, “Report to Congress Pursuant to Section 102 of the Emergency Economic Stabilization Act,” 12/31/08, www.treas.gov, accessed 1/25/09.
11 Treasury, “Automotive Industry Financing Program,” www.treas.gov, accessed 1/25/2009.
12 Treasury, “Initial Section 105(a) Troubled Asset Relief Program Report to Congress,” 12/5/2008, www.treas.gov, accessed 1/25/2009.
13 Treasury, Office of Financial Stability, response to SIGTARP data call, 1/7/2009.
14 Treasury, Office of Financial Stability, response to SIGTARP data call, 1/7/2009.
15 Treasury, Office of Financial Stability, response to SIGTARP data call, 1/7/2009.
16 Treasury, Office of Financial Stability, response to SIGTARP data call, 1/7/2009.
17 Treasury, Office of Financial Stability, response to SIGTARP data call, 1/7/2009.
                                                                                                                        REPORTING REQUIREMENTS I APPENDIX C               147




TABLE C.4


ADMINISTRATIVE TARP EXPENDITURES
                                                                                   For Period Ending                                     For Period Ending
                                                                                  December 31, 2008                                      January 31, 2009
Budget Object Class Title                                                   Obligations       Expenditures            Projected Obligations          Projected Expenditures
PERSONNEL SERVICES
    Personnel Compensation & Services                                          $713,928            $713,928                        $1,193,000                        $1,193,000
Total Personnel Services                                                      $713,928            $713,928                        $1,193,000                        $1,193,000
NON-PERSONNEL SERVICES
    Travel & Transportation of Persons                                          $12,993               $6,725                           $17,000                           $12,000
    Transportation of Things
    Rents, Communications, Utilities & Misc. Charges                            $87,642              $87,642                          $738,000                          $153,000
    Printing & Reproduction                                                       $7,227              $7,227                             $8,000                            $8,000
    Other Services                                                          $4,730,497           $3,040,209                       $24,417,000                        $4,980,000
    Supplies & Materials                                                          $4,964              $4,784                          $130,000                          $130,000
    Equipment                                                                   $20,844              $20,844                           $50,000                           $50,000
Total Non-Personnel Services                                               $4,864,167          $3,167,431                       $25,360,000                         $5,333,000
GRAND TOTAL                                                                $5,578,095          $3,881,359                       $26,553,000                         $6,526,000

Source: Treasury: Office of Financial Stability, response to SIGTARP data call, 1/17/09.




TABLE C.5                                                                                  TABLE C.6


TARP PROGRAMMATIC EXPENDITURES FOR THE PERIOD                                              CPP DIVIDEND PAYMENTS THROUGH JANUARY 23, 2009
ENDING DECEMBER 31, 2008                                                                   Date                                    Amount             Institution
Vendor Name                                                              Expenditure       12/1/2008                         114,583,333              JPMorgan Chase
EnnisKnupp                                                                   $675,000      12/15/2008                          13,055,556             State Street
Simpson, Thacher & Bartlett                                                   825,000                                          15,069,444             SunTrust
Squire Sanders & Dempsey                                                      786,147      12/22/2008                          21,666,667             BNYMellon
Hughes Hubbard & Reed                                                         530,000      1/15/2009                         106,944,444              Morgan Stanley
Thacher Proffitt & Wood                                                       475,000      TOTAL                          $271,319,444
Bank of New York Mellon                                                     4,116,515
Pension Benefit Guarantee Corp                                                350,000      Source: Treasury: Office of Financial Stability, response to SIGTARP data call, 1/17/09.

GRAND TOTAL                                                              $7,757,662

Source: Treasury: Office of Financial Stability, response to SIGTARP data call, 1/17/09.
148   APPENDIX C I REPORTING REQUIREMENTS
                                                                                                      WARRANTS I APPENDIX D     149




WARRANTS
When a warrant’s exercise price is lower than the current market price of the stock, the warrants are “in the
money.” When the strike price (exercise price) is above the stock’s market price, it is “out of the money.” It is
important to note that even warrants that are “out of the money” have value; this value is based on the possibility
that the share price will eventually rise above the strike price. It is not unusual that warrants are “out of the money”
when they are issued. The following table contains the current status of the warrants that Treasury obtained under
CPP, SSFI, TIP, AIFP, and AGP.

STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                           Amount In the
                                                                      Number of Strike Price as   Stock Price              Money (Out of
                                  Ticker                               Warrants   Stated in the         as of    In or Out the Money) as
Company                           Symbol    Exchange   Program         Received    Agreements     1/23/2009     of Money? of 1/23/2009
1st Constitution Bancorp          FCCY      NASDAQ     CPP - Public     200,222          $8.99         $7.66          OUT            ($1.33)
1st FS Corporation                FFIS.OB   OTC BB     CPP - Public     276,815          $8.87         $7.99          OUT            ($0.88)
1st Source Corporation            SRCE      NASDAQ     CPP - Public     837,947         $19.87        $17.43          OUT            ($2.44)
AB&T Financial Corporation        ABTO.OB   OTC BB     CPP - Public      80,153          $6.55         $6.90            IN            $0.35
Alliance Financial Corporation    ALNC      NASDAQ     CPP - Public     173,069         $23.33        $18.35          OUT            ($4.98)
American Express Company          AXP       NYSE       CPP - Public   24,264,129        $20.95        $16.00          OUT            ($4.95)
Ameris Bancorp                    ABCB      NASDAQ     CPP - Public     679,443         $11.48         $7.78          OUT            ($3.70)
AmeriServ Financial, Inc          ASRV      NASDAQ     CPP - Public    1,312,500         $2.40         $1.70          OUT            ($0.70)
Associated Banc-Corp              ASBC      NASDAQ     CPP - Public    3,983,308        $19.77        $15.49          OUT            ($4.28)
Bancorp Rhode Island, Inc.        BARI      NASDAQ     CPP - Public     192,967         $23.32        $20.50          OUT            ($2.82)
BancTrust Financial Group, Inc.   BTFG      NASDAQ     CPP - Public     730,994         $10.26        $10.12          OUT            ($0.14)
Bank of America Corporation       BAC       NYSE       CPP - Public   48,717,116        $30.79         $6.24          OUT          ($24.55)
Bank of America Corporation       BAC       NYSE       CPP - Public   73,075,674        $30.79         $6.24          OUT          ($24.55)
Bank of Commerce Holdings         BOCH      NASDAQ     CPP - Public     405,405          $6.29         $3.92          OUT            ($2.37)
Bank of Marin Bancorp             BMRC      NASDAQ     CPP - Public     154,242         $27.23        $19.80          OUT            ($7.43)
Bank of New York Mellon           BK        NYSE       CPP - Public   14,516,129        $31.00        $23.88          OUT            ($7.12)
Corporation
Bank of North Carolina            BNCN      NASDAQ     CPP - Public     543,337          $8.63         $7.15          OUT            ($1.48)
Bank of the Ozarks, Inc.          OZRK      NASDAQ     CPP - Public     379,811         $29.62        $21.46          OUT            ($8.16)
Banner Corporation                BANR      NASDAQ     CPP - Public    1,707,989        $10.89         $4.97          OUT            ($5.92)
Bar Harbor Bankshares/Bar         BHB       AMEX       CPP - Public     104,910         $26.81        $22.00          OUT            ($4.81)
Harbor Bank & Trust
BB&T Corp.                        BBT       NYSE       CPP - Public   13,902,573        $33.81        $20.04          OUT          ($13.77)
BCSB Bancorp, Inc.                BCSB      NASDAQ     CPP - Public     183,465          $8.83         $7.65          OUT            ($1.18)
Berkshire Hills Bancorp, Inc.     BHLB      NASDAQ     CPP - Public     226,330         $26.51        $25.31          OUT            ($1.20)
Blue Valley Ban Corp              BVBC.OB   OTC BB     CPP - Public     111,083         $29.37        $15.00          OUT          ($14.37)
Boston Private Financial          BPFH      NASDAQ     CPP - Public    2,887,500         $8.00         $4.34          OUT            ($3.66)
Holdings, Inc.
Bridge Capital Holdings           BBNK      NASDAQ     CPP - Public     396,412          $9.03         $5.04          OUT            ($3.99)
Broadway Financial Corporation BYFC         NASDAQ     CPP - Public     183,175          $7.37         $4.25          OUT            ($3.12)
C&F Financial Corporation         CFFI      NASDAQ     CPP - Public     167,504         $17.91        $14.06          OUT            ($3.85)
Cadence Financial Corporation     CADE      NASDAQ     CPP - Public    1,145,833         $5.76         $4.24          OUT            ($1.52)
Capital Bank Corporation          CBKN      NASDAQ     CPP - Public     749,619          $8.26         $5.50          OUT            ($2.76)
                                                                                                                       continued on next page
     150         APPENDIX D I WARRANTS




STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                            Amount In the
                                                                       Number of Strike Price as   Stock Price              Money (Out of
                                  Ticker                                Warrants   Stated in the         as of    In or Out the Money) as
Company                           Symbol    Exchange   Program          Received    Agreements     1/23/2009     of Money? of 1/23/2009
Capital One Financial             COF       NYSE       CPP - Public    12,657,960        $42.13        $19.32         OUT          ($22.81)
Corporation
Carolina Bank Holdings, Inc.      CLBH      NASDAQ     CPP - Public      357,675          $6.71         $5.79         OUT            ($0.92)
Cascade Financial Corporation     CASB      NASDAQ     CPP - Public      863,442          $6.77         $3.50         OUT            ($3.27)
Cathay General Bancorp            CATY      NASDAQ     CPP - Public     1,846,374        $20.96        $13.89         OUT            ($7.07)
Cecil Bancorp, Inc.               CECB.OB   OTC BB     CPP - Public      261,538          $6.63         $6.75           IN            $0.12
Center Bancorp, Inc.              CNBC      NASDAQ     CPP - Public      173,410          $8.65         $7.00         OUT            ($1.65)
Center Financial Corporation      CLFC      NASDAQ     CPP - Public      864,780          $9.54         $5.58         OUT            ($3.96)
Centerstate Banks of Florida Inc. CSFL      NASDAQ     CPP - Public      250,825         $16.67        $13.94         OUT            ($2.73)
Central Bancorp, Inc.             CEBK      NASDAQ     CPP - Public      234,742          $6.39         $5.30         OUT            ($1.09)
Central Federal Corporation       CFBK      NASDAQ     CPP - Public      336,568          $3.22         $2.99         OUT            ($0.23)
Central Jersey Bancorp            CJBK      NASDAQ     CPP - Public      268,621          $6.31         $7.25           IN            $0.94
Central Pacific Financial Corp.   CPF       NYSE       CPP - Public     1,585,748        $12.77         $6.14         OUT            ($6.63)
Centrue Financial Corporation     TRUE      NASDAQ     CPP - Public      508,320          $9.64         $4.85         OUT            ($4.79)
CIT Group Inc.                    CIT       NYSE       CPP - Public    88,705,584         $3.94         $2.55         OUT            ($1.39)
Citigroup Inc.                    C         NYSE       CPP - Public   210,084,034        $17.85         $3.47         OUT          ($14.38)
Citizens & Northern Corporation CZNC        NASDAQ     CPP - Public      194,794         $20.36        $16.59         OUT            ($3.77)
Citizens First Corporation        CZFC      NASDAQ     CPP - Public      254,218          $5.18         $4.10         OUT            ($1.08)
Citizens Republic Bancorp, Inc.   CRBC      NASDAQ     CPP - Public    17,578,125         $2.56         $1.55         OUT            ($1.01)
Citizens South Banking            CSBC      NASDAQ     CPP - Public      428,870          $7.17         $4.98         OUT            ($2.19)
Corporation
City National Corporation         CYN       NYSE       CPP - Public     1,128,668        $53.16        $32.99         OUT          ($20.17)
Coastal Banking Company, Inc.     CBCO.OB   OTC BB     CPP - Public      205,579          $7.26         $4.75         OUT            ($2.51)
CoBiz Financial Inc.              COBZ      NASDAQ     CPP - Public      895,968         $10.79         $5.50         OUT            ($5.29)
Codorus Valley Bancorp, Inc.      CVLY      NASDAQ     CPP - Public      263,859          $9.38         $7.88         OUT            ($1.50)
Colony Bankcorp, Inc.             CBAN      NASDAQ     CPP - Public      500,000          $8.40         $8.29         OUT            ($0.11)
Columbia Banking System, Inc.     COLB      NASDAQ     CPP - Public      796,046         $14.49         $8.27         OUT            ($6.22)
Comerica Inc.                     CMA       NYSE       CPP - Public    11,479,592        $29.40        $17.10         OUT          ($12.30)
Commerce National Bank            CNBF.OB   OTC BB     CPP - Public       87,209          $8.60         $6.00         OUT            ($2.60)
Community Bankers Trust           BTC       AMEX       CPP - Public      780,000          $3.40         $2.67         OUT            ($0.73)
Corporation
Community Financial Corporation CFFC        NASDAQ     CPP - Public      351,194          $5.40         $3.80         OUT            ($1.60)
Community West Bancshares         CWBC      NASDAQ     CPP - Public      521,158          $4.49         $3.50         OUT            ($0.99)
Crescent Financial Corporation    CRFN      NASDAQ     CPP - Public      833,705          $4.48         $3.50         OUT            ($0.98)
CVB Financial Corp                CVBF      NASDAQ     CPP - Public     1,669,521        $11.68         $8.77         OUT            ($2.91)
Eagle Bancorp, Inc.               EGBN      NASDAQ     CPP - Public      770,867          $7.44         $5.85         OUT            ($1.59)
East West Bancorp                 EWBC      NASDAQ     CPP - Public     3,035,109        $15.15         $8.82         OUT            ($6.33)
                                                                                                                       continued on next page
                                                                                                        WARRANTS I APPENDIX D     151




STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                             Amount In the
                                                                        Number of Strike Price as   Stock Price              Money (Out of
                                    Ticker                               Warrants   Stated in the         as of    In or Out the Money) as
Company                             Symbol    Exchange   Program         Received    Agreements     1/23/2009     of Money? of 1/23/2009
Eastern Virginia Bankshares,        EVBS      NASDAQ     CPP - Public     373,832          $9.63         $9.87            IN            $0.24
Inc.
ECB Bancorp, Inc./East Carolina ECBE          NASDAQ     CPP - Public     144,984         $18.57        $17.74          OUT            ($0.83)
Bank
Emclaire Financial Corp.            EMCF.OB   OTC BB     CPP - Public      50,111         $22.45        $23.50            IN            $1.05
Encore Bancshares Inc.              EBTX      NASDAQ     CPP - Public     364,026         $14.01         $7.08          OUT            ($6.93)
Enterprise Financial Services       EFSC      NASDAQ     CPP - Public     324,074         $16.20        $11.14          OUT            ($5.06)
Corp.
F.N.B. Corporation                  FNB       NYSE       CPP - Public    1,302,083        $11.52         $7.90          OUT            ($3.62)
Farmers Capital Bank Corpora-       FFKT      NASDAQ     CPP - Public     223,992         $20.09        $20.05          OUT            ($0.04)
tion
Fidelity Bancorp, Inc.              FSBI      NASDAQ     CPP - Public     121,387          $8.65         $7.48          OUT            ($1.17)
Fidelity Southern Corporation       LION      NASDAQ     CPP - Public    2,266,458         $3.19         $3.00          OUT            ($0.19)
Fifth Third Bancorp                 FITB      NASDAQ     CPP - Public   43,617,747        $11.72         $2.91          OUT            ($8.81)
Financial Institutions, Inc.        FISI      NASDAQ     CPP - Public     378,175         $14.88        $10.50          OUT            ($4.38)
First Bancorp                       FBNC      NASDAQ     CPP - Public     616,308         $15.82        $14.59          OUT            ($1.23)
First BanCorp                       FBP       NYSE       CPP - Public    5,842,259        $10.27         $6.82          OUT            ($3.45)
First California Financial Group,   FCAL      NASDAQ     CPP - Public     599,042          $6.26         $5.80          OUT            ($0.46)
Inc
First Citizens Banc Corp            FCZA      NASDAQ     CPP - Public     469,312          $7.41         $6.56          OUT            ($0.85)
First Community Bank Corpora-       FCFL      NASDAQ     CPP - Public     228,312          $7.02         $3.50          OUT            ($3.52)
tion of America
First Community Bankshares Inc. FCBC          NASDAQ     CPP - Public     176,546         $35.26        $19.15          OUT          ($16.11)
First Community Corporation         FCCO      NASDAQ     CPP - Public     195,915          $8.69         $6.50          OUT            ($2.19)
First Defiance Financial Corp.      FDEF      NASDAQ     CPP - Public     550,595         $10.08         $7.45          OUT            ($2.63)
First Financial Bancorp             FFBC      NASDAQ     CPP - Public     930,233         $12.90         $8.67          OUT            ($4.23)
First Financial Holdings Inc.       FFCH      NASDAQ     CPP - Public     483,391         $20.17        $15.77          OUT            ($4.40)
First Financial Service             FFKY      NASDAQ     CPP - Public     215,983         $13.89        $12.50          OUT            ($1.39)
Corporation
First Horizon National              FHN       NYSE       CPP - Public   12,743,235        $10.20         $9.25          OUT            ($0.95)
Corporation
First Litchfield Financial          FLFL.OB   OTC BB     CPP - Public     199,203          $7.53         $6.50          OUT            ($1.03)
Corporation
First Midwest Bancorp, Inc.         FMBI      NASDAQ     CPP - Public    1,305,230        $22.18         $9.90          OUT          ($12.28)
First Niagara Financial Group       FNFG      NASDAQ     CPP - Public    1,906,191        $14.48        $13.30          OUT            ($1.18)
First PacTrust Bancorp, Inc.        FPTB      NASDAQ     CPP - Public     280,795         $10.31         $8.82          OUT            ($1.49)
First Security Group, Inc.          FSGI      NASDAQ     CPP - Public     823,627          $6.01         $4.80          OUT            ($1.21)
First Sound Bank                    FSWA.OB   OTC BB     CPP - Public     114,080          $9.73         $6.25          OUT            ($3.48)
FirstMerit Corporation              FMER      NASDAQ     CPP - Public     952,260         $19.69        $16.39          OUT            ($3.30)
                                                                                                                         continued on next page
     152      APPENDIX D I WARRANTS




STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                          Amount In the
                                                                     Number of Strike Price as   Stock Price              Money (Out of
                                 Ticker                               Warrants   Stated in the         as of    In or Out the Money) as
Company                          Symbol    Exchange   Program         Received    Agreements     1/23/2009     of Money? of 1/23/2009
Flushing Financial Corporation   FFIC      NASDAQ     CPP - Public     751,611         $13.97         $7.83         OUT            ($6.14)
FPB Bancorp, Inc.                FPBI      NASDAQ     CPP - Public     183,158          $4.75         $2.36         OUT            ($2.39)
Fulton Financial Corporation     FULT      NASDAQ     CPP - Public    5,509,756        $10.25         $7.37         OUT            ($2.88)
Great Southern Bancorp           GSBC      NASDAQ     CPP - Public     909,091          $9.57        $10.74           IN            $1.17
Green Bankshares, Inc.           GRNB      NASDAQ     CPP - Public     635,504         $17.06         $9.67         OUT            ($7.39)
Hampton Roads Bankshares,        HMPR      NASDAQ     CPP - Public    1,325,858         $9.09         $8.50         OUT            ($0.59)
Inc.
Hawthorn Bancshares, Inc.        HWBK      NASDAQ     CPP - Public     245,443         $18.49        $15.79         OUT            ($2.70)
Heartland Financial USA, Inc.    HTFL      NASDAQ     CPP - Public     609,687         $20.10        $13.55         OUT            ($6.55)
Heritage Commerce Corp.          HTBK      NASDAQ     CPP - Public     462,963         $12.96         $7.50         OUT            ($5.46)
Heritage Financial Corporation   HFWA      NASDAQ     CPP - Public     276,074         $13.04        $11.69         OUT            ($1.35)
HF Financial Corp.               GHFFC     NASDAQ     CPP - Public     302,419         $12.40        $12.00         OUT            ($0.40)
HMN Financial, Inc.              HMNF      NASDAQ     CPP - Public     833,333          $4.68         $3.81         OUT            ($0.87)
Home Bancshares, Inc.            HOMB      NASDAQ     CPP - Public     288,129         $26.03        $20.90         OUT            ($5.13)
HopFed Bancorp                   HFBC      NASDAQ     CPP - Public     243,816         $11.32        $10.04         OUT            ($1.28)
Horizon Bancorp                  HBNC      NASDAQ     CPP - Public     212,104         $17.68        $12.46         OUT            ($5.22)
Huntington Bancshares            HBAN      NASDAQ     CPP - Public   23,562,994         $8.90         $3.27         OUT            ($5.63)
Iberiabank Corporation           IBKC      NASDAQ     CPP - Public     276,980         $48.74        $41.24         OUT            ($7.50)
Independent Bank Corp.           INDB      NASDAQ     CPP - Public     481,664         $24.34        $21.96         OUT            ($2.38)
Independent Bank Corporation     IBCP      NASDAQ     CPP - Public    3,461,538         $3.12         $2.15         OUT            ($0.97)
Indiana Community Bancorp        INCB      NASDAQ     CPP - Public     188,707         $17.09        $12.74         OUT            ($4.35)
Intermountain Community          IMCB.OB   OTC BB     CPP - Public     653,226          $6.20         $5.00         OUT            ($1.20)
Bancorp
International Bancshares         IBOC      NASDAQ     CPP - Public     653,226         $24.43        $17.52         OUT            ($6.91)
Corporation
Intervest Bancshares             IBCA      NASDAQ     CPP - Public     691,882          $5.42         $4.45         OUT            ($0.97)
Corporation
JPMorgan Chase & Co.             JPM       NYSE       CPP - Public   88,401,697        $42.42        $24.28         OUT          ($18.14)
KeyCorp                          KEY       NYSE       CPP - Public   35,244,361        $10.64         $7.62         OUT            ($3.02)
LCNB Corp.                       LCNB.OB   OTC BB     CPP - Public     217,063          $9.26         $9.00         OUT            ($0.26)
LNB Bancorp Inc.                 LNBB      NASDAQ     CPP - Public     561,343          $6.74         $6.47         OUT            ($0.27)
LSB Corporation                  LSBI      NASDAQ     CPP - Public     209,497         $10.74        $10.50         OUT            ($0.24)
M&T Bank Corporation             MTB       NYSE       CPP - Public    1,218,522        $73.86        $37.38         OUT          ($36.48)
MainSource Financial Group,      MSFG      NASDAQ     CPP - Public     571,906         $14.95        $10.82         OUT            ($4.13)
Inc.
Manhattan Bancorp                MNHN.OB   OTC BB     CPP - Public      29,480          $8.65         $6.50         OUT            ($2.15)
Marshall & Ilsley Corporation    MI        NYSE       CPP - Public   13,815,789        $18.62         $6.08         OUT          ($12.54)
MB Financial Inc.                MBFI      NASDAQ     CPP - Public    1,012,048        $29.05        $17.76         OUT          ($11.29)
                                                                                                                     continued on next page
                                                                                                     WARRANTS I APPENDIX D     153




STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                          Amount In the
                                                                     Number of Strike Price as   Stock Price              Money (Out of
                                 Ticker                               Warrants   Stated in the         as of    In or Out the Money) as
Company                          Symbol    Exchange   Program         Received    Agreements     1/23/2009     of Money? of 1/23/2009
MetroCorp Bancshares,            MCBI      NASDAQ     CPP - Public     771,429          $8.75         $5.87          OUT            ($2.88)
Inc.
Mid Penn Bancorp, Inc.           MPB       NASDAQ     CPP - Public      73,099         $20.52        $18.00          OUT            ($2.52)
MidSouth Bancorp, Inc.           MSL       AMEX       CPP - Public     208,768         $14.37        $11.00          OUT            ($3.37)
Midwest Banc Holdings,           MBHI      NASDAQ     CPP - Public    4,282,020         $2.97         $1.40          OUT            ($1.57)
Inc.
Monarch Financial Holdings,      MNRK      NASDAQ     CPP - Public     264,706          $8.33         $6.50          OUT            ($1.83)
Inc.
Morgan Stanley                   MS        NYSE       CPP - Public   65,245,759        $22.99        $18.71          OUT            ($4.28)
MutualFirst Financial, Inc.      MFSF      NASDAQ     CPP - Public     625,135          $7.77         $6.50          OUT            ($1.27)
Nara Bancorp, Inc.               NARA      NASDAQ     CPP - Public    1,042,531         $9.64         $6.53          OUT            ($3.11)
National Penn Bancshares, Inc.   NPBC      NASDAQ     CPP - Public    1,470,588        $15.30        $10.17          OUT            ($5.13)
New Hampshire Thrift Banc-       NHTB      NASDAQ     CPP - Public     184,275          $8.14         $6.75          OUT            ($1.39)
shares, Inc.
NewBridge Bancorp                NBBC      NASDAQ     CPP - Public    2,567,255         $3.06         $2.25          OUT            ($0.81)
North Central Bancshares, Inc.   FFFD      NASDAQ     CPP - Public      99,157         $15.43        $10.25          OUT            ($5.18)
Northeast Bancorp                NBN       NASDAQ     CPP - Public      67,958          $9.33         $7.55          OUT            ($1.78)
Northern Trust Corporation       NTRS      NASDAQ     CPP - Public    3,824,624        $61.81        $56.55          OUT            ($5.26)
Oak Valley Bancorp               OVLY      NASDAQ     CPP - Public     350,346          $5.78         $5.75          OUT            ($0.03)
OceanFirst Financial Corp.       OCFC      NASDAQ     CPP - Public     380,853         $15.07        $12.75          OUT            ($2.32)
Old Line Bancshares, Inc.        OLBK      NASDAQ     CPP - Public     141,892          $7.40         $6.30          OUT            ($1.10)
Old National Bancorp             ONB       NYSE       CPP - Public     813,008         $18.45        $13.02          OUT            ($5.43)
Old Second Bancorp, Inc.         OSBC      NASDAQ     CPP - Public     815,339         $13.43         $8.81          OUT            ($4.62)
Pacific Capital Bancorp          PCBC      NASDAQ     CPP - Public    1,512,003        $17.92        $12.84          OUT            ($5.08)
Pacific International Bancorp    PIBW.OB   OTC BB     CPP - Public     127,785          $7.63         $3.25          OUT            ($4.38)
Park National Corporation        PRK       AMEX       CPP - Public     227,376         $65.97        $51.76          OUT          ($14.21)
Parkvale Financial Corporation   PVSA      NASDAQ     CPP - Public     376,327         $12.66        $12.70            IN            $0.04
Peapack-Gladstone Financial      PGC       NASDAQ     CPP - Public     143,139         $30.06        $22.15          OUT            ($7.91)
Corporation
Peoples Bancorp of North         PEBK      NASDAQ     CPP - Public     357,234         $10.52         $8.75          OUT            ($1.77)
Carolina, Inc.
Pinnacle Financial Partners, Inc. PNFP     NASDAQ     CPP - Public     534,910         $26.64        $22.91          OUT            ($3.73)
Popular, Inc.                    BPOP      NASDAQ     CPP - Public   20,932,836         $6.70         $3.13          OUT            ($3.57)
Porter Bancorp Inc.              PBIB      NASDAQ     CPP - Public     299,829         $17.51        $14.25          OUT            ($3.26)
Princeton National Bancorp, Inc. PNBC      NASDAQ     CPP - Public     155,025         $24.27        $19.17          OUT            ($5.10)
Provident Bancshares Corp.       PBKS      NASDAQ     CPP - Public    2,374,608         $9.57         $6.28          OUT            ($3.29)
Pulaski Financial Corp           PULB      NASDAQ     CPP - Public     778,421          $6.27         $6.65            IN            $0.38
Regions Financial Corp.          RF        NYSE       CPP - Public   48,253,677        $10.88         $4.66          OUT            ($6.22)
                                                                                                                      continued on next page
     154      APPENDIX D I WARRANTS




STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                          Amount In the
                                                                     Number of Strike Price as   Stock Price              Money (Out of
                                 Ticker                               Warrants   Stated in the         as of    In or Out the Money) as
Company                          Symbol    Exchange   Program         Received    Agreements     1/23/2009     of Money? of 1/23/2009
S&T Bancorp                      STBA      NASDAQ     CPP - Public     517,012         $31.53        $26.15         OUT            ($5.38)
Sandy Spring Bancorp, Inc.       SASR      NASDAQ     CPP - Public     651,547         $19.13        $14.81         OUT            ($4.32)
Santa Lucia Bancorp              SLBA.OB   OTC BB     CPP - Public      37,360         $16.06        $12.50         OUT            ($3.56)
SCBT Financial Corporation       SCBT      NASDAQ     CPP - Public     303,083         $32.06        $27.90         OUT            ($4.16)
Seacoast Banking Corporation     SBCF      NASDAQ     CPP - Public    1,179,245         $6.36         $4.53         OUT            ($1.83)
of Florida
Security Federal Corporation     SFDL.OB   OTC BB     CPP - Public     137,966         $19.57        $16.25         OUT            ($3.32)
Severn Bancorp, Inc.             SVBI      NASDAQ     CPP - Public     556,976          $6.30         $4.12         OUT            ($2.18)
Shore Bancshares, Inc.           SHBI      NASDAQ     CPP - Public     172,970         $21.68        $16.99         OUT            ($4.69)
Signature Bank                   SBNY      NASDAQ     CPP - Public     595,829         $30.21        $21.85         OUT            ($8.36)
Somerset Hills Bancorp           SOMH      NASDAQ     CPP - Public     163,065          $6.82         $6.79         OUT            ($0.03)
South Financial Group, Inc.      TSFG      NASDAQ     CPP - Public   10,106,796         $5.15         $2.75         OUT            ($2.40)
Southern Community Financial     SCMF      NASDAQ     CPP - Public    1,623,418         $3.95         $3.87         OUT            ($0.08)
Corp.
Southern Missouri Bancorp, Inc. SMBC       NASDAQ     CPP - Public     114,326         $12.53        $10.00         OUT            ($2.53)
Southwest Bancorp, Inc.          OKSB      NASDAQ     CPP - Public     703,753         $14.92         $8.80         OUT            ($6.12)
State Bancorp, Inc.              STBC      NASDAQ     CPP - Public     465,569         $11.87         $7.48         OUT            ($4.39)
State Street Corporation         STT       NYSE       CPP - Public    5,576,208        $53.80        $19.40         OUT          ($34.40)
StellarOne Corporation           STEL      NASDAQ     CPP - Public     302,623         $14.87        $12.94         OUT            ($1.93)
Sterling Bancorp                 STL       NYSE       CPP - Public     516,817         $12.19        $10.65         OUT            ($1.54)
Sterling Bancshares, Inc.        SBIB      NASDAQ     CPP - Public    2,615,557         $7.18         $4.69         OUT            ($2.49)
Sterling Financial Corporation   STSA      NASDAQ     CPP - Public    6,437,677         $7.06         $2.59         OUT            ($4.47)
Summit State Bank                SSBI      NASDAQ     CPP - Public     239,212          $5.33         $4.75         OUT            ($0.58)
Sun Bancorp, Inc.                SNBC      NASDAQ     CPP - Public    1,543,376         $8.68         $5.85         OUT            ($2.83)
SunTrust Banks, Inc.             STI       NYSE       CPP - Public   11,891,280        $44.15        $14.97         OUT          ($29.18)
SunTrust Banks, Inc.             STI       NYSE       CPP - Public    6,008,902        $33.70        $14.97         OUT          ($18.73)
Superior Bancorp Inc.            SUPR      NASDAQ     CPP - Public    1,923,792         $5.38         $2.99         OUT            ($2.39)
Susquehanna Bancshares, Inc      SUSQ      NASDAQ     CPP - Public    3,028,264        $14.86        $10.98         OUT            ($3.88)
SVB Financial Group              SIVB      NASDAQ     CPP - Public     708,116         $49.78        $23.83         OUT          ($25.95)
Synovus Financial Corp.          SNV       NYSE       CPP - Public     708,116         $49.78         $4.76         OUT          ($45.02)
Taylor Capital Group             TAYC      NASDAQ     CPP - Public    1,462,647        $10.75         $6.30         OUT            ($4.45)
TCF Financial Corporation        TCB       NYSE       CPP - Public    3,199,988        $16.93        $12.62         OUT            ($4.31)
Tennessee Commerce Bancorp, TNCC           NASDAQ     CPP - Public     461,538          $9.75         $7.03         OUT            ($2.72)
Inc.
Texas Capital Bancshares, Inc.   TCBI      NASDAQ     CPP - Public     758,086         $14.84        $10.57         OUT            ($4.27)
The Bancorp, Inc.                TBBK      NASDAQ     CPP - Public    1,960,405         $3.46         $3.18         OUT            ($0.28)
The Connecticut Bank and Trust CTBC        NASDAQ     CPP - Public     175,742          $4.65         $3.58         OUT            ($1.07)
Company
                                                                                                                     continued on next page
                                                                                                      WARRANTS I APPENDIX D     155




STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                           Amount In the
                                                                      Number of Strike Price as   Stock Price              Money (Out of
                                 Ticker                                Warrants   Stated in the         as of    In or Out the Money) as
Company                          Symbol    Exchange   Program          Received    Agreements     1/23/2009     of Money? of 1/23/2009
The Elmira Savings Bank, FSB     ESBK      NASDAQ     CPP - Public      116,538         $11.70        $11.79            IN             $0.09
The First Bancorp, Inc.          FNLC      NASDAQ     CPP - Public      225,904         $16.60        $15.70          OUT             ($0.90)
The Goldman Sachs Group, Inc. GS           NYSE       CPP - Public    12,205,045       $122.90        $74.91          OUT          ($47.99)
The PNC Financial Services       PNC       NYSE       CPP - Public    16,885,192        $67.33        $30.27          OUT          ($37.06)
Group Inc.
TIB Financial Corp               TIBB      NASDAQ     CPP - Public     1,063,218         $5.22         $3.92          OUT             ($1.30)
Tidelands Bancshares, Inc        TDBK      NASDAQ     CPP - Public      571,821          $3.79         $2.60          OUT             ($1.19)
Timberland Bancorp, Inc.         TSBK      NASDAQ     CPP - Public      370,899          $6.73         $6.82            IN             $0.09
TowneBank                        TOWN      NASDAQ     CPP - Public      538,184         $21.31        $20.75          OUT             ($0.56)
Trustmark Corporation            TRMK      NASDAQ     CPP - Public     1,647,931        $19.57        $17.57          OUT             ($2.00)
U.S. Bancorp                     USB       NYSE       CPP - Public    32,679,102        $30.29        $14.64          OUT          ($15.65)
UCBH Holdings, Inc.              UCBH      NASDAQ     CPP - Public     7,847,732         $5.71         $2.18          OUT             ($3.53)
Umpqua Holdings Corp.            UMPQ      NASDAQ     CPP - Public     2,221,795        $14.46         $8.83          OUT             ($5.63)
Union Bankshares Corporation     UBSH      NASDAQ     CPP - Public      422,636         $20.94        $16.75          OUT             ($4.19)
United Bancorp, Inc.             UBCP      NASDAQ     CPP - Public      311,492          $9.92         $8.75          OUT             ($1.17)
United Bancorporation of         UBAB.OB   OTC BB     CPP - Public      104,040         $14.85        $15.50            IN             $0.65
Alabama, Inc.
United Community Banks, Inc.     UCBI      NASDAQ     CPP - Public     2,132,701        $12.66         $6.62          OUT             ($6.04)
Unity Bancorp, Inc.              UNTY      NASDAQ     CPP - Public      764,778          $4.05         $3.65          OUT             ($0.40)
Valley Financial Corporation     VYFC      NASDAQ     CPP - Public      344,742          $6.97         $5.25          OUT             ($1.72)
Valley National Bancorp          VLY       NYSE       CPP - Public     2,297,090        $19.59        $13.47          OUT             ($6.12)
Virginia Commerce Bancorp        VCBI      NASDAQ     CPP - Public     2,696,203         $3.95         $4.01            IN             $0.06
VIST Financial Corp.             VIST      NASDAQ     CPP - Public      364,078         $10.30         $8.85          OUT             ($1.45)
Wainwright Bank & Trust          WAIN      NASDAQ     CPP - Public      390,071          $8.46         $6.82          OUT             ($1.64)
Company
Washington Banking Company/      WBCO      NASDAQ     CPP - Public      492,164          $8.04         $7.99          OUT             ($0.05)
Whidbey Island Bank
Washington Federal Inc.          WFSL      NASDAQ     CPP - Public     1,707,456        $17.57        $12.43          OUT             ($5.14)
Webster Financial Corporation    WBS       NYSE       CPP - Public     3,282,276        $18.28         $4.28          OUT          ($14.00)
Wells Fargo & Company            WFC       NYSE       CPP - Public   110,261,688        $34.01        $15.87          OUT          ($18.14)
Wesbanco Bank Inc.               WSBC      NASDAQ     CPP - Public      439,282         $25.61        $21.67          OUT             ($3.94)
West Bancorporation, Inc.        WTBA      NASDAQ     CPP - Public      474,100         $11.39         $9.47          OUT             ($1.92)
Western Alliance Bancorporation WAL        NYSE       CPP - Public     1,574,213        $13.34         $7.54          OUT             ($5.80)
Whitney Holding Corporation      WTNY      NASDAQ     CPP - Public     2,631,579        $17.10        $12.56          OUT             ($4.54)
Wilmington Trust Corporation     WL        NYSE       CPP - Public     1,856,714        $26.66        $14.97          OUT          ($11.69)
Wilshire Bancorp, Inc.           WIBC      NASDAQ     CPP - Public      949,460          $9.82         $6.94          OUT             ($2.88)
Wintrust Financial Corporation   WTFC      NASDAQ     CPP - Public     1,643,295        $22.82        $12.59          OUT          ($10.23)
WSFS Financial Corporation       WSFS      NASDAQ     CPP - Public      175,105         $45.08        $28.54          OUT          ($16.54)
                                                                                                                       continued on next page
       156       APPENDIX D I WARRANTS




STATUS OF WARRANTS TREASURY OBTAINED UNDER CPP, SSFI, TIP, AIFP, AND AGP
                                                                                                                                                                   Amount In the
                                                                                               Number of Strike Price as             Stock Price                   Money (Out of
                                       Ticker                                                   Warrants   Stated in the                   as of         In or Out the Money) as
Company                                Symbol          Exchange          Program                Received    Agreements               1/23/2009          of Money? of 1/23/2009
Yadkin Valley Financial                YAVY            NASDAQ            CPP - Public             385,990                $13.99             $10.39              OUT              ($3.60)
Corporation
Zions Bancorporation                   ZION            NASDAQ            CPP - Public           5,789,909                $36.27             $13.56              OUT            ($22.71)
AIG                                    AIG             NYSE              SSFI                 53,798,766                   $2.50             $1.37              OUT              ($1.13)
Bank of America Corporation            BAC             NYSE              TIP                150,375,940                  $13.30              $6.24              OUT              ($7.06)
Citigroup Inc.                         C               NYSE              TIP                188,500,000                    10.61             $3.47              OUT              ($7.14)
Citigroup Inc.                         C               NYSE              AGP                254,476,909                  $10.61              $3.47              OUT              ($7.14)
General Motors Corporation             GM              NYSE              AIFP                   1,733,068                  $5.02             $3.49              OUT              ($1.53)
GMAC LLC                               GJM             NYSE              AIFP                     250,002                  $0.01             $8.90                 IN             $8.89

Note: Data as of 1/23/2009.

Sources: Treasury: Office of Financial Stability, “Troubled Asset Relief Program Transaction Report,” 1/27/2009; Treasury: Office of Financial Stability, response to SIGTARP data call,
1/27/2009; New York Stock Exchange, www.nyse.com, accessed 1/25/2009; Nasdaq, www.nasdaq.com, accessed 1/25/2009; OTC Bulletin Board, www.otcbb.com, accessed
1/25/2009; NYSE Euronext, www.amex.com/amextrader, accessed 1/25/2009.
                                                                                            KEY OVERSIGHT REPORTS AND TESTIMONIES I APPENDIX E          157




KEY OVERSIGHT REPORTS AND TESTIMONIES
ORGANIZATION      ROLES AND MISSION                  OVERSIGHT REPORTS                            RECORDED TESTIMONY
U.S. DEPARTMENT   The mission of Treasury is to      Treasury, “Initial Section 105(a) Troubled   Treasury, “Joint Statement by Treasury, Federal Reserve and
OF THE TREASURY   serve the American people and      Asset Relief Program Report to Congress,     the FDIC on Citigroup,” Press Release, 11/23/2008, http://
(Treasury)        strengthen national security by    for the period of October 6, 2008 to         www.treasury.gov/press/releases/hp1287.htm, accessed
                  managing the U.S. government’s     November 30, 2008.”12/5/2008. http://        1/22/2009.
                  finances effectively; promoting    www.treas.gov/initiatives/eesa/docs/
                  economic growth and stability;     TARPfirst-105report.pdf, accessed            Treasury, “HP-1234 Neel Kashkari Testimony before the
                  and ensuring the safety,           1/22/2009.                                   Senate Committee on Banking, Housing, and Urban Affairs,”
                  soundness, and security of the                                                  10/23/2008. http://www.treas.gov/press/releases/
                  U.S. and international financial   Treasury, “Section 105(a) Troubled Asset     hp1234.htm, accessed 1/20/2009.
                  systems. Treasury advises the      Relief Program Report to Congress, for the
                  President on economic and          period December 1, 2008 to December 31,      Treasury, “HP-1273 Testimony of Interim Assistant
                  financial issues, encourages       2008.” 1/6/2009. http://www.treas.gov/       Secretary for Financial Stability Neel Kashkari before the
                  sustainable economic growth,       initiatives/eesa/docs/105Report_010609.      House Committee on Oversight and Government Reform,
                  and fosters improved governance    pdf, accessed 1/22/2009.                     Subcommittee for Domestic Policy,” 11/14/2008, http://
                  in financial institutions.                                                      www.treas.gov/press/releases/hp1273.htm, accessed
                                                     Treasury, “Report to Congress Pursuant       1/20/2009.
                                                     to Section 102 of the Emergency
                                                     Economic Stabilization Act” 12/31/2008.      Treasury, “HP-1279 Testimony by Treasury Secretary Henry
                                                     http://www.treas.gov/initiatives/eesa/       M. Paulson Jr. before the House Committee on Financial
                                                     congressionalreports102.shtml, accessed      Services,” 11/18/2008, http://www.treas.gov/press/
                                                     1/22/2009.                                   releases/hp1279.htm, accessed 1/20/2009.

                                                     Treasury, “Transaction Reports.” http://     Treasury, “HP-1312 Neel Kashkari Testimony before the
                                                     www.treas.gov/initiatives/eesa/transactions. Senate Appropriations Subcommittee on Financial Services
                                                     shtml, accessed 1/22/2009.                   and General Government,” 12/4/2008. http://www.treas.
                                                                                                  gov/press/releases/hp1312.htm, accessed 1/20/2009.
                                                     Treasury, “Tranche Reports,” http://www.
                                                     treas.gov/initiatives/eesa/tranche-reports.  Treasury, “HP 1322 Neel Kashkari Testimony before the U.S.
                                                     shtml, accessed 1/22/2009.                   House of Representatives Financial Services Committee,”
                                                                                                  12/10/2008, http://www.treas.gov/press/releases/
                                                                                                  hp1322.htm, accessed 1/20/2009.

                                                                                                  Treasury, “HP-1349 Neel Kashkari Review of the Financial
                                                                                                  Market Crisis & TARP,” 1/13/2009, http://www.treas.gov/
                                                                                                  press/releases/hp1349.htm, accessed 1/20/2009.

                                                                                                  Treasury, “HP-1301 Secretary Paulson Remarks on the
                                                                                                  US Economy and Financial System,” 12/1/2008 http://
                                                                                                  www.treas.gov/press/releases/hp1301.htm, accessed
                                                                                                  1/22/2009.

                                                                                                  Treasury, “HP-1314 Interim Assistant secretary for Financial
                                                                                                  Stability Neel Kashkari Remarks on Financial Markets and
                                                                                                  TARP update,” 12/5/2008 http://www.treas.gov/press/
                                                                                                  releases/hp1314.htm, accessed 1/22/2009.

                                                                                                  Treasury, “HP-1321 Interim Assistant Secretary for Financial
                                                                                                  Stability Neel Kashkari Update on the TARP Program,”
                                                                                                  12/8/2008 http://www.treas.gov/press/releases/hp1321.
                                                                                                  htm, accessed 1/22/2009.

                                                                                                  Treasury, “HP-1332 Secretary Paulson Statement on
                                                                                                  Stabilizing the Automotive Industry,” 12/19/2008 http://
                                                                                                  www.treas.gov/press/releases/hp1332.htm, accessed
                                                                                                  1/22/2009.

                                                                                                  Treasury, “HP-1347 Interim Assistant Secretary for Financial
                                                                                                  stability Neel Kashkari Remarks at Brookings Institution,”
                                                                                                  1/8/2009 http://www.treas.gov/press/releases/hp1347.
                                                                                                  htm, accessed 1/22/2009.

                                                                                                  Treasury, “HP-1349 Interim Assistant Secretary for Financial
                                                                                                  Stability Neel Kashkari Review of the Financial Market Crisis
                                                                                                  and the Troubled Asset Relief Program,” 1/13/2009, http://
                                                                                                  www.treas.gov/press/releases/hp1349.htm, accessed
                                                                                                  1/22/2009.
                                                                                                                                   Continued on the next page.
    158    APPENDIX E I KEY OVERSIGHT REPORTS AND TESTIMONIES


ORGANIZATION      ROLES AND MISSION                   OVERSIGHT REPORTS                                RECORDED TESTIMONY

FINANCIAL         FSOB is responsible for reviewing   Minutes of the Financial Stability Oversight
STABILITY         the exercise of authority           Board Meeting, October 7, 2008, http://
OVERSIGHT BOARD   under programs developed in         www.treasury.gov/initiatives/eesa/docs/
(FSOB)            accordance with EESA, including:    FINSOB-Minutes-October-7-2008.pdf.
                  • policies implemented by the
                     Secretary and the Office of      Minutes of the Financial Stability Oversight
                     Financial Stability, including   Board Meeting, October 13, 2008, http://
                     the appointment of financial     www.treasury.gov/initiatives/eesa/docs/
                     agents, the designation of       FINSOB-Minutes-October-13-2008.pdf.
                     asset classes to be purchased,
                     and plans for the structure      Minutes of the Financial Stability Oversight
                     of vehicles used to purchase     Board Meeting, October 22, 2008, http://
                     troubled assets                  www.treasury.gov/initiatives/eesa/docs/
                  • the effect of such actions in     FINSOB-Minutes-October-22-2008.pdf.
                     assisting American families in
                     preserving home ownership,       Minutes of the Financial Stability Oversight
                     stabilizing financial markets,   Board Meeting, November 9, 2008, http://
                     and protecting taxpayers         www.treasury.gov/initiatives/eesa/docs/
                                                      FINSOB-Minutes-November-9-2008.pdf.
                  In addition, FSOB is responsible
                  for making recommendations to       Minutes of the Financial Stability Oversight
                  the Secretary on the use of the     Board Meeting, December 10, 2008,
                  authority under EESA, as well       http://www.treasury.gov/initiatives/
                  as for reporting any suspected      eesa/docs/FINSOB-%20Minutes-
                  fraud, misrepresentation, or        December-10-2008.pdf.
                  malfeasance to SIGTARP or the
                  U.S. Attorney General.              Minutes of Financial Stability Oversight Board
                                                      Meeting, December 19, 2008, http://www.
                                                      treas.gov/initiatives/eesa/docs/FINSOB-
                                                      Minutes-December-19-2008.pdf.

                                                      Minutes of Financial Stability Oversight Board
                                                      Meeting, January 8, 2009, http://www.
                                                      treas.gov/initiatives/eesa/docs/FINSOB-
                                                      Minutes-January-8-2009.pdf.

                                                      Minutes of Financial Stability Oversight Board
                                                      Meeting, January 15, 2009, http://www.
                                                      treas.gov/initiatives/eesa/docs/FINSOB-
                                                      Minutes-011509.pdf.

                                                      First Quarterly Report to Congress pursuant
                                                      to section 104(g) of the Emergency
                                                      Economic Stabilization Act of 2008, for
                                                      quarter ending December 31, 2008, http://
                                                      www.treas.gov/initiatives/eesa/docs/
                                                      FINSOB-Qrtly-Rpt-123108.pdf.

                                                      FSOB: Amended and Restated Bylaws,
                                                      http://www.treasury.gov/initiatives/eesa/
                                                      docs/Amended_Bylaws.pdf.

                                                      Statement and Procedures Regarding Public
                                                      Access to Records of the Financial Stability
                                                      Oversight Board, http://www.treasury.gov/
                                                      initiatives/eesa/docs/records-procedures.
                                                      pdf.
                                                                                                                            Continued on the next page.
                                                                                                 KEY OVERSIGHT REPORTS AND TESTIMONIES I APPENDIX E            159


ORGANIZATION        ROLES AND MISSION                    OVERSIGHT REPORTS                              RECORDED TESTIMONY
SECURITIES       SEC administers the federal             SEC, “Report and Recommendations               SEC, “Testimony Concerning Turmoil in U.S. Credit Markets:
AND EXCHANGE     securities laws, requires               Pursuant to Section 133 of the Emergency       Recent Actions Regarding Government Sponsored Entities,
COMMISSION (SEC) disclosure by public companies,         Economic Stabilization Act of 2008: Study      Investment Banks and Other Financial Institutions,” Chairman
                 and brings enforcement actions          on Mark-to-Market Accounting,” Office of the   Christopher Cox, SEC, before the Committee on Banking,
                 against violators of securities law.    Chief Accountant, Division of Corporation      Housing, and Urban Affairs, U.S. Senate, 9/23/2008,
                 While other federal and state           Finance, 12/30/2008, http://www.sec.gov/       http://www.sec.gov/news/testimony/2008/ts092308cc.
                 agencies are legally responsible        news/studies/2008/marktomarket123008.          htm, accessed 1/22/2009.
                 for regulating mortgage lending         pdf, accessed 1/22/2009.
                 and the credit markets, SEC has                                                        SEC, “Testimony Concerning the Role of Federal Regulators:
                 taken these decisive actions                                                           Lessons from the Credit Crisis for the Future of Regulation,”
                 to address the extraordinary                                                           Chairman Christopher Cox, SEC, before the Committee
                 challenges caused by the current                                                       on Oversight and Government Reform, U.S. House of
                 credit crisis:                                                                         Representatives, 10/23/2008, http://www.sec.gov/news/
                 • aggressively combating fraud                                                         testimony/2008/ts102308cc.htm, accessed 1/22/2009.
                    and market manipulation
                    through enforcement actions
                 • taking swift action to stabilize
                    financial markets
                 • enhancing transparency in
                    financial disclosure

GOVERNMENT          GAO is tasked with performing        GAO, “GAO-09-247T Auto Industry: A
ACCOUNTABILITY      ongoing oversight of TARP’s          Framework for Considering Federal Financial
OFFICE (GAO)        performance, including:              Assistance,” 12/5/2008, http://www.gao.
                    • evaluating the characteristics     gov/new.items/d09247t.pdf, accessed
                      of asset purchases and the         1/22/2009.
                      disposition of assets acquired
                    • assessing TARP’s efficiency in     GAO, “GAO-09-216 Financial Regulation:
                      using the funds                    A Framework for Craft and Assessing
                    • evaluating compliance with         Proposals to Modernize the Outdated U.S.
                      applicable laws and regulations    Financial Regulatory System,” 1/8/2009,
                    • assessing the efficacy of          http://www.gao.gov/new.items/d09216.
                      contracting procedures             pdf, accessed 1/22/2009.
                    • auditing TARP’s annual financial
                      statements and internal            GAO, “GAO-09-266T Troubled Asset Relief
                      controls                           Program: Additional Actions Needed to
                    • submitting reports to Congress     Better Ensure Integrity, Accountability, and
                      at least every 60 days             Transparency,” 12/10/2008, http://www.
                                                         gao.gov/new.items/d09266t.pdf, accessed
                                                         1/22/2009.

                                                         GAO, “GAO-09-231T Troubled Asset Relief
                                                         Program: Status of Efforts to Address
                                                         Defaults and Foreclosures on Home
                                                         Mortgages,” 12/4/2008, http://www.gao.
                                                         gov/new.items/d09231t.pdf, accessed on
                                                         1/22/2009.

                                                         GAO, “GAO-09-271 High-Risk Series: An
                                                         Update,” January 2009.

                                                         GAO, “GAO-09-296 Troubled Asset Relief
                                                         Program: Status of Efforts to Address
                                                         Transparency and Accountability Issues,”
                                                         January 2009, http://www.gao.gov/new.
                                                         items/d09296.pdf.
                                                                                                                                         Continued on the next page.
    160    APPENDIX E I KEY OVERSIGHT REPORTS AND TESTIMONIES


ORGANIZATION      ROLES AND MISSION                      OVERSIGHT REPORTS                           RECORDED TESTIMONY
CONGRESSIONAL     COP is tasked with reviewing           “Questions about the $700 billion
OVERSIGHT PANEL   the current state of the financial     Emergency Economic Stabilization Funds,”
(COP)             markets and the regulatory             The First Report of the Congressional
                  system. As a by-product of             Oversight Panel for Economic
                  these oversight activities, COP is     Stabilization,12/10/2008, http://cop.
                  required to produce the following      senate.gov/documents/cop-121008-report.
                  reports to Congress:                   pdf, accessed on 1/22/2009.
                  • regular reports every 30 days
                     that cover a variety of issues,     “Accountability for the Troubled Asset
                     including administration of         Relief Program,” The Second Report of the
                     the program, the impact of          Congressional Oversight Panel, 1/9/2009,
                     purchases on the financial          http://cop.senate.gov/documents/
                     markets/financial institutions,     cop-010909-report.pdf, accessed on
                     market transparency, and the        1/22/2009.
                     effectiveness of foreclosure
                     mitigation, minimization            Regulatory Reform Hearing on January 14,
                     of long-term costs, and             2009, http://cop.senate.gov/hearings/
                     maximization of benefits for        library/hearing-011409-regulatoryreform.
                     taxpayers                           cfm.
                  • a special report on regulatory
                     reform, published no later          Regulatory Reform Hearing on
                     than January 20, 2009,              December 16, 2008, http://cop.senate.
                     analyzing the current state of      gov/hearings/library/hearing-121608-
                     the regulatory system and its       firsthearing.cfm.
                     effectiveness at overseeing
                     the participants in the financial   “Special Report on Regulatory Reform,”
                     system and protecting               1/2009, http://cop.senate.gov/documents/
                     consumers. The report is to         cop-012909-report-regulatoryreform.pdf.
                     provide recommendations
                     for improvement regarding
                     whether any participants in
                     the financial markets that are
                     currently outside the regulatory
                     system should become subject
                     to the regulatory system,
                     the rationale underlying such
                     recommendation, and whether
                     there are any gaps in existing
                     consumer protections.

OFFICE OF                                                OMB, “OMB Report under the Emergency
MANAGEMENT AND                                           Economic Stabilization Act, Section 202,”
BUDGET (OMB)                                             2/5/2008, www.whitehouse.gov/omb/
                                                         legislative/eesa_120508.pdf, accessed
                                                         1/19/09.


CONGRESSIONAL                                            CBO, “The Troubled Asset Relief Program:
BUDGET OFFICE                                            Report on Transactions Through December
(CBO)                                                    31, 2008,” January 2009, http://www.cbo.
                                                         gov/ftpdocs/99xx/doc9961/01-16-TARP.
                                                         pdf, accessed 1/22/2009.
                                                                                                                          Continued on the next page.
                                                                                  KEY OVERSIGHT REPORTS AND TESTIMONIES I APPENDIX E         161


ORGANIZATION      ROLES AND MISSION                   OVERSIGHT REPORTS                RECORDED TESTIMONY
FEDERAL RESERVE   Federal Reserve’s duties fall into No report issued to date          Federal Reserve, “The Crisis and the Policy Response,”
BOARD (Federal    four general areas:                                                  Chairman Ben S. Bernanke, Stamp Lecture, London School
Reserve)          • conducting the nation’s                                            of Economics, 1/13/2009, http://www.federalreserve.gov/
                    monetary policy by influencing                                     newsevents/speech/bernanke20090113a.htm, accessed
                    the monetary and credit                                            1/22/2009.
                    conditions in the economy
                    in pursuit of maximum                                              Federal Reserve, “Economic Outlook and Financial Markets,”
                    employment, stable prices,                                         Chairman Ben S. Bernanke, Testimony before the Committee
                    and moderate long-term                                             on the Budget, U.S. House of Representatives, 10/20/2008,
                    interest rates                                                     http://www.federalreserve.gov/newsevents/testimony/
                  • supervising and regulating                                         bernanke20081020a.htm, accessed 1/22/2009.
                    banking institutions to ensure                                     Federal Reserve, “TARP and the Federal Reserve’s Liquidity
                    the safety and soundness                                           Facilities,” Chairman Ben S. Bernanke, Testimony before
                    of the nation’s banking and                                        the Committee on Financial Services, U.S. House of
                    financial system and to protect                                    Representatives, 11/18/2008, http://www.federalreserve.
                    the credit rights of consumers                                     gov/newsevents/testimony/bernanke20081118a.htm,
                  • maintaining the stability of the                                   accessed 1/22/2009.
                    financial system and containing
                    systemic risk that may arise in                                    Federal Reserve, “Foreclosure Prevention Efforts and Market
                    financial markets                                                  Stability,” Governor Elizabeth A. Duke, Testimony before
                  • providing financial services                                       the Committee on Banking, Housing, and Urban Affairs,
                    to depository institutions,                                        U.S. Senate, 10/23/2008, http://www.federalreserve.gov/
                    the U.S. government, and                                           newsevents/testimony/duke20081023a.htm, accessed
                    foreign official institutions,                                     1/22/2009.
                    including playing a major
                    role in operating the nation’s                                     Federal Reserve, “Effects of the Financial Crisis on Small
                    payments system                                                    Business,” Governor Randall S. Kroszner, Testimony
                                                                                       before the Committee on Small Business, U.S. House of
                                                                                       Representatives, 11/20/2008, http://www.federalreserve.
                                                                                       gov/newsevents/testimony/kroszner20081120a.htm,
                                                                                       accessed 1/22/2009.

                                                                                       Federal Reserve, “Troubled Asset Relief Program,”
                                                                                       Vice Chairman Donald L. Kohn, Testimony before the
                                                                                       Committee on Financial Services, 1/13/2009, http://www.
                                                                                       federalreserve.gov/newsevents/testimony/kohn20090113a.
                                                                                       htm, accessed 1/22/009.
FEDERAL DEPOSIT   FDIC is an independent agency        No report issued to date        U.S. Senate, “Statement of Sheila C. Bair, Chairman, FDIC,
INSURANCE         created by Congress that                                             on Turmoil in the U.S. Credit Markets: Examining Recent
CORPORATION       maintains the stability and public                                   Regulatory Responses,” Committee on Banking, Housing
(FDIC)            confidence in the nation’s financial                                 and Urban Affairs, 10/23/2008, http://banking.senate.
                  system by insuring deposits,                                         gov/public/_files/BAIRCreditMarkettestimony102308.pdf,
                  examining and supervising                                            accessed 1/22/2009.
                  financial institutions, and
                  managing receiverships.                                              U.S. House of Representatives, “Statement of Sheila C.
                                                                                       Bair, Chairman, FDIC, on Oversight of Implementation of
                                                                                       the Emergency Economic Stabilization Act of 2008 and of
                                                                                       Government Lending and Insurance Facilities,” Committee
                                                                                       on Financial Services, 11/18/2008, http://www.house.
                                                                                       gov/apps/list/hearing/financialsvcs_dem/bair111808.pdf,
                                                                                       accessed 1/22/2009.

                                                                                       U.S. House of Representatives, “Statement of John F.
                                                                                       Bovenzi, Deputy to the Chairman and COO, FDIC, on
                                                                                       Priorities for the Next Administration: Use of TARP Funds
                                                                                       Under the EESA of 2008,” Committee on Financial Services,
                                                                                       1/13/2009, http://www.fdic.gov/news/news/speeches/
                                                                                       chairman/spjan1309.html, accessed 1/22/2009.

                                                                                       U.S. Senate, “Statement of Michael H. Krimminger, Special
                                                                                       Advisor for Policy, Office of the Chairman; FDIC on Oversight
                                                                                       of Implementation of the Emergency Economic Stabilization
                                                                                       Act of 2008 and Efforts to Mitigate Foreclosures,”
                                                                                       Subcommittee on Financial Services and General
                                                                                       Government Committee on Appropriations, 12/4/2008,
                                                                                       http://www.fdic.gov/news/news/speeches/archives/2008/
                                                                                       chairman/spdec0408.html, accessed 1/22/2009.
                                                                                                                        Continued on the next page.
     162       APPENDIX E I KEY OVERSIGHT REPORTS AND TESTIMONIES


ORGANIZATION          ROLES AND MISSION                     OVERSIGHT REPORTS                               RECORDED TESTIMONY

SPECIAL               SIGTARP is responsible for            SIGTARP, Letter to Chairmen and Ranking
INSPECTOR             conducting, supervising,              Members of Congressional Committees
GENERAL FOR THE       and coordinating audits and           Reported to by SIGTARP, 1/7/2009. (See
TROUBLED ASSET        investigations of the purchase,       Appendix G)
RELIEF PROGRAM        management, and sale of
(SIGTARP)             assets by the Secretary of the        SIGTARP, Letter to Chairmen and Ranking
                      Treasury under any program            Members of Congressional Committees
                      established by the Secretary          Reported to by SIGTARP, 1/22/2009. (See
                      under EESA. SIGTARP shall also        Appendix G)
                      establish, maintain, and oversee
                      such systems, procedures, and
                      controls as the Special Inspector
                      General considers appropriate.

Sources:
Treasury, www.treas.gov, accessed 1/30/2009; Treasury Inspector General, www.treas.gov, accessed 1/30/2009; Financial Stability Oversight Board, www.treas.gov, accessed
1/30/2009; Securities and Exchange Commission, www.sec.gov, accessed 1/30/2009; Government Accountability Office, www.gao.gov, accessed 1/30/2009; Congressional Oversight
Panel, www.cop.senate.gov, accessed 1/30/2009; Office of Management and Budget, www.whitehouse.gov, accessed 1/30/2009; Congressional Budget Office, www.cbo.gov, accessed
1/30/2009; Federal Reserve Board, www.federalreserve.gov, accessed 1/30/2009; Federal Deposit Insurance Corporation, www.fdic.gov, accessed 1/30/2009.
                                                                                                     PUBLIC ANNOUNCEMENTS OF AUDITS I APPENDIX F   163




PUBLIC ANNOUNCEMENTS OF AUDITS
This appendix provides an announcement of public audits by the following agencies:
• U.S. Department of Treasury Inspector General
• Federal Reserve Board Office of Inspector General
• Government Accountability Office
• Federal Deposit Insurance Corporation

U.S. DEPARTMENT OF THE TREASURY INSPECTOR GENERAL1
• Treasury IG is currently performing one case study audit of the Treasury’s selection of City National Bank, Beverly Hills, CA,
   to receive $400 million under the Capital Purchase Program.

FEDERAL RESERVE BOARD OFFICE OF THE INSPECTOR GENERAL2
• The Federal Reserve Board IG just announced an audit of the Board of Governors of the Federal Reserve System’s (Board)
   processing of Capital Purchase Program applications from Board-supervised financial institutions.

GOVERNMENT ACCOUNTABILITY OFFICE3
• GAO is currently performing an audit of the financial crisis debt management that will seek to address these questions:
   » What are the Treasury’s borrowing plans?
   » What are the scale and timing of borrowing decisions?
   » What borrowing options exist to fund TARP?
   » What debt management policies would reduce the possibility of stress in financial markets?
• GAO is currently planning and beginning a financial audit of TARP.
• GAO is currently planning an audit of the Auto Industry Restructuring under TARP that will seek to identify and/or
   describe:
   » the extent the Treasury coordinated with other federal agencies in providing TARP funds
   » how the Treasury is providing oversight of auto manufacturers use of TARP funds and its compliance with the terms and
       conditions
   » the progress of General Motors and Chrysler in complying with terms and conditions
   » expert views on the restructuring of auto manufacturers

FEDERAL DEPOSIT INSURANCE CORPORATION4
• FDIC is conducting “an ongoing evaluation entitled Controls Over the FDIC’s Processing of Capital Purchase Program
   Applications from FDIC-Supervised Institutions. The objective of the evaluation is to assess the FDIC’s process and con-
   trols associated with reviewing applications from FDIC-supervised institutions to participate in the TARP Capital Purchase
   Program and forwarding the approval recommendations to Treasury.”

Endnotes
1 U.S. Department of the Treasury Inspector General, response to SIGTARP data call, 1/16/2009.
2 Federal Reserve Board Office of the Inspector General, response to SIGTARP data call, 1/22/2009.
3 Government Accountability Office, response to SIGTARP data call, 1/20/2009.
4 Federal Deposit Insurance Corporation, response to SIGTARP data call, 1/23/2009.
164   APPENDIX F I PUBLIC ANNOUNCEMENTS OF AUDITS
                                                              CORRESPONDENCE TO MEMBERS OF CONGRESS I APPENDIX G   165




CORRESPONDENCE TO MEMBERS OF CONGRESS
This appendix provides a sample of the January 7, 2009 and January 22, 2009 letters the Special Inspector General
sent to the appropriate committees of Congress:

House Committees
• Appropriations
• Oversight and Government Reform
• Financial Services
• Budget

Senate Committees
• Appropriations
• Banking, Housing, and Urban Affairs
• Budget
• Finance

In addition to the chairman and ranking republicans on the SIGTARP oversight committees in the House and Senate,
the January 22, 2009 letter was also sent to Senator Ben Nelson and Senator Claire McCaskill.
166   APPENDIX G I CORRESPONDENCE TO MEMBERS OF CONGRESS
CORRESPONDENCE TO MEMBERS OF CONGRESS I APPENDIX G   167
168   APPENDIX G I CORRESPONDENCE TO MEMBERS OF CONGRESS
CORRESPONDENCE TO MEMBERS OF CONGRESS I APPENDIX G   169
170   APPENDIX G I CORRESPONDENCE TO MEMBERS OF CONGRESS
                                                            CORRESPONDENCE WITH TREASURY GENERAL COUNSEL I APPENDIX H   171




CORRESPONDENCE WITH TREASURY GENERAL COUNSEL
This appendix provides copies of the following letters:

•   Letter from the Special Inspector General for the Troubled Asset Relief Program to the United States
    Department of Treasury General Counsel (Robert Hoyt, Esq.), dated January 12, 2009
•   Response letter from the United States Department of Treasury General Counsel (Robert Hoyt, Esq.) to the Special
    Inspector General for the Troubled Asset Relief Program, dated January 16, 2009
172   APPENDIX H I CORRESPONDENCE WITH TREASURY GENERAL COUNSEL
CORRESPONDENCE WITH TREASURY GENERAL COUNSEL I APPENDIX H   173
174   APPENDIX H I CORRESPONDENCE WITH TREASURY GENERAL COUNSEL
                                                                             CORRESPONDENCE WITH TREASURY I APPENDIX I   175




CORRESPONDENCE WITH TREASURY
This appendix provides a copy of the following letters:
• Letter from the Special Inspector General for the Troubled Asset Relief Program to the Secretary of the Treasury
    (The Honorable Henry M. Paulson, Jr.), dated January 9, 2009
• Response letter from the Interim Assistant Secretary for Financial Stability (Neel Kashkari) to the Special Inspector
    General for the Troubled Asset Relief Program, dated January 16, 2009
176   APPENDIX I I CORRESPONDENCE WITH TREASURY
CORRESPONDENCE WITH TREASURY I APPENDIX I   177
178   APPENDIX I I CORRESPONDENCE WITH TREASURY
CORRESPONDENCE WITH TREASURY I APPENDIX I   179
180   APPENDIX I I CORRESPONDENCE WITH TREASURY
CORRESPONDENCE WITH TREASURY I APPENDIX I   181
182   APPENDIX I I CORRESPONDENCE WITH TREASURY
                                                                                                            ORGANIZATIONAL CHART I APPENDIX J        183




ORGANIZATIONAL CHART
Figure J.1 provides the organizational chart for the Special Inspector General for the Troubled Asset Relief Program,
as of January 23, 2009, including individuals who have accepted positions but who have not yet started.




            FIGURE J.1

             OFFICE OF THE SPECIAL INSPECTOR GENERAL
             FOR THE TROUBLED ASSET RELIEF PROGRAM



                                                     Special Inspector General
                                                         Neil M. Barofsky


                                         Chief of Staff                           Chief Counsel
                                     Kevin R. Puvalowski                          Bryan Saddler




                Deputy SIG–                          Deputy SIG–                                                      Assistant SIG–
                   Audit                            Investigations                                                        Admin
                                                                                                                      Kenneth Casey
               Barry Holman                    Christopher Sharpley
                                                                                                                         (Acting)


              Assistant Deputy      Special Agent                     Chief Attorney              Communications                  Deputy Assistant
                  SIG–Audit           In Charge                          Advisor                     Director                       SIG–Admin
                   Vacant               (Vacant)                     Richard Rosenfeld             Kristine Belisle                    Cathy Alix


             Supervisor Auditors     Supervisory                     Attorney Advisors            Legislative Affairs
                                    Special Agents                                                    Specialist
                  Auditors
                                    Special Agents                                                   Lori Hayman
                                       Analysts



                                   Hotline Supervisor
                                    Minh-Tu Nguyen
   184    APPENDIX K I CORRESPONDENCE FROM THE OFFICE OF FINANCIAL STABILITY




CORRESPONDENCE FROM THE OFFICE OF FINANCIAL STABILITY
This appendix provides a copy of a letter sent from the Interim Assistant Secretary for Financial Stability to the
Special Inspector General for the Troubled Asset Relief Program discussing the shared interest between the two
parties in providing transparency in TARP, keeping the public’s trust, and protecting the taxpayers’ money.
CORRESPONDENCE FROM THE OFFICE OF FINANCIAL STABILITY I APPENDIX K   185
